No. _________
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------W.A. AND M.S., INDIVIDUALLY AND ON BEHALF OF W.E.,
Petitioners,
v.
HENDRICK HUDSON CENTRAL SCHOOL DISTRICT,
Respondent.
-----------------------------------------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit
-----------------------------------------------------------------APPENDIX
-----------------------------------------------------------------MARION M. WALSH, ESQ.
LITTMAN KROOKS LLP
655 Third Avenue, 20th Floor
New York, NY 10017
(212) 490-2020
mwalsh@littmankrooks.com
Attorney for Petitioners
W.A., M.S. and W.E.
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF APPENDICES
Page
Opinion of the U.S. Court of Appeals for the Second Circuit, dated June 14, 2019 ............................1a
Opinion of the U.S. District Court for the Southern District of New York, dated November 23,
2016 .......................................................................49a
Opinion of the U.S. District Court for the Southern District of New York, dated July 18, 2017 ....182a
New York State Education Department, State
Review Officer, Decision No. 14-015, dated
March 18, 2014 ....................................................210a
New York State Education Department, State
Review Officer, Decision No. 12-138, dated
January 31, 2014 .................................................269a
Impartial Hearing Officer’s Findings of Fact and
Decision, dated December 17, 2013 ....................344a
Impartial Hearing Officer’s Second Corrected
Findings of Fact and Decision, dated June 21,
2012 .....................................................................368a
Individuals with Disabilities Education Act, 20
U.S.C. §1412(a)(10)(C) .........................................463a

1a
17-3248 (L)
W.A, M.S. v. Hendrick Hudson Central School District
In the
United States Court of Appeals
for the
Second Circuit
--------------------------------------------------------------------------------------------------------------------

August Term, 2018
Argued: February 21, 2019
Decided: June 14, 2019
Docket Nos. 17-3248, 17-3313
--------------------------------------------------------------------------------------------------------------------

W.A., M.S., INDIVIDUALLY AND ON BEHALF OF W.E.,
Plaintiffs-Counter-DefendantsAppellees-Cross-Appellants,
v.
HENDRICK HUDSON CENTRAL SCHOOL DISTRICT,
Defendant-Counter-ClaimantAppellant-Cross-Appellee.†
--------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of New York (Karas, J.)
No. 14-3067
-------------------------------------------------------------------------------------------------------------------†

The Clerk of Court is requested to amend the caption to
conform to the above.

2a
Before:
KEARSE, JACOBS, HALL, Circuit Judges.
Appeal and cross-appeal from the September 13, 2017
judgment of the United States District Court for the
Southern District of New York (Karas, J.) incorporating its November 23, 2016 opinion and order granting
in part and denying in part the parties’ cross-motions
for summary judgment and its July 18, 2017 opinion
and order granting Defendant’s motion for summary
judgment and denying Plaintiffs’ cross-motion. We
hold that the district court properly deferred to the
decision of the New York State Review Officer (“SRO”),
which concluded that student W.E. was not denied a
free and appropriate public education for the eighthgrade school year and that Northwood School (“Northwood”) was not an appropriate unilateral private
school placement for the ninth-grade school year, and
thus affirm the district court’s November 23, 2016
opinion and order to the extent it granted summary
judgment to Defendant. Because the district court failed
to accord appropriate deference to the SRO’s conclusion that Northwood did not provide W.E. specially
designed instruction so as to constitute an appropriate
private school placement for the tenth-grade school
year, we reverse the portion of the district court’s November 23, 2016 opinion and order granting summary
judgment to Plaintiffs and vacate the award of tuition
reimbursement to Plaintiffs for that school year. We
also affirm the district court’s July 18, 2017 opinion
and order granting Defendant’s motion for summary

3a
judgment and vacating the award of compensatory
education for the eighth-grade school year.
AFFIRMED IN PART, REVERSED AND VACATED IN PART.
--------------------------------------------------------------------------------------------------------------------------

DANIEL PETIGROW, (David H. Strong,
on the brief), Thomas, Drohan, Waxman,
Petigrow & Mayle, LLP, Hopewell
Junction, NY, for Defendant-CounterClaimant-Appellant-Cross-Appellee.
WILLIAM A. WALSH, New York, NY
(Erica M. Fitzgerald, Littman Krooks
LLP, White Plains, NY, on the brief),
for Plaintiffs-Counter-DefendantsAppellees-Cross-Appellants.
Catherine Merino Reisman, Ellen
Saideman, Selene Almazan-Altobelli,
Towson, MD, for Amicus Curiae
Council of Parent Attorneys and
Advocates, Inc.
--------------------------------------------------------------------------------------------------------------------------

HALL, Circuit Judge:
In the United States District Court for the
Southern District of New York (Karas, J.), W.A. and
M.S. (“the Parents”), individually and on behalf of their
son, W.E., commenced two actions against the Hendrick Hudson Central School District (“the District”)
under the Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1400 et seq. W.E. attended public
school in the District and began suffering from

4a
conventional and abdominal migraines during middle
school, which caused him to miss over 100 days of
eighth grade. The District eventually classified W.E.
as suffering from a disability under the IDEA’s “other
health impairment” designation, but the Parents were
not satisfied with the individualized education program the District prepared for W.E.’s upcoming ninthgrade school year. The Parents removed W.E. from
the District and enrolled him at Northwood School
(“Northwood”), a private school in the Adirondacks, for
his ninth- and tenth-grade school years. While at
Northwood W.E.’s absences from school diminished
significantly, and he experienced notable improvement
in his social and academic engagement.
Following administrative hearings before a New
York State Impartial Hearing Officer (“IHO”) and
cross-appeals before a State Review Officer (“SRO”),
the Parents brought these two federal court complaints
pursuant to Section 1415 of the IDEA, 20 U.S.C.
§ 1415(i)(2)(A). In Case One, the Parents alleged that
the District violated W.E.’s right to a free and
appropriate public education (“FAPE”) for his eighthand ninth-grade school years (2010-11 and 2011-12)
and challenged the SRO’s ruling of January 31, 2014,
which held that Northwood was not an appropriate
placement for ninth grade. In Case Two, the Parents
challenged the March 18, 2014 decision of the SRO and
asserted that the District violated W.E.’s right to a
FAPE for his tenth-grade school year (2012-13);
they again sought tuition reimbursement for their
unilateral placement of W.E. at Northwood for tenth

5a
grade. The two actions were consolidated by the
district court.
On November 26, 2016, the district court affirmed
the SRO’s ruling in Case One in all respects but
declined to defer to the SRO in Case Two, holding
instead that Northwood was an appropriate placement
during tenth grade and ordering that the District
reimburse the Parents for W.E.’s tuition at Northwood
for that year. See W.A. v. Hendrick Hudson Cent. Sch.
Dist., 219 F. Supp. 3d 421 (S.D.N.Y. 2016). It also
granted the District’s motion to amend to add a
counterclaim regarding costs awarded by the IHO in
Case One. Id. at 484. On July 18, 2017, the district
court granted summary judgment to the District on the
counterclaim, vacating the award of compensatory
education in the form of counseling reimbursement
for the eighth-grade year based on its affirmance of
the SRO’s ruling that W.E. was not denied a FAPE for
that academic year.1 See W.A. v. Hendrick Hudson
Cent. Sch. Dist., No. 14-CV-3067 (KMK), 2017 WL
3066888 (S.D.N.Y. July 18, 2017).
The District appeals the portion of the district
court’s November 23, 2016 decision and order awarding summary judgment to the Parents and ordering
reimbursement of W.E.’s tuition for his private
education at Northwood during W.E.’s tenth-grade
1

Under the IDEA, “compensatory education is an available
option . . . to make up for denial of a free and appropriate public
education.” P. ex rel. Mr. and Mrs. P. v. Newington Bd. of Ed.,
546 F.3d 111, 123 (2d Cir. 2008).

6a
year. The Parents cross-appeal the portion of the
district court’s November 23, 2016 opinion and order
awarding summary judgment to the District and
holding that the District did not violate its “Child Find”
obligation under the IDEA2 and thus did not deny W.E.
a FAPE for the eighth-grade year in accord with its
statutory obligations, and further holding that Northwood was not an appropriate placement for W.E.’s
ninth-grade school year so as to entitle the Parents to
tuition reimbursement for W.E.’s private education
during ninth grade. The Parents also cross-appeal the
district court’s July 18, 2017 opinion and order awarding summary judgment to the District and vacating
the award of compensatory education for the eighthgrade school year.
Because we hold that the district court properly
deferred to the SRO’s conclusions regarding the timeframe during which the District’s Child Find obligation
was triggered and its ruling that Northwood failed to
provide meaningful counseling or specially designed
instruction for W.E.’s ninth-grade academic year, we
affirm the district court’s November 23, 2016 opinion
and order as to Case One. However, because the district court did not defer to the similarly well-reasoned
opinion of the SRO which held that Northwood failed
to provide specially designed instruction for the
tenth-grade academic year in spite of W.E.’s progress
in the private school placement, we reverse the district
2

The IDEA’s “Child Find” obligation is explained in the
context of our discussion of the statutory framework, see infra,
slip op. pp. 7-8.

7a
court’s November 23, 2016 opinion and order with
respect to Case Two and vacate the award of tuition
reimbursement for the tenth-grade academic year. We
affirm the district court’s July 18, 2017 opinion and
order granting the District’s motion for summary
judgment and vacating the award of compensatory
education for the eighth-grade school year.
BACKGROUND
I.

Statutory Framework

This case arises under the IDEA, 20 U.S.C. § 1400
et seq. The IDEA was designed, inter alia, to protect
the rights of children with disabilities as well as the
rights of their parents and “to ensure that all children
with disabilities have available to them a free appropriate public education [“FAPE”] that emphasizes
special education and related services designed to
meet their unique needs and prepare them for further
education, employment, and independent living.” Id.
§ 1400(d)(1)(A). The IDEA enforces a “Child Find”
obligation which “requires each State to have policies
and procedures to ensure that all children with
disabilities are identified and evaluated for special
education and related services.” Mr. P v. W. Hartford
Bd. of Educ., 885 F.3d 735, 749 (2d Cir.), cert. denied,
139 S. Ct. 322 (2018). A school district must conduct
an evaluation of a child suspected of suffering a
disability “within a reasonable time” after it receives
“notice of a likely disability.” Id. at 750.

8a
The IDEA also requires that school districts create
an individualized education program (“IEP”) for each
qualifying child. See R.E. v. N.Y.C. Dep’t of Educ., 694
F.3d 167, 175 (2d Cir. 2012) (citing 20 U.S.C. § 1414(d)).
“The IEP is the centerpiece of the IDEA’s education
delivery system for disabled children” and serves as
the means by which the State delivers a disabled
child’s FAPE. Mr. P, 885 F.3d at 741 (internal quotation marks and brackets omitted). It constitutes “a
written statement that sets out the child’s present
educational performance, establishes annual and shortterm objectives for improvements in that performance,
and describes the specially designed instruction and
services that will enable the child to meet those
objectives.” R.E., 694 F.3d at 175 (quoting D.D. ex rel.
V.D. v. N.Y.C. Bd. of Educ., 465 F.3d 503, 507-08 (2d
Cir. 2006)). In New York, local Committees on Special
Education (“CSEs”) are responsible for developing
IEPs and are tasked with identifying an educational
program tailored to the student’s particular needs and
achievement levels. See id.
Parents who believe a child has been denied a
FAPE may enroll the child in a private school at their
own financial risk and seek retroactive reimbursement
from the school district for the cost of the private
school. A.C. ex rel. M.C. v. Bd. of Educ. of The Chappaqua Cent. Sch. Dist., 553 F.3d 165, 171 (2d Cir. 2009).
In New York, such claims are first adjudicated before
an IHO and may then be appealed to the SRO. See
R.E., 694 F.3d at 175 (citing N.Y. Educ. Law §§ 4404(1)(2)). The IDEA provides for judicial review of the

9a
SRO’s decision by a federal district court. Id. (citing 20
U.S.C. § 1415(i)(2)(A)).
II.

Factual Background

W.E. attended public school in the District through
the eighth grade. He performed well and was engaged
in several extracurricular programs until the sixth
grade, when he developed severe internal pain that led
to an emergency appendectomy and caused him to
miss at least 26 days of school. W.E. was diagnosed
with abdominal migraines which persisted throughout
seventh grade and which were increasingly compounded by conventional migraines, causing him to
miss at least as many school days as he had the prior
year. His headaches continued to worsen through the
spring of seventh grade when W.E.’s mother, M.S.,
referred W.E. to the District’s Section 504 Committee3
and requested tutoring, which the District approved.
As part of the Section 504 process, Dr. Richard
Brodsky, the school psychologist, performed a psychoeducational evaluation of W.E. That evaluation yielded
above-average scores on a cognitive test measuring W.E.’s
“General Intellectual Ability.” W.A., 219 F. Supp. 3d
at 430. Except for math fluency, in which W.E. fell
into the “low average” range, the evaluation also
yielded average to advanced scores on a number of
subtests targeted to measure academic achievement.
3

As the district court explained, “[a] Section 504 committee
is so named as a reference to § 504 of the Rehabilitation Act,” 29
U.S.C. § 794. W.A., 219 F. Supp. 3d at 429 n.1.

10a
Id. Dr. Brodsky also administered the Behavior Assessment System for Children-Second Edition (“BASC-2”)
to W.E. and to two of his teachers on W.E.’s behalf. That
assessment generated “at-risk” scores in the areas
designated “Relations to Parents” and “Attitudes
Towards School.” Id. One of W.E.’s teachers also
produced a “clinically significant score” reflecting “a
high level of maladjustment” as a result of W.E.’s
somatization. Id. In June 2010, the District’s Section
504 Committee met and found W.E. eligible for an
accommodation based upon his migraine disability.
The accommodation consisted of extra time to complete assignments, nursing services as needed, and
access to class notes and home tutoring.
W.E.’s eighth-grade year was increasingly fraught,
with his migraines causing him to miss a total of more
than 100 school days. Although he did well in some
classes, he struggled in others, missed some state
exams, and became more socially isolated. W.E. received some of the tutoring to which he was entitled
under his Section 504 plan, but the Parents were not
satisfied with the assigned tutor, and efforts to find a
replacement interrupted the tutoring before it was
recommenced. In December 2010, M.S. notified the
District that she observed her son to be in “crisis” and
requested certain interventions; she also contacted Dr.
Brodsky, who recommended private relaxation counseling for W.E. Id. at 433. Per M.S.’s request, the
District scheduled a meeting for January 5, 2011, to
review W.E.’s Section 504 plan, but M.S. later emailed
Caroline Almeida, the District’s Assistant Director of

11a
Pupil Personnel, to suggest canceling the meeting in
light of W.E.’s progress over the winter break and
M.S.’s understanding that he “had all the program
modifications in place.” Id. at 434 (brackets omitted).
In mid-January 2011, the Parents began the
process of looking into a private school for W.E.’s
upcoming ninth-grade year. M.S. and W.E. visited
Northwood, a boarding school in the Adirondacks, in
late February 2011. The school is a self-described
small college preparatory school that strives to incorporate the values of integrity, compassion, responsibility, courage, and respect into its pedagogy and
operations. During this initial visit W.E. grabbed
M.S.’s coat and asked, “Can I go here?” Id. at 438. W.E.
was admitted, and the Parents paid a deposit and
signed an enrollment contract in March 2011. Later
that spring M.S. and W.E. visited Northwood again
with W.A. and confirmed W.E.’s intent to attend in the
fall.
Meanwhile, throughout the spring of W.E.’s eighthgrade year, discussions with the District continued. By
April 2011 the Parents had referred W.E. to the local
CSE to determine his eligibility for special education
services under the IDEA’s “other health impairment”
(“OHI”) classification; they also requested an emergency Section 504 meeting, which Ms. Almeida
promptly scheduled. At that meeting of April 15, 2011,
the Section 504 Committee recommended counseling.
Dr. Brodsky suggested it should take place outdoors.
The Section 504 Committee also recommended that a
psychiatric evaluation be conducted in preparation for

12a
the upcoming CSE meeting. An evaluation was scheduled with a psychiatrist named Dr. Hahn. Dr. Hahn
prepared a report based on his consultation with M.S.
but was not able to evaluate W.E. due to his migraines
and/or anxiety. His report recommended a holistic
approach to helping W.E. learn how to cope with his
stress, including bio-feedback and relaxation methods,
mindfulness training, play therapy, and access to an
outdoor adventure-based program.
The CSE meeting was held on May 25, 2011, without a psychiatric evaluation. The Parents took issue
with a number of aspects of that meeting, including the
District’s failure to include a parent on the CSE. In
advance of a follow-up CSE meeting on August 26,
2011, the Parents submitted letters from three different clinicians who recommended a smaller school
environment for W.E. or a non-mainstream placement.
The CSE ultimately classified W.E. as a student with a
disability under the OHI designation. A draft IEP recommended twice-weekly individual counseling, program accommodations consisting of access to class
notes, nursing services, and extra time for completing
assignments, and classes with a student-to-staff ratio of
8:1:1.
Kathleen Coughlin, the District’s director of Pupil
Personnel Services, later testified that she discussed
two programs at the August 2011 CSE meeting that
might meet W.E.’s needs for his ninth-grade year:
the BOCES (Board of Cooperative Educational Services) program in Southern Westchester and the one
in Putnam Northern Westchester. According to Ms.

13a
Coughlin, she explained to W.E.’s Parents that neither
option could be recommended as a final placement
until the referral process was complete but that the
CSE could offer interim home instruction pending
completion of an expedited referral process. The Parents ultimately concluded that BOCES was not an
appropriate placement for W.E. They formally withdrew W.E. from the District by letter dated August 30,
2011.4
W.E. began private school at Northwood at the
start of his ninth-grade school year. At Northwood the
student-teacher ratio in W.E.’s classes was below 8:1
and W.E. was assigned a nurse as a faculty advisor;
another nurse lived on his dormitory floor. Some
classes were structured around a large oval table so as
to require participation from all students, and the
school incorporated organized study periods as well as
outdoor activities into its educational structure.
Northwood ensured that W.E.’s teachers were aware of
his accommodation plan, which required that W.E.
receive additional time for in-class assignments, preferential seating, graphic organizers or guided notes to
facilitate verbal lectures, and regular sessions with the
school counselor. W.E. earned passing grades in all of
his ninth-grade classes and, more notably, missed only
nine days of school due to his migraines. He also grew
more socially adjusted, received positive feedback from
4

In November 2011, the Parents visited the programs
recommended by the CSE and learned that both had a studentto-teacher ratio of 12:1:1 as opposed to the 8:1:1 ratio proposed in
W.E.’s draft IEP.

14a
teachers, and tapered off his mood-stabilizing medications. Dr. Williams later testified that Northwood
“appeared to be highly appropriate for W.E. as reflected
in his dramatic improvement in headache frequency
that had persisted for the first time in previous years
beyond the summer well into the fall term and its
conclusion.” Id. at 442 (brackets omitted). Some of
W.E.’s teachers, however, indicated that he struggled
with organization skills, preparing for class, and
handing in assignments on time and that his grades
were below his potential. One teacher cited W.E.’s poor
behavior in an incident in which she needed to remove
him from class due to rude remarks he made to
another student.
In February 2012, Northwood
accepted W.E.’s re-enrollment for his tenth-grade year.
In April 2012, the District began formulating a
program recommendation for W.E.’s tenth-grade year
despite W.E.’s attendance in private school. Reports
provided by W.E.’s teachers at Northwood noted his
lack of organization, missing class assignments, and
stress-triggered migraines alongside his strong intellectual abilities. A February 2012 BASC-2 test showed
significant improvement in W.E.’s attitude toward
school, but the BASC-2 completed by one of W.E.’s
teachers at Northwood rated W.E. “as clinically significant for somatization and at risk for social skills.”
Id. at 443. The CSE held W.E.’s annual review meeting
on June 14, 2012. Dr. Williams sent a letter to the CSE
in advance of that meeting describing W.E.’s “remarkable” progress, which he attributed in part to his
placement at Northwood; Dr. Williams recommended

15a
that W.E. not undergo any change of placement for the
upcoming year. Id. At the meeting the Parents also
shared their view that W.E. was experiencing fewer
migraines, earning average grades, and engaging in
various outdoor activities at Northwood. The IEP
that was finalized for W.E. recommended a studentteacher ratio of 8:1:1 and participation in Southern
Westchester BOCES at Irvington High School’s TSP
(Therapeutic Support-Fragile Program). The Parents
expressed concerns with this prospective placement to
District officials during a subsequent CSE meeting in
August 2012. They rejected the IEP by letter dated
September 20, 2012.
W.E.’s accommodation plan for his tenth-grade
year at Northwood included the four previous
accommodations from his ninth-grade year as well as
three new accommodations: use of an iPad in class, a
supervised study hall, and access to a school nurse. In
addition to continuing what was essentially informal
counseling from the prior year with Donald Mellor, an
English teacher and Northwood counselor, Dr. Williams
advocated for “a more systematic psychotherapy program,” and in the spring of his tenth-grade year W.E.
began meeting weekly with a private social worker. Id.
at 446-47. Reports from W.E.’s teachers throughout his
tenth-grade year were again inconsistent, containing a
mixture of praise for his academic achievement and
criticism of his lack of organization, uneven performance, intermittent lack of engagement, and occasionally inappropriate behavior. W.E. was also able to play
soccer and participate in an outdoor program in

16a
Yellowstone and seemed to grow in his social comfort
and confidence, though he experienced an especially
severe migraine in May 2013. Several clinicians later
testified that Northwood was appropriate for W.E.’s
emotional and mental health needs.
III. Administrative Proceedings
A. Case One: The Eighth- and NinthGrade School Years
i.

IHO Hearing and Decision

In November 2011, W.E.’s Parents requested an
impartial hearing, asserting that the District denied
W.E. a FAPE for W.E.’s eighth- and ninth-grade
academic years. The Parents sought reimbursement
for W.E.’s tuition at Northwood for ninth grade and
compensatory counseling services for the eighth-grade
school year. A hearing was conducted before an IHO
over nine days between February 1 and April 2, 2012.
On May 30, 2012, the IHO issued a 37-page decision in which it concluded that the District violated its
Child Find obligation and failed to provide W.E. with a
FAPE for W.E.’s eighth-grade year. According to the
IHO, the District’s Child Find obligation was triggered
by January 3 of the eighth-grade school year, by which
time W.E. had exhibited a pattern of missing an
increasingly high number of school days for health
reasons and numerous teachers had reported being
unable to issue grades for W.E. due to missing assignments. The IHO also noted M.S.’s outreach to Dr.
Brodsky during December 2010, which the IHO found

17a
also should have put the District on notice even in the
face of M.S.’s sometimes conflicting signals about the
status of her son’s wellbeing. Additionally, W.E.’s
clinically significant score regarding somatization on
the BASC-2 from the previous spring had already
triggered the accommodations that were developed in
W.E.’s June 2010 Section 504 plan, and the IHO noted
that by January 3, 2011, it should have been apparent
to the District that this earlier plan was not fulfilling
W.E.’s needs. The IHO further concluded that had the
CSE timely convened, the record evidence would have
supported a finding that W.E. satisfied the criteria for
the IDEA’s OHI designation.
The IHO ordered the District to reimburse W.E.’s
Parents for therapy sessions that provided Dr. Williams the diagnostic information used in preparing his
August 2011 evaluation report and which the District
relied upon in developing W.E.’s IEP. It also ordered
reimbursement for five therapy sessions provided by
Dr. Andrew Robins during W.E.’s eighth-grade year
and payment for an additional fifteen hours of counseling. The IHO, however, denied the Parents’ request
for 200 hours of compensatory education in the form of
tutoring, due to their failure to demonstrate that W.E.
was in need of academic remediation.
As for W.E.’s ninth-grade year, the IHO concluded
that the District failed to provide W.E. a FAPE by
neglecting to complete timely its evaluation of W.E.
and arrange for an appropriate placement for that
school year. The IHO rejected the District’s argument
that the Parents’ failure to produce W.E. for a

18a
psychiatric evaluation excused its failure to evaluate
W.E. within the 60-days required by applicable State
regulations, reasoning that “the District had the
affirmative obligation to get the evaluation conducted
even if it meant sending a psychiatrist to the student’s
home” if it thought the evaluation necessary.5 Special
Supplemental Appendix (“Sp. Supp. App.”) 28.
Even though the IHO found that the District
denied W.E. a FAPE, it ruled that the Parents were not
entitled to tuition reimbursement because they did not
meet their burden of proving that Northwood was an
appropriate placement for W.E. After reviewing in
detail the relevant evidence presented by the Parents,
including testimony offered by Dr. Williams, Dr. Robins, and Mr. Mellor, the IHO concluded that there was
no evidence that Northwood was tailored to addressing
any of W.E.’s psychological or emotional issues, which
the weight of the testimony indicated were the
underlying triggers of his migraines. The IHO noted
that Northwood does not have a psychologist or
psychiatrist on staff and that the only counseling W.E.
received at Northwood was in the form of informal
check-ins initiated by Mr. Mellor. The IHO also found
that while W.E. achieved “average to excellent grades,”
he continued to exhibit struggles with organization
and study skills, which Northwood did not work with
5

The IHO rejected the Parents’ argument that the District’s
failure to include a parent member on the CSE deprived W.E. of
a FAPE but found that the District’s failure to include a special
education teacher as well as a general education teacher who was
familiar with W.E. on the CSE contributed to the District’s
violation of the IDEA.

19a
him to remedy. Id. at 37. As for equitable considerations, while not required to weigh them in light of
its conclusion that the District’s reimbursement
obligation was not triggered, the IHO nonetheless
noted that W.E.’s Parents fully cooperated with the
District and did not impede the CSE process. The IHO
rejected the District’s argument that the Parents never
intended to send W.E. anywhere but Northwood, finding instead that they were open to the District’s recommendations and “lived with very real uncertainty
about whether” W.E. would be able to attend
Northwood as they had hoped. Id.
ii. SRO Appeal and Decision
The Parents appealed the IHO’s denial of reimbursement and request for compensatory education
services to the SRO and the District cross-appealed the
IHO’s finding that the District denied W.E. a FAPE for
the eighth- and ninth-grade school years. The SRO
ruled that, contrary to the IHO’s finding, the District
did not have reason to suspect that W.E. had a disability requiring special education prior to April 2011
due to W.E.’s overall positive educational progress with
the accommodations the District provided him in the
Section 504 plan developed in June 2010. In reaching
this conclusion, the SRO cited frequent communications between W.E.’s Parents and the District’s
personnel between winter 2010 and spring 2011 evidencing the District’s commitment to fulfilling W.E.’s
June 2010 Section 504 plan, M.S.’s incidences of
retracting earlier requests for intervention in the face

20a
of W.E.’s improvement and in the interest of
maintaining “normalcy” for her son, W.E.’s high level of
academic achievement as reflected on his eighth-grade
report card and state exams, and positive feedback
from teachers regarding W.E.’s intellectual abilities,
behavior, and attitudes. Id. at 69-72. The SRO also
found that W.E.’s BASC-2 results from the previous
spring were not enough to put the District on notice
given that the report did not cite any history of
academic difficulties or current interventions and Dr.
Brodsky’s report otherwise credited W.E. with appropriate to above-average levels of attention, intelligence, conceptual thinking, language, and academic
skills. The SRO accordingly reversed the IHO’s finding
that the District violated its Child Find obligation for
W.E.’s eighth-grade school year. And it affirmed the
IHO’s denial of the Parents’ request for 200 hours of
compensatory home instruction while declining to
disturb the award of counseling reimbursement based
on its understanding that the District did not appeal
that aspect of the IHO’s ruling.
As for W.E.’s ninth-grade year, the SRO concluded
that the District violated the IDEA by failing to have a
finalized IEP in place at the start of ninth grade; it
therefore affirmed the IHO’s ruling that W.E. was
denied a FAPE for that year. The SRO next affirmed
the IHO’s finding that Northwood was not an appropriate placement for W.E. entitling the Parents to
tuition reimbursement. After reviewing the relevant
evidence, the SRO concluded that while W.E.’s social,

21a
emotional, and academic functioning improved at
Northwood:
the hearing record lacks evidence demonstrating that [Northwood] provided instruction that was designed to address the student’s
tendencies to develop physical symptoms and
exhibit school avoidance when under stress,
or his need to develop coping skills to manage
stress related to academics and social interactions, and to improve his organizational/
study skills related to academics, and, that
the instruction that the student received
during the 2011-12 school year was, in fact,
available to all students enrolled at [Northwood]. The hearing record fully supports the
IHO’s determination that the parents
presented no evidence that the student’s
underlying emotional issues, organizational
issues, or study skills were addressed by
[Northwood].
Id. at 84-85. In light of its conclusion the SRO declined
to consider whether the equities supported the Parents’ claim.
B. Case Two: The Tenth-Grade School
Year
i.

IHO Hearing and Decision

The Parents filed their Case Two complaint notice
in April 2013, alleging that the District failed to
provide W.E. a FAPE for W.E.’s tenth-grade school year
and seeking tuition reimbursement for that year at

22a
Northwood. Following a six-day hearing, the IHO
issued a decision on December 17, 2013, in which it
concluded that the District’s IEP process failed to
account for W.E.’s extraordinary characteristics and
that the resultant IEP was not responsive or appropriately tailored to W.E.’s needs, thus denying W.E. a
FAPE during his tenth-grade year. In so ruling, the
IHO separately addressed what it identified as the
District’s alleged procedural and substantive violations of the IDEA. In the former category the IHO
found that by recommending both a student-teacher
ratio of 8:1 and mainstream placement in Math, English, and Science (which have a student-teacher ratio
of 24:1), W.E.’s IEP contained an internal inconsistency, which the District never attempted to reconcile.
The IHO declined to reach the alleged substantive
violations in light of its conclusion that the District’s
IEP constituted a procedural violation that denied
W.E. a FAPE but noted W.E.’s “significant social and
educational progress in the prior school year at” Northwood. Supplemental Appendix (“Supp. App.”) 126.
The IHO next ruled that by “providing the Student
with educational instruction specially designed to meet
his needs, including certain neccesary[sic] support
services,” Northwood was an appropriate placement
for W.E. Id. at 127. The IHO noted that Northwood’s
small class size comported with W.E.’s IEP, and that
Northwood assisted W.E. with his need for organization
during a free period, in addition to providing two
supervised study halls and a nightly study session
monitored by a faculty member. It also found that

23a
Northwood’s residential environment combined with
its mountain location and integration of outdoor, stressrelieving activities rendered “it uniquely suited to
address the Student’s migraines.” Id. at 129. The IHO
additionally emphasized Northwood’s development of
an accommodation plan that was tailored to W.E.’s
needs, the informal counseling sessions the school
provided W.E. on a regular basis, and Northwood’s
ability to deliver 24-hour-a-day nursing services. It
ruled accordingly that the Parents were entitled to
tuition reimbursement.
ii. SRO Appeal and Decision
On March 18, 2014, the SRO issued a decision in
which it agreed with the IHO’s findings regarding
the internal inconsistencies in W.E.’s IEP and thus
affirmed the IHO’s ruling that W.E. was denied a
FAPE. The SRO, however, reversed the portion of the
IHO’s decision ruling that Northwood was an appropriate placement for W.E. The SRO reviewed the
relevant testimony and evidence in detail and found
that it was “without question that during the 2012-13
school year, the student exhibited progress in the sense
that except when experiencing a migraine, he attended
classes consistently, achieved grades in the ‘A-’ to ‘C+’
range, and demonstrated increased maturity and
ability to socially interact with peers.” Id. at 109.
Despite the accommodations and amenities available
at Northwood, the SRO concluded that:

24a
the hearing record does not contain evidence
that [Northwood] provided the student with
specially designed instruction to meet his
ongoing need to develop insight and understanding into what triggered his stress and
anxiety, and positive coping skills to address
stress and decrease anxiety; difficulties that
the hearing record showed not only contributed to the student’s tendency to develop
migraine headaches, but also to exhibit organizational deficits and avoidance behaviors.
Id. The SRO also noted that while W.E. appeared to
have benefitted from his informal counseling with Mr.
Mellor, the hearing record did not contain any
counseling notes, progress reports, or other records
indicating that the counseling was addressing W.E.’s
“need to develop insight and coping skills,” and that
while W.E. eventually participated in more systematic
counseling with a private social worker later in the
school year, there was similarly no evidence showing
how this private counseling was tailored to W.E.’s
needs. Id. And even though W.E. achieved satisfactory
grades through-out his tenth-grade year, the SRO
observed that “he continued to exhibit organizational
and motivational/behavioral difficulties at times in his
class.” Id. at 110. The SRO found that Northwood
offered W.E. accommodations that were available to
virtually all other students, but that the record lacked
evidence showing how Northwood “provided specially
designed instruction to address the student’s organizational difficulties.” Id. The SRO ruled accordingly
that the Parents failed to carry their burden of

25a
demonstrating that Northwood was an appropriate
placement.
IV. District Court Proceedings
The Parents sought judicial review of each of the
SRO’s decisions. Their first federal court complaint,
filed on April 30, 2014, challenged the SRO’s decision
in Case One and sought reimbursement of home instruction and counseling costs for W.E.’s eighth-grade
school year and tuition reimbursement for their
unilateral placement of W.E. at Northwood for the
ninth-grade school year. The second complaint, filed on
June 13, 2014, challenged the SRO’s decision in Case
Two and sought tuition reimbursement for W.E.’s
placement at Northwood for the tenth-grade academic
year. The two cases were consolidated in September
2015, and the parties filed cross-motions for summary
judgment.
A. Case One
With respect to W.E.’s eighth-grade year, the
district court found “no reason to disturb the SRO’s
reasoned analysis,” concluding that the District did not
deny W.E. a FAPE. W.A., 219 F. Supp. 3d at 458. While
the district court acknowledged the Parents’ emphasis
on W.E.’s clinically significant somatization scores
from seventh grade and incomplete grades from his
eighth-grade second-quarter, among other signals that
the Parents alleged should have put the District on
notice of W.E.’s disability, the district court noted that

26a
“[t]he crux of the SRO’s decision, however, was not so
much that there was no basis to suspect that W.E. may
be disabled, but that there was no reason to suspect
that special education was needed to remedy that
disability.” Id. at 457. Given that the SRO thoroughly
considered W.E.’s progress in the general education
curriculum with the accommodations provided in his
Section 504 plan, as well as his performance on
standardized tests and psychological evaluations and
feedback from his teachers, and given that the SRO
weighed testimony from M.S. and from W.E.’s counselors, neurologist and a private psychologist, the court
found the SRO’s conclusions supported by the record.
In this regard the district court found that “the SRO’s
decision stood on more solid conceptual footing than
the IHO’s.” Id. at 459.
As for the issue of tuition reimbursement, the
district court noted as an initial matter that the
District did not challenge the SRO’s conclusion in each
case that W.E. was denied a FAPE for his ninth- and
tenth-grade years and that it would therefore skip
directly to the reimbursement analysis. The court deferred to the SRO’s conclusion in Case One that
Northwood was not an appropriate placement for
W.E.’s ninth-grade year but held that the SRO’s
conclusion in Case Two was neither well-reasoned nor
persuasive. While the records in both cases would
appear relevant to the common question of whether
Northwood was an appropriate placement, and while
the same SRO presided over both administrative
appeals, the district court noted that it would attempt

27a
to analyze the issue separately in the context of each
of the two school years, “[g]iven the material differences between the SRO’s two opinions in terms of
quality and persuasiveness.” Id. at 463.
The district court found the Parents’ challenges to
the IHO and SRO decisions unconvincing in Case One,
noting that both the IHO and SRO took adequate stock
of the available evidence and that any reputed flaws in
the opinions were ultimately insufficient to strip them
of the deference to which they were otherwise entitled.
The district court also independently assessed the
Parents’ arguments regarding Northwood’s appropriateness as a placement for W.E.’s ninth-grade year and
concluded that the substantial improvement in W.E.’s
attendance record could not alone satisfy the Parents’
burden. W.E.’s grades and positive response to the
Northwood culture did not lead the district court to
question the IHO’s and SRO’s reasoning. Nor did the
district court think it was in a position to question the
state officers’ determination that W.E.’s counseling was
not tailored to his needs. The district court did note
that it found the SRO’s reasoning regarding Northwood’s smaller residential setting unpersuasive given
the evidence that W.E. was in need of a smaller school
environment, but that this factor was not sufficient to
undermine the SRO’s opinion. The court reached a
similar conclusion regarding the SRO’s finding that
Northwood’s accommodation plan was not responsive
to W.E.’s needs, and noted that the fact that other
Northwood students received the same accommodations did not speak to their efficacy or appropriateness

28a
for W.E. Despite the flaws that the district court
identified in the SRO’s opinion, the court agreed that
the Parents did not satisfy their burden of showing
that Northwood was an appropriate placement, especially in light of the SRO’s analysis regarding Northwood’s failure to offer meaningful counseling or
vehicles for addressing W.E.’s organizational and
stress-related issues.
B. Case Two
Although the same SRO presided over both
appeals, the district court found its reasoning deficient
in Case Two. It noted that “although the SRO provided
a thorough recitation of the facts on the record, it
dedicated barely two pages to actually analyzing
whether Northwood was an appropriate placement.”
Id. at 470. The district court found that the SRO
placed undue emphasis on W.E.’s need to cope with
stress at the expense of W.E.’s other needs relating to
his organizational skills and study habits and a
supportive educational environment. While the court
did not agree with all of the IHO’s reasoning, it found
the IHO’s analysis more compelling and accordingly
considered its opinion in weighing the appropriateness
of Northwood as a placement for W.E.’s tenth-grade
year.
The district court addressed each of the Parents’
arguments, first finding that the SRO’s conclusions
regarding W.E.’s mixed academic progress were largely
consistent with the record but that this factor should

29a
nonetheless slightly favor reimbursement. The district
court observed no error in the SRO’s conclusion that
W.E.’s participation in outdoor activities was not specially designed for his needs but found that the SRO
failed to accord appropriate weight to the significant
improvement in W.E.’s attendance, noting that this
improvement “was attributable to Northwood’s boarding feature.” Id. at 472. As for Northwood’s accommodations, the district court was particularly concerned
by the SRO’s failure to consider W.E.’s use of an iPad,
which testimony before the IHO had indicated “was a
‘godsend’ for W.E.” and helped with his organizational
difficulties. Id. at 473. The court noted that the fact
that the iPad was generally available to all Northwood
students did not change its analysis, as “the Second
Circuit has never indicated that a resource available
to all students cannot be considered for purposes of
determining appropriate placement if that resource
addressed a specific need of the child.” Id. Although
the district court noted that the record contained little
evidence of the effect of a second study hall provided to
W.E., it found the SRO’s failure to even mention the
addition of a study hall concerning. As for counseling,
the district court agreed with the SRO that the
informal counseling provided by Mr. Mellor was not
meaningfully or appropriately tailored to W.E.’s needs.
And the court found that Northwood’s 24-hour nursing
support weighed only slightly in favor of reimbursement given the minimal record evidence showing
specific benefits that W.E. received. Finally, the district
court held that Northwood’s small class size – which
satisfied W.E.’s IEP – favored reimbursement, finding

30a
again that the fact that such a feature is generally
available does not undermine its appropriateness in
addressing a particular student’s needs.
In short, the district court noted that while there
was “no question the SRO considered all of the evidence
on the record,” it found its discussion of Northwood’s
appropriateness truncated and inadequate, specifically in failing to consider Northwood’s small class size,
residential component, 24-hour nursing, and the
impact of its accommodations on W.E.’s specific needs.
Id. at 476. The court again noted that it reached a
differing conclusion regarding the SRO’s opinion in
Case Two due to its more conclusory and unpersuasive
nature, but also because the record for the tenth-grade
year was “more robust and offers more insight into the
benefits and accommodations Northwood offered to
W.E. to meet his specific needs.” Id. at 477. It also
considered the equities de novo and concluded that
they, too, favored reimbursement, finding that the
Parents participated in the CSE process with an open
mind and afforded the District an opportunity to
construct an appropriate IEP while simultaneously
pursuing necessary steps to secure W.E.’s prospective
re-enrollment at Northwood. The court noted, for
instance, that the Parents made another visit to the
Southern Westchester BOCES program in July 2012,
which undermined the District’s argument that W.E.’s
enrollment at Northwood was inevitable.

31a
C. The District’s Counterclaim
The district court also granted the District’s
motion to amend to add a counterclaim for costs
awarded by the IHO in Case One. The parties crossmoved for summary judgment on the counterclaim and
on July 18, 2017, the district court awarded summary
judgment to the District and vacated the award of
compensatory education for the eighth-grade school
year based on its affirmance of the SRO’s ruling that
W.E. was not denied a FAPE during eighth grade. On
September 13, 2017, the district court entered final
judgment incorporating its opinions and orders dated
November 23, 2016, and July 18, 2017. The District
appealed and the Parents cross-appealed.
DISCUSSION
I.

Deference Owed to State Hearing and
Review Officers

“We undergo a circumscribed de novo review of a
district court’s grant of summary judgment in the
IDEA context because the responsibility for determining whether a challenged IEP will provide a child with
a FAPE rests in the first instance with administrative
hearing and review officers.” M.W. ex rel. S.W. v. N.Y.C.
Dep’t of Educ., 725 F.3d 131, 138 (2d Cir. 2013)
(internal quotation marks and brackets omitted).
“Summary judgment in the IDEA context, therefore, is
only a ‘pragmatic procedural mechanism for reviewing
administrative decisions.’ ” Id. (quoting T.P. ex rel. S.P.
v. Mamaroneck Union Free Sch. Dist., 554 F.3d 247, 252

32a
(2d Cir. 2009) (per curiam)). “Federal courts reviewing
administrative decisions [under the IDEA] must give
‘due weight’ to the administrative proceedings, ‘mindful that the judiciary generally lacks the specialized
knowledge and experience necessary to resolve persistent and difficult questions of educational policy.’ ”
Grim v. Rhinebeck Cent. Sch. Dist., 346 F.3d 377, 381
(2d Cir. 2003) (quoting Walczak v. Florida Union Free
Sch. Dist., 142 F.3d 119, 129 (2d Cir. 1998)).
Courts reviewing the state agency’s decision must
base their decision on a preponderance of the evidence
and may not substitute their own views on educational
policy for those of the school authorities. A.C., 553 F.3d
at 171. Our review of the state’s educational decisions
is therefore limited, demanding a level of scrutiny that
is more critical than clear-error but not nearly as
complete as de novo. See C.F. ex rel. R.F. v. N.Y.C. Dep’t
of Educ., 746 F.3d 68, 77 (2d Cir. 2014). Accordingly,
what we refer to as “de novo review” in fact “only seeks
to independently verify that the administrative record
supports the district court’s determination” regarding
the sufficiency of the state’s educational decisions. Mr.
P, 885 F.3d at 748 (quoting M.W., 725 F.3d at 138). We
similarly afford special deference to the district court
where its “decision was based solely on the
administrative record.” A.C., 553 F.3d at 171.
If the SRO and IHO decisions conflict, “the IHO’s
decision ‘may be afforded diminished weight.’ ” Id.
(quoting Gagliardo v. Arlington Cent. Sch. Dist., 489
F.3d 105, 113 n.2 (2d Cir. 2007)). In other words, we
would “defer to the final decision of the state

33a
authorities, that is, the SRO’s decision.” M.W., 725 F.3d
at 139 (internal quotation marks omitted). Yet such
deference applies only to the SRO’s “reasoned conclusions” – that is, “[r]eviewing courts must look to the
factors that ‘normally determine whether any particular judgment is persuasive’ ” and must ultimately
“defer to the SRO’s decision on matters requiring
educational expertise unless [the court] concludes that
the decision was inadequately reasoned, in which case
a better-reasoned IHO opinion may be considered
instead.” R.E., 694 F.3d at 189 (quoting M.H. v. N.Y.C.
Dep’t of Educ., 685 F.3d 217, 244, 246 (2d Cir. 2012)).
“But the district court’s determination of the persuasiveness of an administrative finding must also be
colored by an acute awareness of institutional competence and role. . . . [T]he purpose of the IDEA is to
provide funding to states so that they can provide a
decent education for disabled students consistent with
their traditional role in educating their residents.”
M.H., 685 F.3d at 244.
II.

Issues for Judicial Review
A. Case One
i.

W.E.’s Eighth-Grade Year

The Parents challenge the district court’s deference to the SRO’s ruling that the District met its Child
Find obligation during W.E.’s eighth-grade year. The
Council of Parent Attorneys and Advocates, Inc. has
also submitted a brief as amicus curiae in which it
asserts that the District violated its Child Find

34a
obligation with respect to W.E. As noted previously, the
IDEA and its implementing regulations require each
State to develop policies and procedures for identifying
and evaluating children with disabilities for special
education services. Mr. P, 885 F.3d at 749; 34 C.F.R.
§ 300.111. This obligation extends not only to children
with disabilities but also to those “who are suspected
of being a child with a disability . . . and in need of
special education, even though they are advancing
from grade to grade.” Id. § 300.111(c)(1). “However,
‘Child Find does not demand that schools conduct a
formal evaluation of every struggling student.’ ” Mr. P,
885 F.3d at 749 (quoting D.K. v. Abington Sch. Dist.,
696 F.3d 233, 249 (3d. Cir. 2012)).
“To hold a school district liable for failing to identify a student who should be evaluated for purposes of
receiving special education, a claimant must show that
school officials overlooked clear signs of disability and
were negligent in failing to order testing, or that there
was no rational justification for not deciding to evaluate.” Id. at 750 (internal quotation marks omitted).
“A school district must begin the evaluation process
within a reasonable time after the district is on notice
of a likely disability.” Id. The SRO ruled that the
District was not on notice that W.E. might have a
disability warranting special education services prior
to the Parents’ referral of W.E. to the CSE in April 2011
and that it therefore did not violate its Child Find
obligation. Its thorough opinion found that the
administrative record supported the District’s view
that W.E. appeared to be “making progress within the

35a
general curriculum despite his absences.” Sp. Supp.
App. 71. It also noted that the District worked with
the Parents to enable W.E. to catch up on schoolwork
despite his extensive absences, citing, inter alia, laudatory contemporaneous remarks made by M.S. about
the District and its teachers, as well as M.S.’s decision
to cancel a January 2011 Section 504 review meeting
due to her communicating that “I think we have
everything in place.” Id. at 70.
In arguing that the District was on notice of W.E.’s
potential disability much earlier, the Parents point out
that by mid-January 2011, W.E. had already missed
more days of school than permitted by District policy
for the entire year, received incompletes in three
subjects, dropped his Enriched English class, and that
his grade in Algebra had fallen from a 93 to a 78. With
the exception of W.E. having dropped Enriched English, the SRO’s opinion indicates awareness of these
facts, however, and instead reaches a contrary conclusion that it was not until the third quarter of W.E.’s
eighth grade year that his “absences began to compromise his ability to achieve academically.” Id. at 71.
And as the district court noted, the SRO also considered W.E.’s standardized test scores and feedback from
teachers, thus construing the meaning of “academic
success” more broadly than the IHO had done – an
analysis it was entitled to undertake. See W.A., 219
F. Supp. 3d at 459.
Because we must defer to the SRO’s “reasoned
conclusions” on “matters requiring educational expertise,” R.E., 694 F.3d at 189, we hold that the district

36a
court properly deferred to the SRO on the question of
whether the District violated its Child Find obligation
for W.E.’s eighth-grade school year. The question of
whether the District should have taken more aggressive steps in the face of competing signals arising from
various interactions with the Parents and with the
District’s personnel regarding W.E.’s progress in the
general education curriculum is an issue that calls for
expertise; it is therefore an issue on which we must
defer to the educational experts. In addition, the
district court correctly noted that “[t]he crux of the
SRO’s decision, however, was not so much that there
was no basis to suspect that W.E. may be disabled, but
that there was no reason to suspect that special
education was needed to remedy that disability.” W.A.,
219 F. Supp. 3d at 457. This is a conclusion that a
reviewing court should not disturb absent an objective
flaw in the SRO’s reasoning. For similar reasons, we
decline to consider the argument presented by amicus
that school avoidance is a “manifestation of disability”
that demanded intervention when the State was in the
best position to assess whether and to what extent
W.E.’s absences warranted special education services.
In light of our holding that W.E. was not denied a
FAPE for his eighth-grade year, we decline, as the
district court did, to reach the Parents’ request for
compensatory education for that year. For the same
reason, we affirm the district court’s July 18, 2017
decision vacating the SRO’s award of compensatory
counseling services for eighth grade. While the Parents assert that the award was issued in connection

37a
with the denial of a FAPE for ninth grade because it
was intended to reimburse the Parents for therapy
sessions that Dr. Williams relied upon to develop W.E.’s
ninth-grade IEP, the IHO opinion in Case One makes
clear that the award of counseling reimbursement was
issued in connection with the denial of a FAPE for
eighth grade. We are thus not inclined to override the
State’s explicit attribution. Nor do we find compelling
the Parents’ argument that the District’s alleged
failure to appeal the IHO’s limited award of reimbursement for Dr. Williams’s psychiatric services rendered
the district court without jurisdiction to grant the
District’s motion to amend to seek recovery of these
costs. As the district court found, it “defies common
sense to suggest” that the District did not administratively appeal the reimbursement award when there
is no question that the District cross-appealed the
portion of the IHO’s decision that found that the
District had violated its Child Find obligation and
denied W.E. a FAPE for his eighth-grade year. See
W.A., 2017 WL 3066888, at *9.
In sum, we affirm in all respects the district court’s
judgment and accompanying opinion and orders regarding the eighth-grade school year.
ii. Whether
Northwood
Appropriate Placement
Ninth-Grade Year

Was
an
for W.E.’s

Courts apply the three-step “Burlington/Carter”
test to determine whether a parent is entitled to

38a
retroactive tuition reimbursement. C.F., 746 F.3d at
76. We first assess whether the District provided a
FAPE; if it did not, we move on to the second and third
steps, under which the parents bear the burden of
showing that their unilateral private school placement
was appropriate for the child’s needs and that the
equities work in their favor. Id.; see also A.C., 553 F.3d
at 171-72. The District does not contest that it failed
to provide W.E. a FAPE for W.E.’s ninth- or tenth-grade
school years, and we therefore move directly to the
second step of the analysis.
At step two, the private school placement “must be
reasonably calculated to enable the child to receive
educational benefits.” M.H., 685 F.3d at 252 (internal
quotation marks omitted). “Grades, test scores, and
regular advancement may constitute evidence that a
child is receiving educational benefit, but courts assessing the propriety of a unilateral placement consider
the totality of the circumstances in determining
whether that placement reasonably serves a child’s
individual needs.” Frank G. v. Bd. of Educ. of Hyde
Park, 459 F.3d 356, 364 (2d Cir. 2006). Even where the
private placement yields evidence of the child’s
success, however:
courts should not disturb a state’s denial of
IDEA reimbursement where the chief benefits
of the chosen school are the kind of advantages that might be preferred by parents
of any child, disabled or not. Rather, the
unilateral private placement is only appropriate if it provides education instruction

39a
[specially] designed to meet the unique needs
of a handicapped child.
M.H., 685 F.3d at 252 (quoting Gagliardo, 489 F.3d
at 115 (internal quotation marks and alterations
omitted).
Our conclusion that the SRO’s opinion in Case
One was sufficiently reasoned and adequately supported by the administrative record supports the
deference that the district court conferred on the SRO
on issues demanding its educational expertise as
concerns W.E.’s ninth-grade year. We therefore affirm
the district court’s deference to the SRO’s ruling that
Northwood School was not an appropriate placement
entitling the Parents to tuition reimbursement for
ninth grade. While the Parents argue that the State
failed to consider fully Northwood’s responsiveness to
W.E.’s unique needs and the significant improvements
he experienced while enrolled at the private school –
including his momentous increase in attendance – the
SRO’s opinion reflects that it considered the relevant
evidence of W.E.’s progress. For instance, the SRO
noted that “the hearing record supports a finding that
the student’s social/emotional and academic functioning improved since the end of the 2010-11 school year,
. . . and that the student achieved some progress
academically during the 2011-12 school year” while
simultaneously citing reports from W.E.’s teachers
describing his inconsistent level of academic effort,
timeliness, and preparation. Sp. Supp. App. 84. The
SRO also properly cited this Court’s decision in
Gagliardo, 489 F.3d at 115, for the proposition that a

40a
student’s progress in a unilateral placement, while
relevant to the court’s inquiry, cannot alone demonstrate the appropriateness of that placement.
Indeed, the crux of the SRO’s decision was not that
W.E. failed to progress at Northwood, but, rather, that:
the hearing record lacks evidence demonstrating that [Northwood] provided instruction that was designed to address the
student’s tendencies to develop physical
symptoms and exhibit school avoidance when
under stress, or his need to develop coping
skills to manage stress related to academics
and social interactions, and to improve his
organizational/study skills related to academics, and, that the instruction that the student
received during the 2011-12 school year was,
in fact, available to all students enrolled at
[Northwood].
Id. at 84-85. The SRO thus concluded that placing W.E.
in Northwood’s “residential setting – which merely eliminated his exposure to the public school environment
and to activities that he perceived as stressful – is not
sufficient in this case to meet the parents’ burden to
establish that [Northwood’s] program provided the
student with educational instruction specially designed to meet his unique needs.” Id. at 85. Instead,
the SRO found that Northwood’s educational and
environmental benefits were those “that might be
preferred by parents of any child, disabled or not,” and
therefore did not satisfy the IDEA’s definition of

41a
special education. Id. (quoting Gagliardo, 489 F.3d at
115).
Because the question of whether a private school
placement provided special education services is precisely a question on which we defer to educational
experts, see, e.g., Doe v. E. Lyme Bd. of Educ., 790 F.3d
440, 451-52 (2d Cir. 2015), and because the SRO’s
considered opinion reflects that it viewed W.E.’s migraines as stemming from underlying emotional and
psychological issues that Northwood was not equipped
to address, we hold that the district court properly
deferred to the SRO notwithstanding its disagreement
with certain aspects of the SRO’s opinion. We therefore do not reach the issue of whether the equities
favored reimbursement.
B. Case Two
i. Whether Northwood Was an Appropriate Placement for W.E.’s TenthGrade Year
As already noted, while the same SRO presided
over the administrative appeals in both Case One and
Case Two, the district court found its opinion in the
latter case conclusory and unpersuasive and instead
took the IHO’s opinion, which it found more convincing, into account. “Where the IHO and SRO disagree,
reviewing courts are not entitled to adopt the conclusions of either state reviewer according to their own
policy preferences or views of the evidence; courts must
defer to the reasoned conclusions of the SRO as the

42a
final state administrative determination.” M.H., 685
F.3d at 246. Because we are persuaded that the
district court improperly substituted its judgment on
matters of educational policy for that of the SRO, and
in light of the district court’s own acknowledgment
that “[t]here is no question the SRO considered all of
the evidence on the record,” W.A., 219 F. Supp. 3d at
476, we hold that the district court improperly failed
to accord deference to the SRO’s ruling that Northwood
School was not an appropriate placement for W.E.’s
tenth-grade year.
First, we perceive no qualitative difference in the
SRO’s opinions in Case One and Two that would entitle
the former but not the latter to deference. The district
court’s characterization of the SRO’s opinion in Case
Two as “dedicat[ing] barely two pages to actually
analyzing whether Northwood was an appropriate
placement,” Id. at 470, is unfounded. It ignores the
SRO’s comprehensive review of the relevant record
evidence documenting, inter alia, W.E.’s progress, reports from W.E.’s Northwood teachers and clinicians,
and the various accommodations and amenities W.E.
received at Northwood – all of which informed the
SRO’s ultimate conclusion as to whether Northwood
provided W.E. special education within the meaning of
the IDEA.
The district court additionally criticized the SRO’s
opinion as omitting certain considerations, but the
record reveals that, by and large, the SRO did consider
the same factors that the district court found dispositive and instead differed as to their import. For

43a
example, the district court took issue with the
thoroughness of the SRO’s discussion of W.E.’s tenthgrade accommodations, specifically focusing on the
way in which an iPad Northwood provided benefitted
W.E.’s academic progress. According to the district
court, “the SRO made no reference to the device in its
analysis of whether Northwood was an appropriate
placement.” Id. at 473. In fact, however, the SRO
opinion accounts for testimony concerning the iPad in
several places, specifically noting its use “as an instructional or learning aid.” Supp. App. 104. While the
district court emphasized testimony from W.E.’s
western civilization teacher indicating “that the iPad
was a ‘godsend’ for W.E.”, W.A., 219 F. Supp. 3d at 473,
the SRO highlighted, inter alia, other testimony from
W.E.’s English teacher and counselor, indicating that
he thought the iPad was a good match but that he
could not provide quantifiable evidence of the way
W.E.’s accommodation plan had benefitted him. The
SRO also noted comments from W.E.’s western civilization teacher stating that W.E. used the iPad for
notetaking and homework and that it lessened his
need for organizational help.
The district court also faulted the SRO for failing
to discuss the vast improvement in W.E.’s attendance
while at Northwood. But the SRO observed that the
decreased frequency of W.E.’s headaches yielded “significantly improved school attendance,” Supp. App.
100, later stating that “it is without question that
during the 2012-13 school year, the student exhibited
progress in the sense that except when experiencing a

44a
migraine, he attended classes consistently, achieved
grades in the ‘A-’ to ‘C+’ range, and demonstrated
increased maturity and ability to socially interact with
peers,” Id. at 109. What is more, while W.E.’s improved
attendance at Northwood undoubtedly serves as
compelling indicia of progress, it was from eighth to
ninth grade that W.E. went from missing over 100 days
of school to only nine the following year. Yet the
district court did not find this enormous improvement
vital enough to overturn the SRO’s assessment in Case
One. Between ninth and tenth grade, by contrast,
W.E.’s absences essentially remained the same, and so
the district court’s emphasis on W.E.’s attendance in
the latter school year cannot bear the weight assigned
to it.
Outside of W.E.’s attendance and his use of an
iPad, the district court lamented the SRO’s failure to
discuss a second study hall Northwood offered during
the tenth-grade school year, yet simultaneously noted
that the record contained little evidence of the study
hall’s benefit. It also critiqued the SRO’s lack of attention to Northwood’s small class size and boardingschool feature, which, according to the district court,
“provided W.E. benefits specific to his unique needs.”
W.A., 219 F. Supp. 3d at 476. The SRO’s opinion,
however, does reflect that it considered Northwood’s
small student-to-teacher ratio and the way in which it
enabled “discussion-based learning.” Supp. App. 107.
In so doing it cited Frank G., 459 F.3d at 365, where
this Court recognized that small class size falls within
the IDEA’s definition of special education but declined

45a
to decide whether small class size alone could render a
private placement appropriate. This Court, moreover,
recently recognized that small class size “is the kind of
educational and environmental advantage that might
be preferred by parents of any child, disabled or not.”
Doe, 790 F.3d at 452 (internal quotation marks and
alterations omitted); see also Gagliardo, 489 F.3d at
115. The district court otherwise agreed with the
SRO’s characterization of W.E.’s academic performance, as well as the SRO’s conclusions that Northwood
did not provide meaningful counseling and that its
outdoor programming did not render it an appropriate
placement.6
In short, the district court’s decision not to defer to
the SRO’s opinion on the basis of the SRO’s putatively
perfunctory analysis is not supported by the record. Cf.
C.L. v. Scarsdale Union Free Sch. Dist., 744 F.3d 826,
838 (2d Cir. 2014) (declining to afford deference to SRO
where its opinion “was not sufficiently reasoned or
carefully considered because the SRO did not consider
or comment on any of the specific services provided to
[the student at the private school] or the progress that
the record shows he made at the school”).

6

The district court was essentially ambivalent about the
impact of nursing services, though its observation that “[i]t
strains credulity to suggest that an around-the-clock nurse staff,
one of whom resided on the same floor as W.E., . . . was not an
educational feature that worked to W.E.’s specific benefit,” W.A.,
219 F. Supp.3d at 475, would appear to apply with equal force to
W.E.’s ninth grade year, where the district court reached a
contrary conclusion.

46a
Second, rather than “credit[ ] the conclusions that
were most consistent with its own subjective analysis,”
the reviewing court should only reject the SRO’s
conclusions if it finds that they are not supported by a
preponderance of the evidence. M.H., 685 F.3d at 248.
Here, the district court did not address whether the
SRO’s conclusions were supported by a preponderance
and instead appeared to conduct a true de novo analysis of whether each factor favored reimbursement,
ultimately holding that the SRO “failed to give adequate weight to many of Northwood’s most beneficial
features and erroneously discounted the value of some
of those features merely because they were generally
available to all students.” W.A., 219 F. Supp. 3d at 470.
We agree with the district court that a resource that
benefits an entire student population can constitute
special education in certain circumstances. Under our
precedents, however, a reviewing court is not entitled
to overrule the State on a question of educational
policy – such as whether a generally available resource
is specially tailored to a particular disabled student’s
needs – based merely on its own disagreement with the
State’s evaluation of that resource. See M.H., 685 F.3d
at 241; see also Cerra v. Pawling Cent. Sch. Dist., 427
F.3d 186, 196 (2d Cir. 2005) (For a reviewing court to
render its own determination on a matter of educational policy, it must point to “objective evidence in the
record suggesting that the SRO has reached an
erroneous conclusion.”). In ruling that Northwood
School was an appropriate placement for W.E.’s tenthgrade year, the district court appeared to do just that –
conducting its own totality of the circumstances

47a
analysis in which it substituted its subjective
assessment for that of the State.
As in Case One, the SRO’s ruling was grounded in
its conclusion that the record lacked evidence showing
that Northwood provided W.E. with “specially designed
instruction to meet his ongoing need to develop insight
and understanding into what triggered his stress and
anxiety, and positive coping skills to address stress and
decrease anxiety; difficulties that the hearing record
showed not only contributed to the student’s tendency
to develop migraine headaches, but also to exhibit
organizational deficits and avoidance behaviors.” Supp.
App. 109. While the Parents highlight the many benefits
Northwood provided W.E., endorsements of the private
school by W.E.’s medical professionals, and various
emblems of W.E.’s academic, social, and emotional
growth during his tenure, many of the features that
appear to have abated W.E.’s stress and migraines are
those that any parent would desire in an educational
setting – namely, smaller classes, closer attention by
faculty and staff, bucolic surroundings in a residential
environment, and use of an iPad for organization and
note-taking. Thus, even though the record may support
the view that Northwood was an excellent placement
for W.E., it also supports the SRO’s conclusion that
Northwood was not methodologically or therapeutically
structured in the way required for reimbursement
under the IDEA. See Gagliardo, 489 F.3d at 115. This
educational policy judgment likewise reinforces the
deference that we believe we must give the SRO’s
opinion.

48a
CONCLUSION
We affirm the district court’s November 23, 2016
opinion and order to the extent it deferred to the SRO’s
conclusions regarding the District’s Child Find obligation and Northwood’s failure to provide W.E. special
education during the ninth-grade academic year.
Because the district court failed to confer appropriate
deference to the SRO’s analysis regarding Northwood’s
lack of specially designed instruction tailored to W.E.’s
unique needs during the tenth-grade school year, we
reverse the district court’s November 23, 2016 opinion
and order to the extent it held that Northwood School
was an appropriate placement for that school year and
accordingly vacate its award of tuition reimbursement.
We also affirm the district court’s July 18, 2017 opinion
and order granting the District’s motion for summary
judgment and denying the Parents’ cross-motion for
summary judgment and vacating the award of
compensatory education for the eighth-grade school
year.
Because the District is the prevailing party both
on appeal and on the cross-appeal, costs under Fed. R.
App. P. 39(a) shall be taxed against Appellees-CrossAppellants.

49a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
W.A. and M.S., individually
and on behalf of W.E.,
Plaintiffs,
-v-

Case Nos. 14-CV-3067,
14-CV-4285 (KMK)

OPINION & ORDER
HENDRICK HUDSON
CENTRAL SCHOOL DISTRICT, (Filed Nov. 23, 2016)
Defendant.
Appearances:
Erica Marie Fitzgerald, Esq.
Littman Krooks LLP
White Plains, NY
Counsel for Plaintiffs
William A. Walsh, Esq.
Weitz & Luxenberg
New York, NY
Counsel for Plaintiffs
Daniel Petigrow, Esq.
David Hannum Strong, Esq.
Thomas, Drohan, Waxman, Petigrow & Mayle, LLP
Hopewell Junction, NY
Counsel for Defendant
KENNETH M. KARAS, District Judge:
Plaintiffs W.A. and M.S. (collectively, “Plaintiffs” or
the “Parents”) bring this action individually and on
behalf of their son W.E. pursuant to the Individuals

50a
with Disabilities Education Act (“IDEA”), 20 U.S.C.
§ 1400 et seq., seeking to set aside two decisions of the
New York State Review Officer (“SRO”) which found
that the Hendrick Hudson Central School District
(“Defendant” or the “District”) did not violate its “childfind” obligations under the IDEA and that it need not
reimburse Plaintiffs for their unilateral placement of
W.E. at the Northwood School (“Northwood” or the
“School”) for the 2011–12 and 2012–13 school years.
The Parties cross-move for summary judgment; Defendant moves to amend its Answer to add a counterclaim to seek reimbursement of certain monies it
was ordered to pay Plaintiffs in connection with a subsequently reversed determination by one of the New
York State Impartial Hearing Officers (“IHO”) who
considered certain of the claims in this case; and
Plaintiffs in their notice of motion request an order
that Defendant pay them the sums requested by
Defendant in their proposed counterclaim. For the
reasons to follow, Defendant’s Motion is granted in part
and denied in part, and Plaintiffs’ Motion is granted in
part and denied in part.
I.

Background

A. Factual Background
The following facts are taken from the Parties’
Local Rule 56.1 Statements and the documents
contained in the record.

51a
1. W.E.’s Experience in the District
At the time of the first hearing in this case, WE.
was a fifteen-year-old ninth grade student attending a
private residential school (“Northwood”) in New York,
although he had attended public school in the Hendrick Hudson Central School District through eighth
grade (the 2010–11 school year). (See Case I Hr’g Tr.
1632; Case I Joint Ex. 54 (Aug. 30, 2011 Withdrawal
Letter); see also Def.’s Rule 56.1 Statement (“Def.’s
56.1”) ¶¶ 1–2 (Dkt. No. 34); Pls.’ Resp. to Rule 56
Statement (“Pls.’ 56.1”) ¶¶ 1–2 (Dkt. No. 40); Pls.’
Supporting Rule 56 Statement (“Pls.’ Cross 56.1”)
¶¶ 503–04 (Dkt. No. 41); Def.’s Resp. to Pls.’ Rule 56.1
Statement (“Def.’s Cross 56.1”) ¶¶ 503–04 (Dkt. No.
42).) W.E.’s early years in the District were generally
successful: he performed well in elementary school,
participated in a number of extracurricular programs,
and began middle school engaged in academics, reading, art, music, and his friendships. (See Case I Hr’g
Tr. 1633–36; Case I Pls.’ Ex. M (2007–08 Report Card);
see also Pls.’ Cross 56.1 ¶¶ 11–17, 24; Def.’s Cross 56.1
¶¶ 11–17, 24.) He began to encounter difficulties,
however, in sixth grade, when he started to experience
increasingly intense internal pain, which led to an
emergency appendectomy. (See Case II Hr’g Tr. 816–
17; see also Pls.’ Cross 56.1 ¶ 25; Def.’s Cross 56.1 ¶ 25.)
W.E.’s pain was diagnosed as abdominal migraines,
and he missed at least 26 days of school. (See Case I
Joint Ex. 65 (6th grade attendance summary); see also
Pls.’ Cross 56.1 ¶ 25; Def.’s Cross 56.1 ¶ 25.)

52a
The difficulties caused by W.E.’s migraines continued into the seventh grade (the 2009–10 school
year), and he also began to experience more conventional migraines, leading him to miss at least as many
school days as the year before. (See Case I Joint Ex. 66
(7th grade attendance summary); see also Def.’s 56.1
¶ 6; Pls.’ 56.1 ¶ 6; Pls.’ Cross 56.1 ¶ 26; Def.’s Cross 56.1
¶ 26.) According to M.S., by September 2009, W.E. had
been begun experiencing these headaches “almost
daily.” (See Case I Joint Ex. 1 (Apr. 23, 2010 email from
M.S.); Pls.’ Cross 56.1 ¶ 77; Def.’s Cross 56.1 ¶ 77.)
Although W.E.’s parents had initially thought they
were related to temporomandibular joint dysfunction
(“TMJ”), (see Case II Hr’g Tr. 817–18), abdominal migraines can evolve to become more classical migraine
headaches, (see Case I Hr’g Tr. 889), consistent with
W.E.’s experience. According to Dr. Michael Lasser
(“Dr. Lasser”), W.E.’s pediatrician, W.E.’s migraines
were chronic, “[p]rofoundly severe,” and, “[i]n [his]
opinion[,] . . . impacted every aspect of [W.E.].” (Case I
Hr’g Tr. 1495, 1509.) As M.S. explained, “whenever
[W.E.] had a migraine, he was completely debilitated”
and “couldn’t really do anything.” (Id. at 1660–61.)
During the winter, M.S. requested a “team meeting,” (see Case I Hr’g Tr. 1641), and, additionally, in the
third quarter when W.E. missed a number of days of
school, the District held an “Instructional Support
Team” (“IST”) meeting in the spring of 2010 to discuss
W.E.’s absences and “incomplete” grades, after which
W.E. was allowed to make up his missing work, have
his incompletes removed, and receive grades in the A

53a
or B range, (see Case I Hr’g Tr. 1198–200; see also Def.’s
56.1 ¶ 7; Pls.’ Cross 56.1 ¶ 7). By April 2010, when his
headaches were “getting worse and worse,” M.S. referred W.E. to the Section 504 committee and sent a
note to the guidance counselor requesting home instruction. (Case I Hr’g Tr. 1641.)1 According to Brooke
Bolen (“Bolen”), a counselor and Section 504 case
manager at Blue Mountain Middle School, (see id. at
1174–75), that tutoring was approved, (see id. at 1202–
03), rendering W.E. eligible for four hours of tutoring
in May 2010, (see Case I Def.’s Ex. 33 (Home Instruction Tutoring Form); see also Def.’s 56.1 ¶ 32; Pls.’ 56.1
¶ 32). W.E. went on to receive scores on his state
assessments that demonstrated mastery or proficiency
in the subjects of English Language Arts and Math.
(See Case I Def.’s Ex. 32 (Student Test Scores Detail);
Def.’s 56.1 ¶ 13; Pls.’ 56.1 ¶ 13.)
On May 25, 2010, as part of W.E.’s referral to the
Section 504 committee, Dr. Richard Brodsky (“Dr.
Brodsky”), the school psychologist, conducted a psychoeducational evaluation of W.E. (See Case I Hr’g Tr.
464–65; 698–99; Case I Joint Ex. 4 (“Brodsky Report”);
see also Def.’s 56.1 ¶¶ 14–16; Pls.’ 56.1 ¶¶ 14–16.) In
his report, Dr. Brodsky noted that his “[c]urrent impressions [of W.E.’s conditions] include a history of
TMJ and a mixed headache disorder,” and described
W.E. as “a soft-spoken 13-5 [sic] year old boy” who
rarely smiled or engaged in casual conversation other
than moments initiated by the examiner. (Brodsky
1

A Section 504 committee is so named as a reference to § 504
of the Rehabilitation Act. See 29 U.S.C. § 794.

54a
Report 1–2.) As part of that evaluation, Dr. Brodsky
performed the Woodcock-Johnson-III Tests of Cognitive Abilities (“WJ-III COG”), the Woodcock-JohnsonIII Tests of Academic Achievement (“WJ-III ACH”),
and the Behavior Assessment System for ChildrenSecond Edition (“BASC-2”), in addition to interviewing
teachers and reviewing pertinent records. (Id. at 1.)
The WJ-III COG comprises seven subtests that measure a variety of cognitive skills, each with median
scores of 100 and an average range of 80–120. (Id. at
2.) W.E. received a “General Intellectual Ability”
standard score of 121, which equated to the 92nd
percentile, placing him above the average range when
compared to same-age peers. (Id.) The WJ-III ACH
similarly involves a variety of subtests, for each of
which W.E. received scores in the average to advanced
range, except for math fluency, where his score fell in
the “low average” range. (See id. at 3–4.) The BASC-2
test was completed by W.E. and two teachers. (Id. at
4.) The test produces “T scores” for a variety of areas,
with a mean of 50 and an average range of 40 to 60,
with scores outside that range being considered “AtRisk” (which “may identify a significant problem that
may not be severe enough to require formal treatment
or may identify the potential of developing a problem
that needs careful monitoring”) or “Clinically Significant” (which “suggest[s] a high level of maladjustment”). (Id.) W.E. received two at-risk scores in (1)
“Relations to Parents,” which Dr. Brodsky indicated
was “reflective of the difficult communication patterns
that often exist between parents and young teenagers,”
and (2) “Attitude Towards School,” which “was marked

55a
by responses related to feeling bored with school and
disliking school.” (Id.) The clinically significant score
came from just one of the teachers and was in the area
of “Somatization,” (id.), which Dr. Brodsky testified was
“[p]hysical complaints, complaints of being ill,” (Case I
Hr’g Tr. 716).2 In his report, Dr. Brodsky said that this
clinically significant score “seems to [have] be[en]
directly related to moments where [W.E.] complain[ed]
of not feeling well and ask[ed] to see the nurse.”
(Brodsky Report 4.) In summary, Dr. Brodsky concluded that W.E. was a “pleasant 13-5 year old boy in
the seventh grade,” who “showed above average intellectual potential overall,” with weaknesses in “finemotor skills.” (Id. at 5.) Although certain “[d]ata . . .
suggest[ed] a high level of physical complaints during
academics,” and “indications of a negative attitude
about school and mild oppositional behavior at home,”
“[n]o serious social-emotional concerns ha[d] been
reported at th[e] time.” (Id.)
Testifying about this test later, Dr. Brodsky indicated that “it was [his] hypothesis [that] there may
have been emotional factors at play as opposed to skill
deficit.” (Case I Hr’g Tr. 708.) Overall, Dr. Brodsky
made three entries under the heading “Recommendations”: (1) “All relevant data and reports should be
2

Dr. Daniel Williams, another doctor with whom W.E.
consulted, described a somatoform disorder as “an illness that
presents primarily with physical symptoms, where after careful
evaluation by clinicians to make sure that undiagnosed physical
causes have been effectively evaluated and ruled out, there
remains a component of the physical symptoms that needs to be
understood as having a psychiatric basis.” (Case I Hr’g Tr. 909.)

56a
considered by the Section 504 Committee,” (2) “[t]eachers’ input about daily functioning and behavior will be
essential in determining the impact of [W.E.]’s
headaches,” and (3) “[a]ttitude towards school and
oppositional behavior should be monitored for possible
intervention.” (Brodsky Report 4.) On top of these
written recommendations, Dr. Brodsky also testified
that, when speaking with M.S., he “recommend[ed]
that [the Parents] consider private therapy for [W.E.],”
and that his third written recommendation was meant
to be a “lead in” to a conversation in which he could
recommend therapy to the Parents. (See Case I Hr’g
Tr. 720–22; see also Case I Hr’g Tr. 752–53.)
On June 14, 2010, the Section 504 committee met
and, finding W.E. eligible for services based upon his
migraine disability, developed a Section 504 accommodation plan. (See Case I Joint Ex. 11 (Section 504
Accommodation Plan); see also Def.’s 56.1 ¶¶ 9–10; Pls.’
56.1 ¶¶ 9–10; Pls.’ Cross 56.1 ¶ 90; Def.’s Cross 56.1
¶ 90.) Under that plan, W.E. was to receive accommodations consisting of extended time to complete
assignments, nursing services as needed, access to
class notes, and access to home tutoring. (See Case I
Joint Ex. 11 (Section 504 Accommodation Plan); see
also Def.’s 56.1 ¶ 11; Pls.’ 56.1 ¶ 11.) According to
Kathleen Coughlin (“Coughlin”), director of Pupil
Personnel Services for the District, that plan did not
include “school monitoring” of W.E. (See Case I Hr’g
Tr. 389.) The extent to which Dr. Brodsky recommended counseling at the Section 504 meeting is not
perfectly clear: While he may well not have formally

57a
recommended private counseling at that meeting, (see
Case I Hr’g Tr. 1654–55 (“Q. Beyond the accommodation plans, were there any recommendations
discussed [at the Section 504 Committee meeting]? . . .
A. No, at that point, I was very optimistic about
[W.E.]’s future[;] I thought he was doing very well.
There were no other recommendations discussed.”)), he
did recommend it to M.S., (see id. at 720–21), and later
suggested that he made a reference to it when
speaking at least to M.S. at the meeting, (see id. at
752–53 (“Q. Yet you do recall specifically stating to
[M.S.] in June of 2010 that you were recommending
or you recommended private counseling for [W.E.]?
A. Yes. Q. What context did that take place [in]?
A. At the conclusion of that meeting as we discussed
my recommendations, I remember sitting directly
across the table from [M.S.] at that particular meeting
and trying to sensitively suggest and recommend that
private therapy would be a consideration.”)). In any
event, Dr. Brodsky testified that he recommended
“private”—that is, not “school-based”—therapy because “[i]t was [his] impression that many of the[ ]
issues that seemed to exist were based in the
relationships that were occurring at home with [W.E.]
and his parents, and that it would be inappropriate
and likely ineffective to try and address that in a
school-based counseling session.” (Id. at 722–23.)
In September 2010, W.E. began eighth grade. (Pls.’
Cross 56.1 ¶ 105; Def.’s Cross 56.1 ¶ 105.) From the
beginning, W.E.’s migraines caused additional problems for him, causing him to miss not only the first

58a
several days of school from September 27–29, 2010, but
also causing him to miss over 100 days throughout the
school year despite his ongoing efforts to attend. (See
Case I Hr’g Tr. 883; Case I Joint Ex. 67 (8th grade
attendance summary); Case I Joint Ex. 70 (8th Grade
Report Card); see also Def.’s 56.1 ¶¶ 26–27; Pls.’ 56.1
¶¶ 26–27; Pls.’ Cross 56.1 ¶¶ 106, 108–09, 111–12, 126,
130; Def.’s Cross 56.1 ¶¶ 106, 108–09, 111–12, 126,
130.) During this time, M.S. emailed W.E.’s teachers
and other District employees frequently, whom she
found supportive and helpful and who emailed W.E.’s
missing homework. (See Case I Hr’g Tr. 1661; Case I
Joint Exs. 22, 23) (emails reflecting communications
between M.S. and school employees); Case I Pls.’ Exs.
T, V, W, X (same). In some circumstances, the teachers
waived homework assignments for W.E. (See Case I
Pls.’ Exs. DD, GG.)
Unsurprisingly, W.E.’s migraines had a particularly strong impact upon his eighth grade year:
Socially, W.E. was “out of the loop” in school, became
more socially isolated, and, according to Dr. Andrew
Robins (“Dr. Robins”), felt behind his friends. (See Case
I Hr’g Tr. 1016, 1041–42; see also Pls.’ Cross 56.1
¶¶ 128–29; Def.’s Cross 56.1 ¶¶ 128–29.) Medically, in
M.S.’s view, the stress that W.E. felt from school made
his headaches worse. (See Case I Joint Ex. 31 (Section
504 and CSE referral email chain); see also Pls.’ Cross
56.1 ¶ 127; Def.’s Cross 56.1 ¶ 127.) Academically,
although W.E. regularly earned As and Bs in his first
quarter of school, earned a proficient score on the
English Language Arts exam, and an 82 on the

59a
Regents state algebra exam, (see Case I Hr’g Tr. 420–
21, 990; Case I Joint Ex. 70 (8th Grade Report Card);
see also Def.’s 56.1 ¶¶ 28–29, Pls.’ 56.1 ¶¶ 28–29), he
also struggled, dropping his accelerated Enriched English class, taking a “medical” with no academic credit
in most classes, and missing the Regents Exam in
biology, the state math assessment, and over 30 days
of school after April 15, 2011, (see Case I Hr’g Tr. 1247,
1308, 1335–37, 1687; Case I Joint Ex. 70 (8th Grade
Report Card); see also Def.’s 56.1 ¶¶ 30, 60; Pls.’ 56.1
¶¶ 30, 60; Pls.’ Cross 56.1 ¶¶ 133–38; Def.’s Cross 56.1
¶¶ 133–38).
The Parties undertook certain actions with respect
to W.E.’s conditions: For their part, W.E.’s parents
sought treatment for W.E.’s condition, tried to coax him
to attend school, had family members tutor W.E., and
sought medical treatment from specialized doctors.
(See Case I Hr’g Tr. 1664, 1718, 1910–11; see also Pls.’
Cross 56.1 ¶¶ 140–41, 143; Def.’s Cross 56.1 ¶¶ 140–
41, 143.) Additionally, as noted, under his Section 504
plan, W.E. was also entitled, through the District, to
home tutoring. (Case I Joint Ex. 11 (Section 504
Accommodation Plan).) According to Bolen, W.E.’s case
manager for eighth grade, W.E. required tutoring
services in fall of 2010 in connection with certain skills
testing that W.E. was to go through as part of the
curriculum. (See Case I Hr’g Tr. 1206–07; Case I Def.’s
Exs. 46–48 (emails between M.S. and Bolen regarding
tutoring).) To that end, W.E.’s appointed tutor was Jan
Dyckman (“Mr. Dyckman”). (See Case I Hr’g Tr. 1206–
07; Case I Def.’s Exs. 34 (tutoring records), 46–48
(emails between M.S. and Bolen re tutoring).) As a

60a
general matter, once a tutor has been secured for a
student, school officials customarily leave it to the
parent and the teacher to schedule the actual tutoring
sessions, (see Case I Hr’g Tr. 1203), although school
officials are ultimately responsible for ensuring that
the tutoring occurred or to note why it failed to happen,
(see id. at 355–56). And here, while Jacqueline Kilanowski (“Kilanowski”), the guidance counselor who
took over for Bolen, testified to being in touch with M.S.
and W.E.’s teachers concerning the tutoring, she did
not confirm the number of hours of home instruction
being provided. (See Case I Hr’g Tr. 1285, 1332–33.)
The records reflect that W.E. received at least some
tutoring: According to the District’s timesheets, W.E.
received one hour of tutoring from Mr. Dyckman on
September 29, 2010, two hours from Mr. Dyckman in
November 2010, 2.5 hours from Donna Sullivan in
April 2011, one hour from Timothy Cavanaugh in April
2011, 4.5 hours from Donna Sullivan in May 2011,
three hours from Timothy Cavanaugh in May 2011,
and 2.25 hours from Donna Sullivan in June 2011.
(Case I Def.’s Ex. 34 (timesheets).)3 According to Bolen,
W.E. was not available to work during the time that he
3

These figures come to a grand total of 16.25 hours. The
Parents’ assert that W.E. received 15.25 hours in tutoring,
perhaps because they do not count the first hour in November
2010 as it involved the administration of a standardized test. (See
Pls.’ 56.1 ¶ 34.) Plaintiffs posit that W.E. was entitled to substantially more tutoring and that the District was not monitoring
W.E.’s home tutoring as it should have been, (see Pls.’ Cross 56.1
¶¶ 240, 252–53) (citing, inter alia, Case I Pls.’ Ex. I (District
Policy # 4421)); however, as Defendant rightly points out, that is
a legal conclusion, (see Def.’s Cross 56.1 ¶ 240), and one which is
not necessary to resolve the instant motions.

61a
was out in November, (see Case I Hr’g Tr. 1276);
however, Plaintiffs object to this assertion, noting that
M.S. had indicated only that W.E. could not work with
Mr. Dyckman, (compare Def.’s 56.1 ¶ 38, with Pls.’ 56.1
¶ 38 (citing Case I Hr’g Tr. 1668; Case I Pls.’ Ex. V)),
who, Plaintiffs assert, did not really tutor W.E., (see
Pls.’ 56.1 ¶ 37), because, in M.S.’s view, he “really just
supervised [W.E.] doing whatever work there was,”
(Case I Hr’g Tr. 1667). Accordingly, M.S. emailed Dr.
Alice Gottlieb (“Dr. Gottlieb”), the Assistant Superintendent for Curriculum and Professional Personnel,
on January 28, 2011 to request a new tutor. (See Case
I Joint Ex. 19.) Dr. Gottlieb promptly responded and
said that she would help. (See id.) Nevertheless,
according to M.S., she did not hear back and, so,
reached out again in March, with home instruction
ultimately recommencing for W.E. in April 2011. (See
Case I Hr’g Tr. 1668–69.)
In December 2010, M.S., informing the District
that she perceived her son to be in “crisis,” (see Case I
Hr’g Tr. 1682; Case I Joint Ex. 17 (Dec. 2010 email
chain); see also Pls.’ Cross 56.1 ¶ 167; Def.’s Cross 56.1
¶ 167), requested several types of action be taken by
the District and/or school employees, including asking
for class notes for W.E.’s science, French, and social
studies class notes, (see Case I Joint Ex. 17 (Dec.
2010 email chain)). M.S. also contacted Dr. Brodsky
for information about school-based counseling and
interventions, in response to which Dr. Brodsky
recommended “private relaxation counseling.” (See
Case I Hr’g Tr. 1678–79; see also Pls.’ Cross 56.1
¶¶ 156–57; Def.’s Cross 56.1 ¶¶ 156–57.) Furthermore,

62a
M.S. also requested a teacher team meeting, in
response to which a team of W.E.’s teachers met the
week before the break in December 2010, and at which
they, with M.S. present, went through and modified
W.E.’s outstanding assignments to determine what
work needed to be made up. (See Case I Hr’g Tr. 1296–
97; see also Def.’s 56.1 ¶ 51; Pls.’ 56.1 ¶ 51.) Additionally, by email dated December 13, 2010, M.S.
requested a review of W.E.’s Section 504 Plan, and the
District scheduled a Section 504 committee meeting
for January 5, 2011. (See Case I Def.’s Ex. 7; see also
Def.’s 56.1 ¶¶ 48–49; Pls.’ 56.1 ¶¶ 48–49.) This final
meeting, however, never occurred because two days
before the meeting, M.S. emailed Caroline Almeida
(“Almeida”), the District’s Assistant Director of Pupil
Personnel, and indicated that, although she “[was]
happy to meet if the team would like to or if [Almeida]
ha[d] other ideas,” she “[did] not know if the meeting
[was] necessary,” as W.E. had a “great [December]
break,” was doing much better, and “ha[d] all the
program modifications in place,” further noting that
she “met with his team before break to make sure they
understood what was going on.” (See Case I Def.’s Ex.
7; see also Def.’s 56.1 ¶¶ 52–53; Pls.’ 56.1 ¶¶ 52–53.)
Throughout the spring, discussions concerning
W.E.’s well-being continued: On March 15, 2011, M.S.
emailed the school nurse and guidance counselor a
copy of a report from Dr. Kitaj, which noted, among
other things, that W.E. was taking a number of medications. (See Case I Joint Exs. 22 (Kitaj Report), 23
(email attaching Kitaj report).) The report indicated

63a
that W.E. “present[ed] with a diagnosis of migraine
without aura” and that “[W.E.] confirm[ed] triggers of
his headaches from stress.” (Case II Joint Ex. 22 (Kitaj
report), at 2, 5.) In her email transmitting it to the
school, M.S. characterized the report as “not[ing] that
[W.E.] does have a severe migraine disability and that
stress is one precipitating factor.” (Case I Joint Ex. 23
(email attaching Kitaj report).) Soon thereafter, on
March 18, 2011, the IST had a meeting at which,
among other things, it set its goal as to “ensure student
receives tutoring.” (Case I Def.’s Ex. 16 (meeting
overview); see also Pls.’ Cross 56.1 ¶ 173; Def.’s Cross
56.1 ¶ 173.) Additionally, on April 12, 2011, Plaintiffs
referred W.E. to the CSE to determine whether he was
eligible for special education services as a child with
an “other health impairment” (“OHI”) and requested
an emergency Section 504 meeting, which Almeida
immediately scheduled for April 15, 2011. (Case I Hr’g
Tr. 485; Case I Joint Exs. 28 (M.S. Referral Email), 30
(Section 504 Meeting Notice); see also Def.’s 56.1
¶¶ 56–58; Pls.’ 56.1 ¶¶ 56–58.)
At the April 15, 2011 Section 504 Committee meeting, the Committee recommended adding counseling
to W.E.’s accommodation plan for the rest of the year.
(See Joint Ex. 35 (Section 504 accommodation plan), at
2.) Based on his prior relationship with W.E., Dr.
Brodsky recommended that any such counseling occur
outside, perhaps on a trail or ropes course. (See Case I
Hr’g Tr. 744–45.) Nevertheless, Dr. Brodsky testified
that he did not meet with W.E. to provide counseling
because “[h]e was never available when [Dr. Brodsky]

64a
sought him out,” despite having called W.E.’s homeroom more than five times. (See id. at 746, 784.)4
Also at the Section 504 meeting, “[a] psychiatric
evaluation was recommended to be conducted in
preparation for the upcoming initial [Committee on
Special Education (“CSE”)] meeting.” (See Case I Joint
Ex. 35, at 2.) The evaluation was scheduled to take
place on May 5, 2011 with a psychiatrist named Dr.
Hahn. (See Case I Hr’g Tr. 492; see also Pls.’ Cross 56.1
¶ 189; Def.’s Cross 56.1 ¶ 189.) When Dr. Hahn spoke
with M.S. on the phone, she offered to let him see W.E.
at home, but Dr. Hahn indicated that he did not think
it would be helpful to see W.E. in a migraine state at
home and suggested that M.S. contact Dr. Cynthia
Pfeffer (“Dr. Pfeffer”) at New York Presbyterian Hospital regarding pain management. (See Case I Hr’g Tr.
1700–03; see also Pls.’ Cross 56.1 ¶¶ 192–95; Def.’s
Cross 56.1 ¶¶ 192–95.) M.S. did so, and Dr. Pfeffer
referred her to another doctor, Dr. Daniel Williams
(“Dr. Williams”). (See Case I Hr’g Tr. 1703–05; see also
Pls.’ Cross 56.1 ¶ 196; Def.’s Cross 56.1 ¶ 196.) M.S.
contacted Dr. Williams the same day, provided extensive background, and arranged to schedule an appointment. (See Case I Hr’g Tr. 1703–05; see also Pls.’
Cross 56.1 ¶ 197; Def.’s Cross 56.1 ¶ 197.) M.S. and
W.E. then met with Dr. Williams on May 18, 2011, and
4

Plaintiffs indicate that Dr. Brodsky did not contact the
Parents until June 9, 2011, (Pls.’ 56.1 ¶ 59 (citing Case I Joint Ex.
47)), but this date was drawn from an email from M.S. to Dr.
Brodsky that does not indicate when Dr. Brodsky first tried to
contact the Parents, (see Case I Joint Ex. 47).

65a
W.E. had at least 11 subsequent sessions with Dr.
Williams by December 21, 2011. (See Case I Hr’g Tr.
882, 895, 934, 1703–05; see also Pls.’ Cross 56.1
¶¶ 197–99; Def.’s Cross 56.1 ¶¶ 197–99.)
Although Dr. Hahn did not meet with W.E. on the
day when he spoke with M.S., he nevertheless prepared a report based on that consultation, (see Pls.’
Cross 56.1 ¶ 200; Def.’s Cross 56.1 ¶ 200), which
noted that he suggested that “[the] best approach to
assist [W.E.] would be to consider a multi-disciplinary
approach,” recommending “a more holistic approach
incorporating bio-feedback/relaxation techniques, mindfulness training, [and] play therapy,” and noting that
“[a]ccess to an outdoor adventure[-]based program may
be deemed to be one avenue to help engage [W.E.] in
learning coping mechanisms for stress.” (Case I Joint
Ex. 43, at 2–3.) This did not, however, mark the end of
the efforts of Dr. Hahn to meet with W.E., and M.S.
testified that she scheduled an appointment with Dr.
Hahn for June 1, 2011, (see Case I Hr’g Tr. 1717), but
she canceled the appointment because W.E. was home
with a migraine, (see id.; see also Pls.’ Cross 56.1 ¶ 202,
Def.’s Cross 56.1 ¶ 202), although W.E. had seen a
number of other doctors on different occasions while in
the throes of a headache or migraine, (see Def.’s 56.1
¶¶ 70–73; Pls.’ 56.1 ¶¶ 70–73). Additionally, according
to Coughlin, M.S. accepted another appointment slot
for W.E. with Dr. Hahn for July 19, 2011, which did not
occur because W.E. was too anxious to participate. (See
Case I Hr’g Tr. 158–60; see also Def.’s 56.1 ¶ 68; Pls.’
56.1 ¶ 68.) During that phone call, according to

66a
Coughlin, M.S. also indicated that they were considering placing W.E. at Northwood and that medical
reports were forthcoming, but that she nonetheless
wanted to secure a CSE placement. (See Case I Hr’g
Tr. 161–64; see also Def.’s 56.1 ¶ 69; Pls.’ 56.1 ¶ 69.)
The initial CSE referral meeting was scheduled
for W.E. for May 25, 2011, (see Case I Hr’g Tr. 503; see
also Def.’s 56.1 ¶ 74; Pls.’ 56.1 ¶ 74), because, according
to Almeida, it “had to be held by June 13th in order to
be in compliance with the timeline, but [the] mom
indicated that she was only available on Mondays and
Wednesdays,” and May 25 was “the only date prior to
June 13th that was a Monday or Wednesday that was
available,” (Case I Hr’g Tr. 503–04). In advance of that
meeting, M.S. provided a revised social history for
W.E., (see Case I Joint Ex. 40 (revised social history);
see also Pls.’ Cross 56.1 ¶¶ 184–85; Def.’s Cross 56.1
¶¶ 184–85); however, Plaintiffs did not receive any
written letter suggesting that a psychiatric evaluation
may also be needed, (see Pls.’ Cross 56.1 ¶ 230 (citing
Case I Hr’g Tr. 364); Def.’s Cross 56.1 ¶ 230), and the
evaluation with Dr. Hahn, as discussed above, did not
occur. According to Almeida, the prospect of pressing
on with the CSE meeting without a psychiatric
evaluation concerned her because she “felt that they
were critical for the committee to be able to make a
decision not only on eligibility but [also] on . . . an
appropriate program,” and that she shared these
concerns with Coughlin. (Case I Hr’g Tr. 505.) In
advance of that meeting, the District did not conduct a
classroom observation or include a parent as a member

67a
of the CSE, (see Pls.’ Cross 56.1 ¶¶ 204–05; Def.’s Cross
56.1 ¶¶ 204–05; see also Case I Joint Ex. 42 (letter
notifying the Parents of the May 25, 2011 meeting and
listing people expected to attend the meeting)), nor did
the District list a reason for referral on its 504 Referral
Form, (see Case I Joint Ex. 39 (504 Referral Form)),
even though Coughlin testified that she “would typically expect there would be some information on” the
form, (see Case I Hr’g Tr. 336).
The CSE meeting in fact went forward on May 25,
2011, (see Case I Joint Ex. 45 (CSE meeting attendance
form); see also Pls.’ Cross 56.1 ¶ 208; Def.’s Cross 56.1
¶ 208), and Plaintiffs take issue with several aspects
of the meeting. For one thing, the Parents note that
there was no parent member at the meeting. (See Case
I Hr’g Tr. 233; Case I Joint Ex. 45 (CSE meeting
attendance form); see also Pls.’ Cross 56.1 ¶ 204; Def.’s
Cross 56.1 ¶ 204.) Additionally, Plaintiffs take issue
with a number of the respects in which Almeida
conducted the meeting, noting that Almeida opened
the meeting by saying that she did not know if W.E.
qualified to be classified or, if he did, whether the
District had any placement options for him. (See Case
I Hr’g Tr. 1708; Case I Joint Ex. 58 (Oct. 26, 2011 letter
from M.S. to Coughlin), at 2; see also Pls.’ Cross 56.1
¶ 209; Def.’s Cross 56.1 ¶ 209.) Furthermore, at the
time of that meeting, according to Almeida, although
she knew that W.E. had “numerous absences” and
had “a lot of medical information speaking about a
lot of physical impairments” and “[h]eavy duty medications, different doctors, [and] lots of medical type

68a
interventions,” she did not have “more holistic information” that “would give [the committee] a clearer
picture of [W.E.]’s emotional needs” and did not know
the specifics concerning his medications, frequency of
absences, or that his migraines were growing worse.
(See Case I Hr’g Tr. 513–16, 653–54, 657, 661.)
Furthermore, while Almeida acknowledged that it was
possible to classify W.E. as OHI, she did not, (see Case
I Hr’g Tr. 662; see also Pls.’ Cross 56.1 ¶ 218, Def.’s
Cross 56.1 ¶ 218), and questioned “[i]n [her] own head”
whether W.E.’s pain in fact existed, (Case I Hr’g Tr.
678), and testified that, at the time of the meeting, she
“had information that[,] on weekends and at nights[,]
he was quite active going out with friends . . . [,] and
was still social and active on the weekend certainly,”
specifically noting that “there was a concert in the city
that was mentioned at this time,” (Case I Hr’g Tr. 517),
although M.S. testified that during the period from
November 2010 through January 2011, W.E. “had no
social connections,” “no phone calls, . . . no get
togethers with friends,” although he did, she said, have
a small birthday party, (id. at 1664). Relatedly,
Plaintiffs also object to the fact that Almeida shared
an anecdote from her childhood about her father
forcing her to go to school when she did not feel well,
(see id. at 509–10), a story M.S. found “insulting” and
“patronizing,” (id. at 1715). Finally, Plaintiffs contend
that M.S. testified that no accommodations other than
classifying W.E. as OHI were discussed at the meeting.
(See Pls.’ Cross 56.1 ¶ 228 (citing Case I Hr’g Tr. 1712).)

69a
The Parents also note respects in which they were
dissatisfied with the District’s conduct following the
meeting. Specifically, they note that the District did
not send out a notice concerning the status of W.E.’s
referral after the meeting (or, for that matter, before),
nor did it classify W.E. by June 13, 2011, (see Case I
Hr’g Tr. 368–69; see also Pls.’ Cross 56.1 ¶¶ 229, 231;
Def.’s Cross 56.1 ¶¶ 229, 231), the date by which
Almeida had indicated that she wanted to hold W.E.’s
CSE meeting.
2. Planning for W.E.’s Freshman Year
In July 2011, Coughlin spoke with M.S. concerning
whether she wished to pursue classification and an
IEP for W.E. (See Case I Hr’g Tr. 159–60.) The CSE
thereafter reconvened on August 26, 2011 and ultimately classified W.E. as a student with a disability
under the classification of “Other Health Impairment,”
(see Case I Hr’g Tr. 183; Case I Def.’s Ex. 30 (May 25,
2011 meeting notes); see also Def.’s 56.1 ¶ 79, Pls.’ 56.1
¶ 79), and identified W.E.’s academic as well as social
and emotional needs and goals, along with the modifications, services, and supports to meet them, (see Case
I Def.’s Ex. 30 (May 25, 2011 meeting notes)). In advance of that meeting, the Parents submitted letters
from Dr. Williams, Dr. Robins, and Dr. Lasser. (See
Case I Joint Exs. 50a, 50b, 51.) In those letters, Dr.
Williams recommended a “smaller school environment,
with small classes, where [W.E.] [could] receive both
supportive counseling and educational services that
enable him to return to normal social and educational

70a
functioning,” (see Case I Joint Ex. 50a (Williams letter),
at 2); Dr. Lasser recommended a “small supportive
school environment,” (see Case I Joint Ex. 50b (Lasser
letter)); and Dr. Robins was of the view that “it [was]
unlikely that [W.E.] [would] succeed in the 9th grade if
he continue[d] in the mainstream public school
system,” (see Case I Joint Ex. 51 (Robins letter), at 2).
The CSE prepared a draft IEP for W.E., which
listed a number of recommendations, including twiceweekly individual counseling services, program accommodations (comprising access to class notes, additional
time for assignments, and nursing services as needed),
and “Special Class” with student-to-staff ratio of
“8:1:1,” although it left blank the field reserved for
placement recommendations. (See Case I Joint Ex. 53,
at 7–9.) To that end, Coughlin testified that, at the
meeting, she discussed “two programs that [she]
thought might be appropriate and be able to meet the
needs that the committee had determined that [W.E.]
had,” specifically the BOCES programs in Southern
Westchester and Putnam Northern Westchester, (Case
I Hr’g Tr. 179–80), although M.S., writing in an October
17, 2011 email to Coughlin, claimed that M.S. “stated
that it was too late . . . to seriously consider a CSE out
of district placement . . . , given the late date of the
[CSE] meeting,” (Case I Joint Ex. 56; see also Case I
Joint Ex. 58 (Oct. 26, 2011 letter from M.S. to
Coughlin) at 3).5 According to Coughlin, she described
5

Context suggests that BOCES refers to New York’s Boards
of Cooperative Educational Services. See http://www.boces.org/
AboutBOCES/WhatisaBOCES.aspx.

71a
the referral process at the meeting and said that until
the process was complete, neither proposal could be
recommended as a final placement, but that, instead,
all the CSE could offer was interim home instruction
pending the expedited referral process. (See Case I
Hr’g Tr. 191–95.) A bit later on, on November 2, 2011,
the Parents received a draft IEP when copied on a
letter from Coughlin to the intake coordinator at the
Southern Westchester BOCES. (See Case I Joint Ex.
59.) Later that month, M.S. visited the Southern
Westchester and W.A. visited the Putnam Northern
Westchester program; however, M.S. indicated that
W.E. would not be available to visit either. (See Case I
Joint Ex. 63; Case II Hr’g Tr. 1168; see also Def.’s 56.1
¶¶ 56.1 89–90; Pls.’ 56.1 ¶¶ 89–90.) During those
visits, M.S. learned that the placements had a 12:1:1
student-to-teacher ratio, (see Case I Joint Ex. 63, at 2),
rather than the 8:1:1 ratio listed on the draft IEP, (see
Case I Joint Ex. 53, at 8; see also Pls.’ Cross 56.1
¶¶ 526–27; Def.’s Cross 56.1 ¶¶ 526–27).
Despite these discussions of possibly placing W.E.
in a BOCES program, on August 9, 2011, M.S. raised
for the first time in a phone call with Coughlin that the
Parents may seek tuition reimbursement for their
unilateral placement of W.E. at Northwood. (See Case
I Hr’g Tr. 168; see also Def.’s 56.1 ¶ 112; Pls.’ 56.1
¶ 112.) By letter dated August 30, 2011, the Parents
formally informed the superintendent that they were
withdrawing W.E. from the District and further
indicated that they had informed the committee the
week before. (See Case I Joint Ex. 54.)

72a
W.E., in fact, attended Northwood for his freshman and sophomore years, (Pls.’ Cross 56.1 ¶ 265;
Def.’s Cross 56.1 ¶ 265); however, the process by which
he came to attend a private school began earlier, with
the Parents having requested that transcripts be sent
to area private schools in mid-January 2011, (see Case
I Def.’s Ex. 11 (transcript requests); see also Def.’s 56.1
¶ 91; Pls.’ 56.1 ¶ 91; Pls.’ Cross 56.1 ¶¶ 299–300; Def.’s
Cross 56.1 ¶¶ 299–300). Plaintiffs learned of Northwood through one of W.A.’s colleagues, whose son was
experiencing anxiety and depression in public high
school. (See Case I Hr’g Tr. 1802; see also Def.’s 56.1
¶ 92; Pls.’ 56.1 ¶ 92.) M.S. visited Northwood with W.E.
in late February 2011, and, after receiving a tour, W.E.
grabbed M.S.’s coat and said, “Can I go here?” (See Case
I Hr’g Tr. 1803–04; see also Def.’s 56.1 ¶¶ 93–94; Pls.’
56.1 ¶¶ 93–94; Pls.’ Cross 56.1 ¶ 301; Def.’s Cross 56.1
¶ 301.) Shortly thereafter, Plaintiffs submitted W.E.’s
application, and after W.E. was admitted, signed a
contract for enrollment in March 2011, mailed a $2,500
deposit, purchased tuition insurance at a cost of
approximately $1,700, visited the school again with
W.A., and sent an email to the school in late May with
the subject line “Incoming ninth grader [W.E.],”
indicating that W.E. would be attending in the fall for
ninth grade. (See Case I Joint Ex. 20a (records request); Case I Pls.’ Exs. B (enrollment contract), II
(Northwood application); Case I Def.’s Exs. 53 (Northwood admission letter), 55 (email from M.S. to Northwood (Feb. 8, 2012)); see also Def.’s 56.1 ¶¶ 95–101; Pls.’
56.1 ¶¶ 95–101; Pls.’ Cross 56.1 ¶¶ 302–05; Def.’s Cross
56.1 ¶¶ 302–05.) The School was aware of W.E.’s

73a
unique needs when it accepted him. (See Case I Hr’g
Tr. 1560–61; see also Pls.’ Cross 56.1 ¶ 310; Def.’s Cross
56.1 ¶ 310.) M.S. explained her application by indicating that she “hop[ed] for a public placement” such that
“[W.E.] could stay in the school district,” but, “at the
same time[,] . . . had to look out for [W.E.’s] interests
and come up with something that was a change for him
and would improve his health and allow him to access
his education.” (Case I Hr’g Tr. 1956–57.)
Despite the ongoing consideration of private school,
the Parties dispute when Plaintiffs first raised the
issue of W.E. attending private school. According to
Defendant, it was not until a mid-July 2011 telephone
call with Coughlin that M.S. mentioned the possibility.
(See Def.’s 56.1 ¶ 102 (citing Case I Hr’g Tr. 156)).
Plaintiffs assert that M.S. informed the CSE in midMay 2011. (See Pls.’ 56.1 ¶ 102 (citing Case I Def.’s Ex.
25 (May 25 notes)).) Notes from Dr. Robins from as
early as April 2011 and Dr. Williams from as early as
May 2011 allude to W.E. attending or considering
attending private school, including a reference to
Northwood. (See Case I Def.’s Exs. 38 (notes), 41
(notes); see also Def.’s 56.1 ¶¶ 105–10; Pls.’ ¶¶ 105–10.)
3. W.E.’s Freshman Year at Northwood
Before describing W.E.’s performance at Northwood, it bears discussing the school itself. Northwood
describes itself as a small supportive, college
preparatory school, and it focuses on and endeavors to
incorporate into all things five core values: integrity,

74a
compassion, responsibility, courage, and respect. (See
Case I Hr’g Tr. 1552–53; Case I Pls.’ Ex. LL (Northwood
promotional material); Case II Hr’g Tr. 599–600; see
also Pls.’ Cross 56.1 ¶¶ 269, 280–81, 284; Def.’s Cross
56.1 ¶¶ 269, 280–81, 284.) It purports to take steps to
allow for its students to be distinct individuals. (See
Case II Hr’g Tr. 590; see also Pls.’ Cross 56.1 ¶ 282;
Def.’s Cross 56.1 ¶ 282.) In at least some classes, the
students and teacher discuss the material while seated
around a large oval table in a manner such that a
student “[cannot] get through a class without being
asked something or being forced to participate.” (Case
II Hr’g Tr. 384–86.) Its student body is a mix of day
and boarding students and the student-teacher ratio
for W.E.’s classes is below 8:1, (see Case I Hr’g Tr. 1558,
1807; Case II Hr’g Tr. 400; see also Pls.’ Cross 56.1
¶¶ 270–73; Def.’s Cross 56.1 ¶¶ 270–73), although its
average class size is probably between 10 and 12
students, (see Case II Hr’g Tr. 445). The school also has
two fulltime nurses, and its faculty is around the
students regularly. (See Case I Hr’g Tr. 1561, Case II
Hr’g Tr. 365–66, 441, 610–11; see also Pls.’ Cross 56.1
¶¶ 274, 283; Def.’s Cross 56.1 ¶¶ 274, 283.) The School
does not have a consulting psychologist or consulting
psychiatrist on staff. (See Case II Hr’g Tr. 463.) During
the afternoon, students have an organized study
period in the school library, and, for boarders, there is
an additional two-hour mandatory study period each
evening, during which time the school disconnects
internet access and requires students to work away
from their computers for the first hour. (See Case I
Hr’g Tr. 1577, 1782–83, 1817; see also Pls.’ Cross 56.1

75a
¶¶ 276–78; Def.’s Cross 56.1 ¶¶ 276–78.) The school
also provides a number of outdoor activities, which Dr.
Robins indicated would be therapeutic for W.E., and
W.E. participated in community service as well as a
rock-climbing program where he was responsible for
the safety of others. (See Case I Hr’g Tr. 1555–58, 1565;
Case II Hr’g Tr. 1057; see also Pls.’ Cross 56.1 ¶¶ 287–
88, 350; Def.’s Cross 56.1 ¶¶ 287–88, 350.)
The Parties take different positions on the extent
to which the School could be termed therapeutic,
although they point to much of the same testimony. At
the hearing, Donald Mellor (“Mellor”), an English
teacher and Northwood counselor, explained that
while the School “[is] not a therapeutic school” and
“[does not] claim to be,” it is nevertheless “by nature
therapeutic,” (Case I Hr’g Tr. 1541, 1550, 1581; see also
Case I Hr’g Tr. 1806 (testimony by M.S. that the School
“was a therapeutic environment without being overtly
therapeutic”)), and that, for some students, the school
is “really good medicine,” (Case II Hr’g Tr. 590).
Additionally, in a September 2, 2011 email to M.S.,
Mellor stressed that while Northwood “[does not] call
[itself ] a therapeutic school,” its staff “ha[d] a lot of
faith in the school’s therapeutic culture,” and indicated
that he “trust[ed] that [W.E.] . . . [would] see [it] as a
positive and psychologically safe place.” (Case I Pls.’
Ex. VV; see also Pls.’ Cross 56.1 ¶¶ 364–65; Def.’s Cross
56.1 ¶¶ 364–65; Case II Hr’g Tr. 655, 658 (indicating
that Mellor testified that the School strove to be
“psychologically safe,” but that philosophy was “not
codified enough”).)

76a
When W.E. began at Northwood in September
2011, he was one of 17 students in his freshman class.
(See Pls.’ Cross 56.1 ¶¶ 307–08; Def.’s Cross 56.1
¶¶ 307–08.) That year, he took English, Spanish,
Geometry, Honors Biology, and World Cultures, (see
Case I Pls.’ Ex. PP (1st marking period report card)),
earning passing grades in each, (see id.; Case I Hr’g Tr.
1815; see also Pls.’ Cross 56.1 ¶ 311; Def.’s Cross 56.1
¶ 311). In addition, Northwood ensured that W.E.’s
teachers were aware of an accommodation plan for
W.E.’s freshman year, (see Case I Hr’g Tr. 1562–64,
1789–90, 1807; Case II Hr’g Tr. 434–48; Aff. of Redacted in Supp. of Pls.’ Cross Mot. for Summ. J. (“John
Doe Aff.”) (Dkt. No. 39); Pls.’ Cross 56.1 ¶¶ 312, 314;
Def.’s Cross 56.1 ¶¶ 312, 314), which provided for (1)
extended time for in-class assignments, (2) preferential seating, (3) the provision of graphic organizers
or guided notes to support information presented
verbally, and (4) regular counseling sessions with the
school counselor, (see Case I Pls.’ Ex. MM). According
to testimony from John Spear (“Spear”), the director
of college guidance at Northwood, there was an “initial
accommodation plan that was developed in August
or very early September,” but that it was “revised
. . . a little bit” after meeting with the family to review
the District’s new IEP and then distributed to the
teachers. (See Case II Hr’g Tr. 423–24, 434–35.)6
6

In paragraph 315 of their Cross 56.1 statement, Plaintiffs
assert that “Administrator [redacted] distributed the plan to each
teacher at the start of the school year,” citing a portion of the
above-cited hearing transcript as well as “Affidavit of [redacted]
dated May 22, 2015.” The Court takes it that this is a reference

77a

to the “Affidavit of [redacted]” dated May 18, 2015, in which
Northwood’s College Guidance Director indicated that he, “[a]s a
general practice, just before the start of the year, . . . [would] meet
with the specific faculty members who will teach [a] student [who
has a specific accommodation plan] during the upcoming year and
cover what information [the School] ha[d] about the student and
the provisions . . . of the student’s plan.” (John Doe Aff. ¶¶ 1, 12.)
Defendant objects on the grounds that the affidavit was not
offered during the impartial hearings or appeals to the SRO in
either case. (Def.’s Cross 56.1 ¶ 314.) However, “[t]his Court may
consider evidence that is not part of the administrative record at
the request of a party.” J.C. v. N.Y.C. Dep’t of Educ., No. 15-CV3345, 2015 WL 8940044, at *15 (S.D.N.Y. Dec. 16, 2015) (citing,
inter alia, 20 U.S.C. § 1415(i)(2)(C)(ii)), adopted by 2016 WL
828138 (S.D.N.Y. Feb. 29, 2016); see also Grim v. Rhinebeck Cent.
Sch. Dist., 346 F.3d 377, 380 (2d Cir. 2003) (“Federal courts reviewing administrative determinations under the IDEA must base
their decisions on the preponderance of the evidence, taking into
account not only the record from the administrative proceedings,
but also any further evidence presented before the District Court
by the parties.” (internal quotation marks omitted)). “[C]ourts
generally accept evidence that was not withheld in bad faith, is
relevant, and does not change the administrative review into a
trial de novo.” G.B. ex rel. N.B. v. Tuxedo Union Free Sch. Dist.,
751 F. Supp. 2d 552, 554 n.1 (S.D.N.Y. 2010), aff ’d sub nom. G.B.
v. Tuxedo Union Free Sch. Dist., 486 F. Appx. 954 (2d Cir. 2012).
Here, although Defendant argues that Plaintiffs’ submission
of this affidavit checks all three boxes, (see Def.’s Reply Mem. of
Law in Supp. of Mot. for Summ. J. & To Amend Answer 14–15
(Dkt. No. 43)), it singles out for particular emphasis that Plaintiffs never gave any indication in the administrative proceedings
below that they wished to call the affiant as a witness. While the
decision to provide an affidavit from a witness who could have
testified (and, therefore, been cross-examined), may, at least at
times, fairly raise eyebrows, the Court is not convinced that
circumstances here reveal bad faith or present evidence that is
either irrelevant or would lead to a “trial de novo.” G.B., 751
F. Supp. 2d at 554 n.1.

78a
Additionally, Spear testified that he would talk with
teachers about students informally throughout the
year and would make announcements concerning
students with accommodation plans at faculty meetings, including “reinforc[ing] . . . accommodations that
students have.” (See Case II Hr’g Tr. 464–66.)
The record also contains evidence concerning how
W.E.’s interaction with School employees, including as
part of his plan, worked in practice. Plaintiff had a
nurse assigned as his faculty advisor, and another
nurse lived on the end of his dormitory floor. (See Case
I Hr’g Tr. 1561–62; see also Pls.’ Cross 56.1 ¶¶ 319–20;
Def.’s Cross 56.1 ¶¶ 319–20.) According to Spear, the
nurses are on call 24 hours a day, although they are
generally in their office for only certain portions of the
day. (See Case II Hr’g Tr. 438–39.) Nevertheless, M.S.
testified that W.E. received very careful monitoring
from the nurses. (See Case II Hr’g Tr. 1236–37, 1239;
see also Case II Pls.’ Exs. T, U (logs).) Additionally, with
respect to counseling, Mellor’s sessions with W.E. were
initially “very structured,” but later “certainly got less
formal,” and included, for instance, Mellor stopping by
W.E.’s room to chat or “walk[ing] a trail on the way to
a cliff.” (Case I Hr’g Tr. 1564; see also Case II Hr’g Tr.
621–24.) As Mellor explained it, the approach changed
because, while in Mellor’s office, “it seemed clear to
[Mellor] early on that [W.E.] just fidgeted and didn’t
want to have these conversations,” saying as little as
he could. (Case II Hr’g Tr. 622.) As a result, Mellor
“got creative” even though he “[thought] [W.E.’s]
parents expected [him] to have a weekly meeting year

79a
long.” (Case II Hr’g Tr. 623.)7 Mellor, who was not a
New York State certified teacher and who had never
worked in a school district as a school counselor, did
not perform an official or documented observation of
W.E. in class and did not take notes from his counseling sessions. (See Case I Hr’g Tr. 1749–50, 1770; see
also Def.’s 56.1 ¶¶ 116–17, 121; Pls.’ 56.1 ¶¶ 116–17,
121.)
In many regards, W.E.’s performance improved
while at Northwood. With respect to grades, W.E.
earned marks ranging from a C to an A- during the
first semester of his freshman year, (see Case I Pls.’ Ex.
TT (2nd marking period report card)), and grades
between C + and A during his second semester, (see
Case I Pls.’ Ex. PP (1st marking period report card)).
Additionally, M.S. felt that W.E.’s work improved in a
number of ways, (see Case I Hr’g Tr. 1818–20; see also
Pls.’ Cross 56.1 ¶¶ 337–42; Def.’s Cross 56.1 ¶¶ 337–
42), and at least some teachers praised W.E.’s performance, including one who noted that he was
participating in class, (see Case I Hr’g Tr. 1816; see also
Pls.’ Cross 56.1 ¶ 333; Def.’s Cross 56.1 ¶ 333), and
another who observed that he was one of the strongest
students in geometry, (see Case I Hr’g Tr. 1820; see also
Pls.’ Cross 56.1 ¶ 343; Def.’s Cross 56.1 ¶ 343).
Additionally, W.E. went from missing over 100 days of
school due to migraines to missing just nine, (see Case
7

Perhaps in light of this informal approach, Defendant, in
its cross 56.1 statement, disputes that W.E. received counseling
or therapy during 10th grade, (see Def.’s Cross 56.1 ¶¶ 392–93),
albeit without citation to the record when doing so.

80a
I Joint Ex. 67 (8th grade attendance summary); Case
II Pls.’ Exs. T, U (logs); see also Pls.’ Cross 56.1 ¶ 328;
Def.’s Cross 56.1 ¶ 328), consistent with an improvement in health that M.S. attributes at least in part to
Northwood, including its “seamless” environment and
supportive peer structure, (see Case I Hr’g Tr. 1814;
Case II Hr’g Tr. 829; see also Pls.’ Cross 56.1 ¶¶ 363,
367; Def.’s Cross 56.1 ¶¶ 363, 367). Moreover, W.E.
came to be socially well-integrated at Northwood, (see
Case I Hr’g Tr. 1063, 1565–66, 1579–80; Case II Hr’g
Tr. 603; see also Pls.’ Cross 56.1 ¶¶ 330, 354; Def.’s
Cross 56.1 ¶¶ 330, 354), and gained additional selfconfidence, growing more comfortable in his own skin,
(see Case II Hr’g Tr. 427–28, 443–44; see also Pls.’ Cross
56.1 ¶ 351; Def.’s Cross 56.1 ¶ 351), which M.S. and,
somewhat less full-throatedly, Spear attribute at least
in part to the small class sizes, (see Case II Hr’g Tr.
443–44, 826). M.S. also believes that the accessibility
of the staff and ability to see teachers on the weekend
helped W.E. (See Case II Hr’g Tr. 850.) In terms of
personal characteristics, the faculty noted that W.E.
was growing appropriately, (see id. at 428, 611; see also
Pls.’ Cross 56.1 ¶ 352; Def.’s Cross 56.1 ¶ 352), Mellor
testified that his teachers “love[d] him,” explaining
that W.E. “is just a nice funny guy who seems really
well received,” (Case I Hr’g Tr. 1778), and his English
teacher noted that the other students appreciate his
intelligence, quirkiness, and genuineness, (see Case II
Hr’g Tr. 610; see also Pls.’ Cross 56.1 ¶ 353; Def.’s Cross
56.1 ¶ 353).

81a
From a health and psychological perspective, W.E.
experienced positive changes during his first year at
Northwood. By the end of his freshman year, W.E. had
tapered off his prescribed Depakote, Amitriptyline,
and Zoloft. (See Case II Hr’g Tr. 827; see also Pls. Cross
56.1 ¶¶ 424, 586; Def.’s Cross 56.1 ¶¶ 424, 586.)
Moreover, whereas, according to Dr. Robins, W.E.’s “T
Score” on his BASC-2 test for his attitude toward
school was, he believed, 63, a score which would
“typically . . . [be] considered to be sort of at risk,”
albeit not clinically significant, (Case I Hr’g Tr. 1446–
48, 1451), by 2010, “[a]ll of [W.E.’s] T scores were below
60,” which was not in the at-risk range, (id. at 1447–
48). Additionally, Dr. Williams posited that the School
“appear[ed] to be highly appropriate [for W.E.] as
reflected in his dramatic improvement in headache
frequency that ha[d] persisted for the first time in
previous years beyond the summer well into the fall
term and its conclusion.” (Case I Hr’g Tr. 925.)
Nevertheless, there is some evidence that W.E.’s
freshman year was short of an unqualified success.
W.E.’s teachers also noted that he struggled with
handing in homework assignments on time, staying
organized, and preparing for class. (See Case I Pls.’
Exs. PP (1st marking period report card), TT (2nd
marking period report card); see also Def.’s 56.1 ¶ 115;
Pls.’ 56.1 ¶ 115.) More specifically, W.E.’s Spanish
teacher opined that W.E. had “shown that he [was]
fully capable of succeeding in his Spanish studies” and
that the teacher “expect[ed] more from him,” (Pls.’ Case
II Ex. H, at 1–2), an observation not dissimilar from

82a
one made by W.E.’s honors biology teacher, who said
that while “[W.E.] usually worked hard,” his grades
“were not always at the level [she] kn[e]w he [was]
capable of achieving,” (id. at 2). Moreover, W.E.’s Spanish teacher also noted W.E.’s “poor” “behavior in class,”
citing an occasion when the teacher had to remove him
from class for rude remarks made to another student.
(See id.; see also Def.’s 56.1 ¶ 131; Pls.’ 56.1 ¶ 131.)
Additionally, despite a strong performance in Geometry first semester, W.E.’s teacher observed that he
“limped to the finish line.” (Pls.’ Case II Ex. H, at 2.)
4. The District Prepares for W.E.’s Sophomore Year
Despite W.E.’s attendance at Northwood, the District persisted in formulating a program recommendation for the 2012–13, beginning the process in April
2012. (See Case II Hr’g Tr. 78; see also Def.’s 56.1 ¶ 125;
Pls.’ 56.1 ¶ 125.) Coughlin testified that she sought
information from Northwood, an update on his
behavioral assessment, as well as a report card, and
that she also observed W.E. in his English class, where
she described W.E. as having various levels of
engagement and sitting in a slumped posture with his
head on the table at times. (See Case II Hr’g Tr. 79,
108–09; Case II Def.’s Ex. 6 (Coughlin observation
form); see also Def.’s 56.1 ¶¶ 126–27; Pls.’ 56.1 ¶¶ 126–
27.) Coughlin received the teachers’ reports in early
June 2012. (See Case II Def.’s Ex. 8 (teacher evaluation reports); see also Def.’s 56.1 ¶ 128; Pls.’ 56.1
¶ 128.) In those reports, W.E.’s English teacher noted

83a
that although W.E.’s “ability to critically think put[ ]
him at the top of his class,” he needed to focus on
“organizational skills” and struggled with coming to
class prepared and completing homework; his Spanish
teacher, in addition to noting the incident where W.E.
had to be removed from class, reported that he had
difficulty coming to class prepared and completing
homework assignments; and W.E.’s science teacher
observed that his migraines “seem[ed] to be triggered
by stress,” which “le[ ]d to lack of sleep which feeds into
the whole cycle of disorganization[ ] [and] missing
class/missing assignments.” (See Case II Def.’s Ex. 8
(teacher evaluation reports), at unnumbered 2, 4, 5; see
also Def.’s 56.1 ¶¶ 129–32; Pls.’ 56.1 ¶¶ 129–32.) Additionally, in early June 2012, Coughlin received W.E.’s
report card from the third marking period, which noted
that W.E. had failed to turn in assignments on time or
at all, had shown up unprepared for class, and
demonstrated an inconsistent focus and alertness in
class, sometimes placing his head on his desk for a
brief nap. (See Case II Def.’s Ex. 15 (3rd marking
period report card); see also Def.’s 56.1 ¶ 134; Pls.’ 56.1
¶ 134.)
Additionally, further testing of W.E. was done that
year. In February 2012, Dr. Robins conducted a BASC2, (see Case I Pls.’ Ex. HH (Feb. 2012 BASC-2)), which
Dr. Robins testified showed no at-risk scores and
showed a striking improvement with respect to W.E.’s
attitude towards school, (see Case I Hr’g Tr. 1448–51).
Shortly thereafter, two Northwood teachers completed the BASC-2 for W.E. in May of 2012; however,

84a
according to Dr. Lupiani, the District’s school psychologist who scored these responses, W.E.’s English teacher
rated him as clinically significant for somatization and
at risk for social skills, (see Case II Def.’s Ex. 13 (Lupiani Psychological Evaluation)), which Dr. Williams
indicated showed that the “persistence of vulnerabilities in [W.E.] in the areas of somatization & social
skills . . . coincided with [Dr. Williams’s] ongoing clinical impressions,” (Case II Def.’s Ex. 17 (Dr. Williams
evaluation), at 2), assertions the Parents purport to
dispute on the ground that they “question the validity
of [Dr. Lupiani’s] ‘psychological evaluation,’ ” as noted
in a letter they sent Coughlin, (see Case II Def.’s Ex. 26
(July 27, 2012 letter), at 4–5; see also Pls.’ 56.1 ¶ 133).
On June 14, 2012, the CSE held W.E.’s annual
review meeting, which the Parents attended. (See
Case II Hr’g Tr. 127; see also Def.’s 56.1 ¶ 135; Pls.’ 56.1
¶ 135; Pls.’ Cross 56.1 ¶ 532; Def.’s Cross 56.1 ¶ 532.)
In addition, Coughlin sent Annie Edwards (“Edwards”),
the Academic Director, an email indicating that she
would like teacher input at the CSE meeting and
expressing “hop[e] that [Edwards] [would] be available
by phone if there [were] no teachers available.” (See
Case II Def.’s Ex. 7, at 1–2.) In connection with that
meeting, Dr. Williams submitted a letter to the CSE
dated June 13, 2012. (See generally Case II Def.’s
Ex. 17 (Dr. Williams evaluation).) In that letter, Dr.
Williams indicated that W.E.’s progress in his first year
had been “remarkable” and that he attributed W.E.’s
progress, “in part, to his placement in a small
supportive, residential school environment that suits

85a
his educational, medical & special emotional needs.”
(Id., at unnumbered 1.) Characterizing W.E.’s progress
as “notable” but “still fragile,” he “[did] not recommend
any school change of placement for the . . . 2012–2013
school year.” (Id., at unnumbered 2.) Additionally, Dr.
Williams’s letter indicated that W.E.’s “GAF score” was
approximately a 65, corresponding to “[m]oderately
severe impairment,” (see id. at 2), in contrast to the
prior year, when Dr. Williams reported a score of 60,
which also indicated “[m]oderately severe impact,” (see
Case II Def.’s Ex. 23 (Letter from Dr. Williams to CSE
(August 11, 2011)), at 38), although, when he testified,
Dr. Williams noted that, over the prior year, there had
been a “change in the psychiatric nomenclature
diagnostically so that they have . . . abolished the GAF
as part of the formal diagnostic code because . . . it has
been difficult to establish a quantifiable, reproducible,
objective assessment that is adequately informative,”
(Case II Hr’g Tr. 1371). In addition, Dr. Lupiani shared
her findings, and Coughlin discussed her observations.
(See id. at 163.)
Also at the meeting, Plaintiffs stated that W.E.
was experiencing fewer migraines, earning grades in
the average range, and was engaged in a variety of
outdoor activities. (See Case II Hr’g Tr. 153–55; see also
Def.’s 56.1 ¶ 138; Pls.’ 56.1 ¶ 138.) Dr. Robins went
over the results of a BASC-2 he had conducted in
February, which did not show any atypical or clinically
significant results, and further advised that W.E. was
experiencing fewer migraines and making progress at
Northwood, in contrast to eighth grade when W.E. was

86a
“not doing well at all.” (See Case I Hr’g Tr. 1443–66;
see also Def.’s 56.1 ¶¶ 137–39; Pls.’ 56.1 ¶¶ 137–39;
Pls.’ Cross 56.1 ¶¶ 538–41; Def.’s Cross 56.1 ¶¶ 538–
41.)
Although Plaintiffs disagree in light of their
contention that the CSE had not completed its
discussion of goals at the meeting, (see Pls.’ 56.1
¶¶ 142–44), the record reflects that the CSE made
several recommendations for IEP goals, (see generally
Case II Def.’s Ex. 19 (draft IEP)), specifically, using a
planner to keep track of assignments and due dates,
(see Case II Hr’g Tr. 164–65), consistently handing in
completed assignments on time, (see id. at 166–67),
seeking appropriate assistance from teachers and
support staff, (see id. at 168), and taking written notes
both in class and copied from a chalkboard, (see id. at
169–71). Afterward, W.E.’s IEP was finalized, (compare
Case II Def.’s Ex. 18 (non-draft IEP), with Case II Def.’s
Ex. 19 (draft IEP)), which recommended a studentteacher ratio of 8:1:1, (see Case II Def.’s Ex. 18 (IEP), at
7), and also recommended, consistent with the
discussion at the CSE, (see Case II Hr’g Tr. 187, 876;
see also Pls.’ Cross 56.1 ¶¶ 568–70; Def.’s Cross 56.1
¶¶ 568–70), participation in the Southern Westchester
BOCES program at Irvington High School’s TSP
program, (see Case II Def.’s Ex. 18 (draft IEP), at 1–2),
which M.S. had earlier visited with W.E. on July 20,
2012, although under the impression that it was a
BOCES program for gifted students, (see Case II Hr’g
Tr. 1071–73). Despite this confusion, as Defendant
observes, (see Def.’s 56.1 ¶ 182; Pls.’ 56.1 ¶ 182), M.S.,

87a
in fact, already had visited the Southern Westchester
BOCES Gifted Special Education Program in November 2011 and rejected it in connection with a prior
referral, (see Case II Def.’s Ex. 35 (Dec. 2011 letter)).8
The discussion of the TSP program with Dr. Penny
Knack (“Dr. Knack”), the BOCES psychologist, led W.E.
to be uninterested in the program. (See Case II Hr’g
Tr. 1071–75; see also Pls.’ Cross 56.1 ¶¶ 590–96; Def.’s
Cross 56.1 ¶¶ 590–96.)
By letter dated July 27, 2012, M.S. informed
Coughlin that she did not think the Southern
Westchester Therapeutic Support-Fragile Program
was an appropriate placement, raised concerns about
the program articulated by Drs. Lasser and Robins,
and made a variety of other requests, (see Case II Def.’s
Ex. 26 (July 2012 letter); see also Pls.’ Cross 56.1
¶¶ 600, 604, 606, 609–13; Def.’s Cross 56.1 ¶¶ 600, 604,
606, 609–13), although the District formally recommended the program to the Parents by letter dated
August 15, 2012, (see Case II Def.’s Ex. 28 (letter from
District Office of Special Education to Parents (Aug.
15, 2012))). On August 15, 2012, the CSE also held a
meeting, attended by M.S., Coughlin, Dr. Knack, and
others. (See Case II Hr’g Tr. 1083–84.) In advance of
that meeting, M.S. requested that her July 27, 2012
letter be distributed. (See id.) Although Dr. Knack had
8

Plaintiffs also point to evidence in the record concerning
what they take to be Defendant’s deficient efforts at placing W.E.
in another program. (See Pls.’ Cross 56.1 ¶¶ 588–89; Def.’s Cross
56.1 ¶¶ 588–89.) This evidence is, however, immaterial to the
instant Motions.

88a
originally proposed that W.E. not be in fully mainstream courses for at least the first six months, (see
Case II Hr’g Tr. 1074; Case II Def.’s Ex. 26, at 2), at the
CSE meeting, she said that W.E. could take any
mainstream class that he wanted at the BOCES, even
though mainstream classes do not have a 8:1:1 student
to teacher ratio, (see Case II Hr’g Tr. 1085–86; see also
Pls.’ Cross 56.1 ¶¶ 625–28; Def.’s Cross 56.1 ¶¶ 625–
28). At the meeting, the Parents also shared concerns
over the proposed placement. (See Case II Hr’g Tr. 541,
1091–92, 1104; see also Pls.’ Cross 56.1 ¶¶ 643, 645–46;
Def.’s Cross 56.1 ¶¶ 643, 645–46.) After the meeting,
Coughlin edited the IEP to indicate that W.E. would be
scheduled for general education classes in math,
science, and English. (See Case II Hr’g Tr. 239–41;
Case II Def.’s Ex. 18 (IEP), at 10; see also Pls.’ Cross
56.1 ¶¶ 677–78; Def.’s Cross 56.1 ¶¶ 677–78.) The
Parents received the IEP on September 11, 2012, (see
Case II Hr’g Tr. 1096), and rejected the IEP in a
twelve-page letter to the superintendent dated September 20, 2012, (see Case II Pls.’ Ex. AA).9
5. W.E.’s Sophomore Year
Northwood accepted W.E. for reenrollment for his
sophomore year on February 29, 2012, (see Case II
Def.’s Ex. 33; see also Def.’s 56.1 ¶ 155; Pls.’ 56.1 ¶ 155);
9

The Parents also stress that they objected to many of the
goals in the draft IEP while at the meeting and that they believed
they would have an opportunity to revisit the goals before the IEP
was finalized. (See Case II Hr’g Tr. 874–75; see also Pls.’ Cross
56.1 ¶¶ 557–61; Def.’s Cross 56.1 ¶¶ 557–61.)

89a
the Parents signed a contract in approximately April
2012, (see Case II Hr’g Tr. 1140–41); and W.E. returned
to the School for his sophomore year, which again
established an accommodation plan and ensured
faculty members were aware of and received copies of
it, (see Case II Pls.’ Exs. C, D (accommodation plans);
Case II Def.’s Ex. 27 (2012–13 placement rejection); see
also Pls.’ Cross 56.1 ¶¶ 369–70, 382–84; Def.’s Cross
56.1 ¶¶ 369–70, 382–84). This second official accommodation plan, after some modification, listed seven
“educational accommodations” for W.E.’s sophomore
year, comprising (1) extended time for in-class assignments, (2) preferential seating, (3) graphic organizers
or guided notes to support information presented
verbally, (4) individualized/regular counseling sessions
with the school counselor, (5) “[a]ssistive technology:
iPad for use in class,” (6) supervised study hall, and
(7) access to a school nurse. (See Case II Pls.’ Exs. C, D
(accommodation plans); see also Pls.’ Cross 56.1
¶¶ 371–73; Def.’s Cross 56.1 ¶¶ 371–73.)
Among the changes made between the two drafts
were to add the iPad provision and to add “supervised
study hall” as a formal requirement. (Compare Case II
Pls.’ Ex. C, with Case II Pls.’ Second Ex. D.) The
inclusion of the iPad requirement, according to M.S.,
came about after W.E. had been using an iPad in
chemistry “because it was an iPad[-]only course,” and
it was found that use of the iPad “seemed to be helping
him based on what the chemistry teacher had told
[her],” (Case II Hr’g Tr. 834), although Spear testified
that, generally, all Northwood students have the

90a
opportunity to use an iPad in class at Northwood, (see
Case II Hr’g Tr. 452; see also Def.’s 56.1 ¶ 163; Pls.’ 56.1
¶ 163). There is evidence that the use of the iPad
helped W.E. outside of chemistry, too, with his history
teacher describing it as “huge” for him in that it was
organizationally helpful, (see Case II Hr’g Tr. 371, 378,
380–83; see also Pls.’ Cross 56.1 ¶¶ 377–79; Def.’s Cross
56.1 ¶¶ 377–79), a sentiment echoed by M.S., (see Case
II Hr’g Tr. 824 (noting W.E.’s use of the iPad for organizational purposes)). With respect to the supervised
study hall, Spear testified that, in addition to the mandatory evening study hall that all students have, W.E.
opted to convert one of his free periods into a supervised study hall. (See Case II Hr’g Tr. 441.) Spear
characterized W.E.’s request to participate in this
second study hall as a display of “maturity and selfadvocacy.” (Id. at 442.)
There is also evidence in the record concerning
how unique W.E.’s accommodations were at Northwood and the extent to which his teachers were aware
of the plan. The testifying teachers knew of W.E.’s
preferential seating requirements, his entitlement to
additional time for tests, and his entitlement to a
separate, quiet room for tests, although at least one
teacher (who also provided guided notes to W.E.)
testified that W.E. generally did not remove himself to
an independent test room, (see Case II Hr’g Tr. 377–79,
381, 619; Pls.’ Cross 56.1 ¶¶ 386–87; Def.’s Cross 56.1
¶¶ 386–87), and that teacher did not limit test taking
time for any of his students, (see Case II Hr’g Tr. 619–
21; see also Def.’s 56.1 ¶ 167; Pls.’ 56.1 ¶ 167).

91a
Furthermore, Northwood students participate in at
least the evening study hall and have access to nursing
services. (See Case II Hr’g Tr. 441, 456–57; see also
Def.’s 56.1 ¶¶ 164–66; Pls.’ 56.1 ¶¶ 164–66.)
Additionally, Mellor testified to continuing counseling with W.E., albeit frequently in an informal
sense. When asked how often Mellor saw W.E. in his
role as counselor, Mellor explained that, “if [that
question means] how frequently is [W.E.] sitting in
[Mellor’s] office on a regularly scheduled meeting, not
too often.” (Case II Hr’g Tr. 621.) When asked how
Mellor conducted his informal counseling meetings
during W.E.’s sophomore year, he testified that, “[m]ost
of the time[,] it’s down in [W.E.’s] room,” and that
“[Mellor] just walk[s] in and take[s] a few minutes to
shut the door behind [himself ] and chat [W.E.] up.”
(Case II Hr’g Tr. 624.) When asked whether Mellor
“provide[s] regular counseling sessions for [W.E.],”
Mellor explained that, “[i]f the definition is an assigned
regular [sic] in the office, the answer is no,” but that,
“[i]f the definition is regular purposeful attentive
conversations by [Mellor] to see how [W.E.] is doing and
to either coach or prod or ask, then the answer is yes.”
(Case II Hr’g Tr. 649.) When asked whether Mellor
engages in “purposeful attentive conversations to
gauge how [a student] is doing” for other students, too,
Mellor initially said, “[y]es,” before adding that “there
were students whom [he] [had not] spoken in a month
[sic],” so “if [he] [were to] say yes to the word ‘all’ and
then [sic] that’s not true,” but that it is “the routine of

92a
Northwood School and . . . the routine of [Mellor’s] job.”
(Case II Hr’g Tr. 649.)
Beyond the accommodation plan, in a June 2012
letter to the CSE, copying the Parents, Dr. Williams
“advocat[ed] that the supportive, informal counseling
that was provided by one of [W.E.’s] teachers during
the past academic year[ ] be supplemented by a more
systematic psychotherapy program in the coming year,
to more effectively address those areas of continuing
vulnerability with which [W.E.] continues to struggle.”
(Case II Def.’s Ex. 17 (Dr. Williams evaluation).)
Although the Parents initially “gave [W.E.] the benefit
. . . of his preference to not have the formal counseling,”
“there were still issues he had to deal with,” and, so, in
February or March 2013, a social worker was found
for W.E. to see in Mellor’s office on a weekly basis, (see
Case II Hr’g Tr. 838, 1264–65, 1277). The Parents
handled the paperwork for the social worker to meet
with W.E. (See Case II Hr’g Tr. 1282.) In addition, the
Parents identified Dr. Havlicek as a possible treating
psychologist, but both Mellor and Dr. Williams advised
against his services. (See Case II Hr’g Tr. 628, 840; see
also Pls.’ Cross 56.1 ¶ 405; Def.’s Cross 56.1 ¶ 405.)
Moreover, staff from the school informally checked in
on W.E. as well: his history and English teachers
stopped in to see how he was doing, (see Case II Hr’g
Tr. 375–76, 613; see also Pls.’ Cross 56.1 ¶¶ 409–10;
Def.’s Cross 56.1 ¶¶ 409–10), and, according to one of
W.E.’s teachers, the nurses would try to check up on
him as well, (see Case II Hr’g Tr. 376–77).

93a
There is also evidence to suggest, by at least some
measures, W.E. had a successful sophomore year. W.E.
took chemistry, algebra II & trigonometry, history, and
Spanish II, (Pls.’ Cross 56.1 ¶ 396; Def.’s Cross 56.1
¶ 396), earning a mix of grades between C+ and A-, (see
Case II Pls.’ Ex. L (3rd marking period report card)).
Within those classes, however, W.E.’s performance was
uneven, and one of W.E.’s teachers testified that while
“[h]is memory is great for an end of the year review,”
he “doesn’t always keep” “small . . . , potentially insignificant facts” as needed for a quiz that deals with
them. (Case II Hr’g Tr. 372.) Another one of his
teachers remarked that he must be in the top six
students in a class of 40 or so, (see id. at 608–09), but
also commented that W.E. would at times not do
homework assignments and would become disengaged
if a particular class did not interest him, (see id. at
606–09; see also Def.’s 56.1 ¶ 157; Pls.’ 56.1 ¶ 157). The
comments on W.E.’s report cards were similarly mixed,
indicating that W.E. showed a lack of engagement at
times and that some teachers reported late and
missing assignments, poor quiz grades in English, and
occasional inappropriate behavior in class. (See Case
II Pls.’ Exs. I, J, L (report cards); see also Def.’s 56.1
¶ 158; Pls.’ 56.1 ¶ 158.)10 Regarding extracurricular
activities, W.E. participated in an outdoor program in
10

Plaintiffs argue that Defendant’s assertion does not provide appropriate context, as, they say, W.E.’s first-quarter report
card for English indicated that W.E.’s ability to think critically
put him at the top of the class. (See Pls.’ 56.1 ¶ 158.) That quote,
however, is actually from the previous year’s fourth-quarter
report card. (See Case II Pls.’ Ex. H.)

94a
Yellowstone with a group of teenagers, and he also
played goalie in soccer, whereas in eighth and ninth
grade, he had been unable to play soccer at all. (See
Case II Hr’g Tr. 1057; see also Pls.’ Cross 56.1 ¶ 416;
Def.’s Cross 56.1 ¶ 416.) On a personal level, W.E.’s
confidence and comfort continued to grow, with W.E.
delivering a presentation in front of the whole school
without shyness or difficulty, sharing his opinion in
class, and coming to have a good circle of friends. (See
Case II Hr’g Tr. 392, 427–28, 430; see also Pls.’ Cross
56.1 ¶¶ 414–15, 419–20; Def.’s Cross 56.1 ¶¶ 414–15,
419–20.) In terms of health, W.E. had a particularly
severe migraine in May 2013, in connection with which
the nurse indicated that W.E. “may have to go home to
heal if needed for the week if he [could not] leave his
room to attend class, sports[,] and spring program.”
(See Case II Pls.’ Ex. T.)
6. The Doctors’ Perspective
There is evidence that various medical professionals regarded Northwood as a good fit or otherwise
noted positive changes in W.E. after his freshman
and/or sophomore year. Specifically, Dr. Williams testified that the School was appropriate for W.E.’s needs,
including his emotional needs, at least as reflected in
his dramatic improvement in headache frequency. (See
Case I Hr’g Tr. 925; see also Pls.’ Cross 56.1 ¶¶ 430–31;
Def.’s Cross 56.1 ¶¶ 430–31.) Dr. Williams noted that
he estimated that W.E. likely had a GAF score around
70, although subject to the caveat that the GAF had
been abolished as part of the formal diagnostic code.

95a
(See Case II Hr’g Tr. 1371.) Moreover, Dr. Robins
testified that the School was a “sort of treasure chest,”
uniquely suited to W.E.’s needs, and further positively
noted its close association to a camp and that W.E.
picked it. (See Case I Hr’g Tr. 1043–44, 1059, 1063–64;
Case II Hr’g Tr. 944–46; see also Pls.’ Cross 56.1
¶¶ 432–37; Def.’s Cross 56.1 ¶¶ 432–37.) The School’s
size also helped, Dr. Robins indicated, inasmuch as a
smaller school would enable W.E.’s teachers to get to
know him better and would allow W.E. to feel more
comfortable. (See Case I Hr’g Tr. 1042, 1056; see also
Pls.’ Cross 56.1 ¶¶ 453, 455; Def.’s Cross 56.1 ¶¶ 453,
455.) Similarly, Dr. Robins believed that it was important to break up W.E.’s time, allowing for physical
activities between class work and studying, (see Case
II Hr’g Tr. 966; see also Pls.’ Cross 56.1 ¶ 460; Def.’s
Cross 56.1 ¶ 460), and, indeed, that factors such as the
structure provided throughout the day prompted
positive changes in W.E, (see Case II Hr’g Tr. 946).
Likewise, Dr. Robins attributed W.E.’s improved
BASC-2 scores to Northwood and testified to his view
that W.E. was in better mental health, more engaged
in school, and felt as though he was not quite as
hopeless as in the past. (See Case I Hr’g Tr. 1453, 1462,
1464–66; see also Pls.’ Cross 56.1 ¶¶ 440–44; Def.’s
Cross 56.1 ¶ 440–44.) Dr. Robins further testified that
he did not believe a day program would provide the
same benefit as the boarding aspect of the program,
(see Case II Hr’g Tr. 951), and, according to M.S.,
having W.E. in a “seamless educational environment
where there wouldn’t be a distinction between home
and school” was educationally necessary, so that the

96a
experience of having a migraine would not prevent him
from having to go out into the world, (see Case II Hr’g
Tr. 841–42). Similarly, Dr. Marian Rissenberg (“Dr.
Rissenberg”), who did an independent evaluation of
W.E., believed the boarding school aspect helped, (see
Case II Hr’g Tr. 1288, 1321–22; see also Pls.’ Cross 56.1
¶ 466; Def.’s Cross 56.1 ¶ 466), and Dr. Williams explained that when W.E. was kept home from school by
a parent, W.E. began to recognize his migraine symptoms as an escape from the stress he experienced at
school or elsewhere, (see Case I Hr’g Tr. 893–94; see
also Pls.’ Cross 56.1 ¶ 448; Def.’s Cross 56.1 ¶ 448), and
a boarding school would “enable him to be more
suitably supported away from . . . the stresses he
encountered in the cycle at home,” (Case I Hr’g Tr. 923).
B. Administrative Proceedings
This case stems from two separate due process
complaints brought by Plaintiffs, one relating to the
2010–11 and 2011–12 school years (“Case I”), and the
other relating to the 2012–13 school year (“Case II”).
1. Case I
a. Child Find and FAPE Denial for 2010–
11
The first IHO found that Defendant denied W.E. a
free and appropriate public education (“FAPE”) by
failing to identify W.E. as a student suspected of
having a disability, failing to evaluate him as a
consequence of that obligation, and failing to classify

97a
him as a student with a disability and develop an
appropriate IEP. (Case I IHO Op. at unnumbered
21.)11 According to the IHO, “[b]y January 3 of the
2010–2011 school year[,] the District had sufficient
information to suspect that the student had a
disability and to trigger its child find obligation.” (Id.
at unnumbered 22.) As the IHO explained, “[b]y
January 3, 2011, the District was or should have been
aware that by June 14, 2010, the student had missed
approximately 30 days of school in the seventh grade,”
and that “[t]he same pattern emerged in the eighth
grade with the student missing approximately 27 days
from September to December,” which, in connection
with Defendant’s or its employees’ knowledge of the
W.E.’s headaches and medication, organization issues,
mediocre ratings relating to behavioral adjustment
and relationships, and absences, as well as M.S.’s
decision to reach out to Dr. Brodsky in December 2010,
“should have given rise to a suspicion that the student
was a child with a disability.” (Id. at unnumbered 22–
23.) Given the information that Defendant had, the
IHO concluded that rather than cancel the January 5,
2011 Section 504 meeting, Defendant should have
“reviewed the reports completed by the teachers in
preparation for that meeting . . . , considered all of the
information it had in its possession, made a referral to
the CSE, and ask[ed] the parent for consent to
11

The Case I IHO Opinion does not have page numbers.
When the Court refers to a particular page of the IHO Opinion, it
starts counting from the page labeled “Hearing Officer’s Findings
of Fact and Decision W.A.W. and M.W. v. Hendrick Hudson
School District,” followed by an “Introduction” header.

98a
evaluate the student.” (Id. at unnumbered 24.) Because it did not, “[t]he District’s failure to classify the
student or provide him with services in the required
time frame was a denial of FAPE.” (Id.)
Having found a FAPE denial, the IHO went on to
consider the appropriate remedy. Although Plaintiffs
had requested 200 hours of compensatory education
services, 20 hours of compensatory counseling, and reimbursement of counseling services provided by Dr.
Robins and Dr. Williams, the IHO awarded reimbursement for the sessions with Dr. Williams that he used to
prepare his diagnostic evaluation, five sessions with
Dr. Robins given W.E.’s need for school-based counseling services, and 15 additional hours of counseling,
but denied Plaintiffs’ request for 200 hours of home
instruction, reasoning that “the parent [did] not offer[ ]
any evidence that the student [was] in need of
academic remediation.” (See id. at unnumbered 24–
25.)
On appeal, the SRO disagreed with the IHO’s
child-find determination. Reasoning that “[a] district’s
child find duty is triggered when there is reason to
suspect a disability and reason to suspect that special
education services may be needed to address that
disability,” (Case I SRO Op. 14 (internal quotation
marks omitted)), the SRO reviewed the relevant
materials in the record, including the Parents’ communications with district personnel, the implementation of W.E.’s June 2010 Section 504 accommodation
plan, W.E.’s academic performance, and the testimony
of persons from the School familiar with W.E. (See id.
at 15–18.) Having done so, the SRO concluded that

99a
[b]ased upon the evidence contained in the
hearing record as discussed above, I find that
despite the student’s recurring headaches and
resulting absences during the 2010–11 school
year, the hearing record supports a finding
that the even [sic] if the [D]istrict had reason
to suspect that the student had a disability,
the [D]istrict had no reason to suspect that
the student required special education to
address such disability prior to April 2011
because the student progressed very well in
the general education curriculum with the
accommodations provided by the [D]istrict in
its June 2010 section 504 plan.
(Id. at 18 (citations omitted).) The SRO also disagreed
with the IHO that the May 25, 2010 psychoeducational
evaluation report gave the District reason to suspect
that W.E. required special education services to
address a disability. (See id. at 18–20.) The SRO then
went on to affirm the IHO’s determination that the
Parents’ claim for 200 hours of compensatory home
instruction should be denied, reasoning that, under
state regulations, “the [D]istrict was not required to
arrange for the appropriate special education programs and services to be provided to the student until
60 school days after receiving consent to evaluate the
student, which, in this case, expired after the 2010–11
school year ended.” (Id. at 23.) Nevertheless, the SRO
did not consider the IHO’s award of reimbursement for
sessions with W.E.’s clinical psychologist and 15 hours
of compensatory counseling services for W.E., finding
that relief unappealed. (See id. at 13.)

100a
b. Timing and Development of the IEP
for 2011–12
The IHO next found that “[t]he District violated
significant procedural requirements depriving the
student of a FAPE,” inasmuch as it did not make a
determination to classify W.E. until August 26, 2011,
over 130 days after the Parents referred W.E. and
provided signed consent, when the regulations provide
for a 60-day window. (Case I IHO Op. at unnumbered
26.) The IHO concluded that “[g]iven the difficulty
[M.S.] was having in bringing the student to Dr. Hahn,
if the District thought that the evaluation was critical
to reaching a CSE determination, the District had the
affirmative obligation to get the evaluation conducted
even if it meant sending a psychiatrist to the student’s
home.” (Id. at unnumbered 27.) The District’s failure
to make a timely evaluation and recommendation,
according to the IHO, significantly delayed consideration of W.E.’s classification and development of his IEP,
resulting in a denial of a FAPE. (Id.)12
12

The IHO also concluded that the CSE’s lack of a special
education and regular education teacher familiar with W.E.
denied him a FAPE, although the lack of an additional parent
member did not. (See Case I IHO Op. at unnumbered 27–29.) The
SRO recognized that, although the Parents “amended their due
process complaint notice to interpose a claim regarding CSE
composition, they alleged in that claim only that the August 2011
CSE was improperly constituted because it lacked an additional
parent member,” and that “the amended due process complaint
notice [was] bereft of any allegations regarding the composition of
the May 2011 CSE or the regular education or special education
teachers who participated in either the May 2011 or August 2011
CSE meetings.” (Case I SRO Op. 12.) As a result, the SRO

101a
The SRO agreed that the District denied W.E. a
FAPE for the 2011–12 school year. The SRO explained
that “[a]t the beginning of each school year, a school
district is required to have an IEP in effect for each
child with a disability in its jurisdiction,” but that, “[i]n
this case, the hearing record demonstrates that the
[D]istrict failed to have a finalized IEP in place for the
student at the start of the 2011–12 school year, in
contravention of the IDEA and federal regulations,”
thereby denying W.E. a FAPE. (Case I SRO Op. 24
(alterations omitted).)
c. Whether Northwood Was an Appropriate Placement
Notwithstanding the IHO’s conclusion that the
District denied W.E. a FAPE for the 2011–12 school
year, she found that “the [P]arents [did] not [meet]
their burden of demonstrating that Northwood provided educational instruction specially designed to
meet [W.E.’s] identified special education needs during
the 2011–2012 school year,” and that, “[a]s a result, the
program cannot be found to be appropriate for the
determined that “the IHO should have confined her determination to the issues raised in the [P]arents’ January 25, 2012
amended due process complaint notice.” (Id.) Similarly, Plaintiffs
point to evidence in the record relating to the timing and composition of the CSE. (See Pls.’ Cross 56.1 ¶¶ 489–94.) However,
because Defendant does not challenge the finding that it failed to
provide a FAPE for this year, there is no need to examine the
question in that level of detail. The same is true for the evidence
that Plaintiffs cite about the composition of the 2012 CSE. (See
Pls.’ Cross 56.1 ¶¶ 533–36, 615–16.)

102a
student under the [IDEA],” and, “[w]hile the [P]arents
determined that Northwood was the right school for
[W.E.] to address his needs, and made this decision as
loving and responsible parents, the District is not responsible for reimbursing the parents for this type of
program.” (Case I IHO Op. at unnumbered 35–36.)
The IHO arrived at this conclusion by considering
testimony concerning W.E.’s condition and needs as
well as testimony about Northwood, its programs, and
W.E.’s progress there, but noting that there was no
evidence that the emotional issues underlying W.E.’s
migraines had been dealt with or that W.E.’s issues
pertaining to organization issues and study skills were
being dealt with. (See id. at unnumbered 29–36.) As
a result, the IHO denied the Parents’ request for
tuition reimbursement. (See id. at numbered 37–38.)
In its decision, the SRO concluded that “the
[P]arents did not establish that [Northwood] was an
appropriate placement for the student for the 2011–12
school year, and that the IHO’s determination was
correct.” (See Case I SRO Op. 24–31.)13
2. Case II
a. Whether the District Provided W.E. a
FAPE
In the second case dealing with W.E.’s sophomore
year, the IHO concluded that the District denied W.E.
13

Because the SRO determined that Northwood was not an
appropriate placement, it declined to consider whether the
equities favored reimbursement. (See Case I SRO Op. 31–32.)

103a
a FAPE, including inasmuch as W.E.’s IEP called for an
8:1:1 class size and also mainstreaming in Math,
English, and science classes, even though general education classes have a student-to-teacher ratio of 24:1.
(See Case II IHO Op. 9–12.)14 On appeal, the SRO
concluded that, “based on the failure of the August
2012 IEP to indicate how the student would simultaneously attend an 8:1 +1 special class placement
while enrolled in mainstream classes, the hearing
record supports the IHO’s conclusion that the IEP was
internally inconsistent.” (Case II SRO Op. 13.)
b. Whether Northwood Was an Appropriate Placement
In contrast with the first IHO and both SRO
decisions, the second IHO determined that Northwood
was an appropriate placement. (See Case II IHO Op.
14–19.) In particular, the IHO found that the School’s
educational instruction was “specially designed to
14

The Parents asserted seven issues before the IHO, three
procedural and four substantive. The procedural issues were (1)
“[a] direct conflict between the IEP student/teacher ratio and the
proposed placement of [W.E.] in mainstream classes,” (2) that
“[t]he CSE failed to include [W.E.’s] regular education teacher or
special education teacher in the relevant CSE meetings,” and (3)
“[t]hat the District failed to disclose documents in a timely fashion
and the CSE did not consider select information,” and that,
“[s]pecifically, the District Psychologist did not speak to anyone
who knew [W.E.] in preparation for the CSE meetings and did not
distribute the updated BASC-II protocols despite the timely
parental request.” (Case II IHO Op. 6–7.) The IHO found it
unnecessary to consider the substantive issues in light of its
determination as to the procedural issues. (See id. at 13–14.)

104a
meet [W.E.’s] needs,” as demonstrated by its small
class sizes, its environment (specifically, its “integration between . . . home life and education,” social
context, and physical location), the School’s accommodation plan for W.E., and the School’s counseling and
nursing services. (See id.)
The SRO, however, disagreed. Specifically, the
SRO considered the May 11, 2012 psychologist report
based on the BASC-2 rating scales, Coughlin’s observation of W.E., W.E.’s grades and teacher feedback, Dr.
Williams’s June 13, 2012 letter, and W.E.’s August 2012
IEP. (See Second SRO Op. 14–17.) From there, the
SRO described Northwood and the various features of
its accommodation plan, (see id. at 17–20), before discussing Northwood’s small class sizes, its nature as a
boarding school, and its emphasis on outdoor activities,
(see id. at 21–25). Although the SRO concluded that it
was “without question” that W.E. “exhibited progress”
during the 2012–13 school year “in the sense that[,]
except when experiencing a migraine, he attended
classes consistently, achieved grades in the “A-” to “C+”
range, and demonstrated increased maturity and
ability to socially interact with peers while attending
[Northwood],” the hearing record nevertheless failed to
“contain evidence that [Northwood] provided [W.E.]
with specially designed instruction to meet his ongoing
need to develop insight and understanding into what
triggered his stress and anxiety, and positive coping
skills to address stress and decrease anxiety.” (Id. at
23.) The SRO found this important because, as he
noted, the Parents identified for Northwood as a goal

105a
that W.E. “ ‘understand and identify the factors leading
to stress and express such factors and feelings, rather
than internalizing and somatizing stress,’ noting that
the goal would be achieved during continued meetings
with the counselor,” but “the hearing record is devoid
of information such as counseling notes, progress
reports toward goals, etc., showing how, if at all, these
sessions addressed [W.E.’s] need to develop insight and
coping skills.” (Id.) Additionally, the SRO noted W.E.’s
“continued . . . organizational and motivational/
behavioral difficulties at times in class,” and found
that, despite the Parents’ identification of goals for
W.E., the hearing record did not include information
concerning how Northwood addressed W.E.’s needs,
apart from the accommodations “which . . . were
available to most if not all [Northwood] students.” (Id.
at 24.) Consequently, the SRO “[found] that the
[P]arents did not establish that [Northwood] was an
appropriate placement for [W.E.] for the 2012–13
school year, and that the IHO’s determination must be
overturned.” (Id. at 25.)
C. Procedural Background
On April 30, 2014, Plaintiffs filed their complaint
concerning the 2010–11 and 2011–12 school years in
case number. (See Dkt. No. 2 (14-CV-3067 Dkt.).) On
June 18, 2014, the District submitted its Answer in
that case.
(See Dkt. No. 4 (14-CV-3067 Dkt.).)
Additionally, on June 13, 2014, Plaintiffs filed another
lawsuit relating to the 2012–13 school year. (See Dkt.

106a
No. 2 (14-CV-4285 Dkt.).)15 Defendant submitted its
Answer on August 4, 2014. (See Dkt. No. 5 (14-CV-4285
Dkt.).)
On December 9, 2014, the Court held an initial
conference, (see Dkt. (minute entry for Dec. 9, 2014)
(14-CV-3067 Dkt.)), and issued a scheduling order for
motions, (see Dkt. No. 10 (14-CV-3067 Dkt.); Dkt. No.
13 (14-CV-4285 Dkt.)). On December 19, 2014, Plaintiffs submitted a letter requesting that the Court order
the Parties to participate in mediation, (see Dkt. No. 11
(14-CV-3067 Dkt.); Dkt. No. 14 (14-CV-4285 Dkt.)), an
order the Court declined to enter, (see Dkt. No. 12 (14CV-3067 Dkt.); Dkt. No. 15 (14-CV-4285 Dkt.)). On
January 23, 2015, Plaintiffs submitted a letter in
advance of their intended Motion pursuant to Federal
Rule of Civil Procedure 54 for the Court to enter partial
judgment in the amount of $8,600 for that portion of
the IHO’s ruling in the first case that the SRO had
determined was not appealed. (See Dkt. No. 13 (14-CV3067 Dkt.)). The District responded on January 28,
2015, (see Dkt. No. 14 (14-CV-3067 Dkt.)), and Plaintiff
submitted a supplemental letter in support of its
request on January 29, 2015, (see Dkt. No. 15 (14-CV3067 Dkt.)). The Court thereafter held a conference on
March 3, 2015. (See Dkt. (minute entry for Mar. 3,
2015) (14-CV-3067 Dkt.).) On September 24, 2015, the
15

Plaintiffs also filed two other actions, the procedural
history of which will not be set forth herein: (1) 14-CV-8093,
alleging various constitutional violations pursuant to 42 U.S.C.
§ 1983 as well as claims under New York law, and (2) 16-CV-2954,
relating to school years beyond those presented in this case.

107a
two pending IDEA cases—i.e., 14-CV-3067 and 14-CV4285—were consolidated into 14-CV-3607. (See Dkt.
No. 26 (14-CV-3067 Dkt.); Dkt. No. 24 (14-CV-4285
Dkt.).) On October 21, 2015, Plaintiffs submitted a
letter to the Court requesting the administrative record be filed under seal, (see Dkt. No. 28), and, after the
Court ordered counsel to address the feasibility of
redacting certain documents, (see Dkt. No. 29), Plaintiffs filed a second letter expounding on their request
to file the record under seal, (see Dkt. No. 30). On
November 3, 2015, the Court granted Plaintiffs’
request to file the administrative record under seal.
(See Dkt. No. 31.)
After several time extensions, on December 3,
2015, Defendant filed its Motion for Summary Judgment and to Amend Its Answer, along with accompanying papers, (see Dkt. Nos. 32–36); Plaintiffs filed
their Cross Motion for Summary Judgment and Opposition to Defendant’s Motion, (see Dkt. Nos. 37–41);
Defendant filed its Opposition to Plaintiffs’ Motion and
Reply in support of its Motion, (see Dkt. Nos. 42–44);
and Plaintiffs filed their Reply in support of their
Cross-Motion, (see Dkt. Nos. 45–46).
II.

Discussion

A. Statutory Background
“The IDEA’s purpose is ‘to ensure that all children
with disabilities have available to them a free appropriate public education,’ ” which, “[i]n practice, . . .
means that [s]tates have an affirmative obligation to

108a
provide a basic floor of opportunity for all children with
disabilities.” T.K. v. N.Y.C. Dep’t of Educ., 810 F.3d 869,
875 (2d Cir. 2016) (quoting 20 U.S.C. § 1400(d)(1)(A)).
To that end, the IDEA requires that “states receiving
federal funds . . . provide ‘all children with disabilities’
a ‘free appropriate public education.’ ” Hardison v. Bd.
of Educ., 773 F.3d 372, 376 (2d Cir. 2014) (quoting 20
U.S.C. § 1412(a)(1)(A)). A school district within such a
state provides a FAPE when it offers “special
education and related services tailored to meet the
unique needs of a particular child, which are
reasonably calculated to enable the child to receive
educational benefits.” M.O. v. N.Y.C. Dep’t of Educ., 793
F.3d 236, 238–39 (2d Cir. 2015) (internal quotation
marks omitted). At its core, the statute ensures an
“appropriate” education, but “not one that provides
everything that might be thought desirable by loving
parents.” Walczak v. Fla. Union Free Sch. Dist., 142
F.3d 119, 132 (2d Cir. 1998) (internal quotation marks
omitted).
“To ensure that qualifying children receive a
FAPE, a school district must create an [IEP] for each
such child.” R.E. v. N.Y.C. Dep’t of Educ., 694 F.3d 167,
175 (2d Cir. 2012). “Under New York law, local [CSEs]
are responsible for developing appropriate IEPs.”
Reyes ex rel. R.P. v. N.Y.C. Dep’t of Educ., 760 F.3d
211, 214–15 (2d Cir. 2014) (citing N.Y. Educ. Law
§ 4402(1)(b)(1)). “The IEP is a written statement that
sets out the child’s present educational performance,
establishes annual and short-term objectives for
improvements in that performance, and describes the
specially designed instruction and services that will

109a
enable the child to meet those objectives.” M.O., 793
F.3d at 239 (internal quotation marks omitted); see
also 20 U.S.C. § 1414(d)(1)(A)-(B), (d)(3) (setting out
requirements for IEPs and their development). “The
IDEA does not itself articulate any specific level of
educational benefits that must be provided through an
IEP,” M.H. v. N.Y.C. Dep’t of Educ., 685 F.3d 217, 245
(2d Cir. 2012); however, “a school district fulfills its
substantive obligations under the IDEA if it provides
an IEP that is ‘likely to produce progress, not
regression,’ and if the IEP affords the student with an
opportunity greater than mere ‘trivial advancement,’ ”
Cerra v. Pawling Cent. Sch. Dist., 427 F.3d 186, 195 (2d
Cir. 2005) (quoting Walczak, 142 F.3d at 130). Indeed,
the IDEA does not require schools to “maximize the
potential” of students with disabilities, but instead was
intended “more to open the door of public education to
handicapped children on appropriate terms than to
guarantee any particular level of education once
inside.” M.H., 685 F.3d at 245 (internal quotation
marks omitted).
In New York, if a parent disagrees with an IEP
prepared by a school district, the parent may challenge
the IEP by requesting an “[i]mpartial due process
hearing,” 20 U.S.C. § 1415(f ), before an IHO appointed
by a local school board, see N.Y. Educ. Law § 4404(1)(a).
The IHO’s decision may be appealed to an SRO, see 20
U.S.C. § 1415(g); N.Y. Educ. Law § 4404(2), and the
SRO’s decision may be challenged in either state or
federal court, see 20 U.S.C. § 1415(i)(2)(A); see also
M.H., 685 F.3d at 224–26 (generally describing the
IHO and SRO process).

110a

B. Standard of Review
Unlike with an ordinary summary judgment
motion, the existence of a disputed issue of material
fact will not necessarily defeat a motion for summary
judgment in the IDEA context. See, e.g., T.P. ex rel. S.P.
v. Mamaroneck Union Free Sch. Dist., 554 F.3d 247, 252
(2d Cir. 2009) (per curiam); Viola v. Arlington Cent.
Sch. Dist., 414 F. Supp. 2d 366, 377 (S.D.N.Y. 2006).
Instead, summary judgment in IDEA cases is “in substance an appeal from an administrative determination, not a summary judgment.” Lillbask ex rel.
Mauclaire v. State of Conn. Dep’t of Educ., 397 F.3d 77,
83 n.3 (2d Cir. 2005) (internal quotation marks
omitted).
This posture means that this Court owes “a
significant degree of deference to the state educational
agency, as [it is] essentially acting in an administrativelaw-style capacity.” P. ex rel. Mr. & Mrs. P. v. Newington
Bd. of Educ., 546 F.3d 111, 118 (2d Cir. 2008). The
Court must “give ‘due weight’ to [the administrative]
proceedings, mindful that the judiciary generally
‘lack[s] the specialized knowledge and experience
necessary to resolve persistent and difficult questions
of educational policy.’ ” Gagliardo v. Arlington Cent.
Sch. Dist., 489 F.3d 105, 113 (2d Cir. 2007) (second
alteration in original) (quoting Bd. of Educ. v. Rowley,
458 U.S. 176, 206, 208 (1982)); see also Cerra, 427 F.3d
at 191 (noting that the “IDEA’s statutory scheme
requires substantial deference to state administrative
bodies on matters of educational policy”). While a

111a
reviewing court must “engage in an independent
review of the administrative record and make a determination based on a preponderance of the evidence,”
M.H., 685 F.3d at 240 (internal quotation marks
omitted), such review “is by no means an invitation to
the courts to substitute their own notions of sound
educational policy for those of the school authorities
which they review,” Rowley, 458 U.S. at 206. Rather,
the standard for reviewing administrative determinations “requires a more critical appraisal of the agency
determination than clear-error review but nevertheless falls well short of complete de novo review. In the
course of this oversight, the persuasiveness of a
particular administrative finding, or the lack thereof,
is likely to tell the tale.” M.H., 685 F.3d at 244 (alterations in original) (alterations, italics, and internal
quotation marks omitted).
“Deference is particularly appropriate when the
state hearing officers’ review has been thorough and
careful.” P. ex rel. Mr. & Mrs. P., 546 F.3d at 118
(alteration and internal quotation marks omitted).
Specifically,
the deference owed to an SRO’s decision
depends on the quality of that opinion.
Reviewing courts must look to the factors that
“normally determine whether any particular
judgment is persuasive, for example, whether
the decision being reviewed is well-reasoned,
and whether it was based on substantially
greater familiarity with the evidence and the
witnesses than the reviewing court.”

112a
R.E., 694 F.3d at 189 (quoting M.H., 685 F.3d at 244);
see also M.H., 685 F.3d at 241 (“The SRO’s or IHO’s
factual findings must be ‘reasoned and supported by
the record’ to warrant deference.” (quoting Gagliardo,
489 F.3d at 114)). Additionally, the Second Circuit has
instructed courts that deference to an SRO’s decision
is more appropriate when the substantive adequacy of
an IEP, as opposed to the procedural adequacy, is at
issue; when the decision involves a dispute over an
appropriate educational methodology versus determinations regarding objective indications of progress;
and when the district court’s decision is based solely on
the administrative record that was before the SRO.
M.H., 685 F.3d at 244.
“Deference is especially appropriate . . . where the
SRO Decision agreed with the ruling of the IHO.” A.A.
v. N.Y.C. Dep’t of Educ., No. 14-CV-8483, 2015 WL
10793404, at *10 (S.D.N.Y. Aug. 24, 2015); see also
M.T. v. N.Y.C. Dep’t of Educ., No. 14-CV-10124, 2016
WL 1267794, at *5 (S.D.N.Y. Mar. 29, 2016) (“[D]istrict
courts give more deference to administrative proceedings when the IHO and SRO are in agreement.”);
J.D. ex rel. A.P. v. N.Y.C. Dep’t of Educ., No. 14-CV-9424,
2015 WL 7288647, at *12 (S.D.N.Y. Nov. 17, 2015)
(“[D]eference is particularly apt where the IHO and
SRO decisions are in agreement and are based on the
same record as that before the district court. . . .”
(internal quotation marks omitted)), appeal filed, No.
15-4050 (2d Cir. Dec. 16, 2015); A.M. ex rel. Y.N. v. N.Y.C.
Dep’t of Educ., 964 F. Supp. 2d 270, 285 (S.D.N.Y. 2013)
(finding deference “especially appropriate” as to issue

113a
upon which SRO and IHO agreed). Conversely, “in
situations when an SRO reverses the finding of an
IHO, the court should give substantial deference to the
SRO’s views of educational policy, but less to the SRO’s
factual findings or to its reasoning in general.” S.C. v.
Katonah-Lewisboro Cent. Sch. Dist., 175 F. Supp. 3d
237, 253 (S.D.N.Y. 2016) (internal quotation marks
omitted); Scott ex rel. C.S. v. N.Y.C. Dep’t of Educ., 6
F. Supp. 3d 424, 441 (S.D.N.Y. 2014) (same). Furthermore, in such circumstances, “reviewing courts are not
entitled to adopt the conclusions of either state
reviewer according to their own policy preferences or
views of the evidence; courts must defer to the reasoned conclusions of the SRO as the final state
administrative determination.” Id. at 246; see also A.C.
ex rel. M.C., 553 F.3d at 171 (noting that “if the SRO’s
decision conflicts with the earlier decision of the IHO,
the IHO’s decision may be afforded diminished
weight,” because the court must “defer to the final
decision of the state authorities” (internal quotation
marks omitted)). However, if the Court concludes that
the SRO’s determinations are insufficiently
reasoned to merit . . . deference, and in
particular where the SRO rejects a more
thorough and carefully considered decision of
an IHO, it is entirely appropriate for the court,
having in its turn found the SRO’s conclusions
unpersuasive even after appropriate deference is paid, to consider the IHO’s analysis.
M.H., 685 F.3d at 246. Therefore, this Court “must
defer to the SRO’s decision on matters requiring

114a
educational expertise unless it concludes that the
decision was inadequately reasoned, in which case a
better-reasoned IHO opinion may be considered instead.” R.E., 694 F.3d at 189; see also C.L. v. N.Y.C.
Dep’t of Educ., No. 12-CV-1676, 2013 WL 93361, at *5
(S.D.N.Y. Jan. 3, 2013) (“[T]he Second Circuit [has]
explained that the deference owed to an SRO’s decision
depends on the quality of that opinion, or its persuasiveness.” (citation and internal quotation marks
omitted)), aff ’d, 552 F. App’x 81 (2d Cir. 2014).
C. Analysis
1. The District’s Child Find Obligation for
the 2010–11 School Year
Under the IDEA, each state receiving federal
funds must “ha[ve] in effect policies and procedures,”
20 U.S.C. § 1412(a), by which it will identify, locate, and
evaluate “[a]ll children with disabilities residing in the
state” to determine whether these children require special education and related services. Id. § 1412(a)(3)(A);
see also Handberry v. Thompson, 446 F.3d 335, 347 (2d
Cir. 2006); A.P. ex rel. Powers v. Woodstock Bd. of Educ.,
572 F. Supp. 2d 221, 224 (D. Conn. 2008) (describing
“child find” obligations), aff ’d, 370 F. App’x 202 (2d Cir.
2010). This “child find” obligation extends to children
“who are suspected of being a child with a disability . . .
and in need of special education, even though they
are advancing from grade to grade. . . .” 34 C.F.R.
§ 300.111(c)(1); see also Bd. of Educ. v. L.M., 478 F.3d
307, 313 (6th Cir. 2007) (noting that § 300.111(c)
extends the IDEA’s “child find” requirement to children

115a
“only suspected of having a disability”); Dean v. Sch.
Dist. of Niagara Falls, 615 F. Supp. 2d 63, 71 (W.D.N.Y.
2009) (same); A.P., 572 F. Supp. 2d at 224–25 (same).
“When a school board violates its Child Find obligation
by not evaluating a child suspected of being disabled,
it necessarily fails to provide that student a FAPE.”
Greenwich Bd. of Educ. v. G.M., No. 13-CV-235, 2016
WL 3512120, at *8 (D. Conn. June 22, 2016). “Courts
have held that a state’s child find duty is triggered
when it has reason to suspect that special education
services may be needed to address the disability.” R.E.
v. Brewster Cent. Sch. Dist., 180 F. Supp. 3d 262, 270,
2016 WL 2606535, at *5 (S.D.N.Y. Mar. 30, 2016)
(alterations and internal quotation marks omitted); see
also J.S. v. Scarsdale Union Free Sch. Dist., 826
F. Supp. 2d 635, 660 (S.D.N.Y. 2011) (“[C]ourts have
held that a state’s child find duty is triggered when it
has a reason to suspect a disability, and reason to
suspect that special education services may be needed
to address that disability.” (internal quotation marks
omitted)); New Paltz Cent. Sch. Dist. v. St. Pierre ex rel.
M.S., 307 F. Supp. 2d 394, 401 (N.D.N.Y. 2004) (concluding that a child-find obligation is “triggered when
the state has reason to suspect a disability, and reason
to suspect that special education services may be
needed to address that disability” (alterations and
internal quotation marks omitted)). “However, the
IDEA is not an absolute liability statute and the ‘Child
Find’ provision does not ensure that every child with a
disability will be found.” A.P. ex rel. Powers, 572
F. Supp. 2d at 225; see also R.E., 180 F. Supp. 3d at

116a
267–69, 2016 WL 2606535, at *3 (same); J.S., 826
F. Supp. 2d at 660 (same).
According to Plaintiffs, “[t]he SRO’s determination
that the District did not violate its Child Find
obligation rest[ed] on an inaccurate perception of the
underlying facts and repeatedly disregard[ed] relevant
facts,” because “[t]he District possessed sufficient
knowledge of the need for special education support as
early as May 2010.” (Mem. of Law in Opp’n to Def.’s
Mot. for Summ. J. and in Supp. of Pls.’ Cross-Mot. for
Summ. J. (“Pls.’ Mem.”) 5–6 (Dkt. No. 38).) To that end,
Plaintiffs marshal W.E.’s seventh-grade test results
that show “clinically significant” somatization scores,
(see Case I Joint Ex. 4), the fact that W.E. dropped
English in seventh grade, (see Case I Hr’g Tr. 1681), the
incompletes or medicals that W.E. received during the
second quarter, (see Case I Joint Ex. 70), the advice
that W.E. drop French and his performance in that
class, (see Case I Joint Ex. 18; Case I Pls.’ Exs. AA, DD),
and W.E.’s teachers’ view that W.E.’s homework would
be submitted, at best, in piecemeal fashion, (see
generally Pls.’ Mem. 6–7). Such facts, in Plaintiffs’
view, undercut the SRO’s conclusion that “the [D]istrict
had no reason to suspect that [W.E.] required special
education to address [his] disability prior to April 2011
because [W.E.] progressed very well in the general
education curriculum with the accommodations provided by the [D]istrict in its June 2010 section 504
plan.” (Case I SRO Op. 18.) To the contrary, Plaintiffs
contend, “[b]eyond work being sent home, [W.E.] received nothing from the plan,” inasmuch as extended

117a
time to turn in assignments was “meaningless” because
W.E. was not turning in most assignments by that
time, and as W.E. did not receive the two hours of home
tutoring called for in the Section 504 plan and the
District failed to provide a new tutor until April. (Pls.’
Mem. 7.) These details, coupled with M.S. informing
the District in December 2010 that W.E. was in “crisis,”
(id. (citing Case I Hr’g Tr. 1682; Case I Joint Ex. 17)),
“should have prompted someone at the District to
suspect that this student . . . might be a student with
a disability in need of special education,” (Pls.’ Mem. 7
(emphasis omitted)).
The crux of the SRO’s decision, however, was not
so much that there was no basis to suspect that W.E.
may be disabled, but that there was no reason to
suspect that special education was needed to remedy
that disability. (See Case I SRO Op. 18 (concluding
that “even if the [D]istrict had reason to suspect that
the student had a disability, the [D]istrict had no
reason to suspect that the student required special
education prior to April 2011. . . .”).) The SRO so
concluded because, in its view, “the student progressed
very well in the general education curriculum with the
accommodations provided by the [D]istrict in its June
2010 section 504 plan.” (Id.) In reaching that
conclusion, the SRO was plainly aware of the Parents’
communications with District personnel in winter
2010 into spring 2011. (See Case I SRO Op. 15.) The
SRO specifically considered M.S.’s December 2010 and
early January 2011 cancelation of a psychological
evaluation and a Section 504 meeting, as well as

118a
testimony about W.E.’s home tutoring and/or functioning at school from W.E.’s counselors, his pediatric
neurologist, and private psychologist, and, from M.S.,
about W.E.’s efforts to attend school, W.E.’s grades,
feedback from teachers, and performance on standardized tests. (See id. at 16–18.). The SRO also considered
W.E.’s May 25, 2010 performance on the WJ-III COG,
WJ-III ACH, and BASC-2. In so doing, the SRO
concluded that “the hearing record d[id] not support
the IHO’s finding that the [D]istrict had sufficient
reason to believe that the student had a disability
requiring special education and related services prior
to the parents’ referral of the student to the CSE for
evaluation in April 2011.” (Id. at 20.)
With that in mind, the Court sees no reason to
disturb the SRO’s reasoned analysis. To be sure, this
Court is not in the business of forming and then
deploying “[its] own notions of sound educational policy,” Rowley, 458 U.S. at 206, nor, conversely, is it willing
to simply “rubber stamp administrative decisions,”
Walczak, 142 F.3d at 129. Rather, the Court has
scrutinized the reasoning of the SRO’s decision, cf. R.E.,
694 F.3d at 189 (“[A] court must defer to the SRO’s
decision on matters requiring educational expertise
unless it concludes that the decision was inadequately
reasoned. . . .”), and, in so doing, concludes that the
SRO’s determination that “even if the [D]istrict had
reason to suspect that the student had a disability, the
[D]istrict had no reason to suspect that the student
required special education prior to April 2011,” (Case I
SRO Op. 18 (emphasis added)), is sensible and

119a
supported by the record. This conclusion is particularly logical if, as the SRO’s Opinion indicates, “a
student’s failure to perform in school because of
absence from school does not by itself constitute a basis
to suspect that the student has a disability,” (id. at 15),
which itself makes sense in light of the law in the
Second Circuit that “[t]he IDEA’s child find provisions
do not require districts to evaluate as potentially
‘disabled’ any child who is having academic difficulties,” J.S., 826 F. Supp. 2d at 663. Moreover, the SRO’s
conclusion here was sufficiently undergirded by many
supporting facts, including W.E.’s receipt of grades in
the A or B range, (see Case I Hr’g Tr. 1198–200; see also
Def.’s 56.1 ¶ 7; Pls.’ 56.1 ¶ 7), and positive feedback
from teachers, (see Case I Joint Ex. 70 (8th Grade
Report Card)). Although the IHO also provided a
detailed recitation of many of W.E.’s difficulties in
seventh grade, it is not immediately obvious to this
Court—which, in fairness, lacks the requisite “specialized knowledge and educational expertise,” M.W. ex rel.
S.W. v. New York City Dept. of Educ., 725 F.3d 131, 138
(2d Cir. 2013)—how these facts show the District
“ha[d] reason to suspect” not just that W.E. was disabled, but “that special education services may [have]
be[en] needed to address the disability,” R.E., 180
F. Supp. 3d at 270, 2016 WL 2606535, at *5 (alteration
omitted). To the contrary, if anything, the IHO’s
opinion looks to elide the distinction between these
concepts, positing instead that, by January 3, 2011,
“the [Section 504] plan was not succeeding in getting
[W.E.] to school and the District had an obligation to
identify the student, evaluate him[,] and learn why,”

120a
(Case I IHO Op. at unnumbered 23), a proposition from
which the conclusion seems to follow that, whatever
the “why,” the rehabilitative “how” was special education. Therefore, the Court thinks the SRO’s decision
stood on more solid conceptual footing than the IHO’s.
Before formally endorsing the former, however, consideration of the Plaintiffs’ critique of the SRO’s opinion
is in order. Plaintiffs contend that W.E.’s “academic
collapse began in November 2010, not April 2011, as
the SRO theorized,” inasmuch as the District admitted
that Plaintiff received medicals in all but two classes
during the final three quarters and, as Coughlin
testified, had several “good strong weeks” at the start
of the school year before “things dropped off tremendously.” (Pls.’ Mem. 8 (quoting Case I Hr’g Tr. 257–58).)
However, the SRO’s opinion did not construe academic
success as narrowly as Plaintiffs do, instead considering W.E.’s feedback from teachers and standardized
test scores as well. (See Case I SRO Op. 17 (citing, inter
alia, Case I Joint Ex. 70; Case I Pls.’ Exs. CC-GG; Case
I Def.’s Ex. 32).) This is not a defect of reasoning that
disentitles the SRO’s conclusion to deference, cf. R.E.,
694 F.3d at 189 (noting that, in the IDEA context,
“[r]eviewing courts must look to the factors that
normally determine whether any particular judgment
is persuasive, for example, whether the decision being
reviewed is well-reasoned” (internal quotation marks
omitted)); rather, it is a conclusion with which the
Parents disagree, but which is nevertheless based
upon an apparently careful review of the evidence.
This Court is simply not prepared to say it was wrong.

121a
Plaintiffs also quibble with the SRO’s conclusion
that W.E. was not denied a FAPE for the 2010–11
school year when the CSE “inexplicably” failed to find
W.E. eligible for classification on May 25, 2011. (Pls.’
Mem. 8.) However, as Defendant points out, the IDEA
does not call for instantaneous classification of a
student upon suspicion of a disability, (see Mem. of Law
in Opp’n to Pls.’ Cross-Mot. for Summ. J., and in Reply
to Pls.’ Opp’n to Def.’s Mot. for Summ. J. (“Def.’s Cross
Opp’n”) 3 (Dkt. No. 43)); rather, “[o]nce a school has
‘reason to suspect a disability,’ the school must conduct
an evaluation of the child within a reasonable time,”
Murphy v. Town of Wallingford, No. 10-CV-278, 2011
WL 1106234, at *3 (D. Conn. Mar. 23, 2011); see also
W.B. v. Matula, 67 F.3d 484, 501 (3d Cir. 1995) (“Neither
the statutes nor regulations establish a deadline by
which time children who are suspected of having a
qualifying disability must be identified and evaluated,
but we infer a requirement that this be done within a
reasonable time after school officials are on notice of
behavior that is likely to indicate a disability.”),
overruled on other grounds by A.W. v. Jersey City Pub.
Sch., 486 F.3d 791 (3d Cir. 2007); Sch. Bd. of the City of
Norfolk v. Brown, 769 F. Supp. 2d 928, 942 (E.D. Va.
2010) (“Though the ‘child find’ duty does not impose a
specific deadline by which time children suspected of
having a qualifying disability must be identified and
evaluated, evaluation should take place within a
‘reasonable time’ after school officials are put on notice
that behavior is likely to indicate a disability.”); Reg’l
Sch. Dist. No. 9 Bd. of Educ. v. Mr. & Mrs. M., No. 07CV-1484, 2009 WL 2514064, at *8 (D. Conn. Aug. 7,

122a
2009) (noting that “[w]hen a child is identified as
potentially requiring special education services, [a
local education agency] has a duty to complete the
evaluation process,” that “failure to complete the
process constitutes a denial of a FAPE,” and that the
agency “must evaluate th[at] student within a reasonable time after notice or suspicion of a disability”).
Here, W.E. was referred to the CSE on April 12, 2011,
(see Case I Hr’g Tr. 485), and the school year ended on
June 30, 2011, see N.Y. Educ. Law § 2(15). Even
assuming the District had reason to suspect that W.E.
had a disability at the time of the CSE meeting, (cf.
Case I Hr’g Tr. 662 (“Q. So it was possible though to
classify [W.E.] at [the time of the May 25, 2011
meeting] as OHI? A. It would have been possible,
yes.”)), or, earlier still, upon W.E.’s referral, there
simply is not sufficient basis to conclude that—before
the end of the legal school year—a “reasonable time”
had come and gone, particularly in light of the fact that
the CSE meeting was scheduled when it was, in part,
due to M.S.’s schedule, (see Case I Hr’g Tr. 503–04), and
in light of apparently diligent efforts all around to
schedule evaluations with Dr. Hahn, (see Pls.’ Cross
56.1 ¶ 202, Def.’s Cross 56.1 ¶ 202). Furthermore, the
amount of time elapsed between April 2011 and the
end of the school year falls short of periods of time that
courts have felt comfortable to label legally unreasonable. See El Paso Indep. Sch. Dist. v. Richard R., 567
F. Supp. 2d 918, 952 (W.D. Tex. 2008) (“In following the
majority of federal courts that have considered the
issue, this [c]ourt finds that the thirteen months that
passed between [the student’s] request for evaluation

123a
and [the school district’s] offer of evaluation was
unreasonable.”); St. Pierre, 307 F. Supp. 2d at 401
(finding that the school district “failed to provide [the
student] with an FAPE in a timely manner” where the
student “should have been referred to the CSE for
evaluation in September 1999,” but the “CSE did not
perform the evaluation . . . until July 2000, approximately ten months later”); Dept. of Educ., State of Haw.
v. Cari Rae S., 158 F. Supp. 2d 1190, 1195–97 (D. Haw.
2001) (finding the department of education “violated
the ‘child find’ provisions [of the IDEA] by failing to
evaluate the [s]tudent earlier” where “[t]he record
amply supports the hearings officer’s [sic] conclusion
that the [s]tate had numerous warning signs much
earlier than March 12, 1998,” and where the hearing
officer found that “the [s]tate had, or should have had,
reason to suspect by the [s]tudent’s [f ]all semester of
1997 . . . that she had a disability and that special
education services may be needed to address that
disability”). In any event, there are good reasons to
doubt that the federal judiciary, limited in its insight
into matters of sound educational policy, could divine
the number of months that may be thought reasonable
in this specialized context. See Matula, 67 F.3d at 501
(noting in the child-find context that the Third Circuit
was “not unmindful of the budgetary and staffing
pressures facing school officials,” and, therefore, would
“fix no bright-line rule as to what constitutes a reasonable time in light of the information and resources
possessed by a given official at a given point in time”).
Therefore, well aware that the “Child Find [provisions
of the IDEA] do[ ] not demand that schools conduct a

124a
formal evaluation of every struggling student,” and
that “[a] school’s failure to diagnose a disability at the
earliest possible moment is not per se actionable,” D.K.
v. Abington Sch. Dist., 696 F.3d 233, 249 (3d Cir. 2012),
the Court declines to second-guess the SRO’s conclusion that W.E. was not denied a FAPE for the 2010–11
school year.16
2. Tuition Reimbursement
As noted, the Parents also seek reimbursement of
tuition paid to Northwood for W.E.’s freshman and
sophomore years (2011–2012 and 2012–2013). Although
the Court defers to the SRO’s conclusion that Northwood was not an appropriate placement for 2011–2012,
the SRO’s conclusion with respect to the 2012–2013
school year is neither well reasoned nor persuasive,
and is therefore not entitled to deference. The Court
therefore grants Defendant’s Motion for Summary
Judgment with respect to the 2011–2012 school year,
but grants Plaintiffs’ Motion for Summary Judgment
with respect to the 2012–2013 school year.
a. Applicable Law
The Supreme Court has held that if a state fails in
its obligation to provide a disabled child a FAPE under
the IDEA, the IDEA permits parents to seek
16

Because the Court holds that W.E. was not denied a FAPE
for the 2010–11 school year, the Court need not decide whether
Plaintiffs are entitled to the compensatory relief they seek for that
period.

125a
reimbursement from school districts for the private
placement of the child in a nonpublic school. See Forest
Grove Sch. Dist. v. T.A., 557 U.S. 230, 246–47 (2009);
Florence Cty. Sch. Dist. Four v. Carter ex rel. Carter, 510
U.S. 7, 12 (1993); Sch. Comm. of Burlington v. Dep’t of
Educ., 471 U.S. 359, 369 (1985). “Private placement is
reimbursable only if ‘such placement, rather than a
proposed IEP, is proper under the Act,’ ” Doe v. E. Lyme
Bd. of Educ., 790 F.3d 440, 448 (2d Cir. 2015) (quoting
Burlington, 471 U.S. at 369), cert. denied, 136 S. Ct.
2022 (2016), and, therefore, while the IDEA allows a
district court hearing civil actions brought under the
IDEA to grant “such relief as the court determines is
appropriate,” Forest Grove, 557 U.S. at 237 (quoting 20
U.S.C. § 1415(i)(2)(C)(iii)), parents who unilaterally
withdraw their child from the public schools in favor of
a private placement do so at “their own financial risk,”
A.C. ex rel. M.C. v. Bd. of Educ., 553 F.3d 165, 171 (2d
Cir. 2009) (internal quotation marks omitted).
Courts in the Second Circuit use a “three-step
process to determine whether parents are entitled to
tuition reimbursement.” Doe, 790 F.3d at 448 (internal
quotation marks omitted); see also T.Y. v. N.Y.C. Dep’t
of Educ., 584 F.3d 412, 417 (2d Cir. 2009) (same). “The
first two steps concern the adequacy of the IEP:
‘whether the school district has complied with the
IDEA’s procedural requirements’ and ‘whether the IEP
is reasonably calculated to enable the child to receive
educational benefits.’ ” Doe, 790 F.3d at 448 (quoting
T.Y., 584 F.3d at 417). “The third step concerns the
appropriateness of the parent[s’] placement: ‘whether

126a
the private schooling obtained by the parents is appropriate to the child’s needs.’ ” Id. at 448–49 (quoting T.Y.,
584 F.3d at 417).17 If it is, “equitable considerations”
must “support the [parents’] claim.” A.D. v. Bd. of
Educ., 690 F. Supp. 2d 193, 205 (S.D.N.Y. 2010); see
also Frank G. v. Bd. of Educ., 459 F.3d 356, 363–64 (2d
Cir. 2006) (“[E]quitable considerations [relating to the
reasonableness of the action taken by the parents] are
relevant in fashioning relief.” (second alteration in
original) (internal quotation marks omitted)).
Although, conceptually, the process articulated
above may seem to call for a district court to consider
whether an IDEA defendant denied the student a
FAPE before reaching the question of whether the
private schooling was appropriate, where, as here, the
SRO concluded that the school district denied the
student a FAPE and where the district does not argue
otherwise in a subsequent civil action, district courts
customarily skip directly to the analysis of whether the
parents’ private placement was appropriate, see, e.g.,
17

The Second IHO Opinion is broken out into three “prongs”
—the first dealing with procedural and substantive issues
underlying the IEP, the second being the appropriateness of the
Parents’ placement, and the third being the other circumstances
under which tuition reimbursement can be reduced or denied.
(See generally Case II IHO Op.) This perhaps stems from the
different articulations of the inquiry within case law from the
Second Circuit; however, the analytical framework is for all
relevant purposes the same. See Doe, 790 F.3d at 448 n.6 (“Our
cases have sometimes collapsed the first and second steps into a
single inquiry and, accordingly, characterized the analysis as
having two (not three) steps. This is a difference of enumeration,
not of substance.” (citations omitted)).

127a
K.S. v. N.Y.C. Dep’t of Educ., No. 11-CV-7443, 2012 WL
4017795, at *6 (S.D.N.Y. Aug. 8, 2012) (noting that,
“[o]n appeal, neither party contest[ed] the issue of
whether the IEP proposed by the district was appropriate,” and that, “[t]herefore, the first prong of the
Burlington test [was] considered resolved in favor of
[the] [p]laintiffs”); Weaver v. Millbrook Cent. Sch. Dist.,
812 F. Supp. 2d 514, 518, 525–26 (S.D.N.Y. 2011)
(noting that “[the] [d]efendant [did] not contest the
SRO’s finding that the IEP did not provide a FAPE,”
and analyzing the appropriateness of the student’s
placement accordingly); R.S. ex rel. A.S. v. Lakeland
Cent. Sch. Dist., No. 09-CV-9874, 2011 WL 1198458, at
*4 (S.D.N.Y. Mar. 30, 2011) (noting that, “[i]n this case,
the parties do not dispute the IHO and SRO finding
that the District failed to provide [the student] with a
FAPE,” and that, “[t]hus, the only issue is whether the
plaintiffs’ unilateral placement of [the student] at [the
private school] was appropriate”), aff ’d, 471 F. App’x 77
(2d Cir. 2012); Stevens ex rel. E.L. v. N.Y.C. Dep’t of
Educ., No. 09-CV-5327, 2010 WL 1005165, at *8
(S.D.N.Y. Mar. 18, 2010) (noting that, “[i]n this case, the
defendant conceded that it did not provide the
[s]tudent with a FAPE for the 2007–08 school year,”
and that, “[t]herefore prong 1 of the Burlington-Carter
test is resolved in favor of [the plaintiff ]”).
When seeking reimbursement for a unilateral
placement, “[t]he parents bear the burden of showing
that the private placement they selected was
appropriate for the child.” C.L. v. Scarsdale Union Free
Sch. Dist., 744 F.3d 826, 836 (2d Cir. 2014); see also

128a
T.K., 810 F.3d at 875 (“Under New York law, the
Department [of Education] bears the burden of
establishing the validity of the IEP, while the parents
bear the burden of establishing the appropriateness of
the private placement.” (internal quotation marks
omitted)). “A private placement is appropriate if it is
reasonably calculated to enable the child to receive
educational benefits, such that the placement is likely
to produce progress, not regression.” T.K., 810 F.3d at
877 (citations and internal quotation marks omitted).
The Second Circuit has instructed courts making these
determinations to “consider the totality of the evidence, including ‘grades, test scores, regular advancement, or other objective evidence.’ ” Id. (quoting C.L.,
744 F.3d at 836). The “test for the parents’ private
placement is that it is appropriate, and not that it is
perfect.” C.L., 744 F.3d at 837 (internal quotation
marks omitted). Moreover, “[p]arents bear a lower burden to demonstrate the appropriateness of a private
placement than school districts do to demonstrate the
provision of a FAPE because ‘parents are not barred
from reimbursement where a private school they
choose does not meet the IDEA definition of a
[FAPE].’ ” T.K., 810 F.3d at 878 (second alteration in
original) (quoting Frank G., 459 F.3d at 364). Finally,
a unilateral private placement is appropriate only if it
provides “educational instruction specially designed to
meet the unique needs of a handicapped child.” Frank
G., 459 F.3d at 365 (internal quotation marks
omitted). Parents can, however, overshoot, and, “even
where there is evidence of success in the private
placement, courts should not disturb a state’s denial of

129a
IDEA reimbursement where the chief benefits of the
chosen school are the kind of advantages that might be
preferred by parents of any child, disabled or not.”
M.H., 685 F.3d at 246 (alterations and internal
quotation marks omitted). While “a child’s progress is
relevant to [a] court’s review” in this context, “such
progress does not itself demonstrate that a private
placement was appropriate.” Gagliardo, 489 F.3d at
115.
Before diving into the relevant analysis, a quick
word on the peculiar procedural posture of this case is
in order. As noted, the lawsuit relating to W.E.’s
freshman year (2011–2012) was consolidated with the
lawsuit relating to his sophomore year (2012–2013).
Because the issue in both cases is whether Northwood
was an appropriate placement, the record in one case
will logically bear upon the analysis in the other—and
with greater force still by virtue of the fact that both
cases shared the same SRO. (Compare Case I SRO Op.
32, with Case II SRO Op. 25.) While courts do not
artificially ignore the analytical cross-fertilization that
naturally arises in such circumstances, cf. Schreiber v.
E. Ramapo Cent. Sch. Dist., 700 F. Supp. 2d 529, 557
(S.D.N.Y. 2010) (characterizing as “useful” information
the fact that “the same SRO . . . presided over” two
separate SRO proceedings subsequently consolidated
into a single civil action before the district court, and
that “[that SRO] was presumably familiar with the
testimony from” one of the underlying IHO proceedings), the extent of deference to which an opinion is
entitled turns in large measure on the Court’s

130a
appraisal of the SRO’s reasoning, see, e.g., R.E., 694
F.3d at 189 (noting that “the deference owed to an
SRO’s decision depends on the quality of that opinion,”
as judged at least in part by “the factors that normally
determine whether any particular judgment is persuasive” (internal quotation marks omitted)). Given the
material differences between the SRO’s two opinions
in terms of quality and persuasiveness, the Court will
endeavor to separately analyze the question of
whether Northwood was an appropriate placement for
each year, considering both the record evidence and the
reasoning applied by the SRO in each instance.
b. 2011–12 School Year
In arguing that W.E.’s placement at Northwood
was appropriate for the 2011–2012 school year,
Plaintiffs offer a number of critiques of the IHO’s and
SRO’s decisions, (see Pls.’ Mem. 19–21), as well as a
host of reasons that they believe the placement was
appropriate, (see id. at 14–19, 22). The Court begins
with the former.
i.

Critiques of the IHO’s and SRO’s
Opinions

At its core, Plaintiffs’ position concerning the
respects in which the hearing officers erred can be
distilled to the proposition that they overlooked
evidence at the hearing, specifically Drs. Williams’s
and Robins’s testimony concerning W.E.’s needs and
the School, (see Pls.’ Mem. 19–20 (citing Case I Hr’g Tr.

131a
925–26, 1451–52, 1462–63)); focused too singularly on
W.E.’s persistent organizational issues without taking
adequate stock of the extent to which they improved
during W.E.’s freshman year, to the exclusion of
considering the broader impact of the migraines as a
whole, (see id. at 20–21 (citing Case I Hr’g Tr. 183,
1056–57, 1729, 1818–19; Case I Pls.’ Ex. MM)); and
failed to consider W.E.’s accommodation plan or the
gains he made at Northwood with respect to his
decreased feeling of isolation, positive reputation
among his teachers, need for medication, grades, and
other evaluation by his teachers, (see id. at 21–22
(citing Case I Hr’g Tr. 1565–66, 1579–80, 1778, 1814–
15; Case II Pls.’ Ex. H)).
After reviewing the SRO’s and IHO’s opinions as
well as the record more generally, the Court is satisfied
that although not all of the reasoning in the SRO’s and
IHO’s opinions is persuasive, the SRO and IHO did
consider the relevant evidence and it is appropriate in
this circumstance to afford deference to their conclusions. With respect to Plaintiffs’ concern that the
hearing officers did not take adequate stock of Drs.
Williams’s and Robins’s testimony, the SRO devoted a
considerable amount of attention to the input of
doctors who were familiar with W.E., including not just
Drs. Williams and Robins, but also Drs. Hahn and
Lasser. (See Case I SRO Op. 25–27.) In fact, the SRO
specifically considered Dr. Williams’s testimony
characterizing as the “best solution” for W.E. “a boarding school setting where there was a supportive
environment with small class size, guidance available

132a
on a more frequent and regular basis, and the
availability of outdoor activities.” (Case I SRO Op. 27
(alteration and internal quotation marks omitted)
(citing, inter alia, Case I Hr’g Tr. 923–24)). That he did
not go on to quote the next page of the transcript too,
where Dr. Williams characterized Northwood as “highly
appropriate,” does not make the SRO’s decision “poorly
reasoned,” (Pls.’ Mem. 19 (citing (Case I Hr’g Tr. 925)));
rather, it means only that the SRO, unlike Plaintiffs,
did not regard this testimony as “dispositive,” (id.).
Plaintiffs’ contentions are similarly unconvincing
with respect to Dr. Robins’s testimony. Under the
heading “The IHO and SRO Findings Disregard
Uncontested Facts,” Plaintiffs recount how Dr. Robins
“qualitatively confirmed the success of [W.E.]’s placement . . . and the [S]chool’s success in addressing his
emotional needs,” in that Dr. Robins testified that the
BASC-2 he administered in February 2012 showed a
two-standard-deviation shift for the positive in W.E.’s
attitude toward school, relative to W.E.’s seventh-grade
BASC-2. (See Pls.’ Mem. 20.) The IHO, however,
considered this very same testimony, even noting the
two-standard-deviations shift, but did not find it satisfactory to conclude that Northwood was an appropriate
placement in light of what the IHO considered insufficient evidence concerning Northwood’s attention to
W.E.’s specific emotional, counseling, and organizational needs. (See Case I IHO Op. at unnumbered 35–
36.) It is unclear from Plaintiffs’ submission whether
they realized that the IHO expressly considered this
testimony; however, at a minimum, its presence

133a
undercuts Plaintiffs’ assertion that the hearing officers
overlooked such testimony, and, with it, counsels
against dismissing their decisions as the product of
poor reasoning.
While the Court partially shares Plaintiffs’ concern that the IHO and SRO put too much emphasis on
W.E.’s organizational issues, (see Pls.’ Mem. 20), the
record supports the conclusion the organizational difficulties continued to frustrate W.E. midway through the
year, (see Case I Pl.s’ Ex. TT (noting that W.E.’s biology
teacher “[would] continue trying to help [W.E.] work on
his organization”)). While it may be true, as Plaintiffs
contend, that M.S. determined that W.E. had become
better organized because of his ninth-grade planner,
(see Pls.’ Mem. 21), such progress is not talismanic, cf.
Gagliardo, 489 F.3d at 115 (noting that “a child’s
progress is relevant to the court’s review,” but “does not
itself demonstrate that a private placement was appropriate”), and failure to be convinced by such progress
does not corrode the hearing officers’ reasoning.
Less clear is whether the hearing officers gave
appropriate weight to the other respects in which the
migraines impaired W.E.’s well-being or the other
respects in which he improved, including through the
accommodation plan.
The opinions make clear,
however, that the hearing officers considered parts of
the record relating to issues that Plaintiffs insist went
“[d]isregard[ed]”—specifically, the sheer volume and

134a
effects of W.E.’s absences cause by migraines,18 the
social and interpersonal developmental progress W.E.
showed at Northwood,19 that W.E. had successfully
withdrawn from certain medications,20 and Northwood’s accommodation plan.21 In short, the Court is
18

(Compare Pls.’ Mem. 20 (indicating that the SRO and IHO
“ignor[ed]” such issues as that “[t]hese migraines caused him to
miss 108 days of classes in the eighth grade and receive medical
incompletes, resulting in a denial of credit, in 8 classes” leading
to increased anxiety), with Case I SRO Op. 4, 27 (noting that
W.E.’s cycle of headaches led to over 100 absences and that Dr.
Robins noted W.E. identified the “stress[ ] of falling behind with
peers and school work” as headache triggers), and Case I IHO Op.
at unnumbered 16 (noting that the District stipulated that W.E.
received “medicals” in several classes and citing W.E.’s report
card).)
19
(Compare Pls.’ Mem. 21 (indicating that the SRO and IHO
“failed to note that [W.E.] went from a socially isolated individual
to being fully integrated with his class members”), with Case I
SRO Op. 31 (noting that “the hearing record supports a finding
that the student’s social/emotional . . . functioning improved since
the end of the 2010–11 school year”), and Case I IHO Op. at
unnumbered 35 (noting testimony that W.E. had been “doing
‘really well’ with his peers” at Northwood).)
20
(Compare Pls.’ Mem. 21 (asserting that “[t]he IHO and
SRO disregarded entirely the reduction in medication that [W.E.]
had previously taken” in that he “was able to stop taking
Depakote and Amitriptyline”), with Case I IHO Op. at unnumbered 35 (noting that “[t]he student’s mother testified about the
student’s progress,” including that “[W.E.] is off the Depakote,
[and] he is off the Amitriptyline”).)
21
(Compare Pls.’ Mem. 21 (“The IHO and SRO also make no
mention of [Northwood’s] Accommodation Plan, its various elements
and how it essentially tracked the District’s accommodation
provisions.”), with Case I SRO Op. 28 (“[Northwood] developed an
‘official accommodation plan’ based upon [W.E.’s] June 2010
section 504 accommodation plan.”).)

135a
not persuaded that the putative flaws in the hearing
officers’ opinions to which Plaintiffs point are so
serious as to strip those opinions of the deference they
are normally afforded. While the Court believes that
Plaintiffs sincerely and perhaps correctly believe that
W.E.’s improvement during his first year at Northwood
was remarkable, that does not mean that the hearing
officers’ conclusions must have been the product of
poor reasoning.
ii. Why Plaintiffs Believe Northwood
Was Appropriate
Having so concluded, the Court now turns to
Plaintiffs’ arguments concerning why Northwood was
an affirmatively appropriate placement for W.E. in
order to assess whether such analysis counsels against
affording deference to the IHO’s and SRO’s decisions.
The principal argument Plaintiffs make is that W.E.
improved in many important respects and that certain
features of the School made it particularly appropriate.
The Court will consider each in turn.
W.E.’s Improvement
To begin, the Parents argue that Northwood was
appropriate because of the numerous ways in which
W.E. improved while there. Specifically, the Parents
stress (i) W.E.’s health improvements revealed through
the abatement of his migraines with their attendant
school-attendance problems and improved February
2012 BASC-2 test results, (see Pls.’ Mem. 17), (ii) his

136a
improved academic performance, (see id. at 17–18),
and (iii) his involvement in the school and the various
programs that it offered, (see id. at 18–19). Each deserves attention.
First, although the record indicated substantial
improvement in W.E.’s health and attendance record,
the SRO concluded that Northwood’s program still did
not “provide[ ] [W.E.] with educational instruction specially designed to meet his unique needs,” inasmuch as
the hearing record lacked evidence demonstrating that
Northwood “provided instruction . . . designed to address [W.E.’s] tendencies to develop physical symptoms
and exhibit school avoidance when under stress.”
(Case I SRO Op. 31.) It is true that mere correlation
between private school placement and general behavioral improvement does not, on its own, establish
that a nonpublic school was an appropriate placement
for a student. See R.C. ex rel. N.C. v. Bd. of Educ. of
Hyde Park Cent. Sch. Dist., No. 07-CV-2806, 2008 WL
9731174, at *2 (S.D.N.Y. July 7, 2008); see also
Gagliardo, 489 F.3d at 115 (“[E]ven where there is
evidence of success, courts should not disturb a state’s
denial of IDEA reimbursement where, as here, the
chief benefits of the chosen school are the kind of
educational and environmental advantages and amenities that might be preferred by parents of any child,
disabled or not.”). At the same time, however, it is
difficult to overstate the improvement in W.E.’s attendance record—W.E. went from missing over 100 days of
school in the eighth grade to just nine in his first year
at Northwood. (See Case I Joint Ex. 67 (attendance

137a
summary); Case II Pls.’ Exs. T, U (logs); see also Pls.’
Cross 56.1 ¶ 328; Def.’s Cross 56.1 ¶ 328.) While the
Court “lacks the specialized knowledge and experience
necessary to resolve persistent and difficult questions
of educational policy,” Gagliardo, 489 F.3d at 113
(alteration and internal quotation marks omitted), the
significance of such a change in attendance is hardly a
question of educational policy. And it belies common
sense to suggest that W.E.’s improvement in this regard was not attributable to specific improvements in
his educational environment. Still, however, “the parents bear the burden of establishing the appropriateness of the private placement,” T.K., 810 F.3d at 875,
and although W.E.’s attendance showed significant
improvement, W.E.’s attendance record was only a
single aspect of his troubles in public school. Improvement in one area in which the student struggled is
insufficient, on its own, to carry Plaintiffs’ burden.22
Next, considering W.E.’s grades (shorn of the
influence that his attendance difficulties had on
them), the evidence does not contradict the IHO’s and
SRO’s conclusion that Northwood was not an appropriate choice. To the contrary, comparing W.E.’s report
card from eighth grade with his report cards from
22

Although the Court lacks the “specialized knowledge and
educational expertise,” M.W., 725 F.3d at 138, to assess the
meaningfulness of changes in BASC-2 scores over time, one would
imagine that it is not wholly irrelevant that, a few months after
the February 2012 BASC-2 test, W.E.’s English teacher shortly
thereafter rated him as clinically significant for somatization and
at risk for social skills, (see Case II Def.’s Ex. 13 (Lupiani
Psychological Evaluation)).

138a
Northwood shows improvement not so much in the
caliber of grades he received, but rather in that he no
longer received medicals. Indeed, in eighth grade, W.E.
received one B+, several A-s, two A+s, and numbered
grades ranging between 78 and 93. (See Case I Joint
Ex. 70 (8th Grade Report Card).) In the first two
marking periods at Northwood, his quarterly grades
reflect one C, three C + s, one B, two B + s, two A-s, and
one solid A, and his semester grades reflect a range
between C and A-. (See Case I Pls.’ Exs. PP, TT.) While
it is, to be sure, no small feat to academically overcome
a year like W.E.’s eighth grade, and it may even be
prudent, as M.S. did, to expect some academic headwinds afterwards, (see Case I Hr’g Tr. 1815), W.E.’s
grades—even in light of the additional indicia of
academic progress M.S. noted, (see Pls.’ Mem. 18)—do
not lead the Court to question the hearing officers’
reasoning.
Last of all, the benefits that W.E. reaped by
becoming engaged in the School community do not
compel a conclusion contrary to that reached by the
IHO and the SRO. It may be true that the activities in
which W.E. participated had therapeutic benefits and
prevented him from being isolated, (see Pls.’ Mem. 18–
19), and that Northwood’s staff “ha[d] a lot of faith in
the school’s therapeutic culture” that would help W.E.
come to see it “as a positive and psychologically safe
place,” (Case I Pls.’ Ex. VV), but the simple fact that a
School’s culture generally assisted a historically
disabled student does not make it specially designed
to meet that student’s unique needs, see John M. v.

139a
Brentwood Union Free Sch. Dist., Nos. 11-CV-3634, 12CV-2603, 2015 WL 5695648, at *9 (S.D.N.Y. Sept. 28,
2015) (“Though the general educational environment
at [a particular school] may have been one where rules
were enforced and bullying was not tolerated and
where staff ‘encouraged’ the students, these benefits
are nothing more than ‘the kind of educational and
environmental advantages and amenities that might
be preferred by parents of any child, disabled or not,’
and do not warrant a grant of tuition reimbursement
under the IDEA, or disturbing the SRO’s denial of
reimbursement in this case.” (quoting Gagliardo, 489
F.3d at 115)).
Therefore, while the indicia of progress to which
Plaintiffs point are, of course, “relevant,” they are not
dispositive and do not, without more, “demonstrate
that a private placement was appropriate.” Gagliardo,
489 F.3d at 115. While W.E. showed significant progress, that is not enough to show that Northwood was
an appropriate placement.
Northwood’s Features
Plaintiffs also make several other arguments in
favor of Northwood that deserve attention. In so doing,
Plaintiffs focus on Northwood’s small environment,
boarding component, structure, principles, associated
activities, low student-to-teacher ratio, supervised
study time, close contact between adults and students,
“counseling” sessions with Mellor, and access to school
nurses. (See id. at 14–16 & n.12 (citing Case I Hr’g Tr.

140a
381–87, 1059, 1554, 1564–66, 1572–73, 1577, 1782,
1796–99, 1807, 1817, 1824–26; Case II Hr’g Tr. 400;
Case I Joint Ex. 50a (Williams letter)).) Additionally,
Plaintiffs argue that Northwood’s accommodation plan
“paralleled the District’s Section 504 plan.” (See id. at
16–17.) Many of Northwood’s unique features are
discussed below in reference to the 2012–2013 school
year. (See infra.) While some of Northwood’s features
weigh in favor of reimbursement, the Court is not
persuaded that the SRO’s decision with respect to the
2011–2012 school year is infirm on the basis of these
features alone.
First, the Court is not prepared to second-guess
the SRO’s and IHO’s determination that the counseling W.E. received was not tailored to W.E.’s needs.
According to Plaintiffs, such counseling “took place in
[W.E.]’s dorm, in the school cafeteria and during rock
climbing in the Adirondacks, where the conversation
was less restricted and more open than a conversation
might be in a closed-door office.” (Pls.’ Mem. 16.)
Although the SRO considered the same testimony that
led Plaintiffs to argue that W.E. in fact did receive
supportive counseling, (compare Case I SRO Op. 28–29
(citing, inter alia, Case I Hr’g Tr. 1564–65, 1572–73),
with Pls.’ Mem. 16 (citing Case I Hr’g Tr. 1564–65,
1572–73)), the hearing and review officers did not
think that such counseling made Northwood an appropriate placement, instead concluding that “[Northwood’s] counselor offered no testimony regarding the
student’s social/emotional needs or counseling needs,
such that the hearing record contained no evidence

141a
that the . . . counselor was familiar with [W.E.’s]
needs,” (Case I SRO Op. 31). Moreover, the IHO noted
that, in its view, the only aspect of the counseling that
was “designed to meet [W.E.’s] specific needs,” was its
“less-structured format of checking in with the student
in a more natural way or on his turf.” (Case I IHO Op.
36.) In this respect, it is striking that, in their Memorandum of Law, Plaintiffs specifically characterize
W.E.’s conversations “during rock climbing in the
Adirondacks” as “counseling. . . . sessions” and cite
pages 1564–65 of the hearing transcript, (see Pls.’
Mem. 16), where Mellor, when asked about “speaking
with [W.E.] while climbing,” testified that “this [was
not] just specific to [W.E.],” (Case I Hr’g Tr. 1565).23 The
Court recognizes that an element of personal tailoring
inheres in the decision to modify an approach to
counseling based on the student’s response. However,
despite their understanding of the sort of counseling
that W.E. received, both the IHO and the SRO
concluded that this was not enough to bring W.E.’s
education within the ambit of reimbursable private
schools. Given that the IHO’s and SRO’s reviews were
23

Specifically, Mellor testified:
Q. You would also be speaking with him while
climbing?
A. Oh, yes, as we watch all the kids, he is in the van
for 15 or 20-minute drive, I am watching the way he
interacts with all kids, this isn’t just specific to [W.E.],
all kids, we pull them aside and make a little comment
about the way they interact and how is it going, did you
get that paper done for Miss Farmer, that kind of thing.
(Case I Hearing Tr. 1565.)

142a
“thorough and careful,” P. ex rel. Mr. & Mrs. P., 546 F.3d
at 118, and in agreement, see A.A., 2015 WL 10793404,
at *10, the Court is satisfied that deference to their
determination is appropriate, cf. Doe, 790 F.3d at 450
(concluding in context of challenge to IEP that the
specifics of a therapy regime was subject to judicial
deference).
By contrast, the Court finds the SRO’s reasoning
with respect to Northwood’s small, boarding school
style unpersuasive. The SRO determined that the
School’s “residential setting . . . merely eliminated
[W.E.’s] exposure to the public school environment and
to activities that he perceived as stressful,” but that
was not the same as “provid[ing] [W.E.] with educational
instruction specially designed to meet his unique needs.”
(Case I SRO Op. 31.) But the record indicates that W.E.
was in need of a smaller school environment to help
reduce his stress and combat his health issues. (See
Case I Joint Ex. 50a (Williams letter), at 2 (recommending a “smaller school environment, with small
classes, where [W.E.] [could] receive both supportive
counseling and educational services that enable him to
return to normal social and educational functioning”);
Case I Joint Ex. 50b (Lasser letter) (recommending a
“small supportive school environment”); Case I Joint
Ex. 51 (Robins letter), at 2 (positing that “it [was]
unlikely that [W.E.] [would] succeed in the 9th grade if
he continue[d] in the mainstream public school
system”)). And while it is true that the mere fact that
a student is better suited for boarding school does not
mean that the specific boarding school chosen was an

143a
appropriate placement, cf. Eschenasy v. N.Y.C. Dep’t of
Educ., 604 F. Supp. 2d 639, 644, 651–52 (S.D.N.Y. 2009)
(noting that the student’s therapist recommended that
the student be placed in a therapeutic boarding school,
and concluding that, while one boarding school was an
appropriate choice for the student, another was not),
the fact that Northwood’s boarding aspect provided
benefits specific to W.E. counsels a least slightly in
favor of reimbursement. The Court is not persuaded,
however, this fact alone is reason enough to impugn
the SRO’s opinion.
The Court also finds unpersuasive the SRO’s
conclusion that other provisions listed in W.E.’s Northwood accommodation plan—extra time to complete
assignments, preferential seating, and the use of
graphic organizers or guided notes, (see Case I Pls.’ Ex.
MM (Northwood accommodation plan))—were not
tailored to W.E.’s needs. The SRO, for instance, mentioned Mellor’s testimony that “[w]hat’s interesting in
a lot of IEPs and accommodation plans is the nature of
[Northwood’s] regular offering covers a lot of typical
requests such as sitting in front,” and that such
accommodations as “[e]xtended time on work,” “[u]se of
any electronic or any assistive devices” are both “pretty
routine.” (Case I Hr’g Tr. 1790; see also Case I SRO Op.
29–30.) But the fact that other students at Northwood
required similar accommodations says nothing about
the appropriateness or effectiveness of the accommodations made for W.E. The law does not require
Plaintiffs to prove that Northwood provided W.E. with
exceptional attention above that offered to other

144a
students, only that W.E. received benefits specially
designed to address his unique needs. See Frank G.,
459 F.3d at 365. There is little question that W.E.
required extra time to complete assignments and
benefitted from preferential seating and graphical
organizers, and there is no question that those
accommodations targeted specific needs of W.E. The
reasoning of the SRO and IHO is thus not persuasive
here. Again, however, the Court is not persuaded that
these accommodations, standing on their own, are
significant enough to satisfy Plaintiffs’ burden of
showing that Northwood was an appropriate placement during the 2011–2012 school year, especially in
light of the SRO’s conclusions regarding the lack of
meaningful counseling and the lack of mechanisms to
help W.E. deal with his organizational or stress issues.
(See Case I SRO Op. 31.) Therefore, the Court defers
to the hearing officers’ conclusion that Northwood was
not an appropriate placement for W.E.’s freshman year.
c. 2012–13 School Year
Unlike with the 2011–12 school year, the SRO
(who was the same as in Case I) and the IHO (who was
not) reached differing conclusions as to whether
Northwood was an appropriate placement for W.E.’s
sophomore year. As noted above, although W.E.
received many of the same benefits from Northwood in
both his freshman and sophomore years, the pertinent
inquiry for the Court is whether the SRO’s opinion
persuasively addressed the record and whether the
decision of the SRO is supported by the facts available

145a
on the record. See R.E., 694 F.3d at 189 (noting that
“the deference owed to an SRO’s decision depends on
the quality of that opinion,” as judged at least in part
by “the factors that normally determine whether any
particular judgment is persuasive” (internal quotation
marks omitted)). If not, deference to the SRO’s opinion
is not appropriate, and the Court may consider the
IHO’s opinion and the facts on the record to conclude
whether the nonpublic school was an appropriate
placement. See M.H., 685 F.3d at 246 (“[If ] the SRO’s
determinations are insufficiently reasoned to merit
deference . . . , it is entirely appropriate for the court
. . . to consider the IHO’s analysis.”). Importantly, “in
situations when an SRO reverses the finding of an
IHO, the court should give substantial deference to the
SRO’s views of educational policy, but less to the SRO’s
factual findings or to its reasoning in general.” S.C.,
175 F. Supp. 3d at 253 (internal quotation marks
omitted).
i.

Adequacy of the SRO’s Opinion

Unlike the SRO’s decision in the first case, the
SRO’s decision with regard to the 2012–2013 school
year failed to give adequate weight to many of
Northwood’s most beneficial features and erroneously
discounted the value of some of those features merely
because they were generally available to all students.
(See Case II SRO Op. 24–25.) Indeed, although the
SRO provided a thorough recitation of the facts on the
record, it dedicated barely two pages to actually

146a
analyzing whether Northwood was an appropriate
placement. (See id. at 23–25.)
Moreover, the SRO focused almost exclusively on
W.E.’s need to cope with his stress-related issues. (See
id.) Coping and managing stress was one of the goals
identified in W.E.’s 2012–2013 IEP. (See Case II Def.’s
Ex. 18, at 4.) But also included in W.E.’s IEP were
needs such as strengthening organization and study
skills, improving notetaking skills, making school personnel available during stressful situations, and offering a supportive and structured environment. (See id.
at 4–5.) As discussed below, these goals were addressed by Northwood, both by the features generally
available to all students and by the specific accommodations implemented for W.E. The SRO’s fixation
on W.E.’s stress issues calls into question the quality of
the SRO’s opinion, and thus counsels against affording
the SRO opinion deference. See R.E., 694 F.3d at 189.
By contrast, the IHO opinion identified each
accommodation or benefit provided by Northwood and
analyzed how, if it all, that feature served a specific
need of W.E. (See Case II IHO Op. 14–19.) While not
all of the IHO’s reasoning is thorough or persuasive,
the Court is satisfied that, at the very least, the IHO
both considered the evidence in the record and examined it in a meaningful way. Accordingly, the Court will
take into consideration the IHO’s reasoning and
conclusions in determining whether Northwood was
an appropriate placement.

147a
ii. Benefits Provided by Northwood
Plaintiffs make five arguments regarding the
appropriateness of W.E.’s placement at Northwood:
(1) that Northwood provided W.E. various educational,
emotional, and social benefits, (2) that Northwood provided W.E. specially designed services for his unique
needs through his accommodation plan, (3) that individualized counseling was appropriate for W.E., (4) that
nursing services were individualized and targeted for
W.E.’s needs, and (5) that small class sizes benefited
W.E., (See Pls.’ Mem. 23–28.) The Court will consider
each argument in turn.
Educational, Emotional, and Social Benefits
To begin, Plaintiffs argue that W.E. received numerous educational, emotional, and social benefits from
Northwood, as judged by his grades, his attendance,
the esteem in which faculty and classmates held him,
his social integration with the community, and his
participation in extracurricular activities, such as
leading the kayaking program and serving as JV
soccer goal keeper. (See Pls.’ Mem. 23–24.) With respect to the perception of W.E. among students and
classmates and W.E.’s integration into the community,
the analysis already applied similarly counsels against
setting aside the SRO’s determination on these
grounds. The question, therefore, is whether W.E.’s
academic performance and his participation in extracurricular activities, in light of the IHO’s and SRO’s

148a
conflicting conclusions, should strip the SRO’s opinion
of the deference to which it should be entitled.
With respect to W.E.’s grades and academic performance, a review of the hearing officers’ opinions
indicates that some deference to the SRO is in order.
The SRO analyzed the record in some detail, considering not just W.E.’s report cards through the third
quarter of his sophomore year, (see Case II Pls.’ Exs. HJ, L (report cards), Case II Def.’s Ex. 15 (3rd marking
period report card)), but also W.E.’s teachers’ evaluation reports, (see Case II Def.’s Ex. 8 (teacher evaluation reports)), Dr. Williams’s evaluation, (see Case II
Def.’s Ex. 17 (Dr. Williams June 2012 letter)), Coughlin’s observation of W.E. in class, (see Case II Def.’s Ex.
6), and Dr. Lupiani’s May 11, 2012 evaluation of W.E.,
(see Case II Def.’s Ex. 13); see also (Case II SRO Op. 14–
15, 23–24), and concluding that the School provided
W.E. “with ‘the kind of educational and environmental
advantages and amenities that might be preferred by
parents of any child, disabled or not,’ ” (Case II SRO
Op. 24 (quoting Gagliardo, 489 F.3d at 115).) The
SRO’s conclusions are largely borne out by the record:
W.E.’s quarterly grades ran the gamut from several C
+ s to an A-, and his first semester grades fell between
C + and B +. (See Case II Pls.’ Ex. L.) Somewhat more
qualitatively, as the SRO notes, the teachers’ feedback
was a mix of praise, (see, e.g., id. at 1 (“[W.E.] is among
the quickest and most sophisticated students in his
grade level—except for his reading.”)), and critiques,
(see, e.g., id. at 2 (“[W.E.’s] overall participation and

149a
conduct in [Spanish] class has been less than satisfactory.”)).
Although Plaintiffs take issue with the District’s
quotation of certain evaluations, arguing that “[t]hree
different [Northwood] staff members, including two
teachers, testified and each provided complimentary
views of [W.E.],” and positing that “for each apparent
negative comment in a report card, three corresponding positive comments exist,” (Pls.’ Mem. 23 n.18), the
SRO did acknowledge a wide variety of indicia of W.E.’s
progress, (see Case II SRO Op. 17–18 (noting, among
other things, testimony that the student was a “bright
young man” (citing Case II Hr’g Tr. 426–27))). The
SRO’s analysis of W.E.’s academic progress was thus
not infirm. It bears noting, however, that academic
progress, though not dispositive, may nonetheless be
“relevant.” Gagliardo, 489 F.3d at 115. Nothing in the
SRO’s opinion suggests that W.E.’s progress was not
significant or relevant to question of the appropriateness of Northwood, merely that, in the SRO’s view,
other deficiencies at Northwood counseled against
reimbursement. Accordingly, because W.E.’s academic
progress was relevant, but not dispositive to the SRO,
the Court will consider this factor as weighing slightly
in favor of reimbursement.
The Court finds no error with the SRO’s conclusion
with respect to W.E.’s role in activities such as
kayaking and soccer. (See Pls.’ Mem. 23–24.) It is clear
that the SRO was aware of these features of the school,
(see Case II SRO Op. 22 (“Both the guidance director
and the western civilization teacher testified that the

150a
student benefitted from additional ‘nonacademic’
activities such as soccer, whitewater rafting, and
kayaking.”)), but, all the same, he concluded that, while
it was “understandable why the [P]arents selected a
placement such as [Northwood],” the School was still
not shown by the record to “provide [W.E.] with
specially designed instruction to address organizational needs, the need to develop insight, and his
underlying vulnerability toward and lack of coping
skills related to anxiety, stress, and somatization,” (id.
at 24). It is true that there is evidence suggesting that
W.E. was in a position to benefit from Northwood’s outdoor programs, (see, e.g., Case II Hr’g Tr. 1320 (testimony from Dr. Rissenberg concerning the benefit W.E.
received “of being with classmates in the classroom
and also in the outdoors activities”)); however, it is also
true that a school that offers certain athletic programs
does not necessarily become an appropriate placement
simply by virtue of testimony that the program would
do the student good, see L.K. ex rel. Q v. Ne. Sch. Dist.,
932 F. Supp. 2d 467, 479, 483, 489–91 (S.D.N.Y. 2013)
(noting that a witness testified that a student’s
physical activity needs could be addressed through
participation in an equestrian program and after
school athletics, but affirming the SRO’s view that the
school was not an appropriate placement in part
because all students participated in the equestrian
program and that the program was therefore “not individualized to meet [the student’s] unique education
needs”).

151a
As above, however, the SRO failed to give any
meaningful attention to the substantial improvement
in W.E.’s attendance record. Again, while the Court
will not substitute its own view of educational policy
for those of the SRO, see Gagliardo, 489 F.3d at 113,
the dramatic improvement in W.E.’s attendance record
while at Northwood can hardly be overstated—W.E.
missed a total of 10 days during his sophomore year,
nine of which were attributed to migraines, (see Case
II Pls.’ Ex. N). And the record indicates that W.E.’s
improvement in attendance was not a consequence of
circumstance, but rather was attributable to Northwood’s boarding feature, (see Case I Hr’g Tr. 893–94,
923; Case II Hr’g Tr. 1288, 1322), and small class size,
(see Case I Hr’g Tr. 1055–57; Case II Hr’g Tr. 383–86).
Again, the failure of the SRO to discuss this improvement calls into question the thoroughness and persuasiveness of the SRO’s decision. At the very least, W.E.’s
improvement in attendance, though not dispositive, is
relevant evidence of the appropriateness of Northwood, see Frank G., 459 F.3d at 364 (“[C]ourts
assessing the propriety of a unilateral placement
[should] consider the totality of the circumstances in
determining whether that placement reasonably
serves a child’s individual needs.”), and the SRO ought
to have at least acknowledged the significance of this
improvement.
Accommodation Plan
Next, according to Plaintiffs, the SRO “ignore[d]
. . . detailed testimony on the implementation of the

152a
Accommodation Plan and the targeted services for
[W.E.]” (Pls.’ Mem. 21.) In so arguing, Plaintiffs focus
on two changes made in W.E.’s accommodation plan
during the first weekend in October 2012: the use of an
iPad for his classes and the addition of a second study
period. (See id.)24 The SRO noted that the accommodations listed on W.E.’s October 2012 plan were
“available to most if not all [Northwood] students,” but
ultimately found them insufficient to make Northwood
an appropriate placement because “the hearing record
[did] not include information about how [Northwood]
addressed the student’s needs identified by the parents
in their suggested goals, or how it otherwise provided
specially designed instruction to address the student’s
organizational difficulties.” (Case II SRO Op. 24.)
With respect to W.E.’s use of the iPad, although the
SRO mentioned the use of the iPad in its summary of
the features and services available at Northwood, the
SRO made no reference to the device in its analysis of
whether Northwood was an appropriate placement.
(See Case II SRO Op. 23–25.) To be sure, the iPad
was but one aspect of Northwood’s accommodations,
but testimony before the IHO indicated that the iPad
was a “godsend” for W.E., (Case II Hr’g Tr. 381), and
helped W.E. with organizational skills, (see id. at 381–
83), which he had struggled with in the past, (see
Case II Def.’s Ex. 8 (teacher evaluation reports), at
24

The Accommodation Plan was also updated to include
“[a]ccess to school nurse” as an accommodation and to note that
W.E. no longer took medication for his condition. (Compare Case
II Pls.’ Ex. C, with Case II Pls.’ Ex. D.)

153a
unnumbered 2, 4, 5; see also Def.’s 56.1 ¶¶ 128–32; Pls.’
56.1 ¶¶ 128–32). This point is particularly pertinent
in light of the fact that the SRO concluded that the
record did not indicate that Northwood had “provided
[W.E.] with specially designed instruction to address
organizational needs,” (Case II SRO Op. 24), an
observation belied by uncontested testimony. And it is
no answer to say that the iPad could not be specially
designed to address W.E.’s unique needs simply because it was generally available to all other students—
the Second Circuit has never indicated that a resource
available to all students cannot be considered for
purposes of determining appropriate placement if that
resource addressed a specific need of the child. In
Hardinson, for instance, the Second Circuit deferred to
the SRO’s denial of tuition reimbursement not because
the educational services highlighted by the plaintiffs
were “generally available,” but because the plaintiffs
failed to provide the “necessary detail as to the services
provided or how they related to [the student’s] educational progress” 773 F.3d at 387 (emphasis added).
Here, by contrast, Plaintiffs have pointed to testimony
highlighting the specific impact of the iPad on W.E.’s
educational progress. (See Case II Hr’g Tr. 381–83.)
Moreover, the record indicates that W.E. “was the only
student in the school who was required to use [the
iPad] for all classes,” (John Doe Aff. ¶ 60), further
suggesting that the iPad was not a mere convenience
or a generally available resource that W.E. happened
to take advantage of, but rather an educational benefit

154a
that was deployed for W.E.’s specific advantage.25 The
Court is not persuaded that the SRO’s opinion, which
failed to consider this testimony at all, is entitled to
deference on this point, and finds that the availability
of the iPad weighs in favor of reimbursement.
The SRO likewise provided no analysis on how the
availability of a second study hall impacted, or did not
impact, the appropriateness of Northwood. (See Case
II SRO Op. 23–24.) Because there is little evidence in
the record of the additional study hall’s benefit to W.E.,
25

It may be argued that the Second Circuit’s decision in
Gagliardo suggests otherwise. There, the Second Circuit held
that “[a] unilateral private placement is only appropriate if it
provides ‘education instruction specifically designed to meet the
unique needs of a handicapped child.’ ” 489 F.3d at 115 (quoting
Frank G., 459 F.3d at 365). While the use of the word
“specifically” could be interpreted as precluding the reviewing
court from considering generally available accommodations, the
word “specifically” is a typo—the Second Circuit was quoting its
earlier holding in Frank G., which was in turn quoting the
Supreme Court in Rowley. In both Frank G. and Rowley, the
pertinent language is that educational instruction must be
“specially designed to meet the unique needs of a handicapped
child.” Frank G., 459 F.3d at 365 (emphasis added); Rowley, 458
U.S. at 188–89, 102 S.Ct. 3034 (emphasis added). Although later
courts have quoted the language from Gagliardo, the Court does
not think that a typographical error should control the disposition
of this, or any other, case. Even were that language controlling,
however, the Second Circuit in Gagliardo merely used that
language to explain that improvements in a student’s performance attributable to the general advantages offered by private
schools was insufficient to establish that a nonpublic school was
an appropriate placement. See 489 F.3d at 115. Such a holding
does not run counter to the notion that generally available
accommodations may be considered where, as here, they address
a specific and unique need of a handicapped child.

155a
(see Case II Hr’g Tr. 441–42), the Court is not persuaded that the availability of a second study hall
weighs significantly in favor of Plaintiffs. Still, the
SRO’s failure to even mention the additional study hall
period in reference to W.E.’s need to “complete[] assignments in a timely manner, proofread[ ]/perfect[ ]/
augment[ ] analysis rather than turn[ ] in a first draft,
[and] turn[ ] in homework on time,” (Case II SRO Op.
24), gives the Court less confidence that the SRO
engaged this evidence in a meaningful way, cf. R.E.,
694 F.3d at 189 (“[T]he deference owed to an SRO’s
decision depends on the quality of that opinion.”).
Accordingly, although the availability of a second study
hall is not a significant factor, it does weigh slightly in
favor of reimbursement.
Counseling
With respect to the counseling W.E. received, the
Court agrees with the SRO that there is no evidence
that Northwood provided meaningful counseling.
Plaintiffs argue that the “individualized counseling”
that Mellor offered W.E. “on a regular, weekly basis, if
not more frequently,” “proved extremely beneficial to
[W.E.].” (Pls.’ Mem. 25.) Plaintiffs stress the informal
approach that Mellor took to counseling, (see id.), and,
indeed, the IHO found this aspect of the counseling
important, (see Case II IHO Op. 18 (“The informal
counseling sessions are specially designed to meet the
[s]tudent’s needs because previously he had not been
eager to take part in counseling.”)).

156a
Given that the SRO and the IHO disagree this
time around, somewhat less deference to the SRO’s
conclusion may be in order, see A.A., 2015 WL 10793404,
at *10; nevertheless, the Court is still satisfied that the
SRO’s decision largely merits deference. For one thing,
the SRO noted that, “[w]hile [W.E.] appear[ed] to have
benefitted from the informal nature of his interactions
with [Mellor], the hearing record [was] devoid of information such as counseling notes, progress reports
toward goals, etc., showing how, if at all, these sessions
addressed the student’s need to develop insight and
coping skills.” (Case II SRO Op. 23.) And, indeed,
evidence that a counseling routine successfully helps a
student in one regard does not mean that it necessarily
is specially designed to meet that child’s unique needs,
even where the IHO found that the private placement
was appropriate. See Hardison, 773 F.3d at 384, 387–
88 (finding that notes indicating that the student was
progressing psychologically “[did] not offer evidence of
how the . . . program was ‘specifically designed’ to
channel [the student’s] psychological improvement
into academic improvement”).
Moreover, as the SRO noted, Dr. Williams “advocat[ed] that the supportive, informal counseling that
was provided by one of [W.E.’s] teachers during the
past academic year[ ] be supplemented by a more
systematic psychotherapy program in the coming
year,” (see Case II Def.’s Ex. 17, at 2), but that there
“[was] no evidence regarding if or how private counseling addressed the student’s needs,” (Case II SRO
Op. 24). It displays no defect in reasoning for the SRO

157a
to conclude that this observation cut against concluding that Northwood’s counseling services were
specially designed to meet W.E.’s needs. See M.H., 685
F.3d at 254 (characterizing “the fact that the parents
[may have] obtained necessary services not offered
through the selected school from an out-side agency”
as “an appropriate consideration, but . . . not necessarily dispositive”). Indeed, such a conclusion seems
sound, particularly in light of the fact that, although
the School “possessed very little information specific to
[W.E.]” in advance of his freshman year when it
accepted him, (John Doe Aff ¶ 21), few if any changes
to the accommodation plan were made in this respect
except to adopt a more informal approach, (see Pls.’
Mem. 25), despite ongoing contact with W.E. and his
parents, and despite M.S. having contacted school
officials about obtaining other psychological services,
(see Case II Hr’g Tr. 627–28, 839–840). The Court
therefore concludes that the counseling W.E. received
during his sophomore year does not support Plaintiffs’
request for reimbursement.
Nursing Services
Next, Plaintiffs argue that “the 24-hour nursing
support [was] essential for the control of [W.E.’s]
migraines,” and that “[t]he willingness of faculty
members and both nurses to visit him and assist him
during a migraine . . . highlight the individualized
medical support.” (Pls.’ Mem. 25.) As above, the mere
fact that the presence of a 24-hour nursing staff might
be “the kind of educational and environmental

158a
advantage[ ] . . . that might be preferred by parents of
any child, disabled or not,” (Case II SRO Op. 24
(quoting Gagliardo, 489 F.3d at 115)), does not compel
the conclusion that, in every case, a generally available
accommodation cannot be probative of whether a
nonpublic school is an appropriate placement. Here,
W.E.’s migraines were a pervasive problem, and one
that seemed intertwined with all of his other academic
issues. It strains credulity to suggest that an aroundthe-clock nurse staff, one of whom resided on the same
floor as W.E., (see John Doe Aff. ¶ 43), was not an
educational feature that worked to W.E.’s specific
benefit. And the mere fact that, during one of W.E.’s
more severe migraines, the nursing staff considered
sending W.E. back home to heal, (see Case II Pls.’ Ex.
T), offers no insight into the value W.E. derived from
the presence of the nursing staff—there is no evidence
that W.E. was actually sent home, and, if anything, this
incident demonstrates that the nursing staff was both
willing and able to offer W.E. medical attention when
he needed it. On the other hand, the record is devoid
of further evidence showing what specific benefits W.E.
derived from the presence of the nursing staff.
Accordingly, the Court concludes that this feature
weighs only slightly in favor of reimbursement.
Small Class Sizes
Although Plaintiffs do so in the context of a section
arguing that the School provided W.E. with appropriate therapeutic services, many of which have
already been discussed herein, Plaintiffs also press the

159a
point that Northwood was appropriate by virtue of its
small class sizes. (See Pls.’ Mem. 25–26; see also Pls.’
Reply 7–9.) Here, the SRO specifically noted that “the
parties point[ed] to no authority” and that it had found
none “that holds that small class size alone constitutes
special education within the meaning of the IDEA.”
(Case II SRO Op. 25 n.16.) And, indeed, “small class
sizes . . . [are] the kind of educational and environmental advantage[s] that might be preferred by
parents of any child, disabled or not.” Doe, 790 F.3d at
452 (2d Cir. 2015) (alterations and internal quotation
marks omitted); see also C.L. v. Scarsdale Union Free
School Dist., 913 F. Supp. 2d 26, 37 (S.D.N.Y. 2012)
(“[S]mall class size and enhanced access to teachers . . .
‘are the kind of advantages that might be preferred by
parents of any child, disabled or not.’ ” (quoting M.H.,
685 F.3d at 246)); E.L., 2010 WL 1005165, at *9
(S.D.N.Y. Mar. 18, 2010) (characterizing “a structured
environment [and] small class size” as “nothing more
than ‘educational and environmental advantages and
amenities that might be preferred by parents of any
child, disabled or not’ ” (quoting Gagliardo, 489 F.3d at
115)). But while parents of a student might reasonably
find small class sizes to be a generally beneficial
feature of a school, that does not compel the conclusion
that small class sizes cannot also be specially designed
to meet the unique needs of a student. That is especially true where, as here, the student’s IEP specifically
noted the importance of placing the student in a
smaller class. (See Case II Def.’s Ex. 18 (IEP), at 7
(recommending a student-teacher ratio of 8:1:1)). See
also C.D. v. N.Y.C. Dep’t of Educ., No. 15-CV-2177, 2016

160a
WL 3453649, at *4, *18 (E.D.N.Y. June 20, 2016)
(awarding tuition reimbursement partly because of
testimony that the student “needed small class sizes
and a small school,” and the record indicated that the
nonpublic school had “small class sizes featuring fewer
than ten students”); H.W. v. N.Y. State Educ. Dep’t, No.
13-CV-3873, 2015 WL 1509509, at *20 (E.D.N.Y. Mar.
31, 2015) (awarding tuition reimbursement partly
because the record indicated that the student needed
one-on-one instruction if he was placed in larger
classes, but the nonpublic school offered smaller classes
that obviated the need for one-on-one instruction).
In contrast to the SRO’s opinion, the IHO
addressed W.E.’s specific need for a smaller class size,
highlighting testimony from Dr. Rissenberg indicating
that W.E. would benefit from a smaller class that
offered “an emotionally supportive environment and
an appropriate intellectual challenge.” (Case II IHO
Op. 15 (internal quotation marks omitted).) The IHO
concluded that “[t]his [was] precisely the type of
classroom environment provided by [Northwood].” (Id.
at 16.) Like the IHO, the Court is persuaded that while
evidence of smaller class sizes is not, in every case,
prima facie evidence of appropriate placement, here,
the smaller class sizes at Northwood provided W.E.
benefits specific to his unique needs, and thus this fact
weighs in favor of reimbursement.
After considering the strength of the SRO’s
opinion and the lack of attention given to some of the
most salient benefits offered by Northwood that targeted specific needs of W.E., the Court concludes that,

161a
unlike its decision with respect to the 2011–2012, the
SRO’s decision with respect to the 2012–2013 is not
entitled to substantial deference. There is no question
the SRO considered all of the evidence on the record,
but its actual discussion of whether Northwood was an
appropriate placement was limited to mere repetition
of the alleged failure of Northwood to develop solutions
to W.E.’s stress-related behavioral difficulties. (See
SRO Op. 23–25.) This conclusion overlooks many of
the specific benefits Northwood provided to meet W.E.’s
unique needs, including its small class sizes, its
boarding school aspect, and its 24-hour nursing
coverage, all of which had positive and direct effects on
W.E.’s academic and social progress. Moreover, the
SRO’s conclusion about Northwood’s failure to address
W.E.’s organizational and stress-related needs is belied
by the record, and the SRO provides no persuasive
reasoning otherwise. The record indicates, for instance,
that W.E.’s attendance record improved dramatically
during his time at Northwood, (compare Case I Joint
Ex. 66 (7th grade attendance summary), and Case I
Joint Ex. 67 (8th grade attendance summary), with
Case II Pls.’ Ex. N (sophomore year attendance summary)), and that it was W.E.’s stress-related symptoms
that caused his numerous absences in the seventh and
eighth grades, (see Case I Hr’g Tr. 893–94, 923; Case II
Hr’g Tr. 841–42; see also Case II Pls.’ Ex. S (Williams
Aff.)). Furthermore, the record indicates, and the SRO
did not rebut or contradict, that W.E.’s organizational
difficulties were significantly aided by the use of the
iPad, provided by Northwood, and by access to the
additional study hall period. By contrast, the IHO,

162a
though not thorough and persuasive in all respects,
addressed each specific need of W.E. and identified how
the features and accommodations of Northwood met
those needs. (See Case II IHO Op. 14–19.)
Having considered the reasoning of both the SRO
and the IHO, and having supplemented their
reasoning with its own review of the record, the Court
concludes that Plaintiffs have met their burden of
showing that Northwood was an appropriate placement for the 2012–2013 school year. The Court reaches
this conclusion, which differs from its conclusion
regarding the 2011–2012 school year, in part because
the reasoning of the SRO with respect to the 2012–
2013 school year is conclusory and unpersuasive, and
in part because the record with respect to the 2012–
2013 school year is more robust and offers more insight
into the benefits and accommodations Northwood
offered to W.E. to meet his specific needs.
iii. Equitable Considerations
Even though the Court concludes that Northwood
was an appropriate placement for W.E. during the
2012–2013 school year, the Court may “reduce the
amount of a reimbursement award if the equities so
warrant.” Forest Grove, 557 U.S. at 247. “Courts
fashioning discretionary equitable relief under [the]
IDEA must consider all relevant factors, including the
appropriate and reasonable level of reimbursement
that should be required.” Carter, 510 U.S. at 16. A
court may thus discretionarily reduce the amount of

163a
reimbursement if, for instance, “the parents failed to
give the school district adequate notice of their intent
to enroll the child in private school.” Forest Grove, 557
U.S. at 247. A court may also be justified in denying
reimbursement “where there is no indication the
parents ever intended to return their child to a
placement offered by the school district.” J.S., 826
F. Supp. 2d at 675.
Because the SRO determined that Northwood was
not an appropriate placement, it did not consider
whether the equities favored reimbursement. (See
Case II SRO Op. 25.) By contrast, the IHO, after
finding that Northwood was an appropriate placement,
considered the equities and concluded that it found “no
basis under [the equities] to reduce or deny tuition
reimbursement.” (Case II IHO Op. 20.) Defendant
urges the Court to give no deference to the IHO’s
opinion here because “the IHO made no findings of fact
with regard to the equities, despite both parties
making extensive arguments with regard to that
issue.” (Def.’s Mem. 34.) The Court agrees that the
IHO opinion offers no analysis of the equities in this
case, but the Court nevertheless concludes that, even
upon de novo review, the equities favor reimbursement
for the 2012–2013 school year.
Defendant’s chief argument here is that Plaintiffs
never intended to return W.E. to the public school
system, and they point to the fact that Plaintiffs
reenrolled W.E. at Northwood well before the CSE met
in June 2012 to discuss W.E.’s IEP for the upcoming
year. (See Def.’s Mem. 34–35.) The record indicates

164a
that W.E. was accepted for reenrollment at Northwood
on February 29, 2012, with instructions to sign and
return the enrollment contracts by March 30, 2012.
(See Case II Def.’s Ex. 33.) Plaintiffs signed and returned the papers sometime in April 2012. (See Case
II Hr’g Tr. 1140.) Defendant’s argument here lacks
common sense—had Plaintiffs waited until June 2012
to reenroll W.E. in Northwood, they may very well have
been rebuffed for missing the reenrollment deadline by
nearly three months. The Court is not of the opinion
that parents of a student are required to forgo all
educational opportunities while they wait for the
school district to convene a summer CSE meeting, and
the law is not to the contrary. See N.Y.C. Dep’t of Educ.
v. V.S., No. 10-CV-5120, 2011 WL 3273922, at *15
(E.D.N.Y. July 29, 2011) (allowing reimbursement
where the parent enrolled her child in a nonpublic
school and paid a largely nonrefundable deposit prior
to the CSE meeting, reasoning that “it was entirely
reasonable for [the parent], while working cooperatively
with the school district, to also preserve her options by
paying a partially refundable deposit to the [nonpublic
school]”); R.K. ex rel. R.K. v. N.Y.C. Dep’t of Educ., No.
09-CV-4478, 2011 WL 1131492, at *29–30 (E.D.N.Y.
Jan. 21, 2011) (“[T]he Court rejects the [district’s]
contention that enrolling [the student in a private
school] prior to receiving the [notice of final recommendation] evidences bad faith . . . given the DOE’s
delay in sending the [notice and final recommendation], the imminence of the new school year[,] and
[the parents’] need to preserve their legal rights.”),
adopted by 2011 WL 1131522 (E.D.N.Y. Mar. 28, 2011),

165a
aff ’d sub nom. R.E. v. N.Y.C. Dep’t of Educ., 694 F.3d
167 (2d Cir. 2012). Moreover, “the purpose of the notice
requirement is to give the district ‘a meaningful
opportunity to minimize its expenses by developing its
own IEP that would provide the child with a FAPE
within the [s]chool [d]istrict.” J.S., 826 F. Supp. 2d at
672 (quoting W.M. v. Lakeland Cent. Sch. Dist., 783
F. Supp. 2d 497, 504 (S.D.N.Y. 2011)). There is no
question here that Defendant was on notice of W.E.’s
placement in a private school that he had been
attending for the past year. Defendant has not
suggested, the record does not indicate, and the Court
does not find a reason to conclude that Defendant was
unaware that Plaintiffs intended to reenroll W.E. in
Northwood again absent material changes in the
District’s IEP, or that the process for reenrollment
started well before June 2012, when the CSE was
eventually held.
Instead, the Court examines whether the record
indicates that Plaintiffs participated in the CSE with
an open mind and gave Defendant an opportunity to
construct a plan that addressed W.E.’s needs. There is
no suggestion by Defendant that this was not the case,
and the record does not provide any indication that
Plaintiffs were disengaged from the CSE meetings or
the development of the IEP. For example, Plaintiffs
visited the Southern Westchester BOCES Gifted
Special Education in November 2011 and determined
that it was a poor fit for W.E. (See Case II Def.’s Ex. 35
(Dec. 2011 letter)). When Defendant suggested enrolling W.E. in a similar program at Southern Westchester

166a
for the 2012–2013 school year, Plaintiffs, although
already harboring reservations about the school’s
environment and plan for W.E., made another visit on
July 20, 2012. (See Case Hr’g Tr. 1071–73.) Plaintiffs’
willingness to revisit a program they already determined would unnecessarily isolate and stigmatize W.E.
evinces a willingness to at least hear Defendant out,
and undercuts Defendant’s suggestion that W.E.’s reenrollment at Northwood was a predestined outcome.
Moreover, Plaintiffs offered substantive feedback
about Defendant’s proposed placement of W.E., providing detailed objections to the proposed placement at
the Southern Westchester TSP Program, explaining
their concern about the quality of the investigation
being conducted by the CSE, and indicating that they
were “interested in a public placement that meets
[W.E.’s] needs, because . . . we would like to have him
home, and there are financial considerations.” (Case II
Def.’s Ex. 26, at 1 (emphasis added).) Plaintiffs
participated actively in the development of W.E.’s IEP,
offered detailed feedback, and made clear their hope
that W.E. would be able to return to public school. As
the IHO properly found, the record belies any
suggestion that Plaintiffs acted in bad faith or did not
provide Defendant a meaningful opportunity to try
and meet W.E.’s needs. The Court therefore concludes
that the equities favor reimbursement, and there are
no grounds for reducing that award.
Accordingly, the Court grants Plaintiffs’ Motion
for Summary Judgment with respect to the 2012–2013
school year.

167a
3. Motion to Amend
As noted, Defendant also seeks to add a
counterclaim for those costs awarded by the Case I
IHO that the Case I SRO concluded the District did not
appeal. Defendant’s Motion is granted in this respect.
Under Federal Rule of Civil Procedure 15(a)(2),
once, as here, a party is not entitled to amend its
pleading as a matter of course, it may “amend its
pleading only with the opposing party’s written
consent or the court’s leave,” and a court is to “freely
give [such] leave when justice so requires.” Whether to
grant that leave is, however, ultimately “within the
sound discretion of the district court.” Green v.
Mattingly, 585 F.3d 97, 104 (2d Cir. 2009) (internal
quotation marks omitted); see also Cat3, LLC v. Black
Lineage, Inc., No. 14-CV-5511, 2015 WL 5559569, at *2
(S.D.N.Y. Sept. 21, 2015) (“Notwithstanding the
liberality of the general rule, ‘it is within the sound
discretion of the court whether to grant leave to
amend’. . . .” (quoting John Hancock Mut. Life Ins. Co.
v. Amerford Int’l Corp., 22 F.3d 458, 462 (2d Cir. 1994))).
Although “outright refusal to grant the leave without
any justifying reason for the denial is an abuse of
discretion,” it is well established that among the “good
reason[s]” for a district court to deny leave to amend
are “futility, bad faith, undue delay, or undue prejudice
to the opposing party,” McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 200–01 (2d Cir. 2007) (alterations
and internal quotation marks omitted) (citing Foman
v. Davis, 371 U.S. 178, 182 (1962)). Here, Plaintiffs
argue that “[t]he Court should deny the District’s

168a
motion for leave to amend as its effort is futile because
the District seeks to assert for the first time a
challenge to the SRO’s decision outside of the statute
of limitations.” (Pls.’ Mem. 31.) The Court begins by
considering whether Plaintiffs are correct that
Defendant’s proposed challenge is untimely before, if
necessary, considering whether any other reason might
counsel against amendment.
a. Is the Proposed Amendment Futile?
As a general proposition, “[p]roposed amendments
are futile if they would fail to cure prior deficiencies or
to state a claim under Rule 12(b)(6) . . . [;] [t]hus, the
standard for denying leave to amend based on futility
is the same as the standard for granting a motion to
dismiss.” IBEW Local Union No. 58 Pension Tr. Fund
& Annuity Fund v. Royal Bank of Scotland Grp., PLC,
783 F.3d 383, 389 (2d Cir. 2015) (internal quotation
marks omitted); see also Dougherty v. Town of N.
Hempstead Bd. of Zoning Appeals, 282 F.3d 83, 88 (2d
Cir. 2002) (“An amendment to a pleading will be futile
if a proposed claim could not withstand a motion to
dismiss pursuant to Rule 12(b)(6).”); LP Funding, LLC
v. Tantech Holdings, Ltd., No. 15-CV-4081, 2016 WL
1706182, at *2 (S.D.N.Y. Apr. 27, 2016) (“In addressing
the proposed futility of an amendment, the proper
inquiry is comparable to that required upon a motion
to dismiss pursuant to Fed. R. Civ. P. 12(b)(6).”
(internal quotation marks omitted)). Nevertheless,
there is also authority providing that courts are to
consider the futility of an amended complaint under

169a
the summary judgment standard when proceedings
have reached a sufficiently late stage in the case. See
Milanese v. Rust-Oleum Corp., 244 F.3d 104, 110 (2d
Cir. 2001) (noting that “[a] court may deny [leave to
amend] as futile when the evidence in support of the
plaintiff ’s proposed new claim creates no triable issue
of fact and the defendant would be entitled to
judgment as a matter of law under Fed. R. Civ. P. 56(c),”
where a “cross-motion is made in response to a Fed. R.
Civ. P. 56 motion for summary judgment, and the
parties have fully briefed the issue whether the
proposed amended complaint could raise a genuine
issue of fact and have presented all relevant evidence
in support of their positions”); Merrick Bank Corp. v.
Chartis Specialty Ins. Co., No. 12-CV-7315, 2015 WL
4126780, at *1 (S.D.N.Y. July 7, 2015) (“Although an
assertion of futility is normally assessed under the
standard for a motion to dismiss for failure to state a
claim pursuant to Federal Rule of Civil Procedure
12(b)(6), where the motion to amend is made at a late
stage and the [c]ourt has the full evidentiary record at
its disposal, a summary judgment standard will be
applied.” (internal quotation marks omitted)); Summit
Health, Inc. v. APS Healthcare Bethesda, Inc., 993
F. Supp. 2d 379, 404 (S.D.N.Y. 2014) (“Ordinarily, leave
to amend may be denied on the basis of futility if the
proposed claim would not withstand a Rule 12(b)(6)
motion to dismiss. However, when the motion to
amend is filed after the close of discovery and the
relevant evidence is before the court, a summary
judgment standard will be applied instead.” (citation
omitted)). Under either standard, of course, a claim

170a
would run into trouble if, as is suggested here, it is
barred by the applicable statute of limitations.
However, that is not the case here. The Court will first
look to the statutory text and where the Parties clash
in their interpretations of it.
Under the IDEA, where an aggrieved party wishes
to bring a civil action in federal court, he or she “ha[s]
90 days from the date of the decision of the hearing
officer to bring such an action, or, if the State has an
explicit time limitation for bringing such action under
th[e] subchapter, in such time as the State law allows.”
20 U.S.C. § 1415(i)(2)(B). New York law has, in fact,
weighed in on the issue, and, under N.Y. Educ. Law
§ 4404(3)(a), a proceeding seeking review of an SRO’s
decision “shall be commenced within four months after
the determination to be reviewed becomes final and
binding on the parties.” Because the SRO issued his
decision in Case I on January 31, 2014, (see Case I SRO
Op. 32), the Parties agree that each side had until May
31, 2014 to appeal the decision, (see Def.’s Mem. 7; Pls.’
Mem. 31). Where they disagree, however, is over the
import of the fact that Defendant has not yet filed a
counterclaim and, instead, seeks to do so now through
amendment of its answer.
According to Defendant, “[s]ince it is beyond
dispute that New York’s four-month limitations period
applies to the commencement of this action, New York
CPLR § 203(d) will govern the timelines of any
counterclaim the District may assert.” (Def.’s Mem. 7.)
Plaintiffs, however, take the position that, “when the
District filed [its] Answer on June 18, 2014, although

171a
outside the statutory period, [it] could have invoked
CPLR § 203(d) to argue that [its] challenge was timely
for any counterclaim asserted within [its] answer,” but
that, because “the Answer . . . does not contain a counterclaim or even a single allegation,” “any challenge
from the District to the SRO decision falls outside the
statute of limitations,” and the proposed amendment
does not relate back to the original answer. (Pls.’ Mem.
32.) Put differently, the Parties agree that Defendant’s
counterclaim is untimely, but they disagree as to
whether Defendant may use CPLR § 203(d) to
resuscitate that counterclaim.
As it turns out, the Parties’ shared premise is
incorrect, because, even if something else does, the
statute of limitations does not bar Defendant’s
proposed amendment. As noted, the applicable IDEA
statute of limitations governs when a prospective
litigant may “bring . . . an action.” 20 U.S.C.
§ 1415(i)(2)(B) (emphasis added). Construing this
language, the Third Circuit and several district courts
outside that circuit have found that the applicable
language does not impose a time bar to at least
compulsory counterclaims brought under the IDEA.
See Jonathan H. v. Souderton Area Sch. Dist., 562 F.3d
527, 530 (3d Cir. 2009) (holding that “[§] 1415(i)(2)(B)
limits a party’s right to ‘bring an action’ to within 90
days after the final administrative decision,” and
concluding “the plain language of the statutory text
does not limit a party’s right to pursue a counterclaim
because the assertion of a counterclaim is not ‘bringing

172a
an action’ ” (alteration omitted));26 Doe v. Reg’l Sch.
Unit No. 21, No. 11-CV-25, 2011 WL 2160935, at *3 (D.
Me. June 1, 2011) (adopting as persuasive the
reasoning of the Third and Fifth Circuits in Jonathan
H. and Ruben A.); D.B. ex rel. Elizabeth B. v. Sutton Sch.
Dist., No. 10-CV-10897, 2011 WL 475064, at *4 (D.
Mass. Feb. 3, 2011) (agreeing with “the Third Circuit’s
analysis of the text of § 1415 [in Jonathan H.], as well
as its observations about the equities of the rule,” and
concluding that, “[a]ccordingly, [the] defendants’
counterclaim is not subject to the 90-day statute of
limitations, and may be asserted after that period has
elapsed”); cf. also Bd. of Educ. of Cty. of Boone v. K.M.,
No. 14-CV-10563, 2015 WL 1481775, at *4 (S.D.W. Va.
Mar. 31, 2015) (citing Ruben A. and Jonathan H. for
the proposition that “[c]ounterclaims may be asserted
when a party brings an IDEA action in federal
court”).27 This is a sensible rule: “If counterclaims were
26

The Fifth Circuit, in a summary order, has adopted the
Third Circuit’s view on this issue. See Ruben A. v. El Paso Indep.
Sch. Dist., 414 F. App’x 704, 707 (5th Cir. 2011) (noting that the
relevant IDEA provision “specifically applies to ‘the party
bringing the action’ and neither expressly nor impliedly limits
the filing of counterclaims in response to civil actions brought
in federal court,” and concluding that, “[a]s a result, the district court erred in dismissing [the school district’s] counterclaim as time-barred” (alteration omitted) (quoting 20 U.S.C.
§ 1415(i)(2)(B)).
27
Whether this rule applies only to compulsory counterclaims
or permissive ones too does not matter. Defendant’s proposed
answer contemplates a compulsory counterclaim as it arises out
of the same transaction or occurrence that is the subject matter
of the Parents’ complaint without requiring adding another party
over whom the Court cannot acquire jurisdiction. See Fed. R. Civ.
P. 13(a)(1).

173a
prohibited in this context, parties would file ‘protective
complaints’ to preserve issues adjudicated against
them, even when they otherwise would countenance
the administrative judgment, for fear that their
adversaries would file complaints just before the
statute of limitations expired. . . .” Jonathan H., 562
F.3d at 530. “This would cause unnecessary litigation.”
Id.
With these principles in mind, the inapplicability
of CPLR § 203(d) is clear. That provision, in its entirety,
reads:
A defense or counterclaim is interposed when
a pleading containing it is served. A defense
or counterclaim is not barred if it was not
barred at the time the claims asserted in the
complaint were interposed, except that if the
defense or counterclaim arose from the transactions, occurrences, or series of transactions
or occurrences, upon which a claim asserted in
the complaint depends, it is not barred to the
extent of the demand in the complaint
notwithstanding that it was barred at the
time the claims asserted in the complaint
were interposed.
§ 203(d) therefore intimates a proposed counterclaim’s
untimeliness only if it does not arise out of the same
“transactions, occurrences, or series of transactions or
occurrences” and if it was untimely at the time the
claims in the complaint were interposed. Because its
relevance therefore stands or falls with the proposition
that the counterclaim was untimely, absent some basis
to conclude that to be so, § 203(d) is inapposite.

174a
One conceptual wrinkle deserves passing
acknowledgment. As noted, § 1415(i)(2)(B) provides
that an aggrieved party “shall have 90 days from the
date of the decision of the hearing officer to bring . . .
an action, or, if the State has an explicit time limitation
for bringing such action under this subchapter, in such
time as the State law allows.” (emphasis added). In
both Ruben A. and Jonathan H., the courts applied the
default 90-day provision found in the IDEA statute
rather than a specialized state law provision. See
Ruben A., 414 F. App’x at 706 (noting that “[t]he IDEA
authorizes a party aggrieved by an administrative due
process hearing to bring a civil action in federal court,
but ‘the party bringing the action shall have 90 days
from the date of the decision of the hearing officer to
bring such an action. . . . ’ ” (alteration omitted) (citing
20 U.S.C. § 1415(i)(2)(A), (B))); Jonathan H., 562 F.3d
at 528 (noting that “the [d]istrict [c]ourt affirmed the
administrative decision in all respects and denied [the
school district’s] counterclaim as untimely because it was
not brought within 90 days of the final administrative
decision”), whereas here, there is a relevant state
statute on point, see N.Y. Educ. Law § 4404(3)(a). In
keeping with Defendant’s assertion (albeit one not
followed by any sort of citation) that, “[s]ince it is
beyond dispute that New York’s four-month limitations
period applies to the commencement of this action,
New York CPLR § 203(d) will govern the timelines [sic]
of any counterclaim the District may assert,” (Def.’s
Mem. 7), the case could be made that § 203(d) is the
“explicit time limitation,” § 1415(i)(2)(B), for IDEA
counterclaims. The Court does not think that is so for

175a
several reasons. First, there is little if any reason to
think that a state-created “explicit time limitation”
within the meaning of the IDEA statute of limitations
provision is to be found in a generalized “recoupment”
provision like § 203(d). Moreover, it is instructive that
in Doe v. Regional School Unit No. 21, the District of
Maine found Jonathan H. and Ruben A. “persuasive”
and ready to apply, despite the fact that Maine regulations provided a statute of limitations separate and
apart from the IDEA provision (albeit of the same
length), see 2011 WL 2160935, at *2, and even though
Maine had a statute not unlike § 203(d), see Me. Stat.
tit. 14, § 865 (“All the provisions hereof respecting
limitations apply to any counterclaim by the defendant
except a counterclaim arising out of the transaction or
occurrence that is the subject matter of the plaintiff ’s
claim to the extent of the demand in the plaintiff ’s
claim. The time of such limitation shall be computed
as if an action had been commenced therefor at the
time the plaintiff ’s action was commenced.”), which, in
any event, another Maine district court found inapposite in the IDEA context, see Mr. & Mrs. R. v. Me. Sch.
Admin. Dist. No. 35, No. 00-CV-367, 2001 WL 166358,
at *3 (D. Me. Feb. 20, 2001) (report and recommendation) (observing that “[t]he parties devote considerable time and effort to arguments based on a state
statute, 14 M.R.S.A. § 865,” but concluding that “it is
not necessary to reach this issue in order to rule on the
pending motion”). Finally, the IDEA did not always
contain the 90-day limitation found in § 1415(i)(2)(B).
See Individuals with Disabilities Education Improvement Act of 2004, Pub. L. No. 108–446, 118 Stat. 2647,

176a
2724 (adding current § 1415(i)(2)(B)). To the extent
Congress saw the need to speak with greater clarity to
express when an aggrieved party could institute a civil
action, it would be odd indeed if, through a coy silence,
it also instructed federal courts to rummage around in
states’ laws for a time limit to apply to IDEA
counterclaims.
b. May Defendant Amend its Answer?
With that in mind, the question of § 203(d)’s
import gives way to the relatively prosaic issue of
whether Defendant may amend its Answer to add a
new counterclaim. Despite the late stage in this case,
amendment is appropriate, and the Court therefore
grants Defendant leave to assert its counterclaim.
Until December 1, 2009, the Federal Rules of Civil
Procedure had a provision apart from Rule 15(a) that
dealt with the issue of omitted counterclaims. Prior to
that date, Rule 13(f) provided that “[t]he court may permit a party to amend a pleading to add a counterclaim
if it was omitted through oversight, inadvertence, or
excusable neglect or if justice so requires.” Fed. R. Civ. P.
13(f) (repealed 2009). That rule engendered some confusion and so was shelved, with the Advisory Committee
explaining in its notes that “Rule 13(f ) is deleted as
largely redundant and potentially misleading,” and,
instead, “[a]n amendment to add a counterclaim will
be governed by Rule 15.” Fed. R. Civ. P. 13 advisory
committee’s note to 2009 amendment. For statute of
limitations purposes, “[d]eletion of Rule 13(f ) ensures

177a
that relation back is governed by the tests that apply
to all other pleading amendments.” Id. In other words,
Defendant’s motion is a run-of-the-mill amendment
request.
Using as a guidepost those grounds upon which
the Supreme Court and Second Circuit have made
clear that leave to amend can rightly be denied—
specifically, futility, bad faith, undue delay, or undue
prejudice to the opposing party, see McCarthy, 482 F.3d
at 200 (citing Foman, 371 U.S. at 182)—the Court sees
no reason to withhold its consent, particularly in light
of Rule 15(a)(2)’s “permissive standard” and the Second Circuit’s “strong preference for resolving disputes
on the merits,” Williams v. Citigroup Inc., 659 F.3d 208,
212–13 (2d Cir. 2011) (internal quotation marks
omitted). First, with respect to futility, for the reasons
already discussed, Plaintiffs’ argument falls flat, and,
absent some other, more availing futility argument,
the Court sees no reason to deny the relief on such
grounds. Cf. LP Funding, LLC v. Tantech Holdings, Ltd.,
No. 15-CV-4081, 2016 WL 1706182, at *2 (S.D.N.Y. Apr.
27, 2016) (“As the party opposing amendment, [the]
[p]laintiff bears the burden of establishing that an amendment would be futile.” (internal quotation marks
omitted)). Second, there is no bad faith on Defendant’s
part—nor do Plaintiffs argue otherwise. Third, with
respect to undue delay, although it is hardly a good fact
for Defendant that summary judgment motions were
filed with or before its motion to amend, cf. State
Teachers Ret. Bd. v. Fluor Corp., 654 F.2d 843, 856 (2d
Cir. 1981) (reversing district court’s denial of the

178a
plaintiffs’ motion to amend and noting that, “[a]t the
time [the] plaintiffs requested leave to amend, no trial
date had been set by the court and no motion for
summary judgment had yet been filed by the defendants” (citation omitted)), it is also true that “[m]ere
delay . . . , absent a showing of bad faith or undue
prejudice, does not provide a basis for the district court
to deny the right to amend,” Ruotolo v. City of New
York, 514 F.3d 184, 191 (2d Cir. 2008). And, lastly,
amendment would not lead to the sort of undue
prejudice sufficient to overcome Rule 15(a)’s liberality:
Courts in the Second Circuit have recognized that, “in
order to determine whether an amendment prejudices
a non-moving party,” it is generally appropriate to
“consider whether the assertion of the new claim or
defense would (i) require the opponent to expend
significant additional resources to conduct discovery
and prepare for trial; (ii) significantly delay the
resolution of the dispute; or (iii) prevent the plaintiff
from bringing a timely action in another jurisdiction.”
Portelos v. City of New York, No. 12-CV-3141, 2015 WL
5475494, at *2 (E.D.N.Y. Sept. 15, 2015) (internal
quotation marks omitted). Here, the proposed amendment relates to a straightforward question of law
rather than a fact-intensive issue that would require
discovery. Further, while there may be some delay
inherent in any amendment of an Answer to include a
new counterclaim, given the high threshold to deny
leave to amend on the grounds of delay (as discussed
above), it does not appear that any delay is significantly prejudicial to merit denying leave to amend.
Moreover, if Defendant prevails on its proposed

179a
counterclaim, thereby permanently depriving Plaintiffs of the sum of money at issue, Plaintiffs’ ability to
obtain relief elsewhere will have been foreclosed by a
binding adjudication on the merits, not the timing of
Defendant’s amendment. Cf. Monahan v. N.Y.C. Dep’t
of Corr., 214 F.3d 275, 284 (2d Cir. 2000). At bottom,
“[i]t is undue prejudice, not prejudice itself, that justifies a denial of leave to amend,” Alexander Interactive,
Inc. v. Adorama, Inc., No. 12-CV-6608, 2014 WL 113728,
at *3 (S.D.N.Y. Jan. 13, 2014), and where, as here, a
defendant has a potentially meritorious basis to seek
reimbursement for funds it believes it was wrongfully
forced to pay to a plaintiff, allowing even a belated
counterclaim for reimbursement is not the sort of
prejudice that overcomes Rule 15(a)’s liberality, see
Woodard v. N.Y. Health & Hosps. Corp., 554 F. Supp. 2d
329, 347, 351 (E.D.N.Y. 2008) (granting the defendant’s
motion for leave to amend its answer to add a
counterclaim to recoup money the defendant claimed
the plaintiff owed it under the agreement at issue,
even though the motion to amend was filed at the same
time as the motion for summary judgment), aff ’d in
part, remanded in part, 350 F. App’x 586 (2d Cir.
2009).28 Therefore, Defendant is permitted to amend
its answer to add its proposed counterclaim.
Before closing, one final word is in order: In
Plaintiffs’ Notice of Motion, they purport to seek relief
28

The Second Circuit explicitly noted that the district court
in Woodard “properly permitted [the defendant] to amend its
answer to file a counterclaim against [the plaintiff ].” Woodard,
350 F. App’x at 588.

180a
pursuant to Federal Rule of Civil Procedure 54 for the
same expenses at issue in Defendant’s proposed Motion to Amend. (See Am. Notice of Cross-Mot. ¶ 2 (Dkt.
No. 37).) Plaintiffs’ omission of any briefing on this
point from their memorandum of law, coupled with
their purported incorporation by reference to two other
letters on the docket, (see id.), seems a questionable
maneuver in light of the page limitation set in the
scheduling order, (see Dkt. No. 10). Nevertheless, it is
significant that, in their first letter, Plaintiffs expressly
press the point that the Court should take up the
question because there is “no unresolved question of
law . . . with respect to the finality of the determination
finding District obligated to reimburse certain past
costs for counseling and evaluation.” (See Letter from
William A. Walsh, Esq., to Court (Jan. 23, 2015) 2 (Dkt.
No. 13).) However, in light of the Court’s ruling on
Defendant’s Motion to Amend, that premise is no longer accurate, and the Court denies Plaintiffs’ requested
Rule 54 relief without prejudice as premature.
III.

Conclusion

For the foregoing reasons, the Court grants
Defendant’s Motion in part and denies it in part, and
grants Plaintiffs’ Motion in part and denies it in part.
Plaintiffs’ Motion is granted with respect to the tuition
reimbursement sought for the 2012–2013 school year.
Defendant’s Motion is granted in all other respects.
The Clerk of the Court is respectfully requested to
terminate the pending Motions. (See Dkt. Nos. 32, 37.)
Defendant is to file its Amended Answer within two

181a
weeks of the date of this Opinion. The Court will hold
a conference on December 16, 2016, at 3:00 PM.
SO ORDERED.
Dated: November 23, 2016
White Plains, New York
/s/ Kenneth M. Karas
KENNETH M. KARAS
UNITED STATES
DISTRICT JUDGE

182a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
W.A., M.S., individually
on behalf of W.E.,
Plaintiffs,

No. 14-CV-3067 (KMK)
No. 14-CV-4285 (KMK)
OPINION & ORDER

v.
HENDRICK HUDSON
CENTRAL SCHOOL
DISTRICT,

(Filed Jul. 18, 2017)

Defendant.
Appearances:
William A. Walsh, Esq.
Weitz & Luxenberg
New York, NY
Counsel for Plaintiffs
Erica M. Fitzgerald, Esq.
Littman Krooks LLP
White Plains, NY
Counsel for Plaintiffs
Daniel Petigrow, Esq.
David H. Strong, Esq.
Thomas, Drohan, Waxman, Petigrow & Mayle, LLP
Counsel for Defendant
KENNETH M. KARAS, District Judge:
Plaintiffs W.A. and M.S. (“Plaintiffs”) brought this
suit on behalf of their son, W.E., alleging claims under
the Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1415(i)(2) et seq., Section 504 of

183a
the Rehabilitation Act, 29 U.S.C. § 794 et seq., Article
89 of the New York Education Law, N.Y. Educ. Law
§ 4401 et seq., and the implementing regulations
thereunder. (See Compl. (Dkt. No. 2).) The dispute
arises out of the decisions of the Independent Hearing
Officers (“IHO”) and the State Review Officers (“SRO”)
who adjudicated Plaintiffs’ administrative claims for
relief arising out of Defendant’s alleged failure to
provide W.E. a free and appropriate public education
(“FAPE”) during the 2010–2011, 2011–2012, and 2012–
2013 school years.1 On November 23, 2016, the Court
issued an Opinion & Order adjudicating Plaintiffs’
claims, deciding partly in favor of Plaintiffs and partly
in favor of Defendant. (See Op. & Order (Dkt. No. 51).)
As part of that Opinion & Order, the Court granted
Defendant leave to amend its Answer to include a
counterclaim that the SRO erred in holding that
Defendant had not appealed the portion of the IHO’s
opinion that awarded compensation for counseling
services for W.E. (See id. at 102.) Defendant has now
amended its Answer, and the Parties have cross-moved
for summary judgment on Defendant’s counterclaim.
(See Dkt. Nos. 60, 70.) For the reasons to follow,

1

Case number 14-CV-3067 addresses the 2010–2011 and
2011–2012 school years. (See Compl.) Case number 14-CV-4285
addresses the 2012–2013 school year, (see Compl. (Dkt. No. 2, 14CV-4285)), and was consolidated with case number 14-CV-3067
on September 24, 2015, (see Stipulation to Consolidate (Dkt. No.
24, 14-CV-4285)). Because the cases were consolidated under
case number 14-CV-3067, all docket citations will be to that docket unless otherwise noted. Additional school years are addressed
in other related, but not consolidated, cases.

184a
Defendant’s Motion is granted and Plaintiffs’ CrossMotion is denied.
I.

Background

A. Factual Background
The facts relevant to the pending Motions are
undisputed and consist largely of the IHO and SRO
decisions and the Parties’ submissions in the administrative proceeding. Although the Parties submitted
statements of undisputed material fact pursuant to
Local Rule 56.1, (see Dkt. Nos. 62, 65), the Court finds
it more efficient and useful to cite directly to the
administrative documents that comprise the record in
this case.
On November 18, 2011, Plaintiffs filed a Due
Process Complaint requesting an impartial hearing to
determine whether W.E. was denied a FAPE during
the 2010–2011 and 2011–2012 school years under the
IDEA. (See IHO Decision 1.)2 As relief, Plaintiffs
requested reimbursement for W.E.’s enrollment at a
private school and for “any further relief the impartial
hearing officer finds just and necessary.” (See id.) On
January 25, 2012, Plaintiffs filed an Amended Due
Process Complaint. (See Att’y Aff ’n Ex. A (“ADPC”)
(Dkt. No. 68).) There, Plaintiffs laid out the factual
2

The IHO’s decision is attached as Exhibit A to the Complaint. (See Compl.) Because the IHO decision does not have page
numbers, the Court will start counting from the page labeled
“Hearing Officer’s Findings of Fact and Decision W.A.W. and
M.W. v. Hendrick Hudson School District,” followed by an
“Introduction” header.

185a
allegations relating to their claim, detailing W.E.’s
struggles in public school and his eventual placement
by his parents in a private school. (See id.) Pertinent
to this case, Plaintiffs explained the academic and
social difficulties experienced by W.E. in the 2010–
2011 school year, while he was still enrolled in public
school in the eighth grade. (See id. ¶¶ 16–32.) Plaintiffs described that as part of their efforts to combat
W.E.’s continued struggles and as part of their preparation for the 2011–2012 school year, W.E. engaged in
private counseling with Dr. Drew Robins and Dr.
Daniel Williams. (See id. ¶¶ 30, 40, 69, 78, 87, 90–93.)
In letters dated August 11, 2011 and August 19, 2011,
respectively, Dr. Williams and Dr. Robins opined about
W.E.’s prospect for success in the current curriculum
and about W.E.’s educational needs. (See id. ¶¶ 92–93.)
These letters were generated after a number of counseling sessions and were provided to Defendant as
evidence of W.E.’s need for intervention. (See id. ¶ 90.)
Eventually, Plaintiffs made the decision to place
W.E. in a private therapeutic school. (See id. ¶ 101.)
The administrative process was initiated, at least in
part, for the purpose of seeking reimbursement for
W.E.’s tuition during the 2011–2012 school year (a
subsequent administrative proceeding was initiated to
recover tuition for the 2012–2013 school year). Plaintiffs made no explicit demand in the Amended Due
Process Complaint for compensation for the counseling
services provided by Dr. Robins and Dr. Williams,
though they did request that Defendant “provide compensatory educational and counseling services for the

186a
2010–2011 school year, to compensate for [Defendant’s] failure to provide appropriate services for W.E.[ ]
for an extended period of time.” (Id. at 26.) In their
post-hearing briefing, Plaintiffs again requested
“compensatory education” for Defendant’s “failure to
provide appropriate tutoring and counseling services
for an extended period of time,” (IHO Ex. XVIII, at 59–
60), and, in a footnote, sought compensation for W.E.’s
sessions with Dr. Robins and Dr. Williams, (id. at 59
n.43). Both of these requests were made under the
heading, “POINT II: THE DISTRICT VIOLATED
THE IDE[ ]A BY FAILING TO IDENTIFY [W.E.]
AS A STUDENT WITH A DISBILITY DURING
THE 2010–2011 SCHOOL YEAR.” (Id. at 53.)
After a hearing, the IHO rendered a “Second
Corrected Findings of Fact and Decision” on May 30,
2012, with a corrected version issued on June 21, 2012.
(See IHO Decision 38.) The IHO determined that
Defendant had breached its child find obligations, that
is, its obligation to identify students who may be in
need of special education, and thereby failed to provide
W.E. a FAPE for at least a portion of the 2010–2011
school year. (See id. at 21.) More specifically, the IHO
found that by January 2011, the information available
to Defendant indicated that W.E. was in need of more
aggressive intervention and more appropriate placement. (See id. at 24.) The IHO then considered what
remedy was appropriate, saying, “Having found that
the District deprived the student of a FAPE for a
portion of the 2010–2011 school year, a determination
must be made as to whether there is an appropriate

187a
remedy.” (Id.) In the section entitled “Parents’ Request for Relief for the 2010–2011 School Year,”
the IHO held that Defendant would reimburse Plaintiffs for the cost of the counseling sessions with Dr.
Robins and Dr. Williams, and for 15 hours of prospective counseling, but held that Plaintiffs were not
entitled to compensation for the 200 hours of home
instruction to which Plaintiffs claim W.E. was entitled.
(Id. at 24–25.)
With respect to the 2011–2012 school year, the
IHO again found that Defendant had not provided
W.E. a FAPE. (See id. at 26.) The IHO next considered
whether Plaintiffs had met their burden in establishing that they were entitled to tuition reimbursement
for W.E.’s placement in a private school during the
2011–2012 school year. (See id. at 29.) The IHO
concluded that they had not and therefore declined to
award tuition reimbursement for the private placement. (See id. at 36.) There was no other discussion of
remedies in the section pertaining to the 2011–2012
school year. Finally, the IHO determined that the
evidence did not support Plaintiffs’ claim that W.E.’s
rights under the Rehabilitation Act had been violated.
(See id. at 37.)
At the end of its decision, the IHO offered the
following conclusion:
For all of the above reasons, it is hereby ordered
that:

188a
1. The Hendrick Hudson School District
denied the student a FAPE for a portion of the
2010–2011 school year;
2. The parents are entitled to reimbursement for Dr. Williams’s psychiatric sessions
with the student from May 18, 2011 up until
the date of his report, August 11, 2011, upon
presentation of proof of those services and of
payment;
3. The parents are entitled to reimbursement for the five sessions documented in Dr.
Robins [sic] letter dated August 19, 2011,
upon presentation of proof of those services
and of payment;
4. The student is entitled to fifteen hours of
counseling at District expense;
5. The Hendrick Hudson School District
denied the student a FAPE for the 2011–2012
school year;
6. The parents’ request for tuition reimbursement is denied; and
7. The parents’ Section 504 claim for the
2010–2011 school year is dismissed.
(Id. at 37–38.)
Plaintiffs thereafter appealed the IHO’s decision
to the SRO. (See Att’y Aff ’n Ex. B.) Specifically, Plaintiffs appealed the denial of compensation for the 200
hours of home instruction, as well as the denial of
tuition reimbursement for the 2011–2012 school year.
(See id. ¶ 4.) Defendant filed a Verified Answer and

189a
Cross-Appeal. (See Att’y Decl. Ex. 1 (Dkt. No. 61).)
Defendant generally denied the allegations made in
Plaintiffs’ appeal. (See id.) Defendant also specifically
pointed out, in one of its responses to the allegations
made by Plaintiffs,
that Petitioners did not seek in their Due
Process Complaint Notice dated November
18, 2011 or their Amended Due Process
Complaint Notice dated January 25, 2012,
reimbursement for psychiatric sessions with
Dr. Williams or sessions with Dr. Robins, or
offered [sic] any oral testimony or documentary evidence in support of such reimbursement in the hearing before the IHO.
(Id. ¶ 54.) In the section entitled “AS AND FOR A
THIRD AFFIRMATIVE DEFENSE AND CROSSAPPEAL,” Defendant contended that the IHO’s determination that W.E. was denied a FAPE during the
2010–2011 school year was “not based on the evidence
in the Record and legally erroneous.” (Id. ¶ 75.)
Defendant also claimed that the IHO had “erroneously
determined” that Defendant had “failed to timely evaluate and recommend a placement for” W.E. during the
2011–2012 school year, thereby denying him a FAPE.
(Id. ¶ 89.) In the section discussing the cross-appeal,
Defendant made no mention of the compensatory
education award for counseling services.

190a
On January 31, 2014, the SRO rendered its decision. (See SRO Decision.)3 Before discussing the
merits, the SRO defined the scope of the appeal:
I note that, relative to the 2010–11 school
year, the parties cannot properly raise the
IHO’s dismissal of the parents’ Section 504
claims, nor do they appeal or cross-appeal the
relief of reimbursement for sessions with the
student’s clinical psychologist and 15 hours
of compensatory counseling services for the
student. Additionally, relative to the 2011–12
school year, the parties do not appeal or crossappeal the IHO’s directive to reimburse the
parents for expenses incurred in connection
with the preparation of the August 11, 2011
psychiatric evaluation (IHO Decision at pp.
28, 40–41). An IHO decision is final and
binding upon the parties unless appealed to
an SRO (34 CFR 300.514[a]; 8 NYCRR
200.5[j][5][v]). Consequently, I am without
authority to review these findings and they
will not be further addressed in this decision.
(Id. at 13 (footnote omitted).)
The SRO first addressed Defendant’s appeal of the
IHO’s finding that it had breached its child find obligations for the 2010–2011 school year, thereby denying
W.E. a FAPE. (See id.) The SRO found that Defendant
had not breached its child find obligations, and
therefore reversed the IHO’s conclusion on that issue.
3

The SRO’s decision is attached as Exhibit B to the
Complaint. (See Compl.)

191a
(See id. at 20.) Although the SRO understood that
Defendant’s alleged breach of its child find obligations had served as the basis for the IHO’s finding
that Defendant had denied W.E. a FAPE, (see id. at 13),
the SRO nonetheless went on to address, in the next
section, both Plaintiffs’ appeal from the denial of 200
hours of compensatory education and Defendant’s
“cross-appeal from the IHO’s finding that the district
denied the student a FAPE for a part of the 2010–2011
school year,” (id. at 21). The SRO found that due to the
timing of when Defendant received Plaintiffs’ consent
for an evaluation, the evidence did not support the
IHO’s finding that Defendant had denied W.E. a FAPE
for the 2010–2011 school year, and therefore reversed
on that issue. (See id. at 23.) Because Defendant did
not deny W.E. a FAPE, “the student was therefore not
entitled to an award of compensatory home instruction
services.” (Id.) The IHO’s decision was therefore
reversed insofar as it found that Defendant denied
W.E. a FAPE during the 2010–2011 school year, but
affirmed insofar as it found that Plaintiffs were not
entitled to 200 hours of compensatory instruction.
(See id.)
The SRO affirmed the IHO’s decision in all other
respects. (See id. at 32.)
B. Procedural History
On April 30, 2014, Plaintiffs filed their Complaint
in docket number 14-CV-3067, challenging the SRO’s
conclusions regarding the 2010–2011 and 2011–2012

192a
school years. (See Dkt. No. 2.) On June 13, 2014, Plaintiffs filed a new Complaint under docket number 14CV-4285, challenging an SRO decision regarding the
2012–2013 school year. (See Dkt. No. 2 (14-CV-4285
Dkt.).) Defendant filed its Answer in 14-CV-3067 on
June 18, 2014. (See Dkt. No. 4.) After some discussion
regarding scheduling and the scope of the claims, the
two Actions were consolidated on September 24, 2015.
(See Dkt. No. 26.)
Briefing on the Parties’ cross-motions for summary
judgment followed, as well as briefing on Defendant’s
request to amend its Answer to include a counterclaim
challenging the portion of the SRO’s decision that
affirmed, or at least refused to reconsider, the IHO’s
grant of compensatory education. On November 23,
2016, the Court issued an Opinion & Order granting
each Party’s motion for summary judgment in part and
denying it in part. (See Dkt. No. 51.) Specifically, the
Court affirmed the SRO’s decision with regard to the
2010–2011 and 2011–2012 school years in all respects,
and reversed only with regard to the claim for tuition
reimbursement for the 2012–2013 school year. (See id.
at 103.) The Court granted Defendant’s application to
amend its Answer. (See id.)
Defendant filed its Amended Answer on December
6, 2016, asserting a counterclaim that the portion of
the SRO’s decision that found that Defendant did not
appeal the IHO’s award of compensatory education
was error. (See Dkt. No. 52.) A scheduling order was
thereafter set for summary judgment motions regarding Defendant’s counterclaim, (see Dkt. No. 54), and

193a
Plaintiffs filed their Answer to the counterclaim on
December 26, 2016, (see Dkt. No. 57). On January 20,
2017, Defendant filed the instant Motion for Summary
Judgment on its counterclaim and supporting papers.
(See Dkt. Nos. 60–63.) Plaintiffs filed their opposition
papers and Cross-Motion for summary judgment on
February 18, 2017, (see Dkt. Nos. 65–68, 70), and
Defendant replied on March 10, 2017, (see Dkt. Nos.
72–73).
II.

Discussion

A. Legal Framework
“The IDEA’s purpose is ‘to ensure that all children
with disabilities have available to them a free appropriate public education,’ ” which, “[i]n practice, . . .
means that [s]tates have an affirmative obligation to
provide a basic floor of opportunity for all children with
disabilities.” T.K. v. N.Y.C. Dep’t of Educ., 810 F.3d 869,
875 (2d Cir. 2016) (quoting 20 U.S.C. § 1400(d)(1)(A)).
Accordingly, the IDEA requires that “states receiving
federal funds . . . provide ‘all children with disabilities’
a ‘free appropriate public education.’ ” Hardison v. Bd.
of Educ., 773 F.3d 372, 376 (2d Cir. 2014) (quoting 20
U.S.C. § 1412(a)(1)(A)). To provide a FAPE, a school
district must offer “special education and related services tailored to meet the unique needs of a particular
child, which are reasonably calculated to enable the
child to receive educational benefits.” M.O. v. N.Y.C.
Dep’t of Educ., 793 F.3d 236, 238–39 (2d Cir. 2015)
(internal quotation marks omitted).

194a
If a parent of a child with a disability is dissatisfied with the quality of education received, that
parent is entitled to an impartial due process hearing,
see 20 U.S.C. § 1415(f )(1)(A), which in New York takes
the shape of the administrative process described
above, whereby the parents may put their case before
an IHO, whose decision may be appealed to an SRO,
see N.Y. Educ. Law § 4404(1)–(2). The SRO’s decision
may, in turn, be challenged by an appeal to either state
or federal court. See 20 U.S.C. § 1415(i)(2)(A).
B. Standard of Review
In an ordinary case, summary judgment is appropriate only if there exists no genuine dispute of
material fact. See Fed. R. Civ. P. 56(a). In an IDEA
case, however, the existence of a disputed issue of
material fact will not always defeat a motion for
summary judgment. See T.P. ex rel. S.P. v. Mamaroneck
Union Free Sch. Dist., 554 F.3d 247, 252 (2d Cir. 2009).
Instead, summary judgment in IDEA cases is typically
“in substance an appeal from an administrative
determination, not a summary judgment.” Lillbask ex
rel. Mauclaire v. State of Conn. Dep’t of Educ., 397 F.3d
77, 83 n.3 (2d Cir. 2005) (internal quotation marks
omitted).
Accordingly, the general rule is that some measure of deference is owed to the conclusions of the
SRO because the Court “is not an expert on education
or childhood learning disabilities.” M.A.K. ex rel. S.A.
v. N.Y.C. Dep’t of Educ., No. 12-CV-435, 2014 WL

195a
1311761, at *1 (E.D.N.Y. Mar. 30, 2014); see also L.K. v.
Dep’t of Educ. of the City of N.Y., No. 09-CV-2266, 2011
WL 127063, at *1 (E.D.N.Y. Jan. 13, 2011) (“The SRO’s
findings of fact are due appropriate deference by this
Court, which is not an expert on education or childhood
learning disabilities.”). However, while deference is
generally owed to the SRO’s decision, the level of deference depends on the type of issue being decided. See
M.H. v. N.Y.C. Dep’t of Educ., 685 F.3d 217, 244 (2d Cir.
2012) (holding that “the weight due administrative
determinations” “will vary based on the type of determination at issue”). Thus, “[a]lthough [the Court] must
give due weight to the state proceedings, mindful that
[it] lack[s] the specialized knowledge and experience
necessary to resolve questions of educational policy, [it]
need not defer to the findings of state administrative
officers on questions . . . that fall outside of their field
of expertise.” E.M. v. N.Y.C. Dep’t of Educ., 758 F.3d
442, 456-57 (2d Cir. 2014) (citation and internal
quotation marks omitted).
C. Discussion
The issues in this case elude any simple description. The IHO found that Defendant denied W.E.
a FAPE for both the 2010–2011 and 2011–2012 school
years, and awarded Plaintiffs reimbursement for
W.E.’s psychiatric sessions with Dr. Williams and Dr.
Robins, as well as compensation for 15 additional hours
of counseling. (See IHO Decision 37–38.) Whether the
IHO issued that relief in connection with the 2010–
2011 school year or the 2011–2012 school year is the

196a
subject of some debate and will be addressed below.
The IHO denied, however, Plaintiffs’ request for 200
hours of compensatory education for the 2010–2011
school year and their request for tuition reimbursement during the 2011–2012 school year. (See id. at 25,
36.)
Plaintiffs appealed the adverse portions of the
IHO decision, and Defendant cross-appealed the IHO’s
finding that it had denied W.E. a FAPE during the
2010–2011 school year; although Defendant referenced
the award of compensatory education in its answer to
Plaintiffs’ petition on appeal, it made no mention of
that award in its cross-appeal. The SRO concluded
that those reimbursements had not been appealed, but
was unclear as to whether it considered the psychiatric
counseling sessions and additional 15 hours of counseling reimbursement to be part of the relief offered for
the 2010–2011 school year or for the 2011–2012 school
year:
I note that, relative to the 2010–11 school
year, the parties cannot properly raise the
IHO’s dismissal of the parents’ Section 504
claims, nor do they appeal or cross-appeal the
relief of reimbursement for sessions with the
student’s clinical psychologist and 15 hours
of compensatory counseling services for the
student. Additionally, relative to the 2011–12
school year, the parties do not appeal or crossappeal the IHO’s directive to reimburse the
parents for expenses incurred in connection
with the preparation for the August 11, 2011

197a
psychiatric evaluation (IHO Decision at pp.
28, 40–41).
(SRO Decision 13.)
There are thus two questions raised on these
Motions: (1) did the SRO err in determining that at
least some portion of the compensatory education
applied to the 2011–12 school year, and (2) did the SRO
err in holding that Defendant had not appealed the
award of compensatory education? Neither of these
questions implicates the educational expertise of the
SRO, and therefore no deference to the SRO is
warranted. See Lillbask, 397 F.3d at 82 (“[T]he due
weight we ordinarily must give to the state administrative proceedings is not implicated with respect to
issues of law. . . .” (alterations and internal quotation
marks omitted)); K.H. v. N.Y.C. Dep’t of Educ., No. 12CV-1680, 2014 WL 3866430, at *15 (E.D.N.Y. Aug. 6,
2014) (declining to afford deference to the SRO’s judgment with respect to the law regarding claim accrual).
They do, however, require a close look at the decisions
of the IHO and SRO and at the relevant papers filed
by the Parties.
1. Scope of Relief
The first issue is whether the SRO was wrong to
view the IHO’s decision as dividing up the award of
compensatory education between the 2010–2011 and
2011–2012 school years. Even a cursory look at the
record makes clear that the compensatory education

198a
was afforded solely in connection with the 2010–2011
school year.
First, the compensatory education is awarded in
a section of the IHO’s decision entitled “2010–2011,”
(IHO Decision 21), and the specific paragraphs discussing the reimbursements fall under the subsection
entitled “Parents’ Request for Relief for the 2010–
2011 School Year,” (id. at 24–25). Indeed, the award
of compensatory education is discussed before the IHO
engages in any analysis of the 2011–2012 school year.
(See id. at 25–26.) And in the section dedicated to discussing the 2011–2012 school year, the IHO addressed
only Plaintiffs’ request for tuition reimbursement in
connection with W.E.’s enrollment at a private school,
and made no mention of the counseling services he
received. (See id. at 35–36.)
Second, the summary of relief included at the end
of the decision tracks the structure of the decision itself
and confirms that the compensatory education was
awarded in connection with the 2010–2011 school year.
The decision first states that Defendant denied W.E. a
FAPE during a portion of the 2010–2011 school year
before awarding Plaintiffs reimbursement for the
counseling sessions W.E. received as well as for 15
additional hours of counseling. (See id. at 37–38.)
Then, after discussing the compensatory education, the
decision concludes that Defendant denied W.E. a FAPE
for the 2011–2012 school year and states that Plaintiffs are not entitled to tuition reimbursement. (See
id. at 38.) The structure of this relief thus suggests
that the compensatory education was contemplated as

199a
relief for the violations during the 2010–2011 school
year, while the tuition reimbursement was connected
to the 2011–2012 school year.
Third, to the extent it is relevant, the record
strongly indicates that it was the Parties’ understanding that the compensatory education award related to
the 2010–2011 school year. While Plaintiffs point out
that, in their Amended Due Process Complaint, they
asked for “[a]ny further relief the [IHO] finds just
and necessary,” it was only with respect to the 2010–
2011 school year that they specifically sought “compensatory educational and counseling services . . . to
compensate for [Defendant’s] failure to provide appropriate services for W.E.[ ] for an extended period of
time.” (ADPC 26.) And in their post-hearing briefing,
where Plaintiffs first brought up the issue of reimbursement for Dr. Robins’s and Dr. Williams’s services,
(see IHO Ex. XVIII, at 59 n.43), the issue was discussed
only in connection with the 2010–2011 school year, (see
id. at 53).
Finally, before any testimony was heard, the IHO
confirmed with the Parties the scope of the relief
sought:
I understand that the parents are seeking
for the 2010–2011 school year compensatory
services and for the 2011–2012 school year
that the parents are seeking tuition reimbursement and reimbursement for related
expenses in connection with their unilateral
placement of the student at the Northwood

200a
School, and that the parents assert that
equitable considerations support that claim.
(IHO Hr’g Tr. 63–64 (Feb. 1, 2012 Hr’g).) After stating
this, the IHO asked, “would that generally represent
the outline of the parents’ position?” to which Plaintiffs
responded, “I think you have painted it quite well
with your broad strokes.” (Id. at 64.) While Plaintiffs
point out, and the Court recognizes, that the IHO was
providing only a general framework for the case,
painting it in “broad strokes,” (see Pls.’ Resp. to Def.’s
Statement of Material Facts Pursuant to Local Rule
56.1 ¶¶ 2–3 (Dkt. No. 66)), Plaintiffs never made any
suggestion to the IHO—at the hearing, in their briefing, or elsewhere—that they sought compensatory
education in connection with the 2011–2012 school
year. It is unsurprising, then, that the IHO’s award of
such compensation is tied solely to the 2010–2011
school year.
Plaintiffs do not dispute the basic structure of the
IHO’s decision. Instead, they offer a number of reasons
why the compensatory education should be considered,
at least in part, as part of the remedy for the denial of
a FAPE during the 2011–2012 school year. (See Mem.
of Law in Opp’n to Def.’s Mot. for Summ. J. on Def.’s
Counterclaim and in Supp. of Pls.’ Cross-Mot. for
Summ. J. (“Pls.’ Opp’n”) 10–14 (Dkt. No. 67).)
Plaintiffs first point out that the IHO awarded
reimbursement for the session with Dr. Williams that
formed the basis of his evaluation report, dated August
11, 2011, which was forwarded to Defendant and relied

201a
upon during the Committee for Special Education
(“CSE”) meeting held in anticipation of W.E.’s 2011–
2012 school year. (See id. at 10–11 (citing IHO
Decision 25).) Plaintiffs note also that the sessions
with Dr. Robins for which Plaintiffs were reimbursed
formed the basis for his letter dated August 19, 2011,
which was also written and forwarded to Defendant in
advance of the CSE meeting held immediately prior to
the 2011–2012 school year. (See id. at 11.) Plaintiffs
additionally point out that under New York law, the
school year runs from July 1 of each year to June 30 of
the following year, and several of the reimbursed
counseling sessions took place after July 1, 2011, and
all of them related to evaluations that were prepared
for the CSE meeting that took place in August 2011.
(See id. at 5–6.)
Finally, Plaintiffs argue that while the 15 additional hours of counseling were not explicitly tied to
any particular school year, the IHO noted when
awarding the 15 hours of counseling that “most courts
seek to ascertain the child’s needs at the time the relief
is sought.” (Id. at 11 (emphasis and internal quotation
marks omitted); see also IHO Decision 25 (citing Reid
ex rel. Reid v. District of Columbia, 401 F.3d 516 (D.C.
Cir. 2005).) Thus, because Plaintiffs filed their Due
Process Complaint in November 2011 (during the
2011–2012 school year) and the relief was awarded in
June 2012, the IHO must have, in Plaintiffs’ view,
assessed W.E. as being in need of counseling “at the
time the relief [was] sought,” (IHO Decision 25), and
therefore awarded the 15 hours of counseling in

202a
connection with the then-current school year, i.e., the
2011–2012 school year, (see Pls.’ Opp’n 11–12).
All of these arguments miss the mark. The question is not what the IHO should have done, but rather
what the IHO actually did. Plaintiffs make detailed
arguments for why the IHO could have reimbursed
them for counseling services during the 2011–2012
school year, but the fact remains that the IHO unambiguously awarded the reimbursement solely in
connection with the 2010–2011 school year. The IHO
may have been wrong to conclude that the counseling
sessions that gave rise to the evaluations produced in
August of 2011 and used as part of the CSE meeting
meant to address W.E.’s upcoming school year were
tied to Defendant’s alleged denial of a FAPE during the
2010–2011 school year, but for purposes of this Action,
the Court is concerned only with what the IHO
thought the appropriate remedy was, because it is that
issue that informs the question of whether Plaintiffs
are still entitled to the award of compensatory
counseling notwithstanding that the SRO determined,
and the Court did not disagree, that Defendant had not
denied W.E. a FAPE for the 2010–2011 school year.
In light of the plain structure of the IHO’s decision, as well as the apparent understanding of the
Parties, there is little question that the IHO viewed the
compensatory education as related only to the denial
of a FAPE for the 2010–2011 school year. While the
IHO could have allocated the compensatory education
differently, she did not, and there is no basis upon

203a
which this Court may rewrite the IHO’s decision to
conform to Plaintiffs’ interpretation of the record.
The SRO was therefore incorrect in concluding
that any portion of the IHO’s award for compensatory
education was for the 2011–2012 school year, as such
a conclusion is belied by the plain language of the
IHO’s decision. (See IHO Decision 24–26, 37–38.)
Where the SRO commits an error “of framing, rather
than application,” the error is of a legal dimension, FB
v. N.Y.C. Dep’t of Educ., 132 F. Supp. 3d 522, 541
(S.D.N.Y. 2015); see also C.U. v. N.Y.C. Dep’t of Educ., 23
F. Supp. 3d 210, 227 (S.D.N.Y. 2014) (holding that the
SRO committed “legal error” of “framing” when it
wrongly “interpreted the procedural right at issue as
the right to participate in school selection” instead of
the “procedural right to participate in the school selection process”), and an SRO’s decisions of law are not
entitled to any deference, see Lillbask, 397 F.3d at 82;
K.H., 2014 WL 3866430, at *15. Because the SRO improperly framed the issues on appeal, the Court need
not defer to its decision in that respect, and concludes
that the SRO erred in allocating a portion of the
compensatory counseling to the 2011–2012 school year.
2. Scope of Appeal
Having concluded that the IHO’s award of compensatory counseling related solely to the 2010–2011
school year, the Court must additionally determine
whether the SRO was wrong to conclude that Defendant had not appealed that award. Because the SRO

204a
concluded that Defendant had not appealed the compensatory counseling relating to either the 2010–2011
school year or the 2011–2012 school year, (see SRO
Decision 13), even though the SRO was wrong about
the allocation of compensatory counseling, the Court
must nevertheless determine whether the SRO was
also wrong about whether Defendant appealed the
award of compensatory education.
As Defendant points out, there is no dispute that
it cross-appealed the portion of the IHO’s decision that
found that Defendant had violated its child find
obligations and denied W.E. a FAPE for a portion of the
2010–2011 school year. (See Mem. of Law in Supp. of
Def.’s Mot. for Summ. J. on Def.’s Counterclaim 9 (Dkt.
No. 63); see also Att’y Decl. Ex. 1, ¶ 75.) As Plaintiffs
note, however, there is no reference to the award of
compensatory education in the portion of Defendant’s
answer that addressed the counterclaim. (See Pls.’
Opp’n 14.) In Plaintiffs’ view, and apparently the
SRO’s, this failure amounts to a waiver of any challenge to the award of compensatory education.
To be sure, Defendant did argue, in another portion of its answer to Plaintiffs’ petition on appeal, that
Plaintiffs did not seek reimbursement for Dr. Robins’s
and Dr. Williams’s counseling services in their original
Due Process Complaint or in their Amended Due
Process Complaint. (See Att’y Decl. Ex. 1, ¶ 54.) But
that paragraph appears as part of Defendant’s response to Plaintiffs’ petition on appeal, and does not
appear and is not incorporated by reference in the

205a
portion of the answer detailing the counterclaim. (See
id. ¶¶ 54, 75–116.)
But notwithstanding Defendant’s failure to specifically reference the award of compensatory counseling
in its counterclaim, the Court finds that the SRO erred
in concluding that the issue of compensatory education
was not properly before it. An award of compensatory
education services, such as counseling, “is an available
option under the [IDEA] to make up for denial of a free
and appropriate public education.” Mr. & Mrs. P. ex rel.
P. v. Newington Bd. of Educ., 546 F.3d 111, 123 (2d Cir.
2008); see also Mrs. C v. Wheaton, 916 F.2d 69, 75 (2d
Cir. 1990) (“[C]ompensatory education is a proper
remedy in an appropriate situation for enforcing
[IDEA] educational rights.”). Because compensatory
education is “a remedy for substantive FAPE claims,”
Doe v. E. Lyme Bd. of Educ., 790 F.3d 440, 456 (2d Cir.
2015), the absence of a substantive claim for a failure
to provide a FAPE necessarily precludes the award of
any compensatory services, (see, e.g., Op. & Order 59
n.16 (declining to address Plaintiffs’ request for compensatory education in light of the fact that Defendant
had not denied W.E. a FAPE)). It thus defies common
sense to suggest that when Defendant appealed the
IHO’s determination that Defendant had denied W.E.
a FAPE for the 2010–2011 school year, it was not
seeking an order vacating the award of compensatory
education arising out of that alleged denial.
Plaintiffs, somewhat ironically, summarize it best:
“Reimbursement for counseling is a remedy, not an
issue. . . .” (Pls.’ Opp’n 18.) Defendant appealed the

206a
IHO’s finding that it denied W.E. a FAPE during the
2010–2011 school year, and once the SRO reversed the
IHO on that point, there was no need for a remedy and
the basis for the award of compensatory education fell
away. To allow Plaintiffs to retain the compensatory
education awarded for the 2010–2011 school year in
the face of the finding by the SRO, affirmed by this
Court, that W.E. was not denied a FAPE during the
2010–2011 school year would not only work an
injustice on Defendant, it would reward Plaintiffs for
the SRO’s misinterpretation of the IHO’s decision and
the issues on appeal. The Court will not further the
error.
3. Appropriate Disposition
Having concluded that the SRO erred both in
attributing a portion of the compensatory education to
the 2011–2012 school year and in determining that
Defendant had not properly appealed that portion of
the award, the Court must consider what remedy is
appropriate.
In some circumstances, remand to the SRO may
be necessary to allow the SRO to apply its educational
expertise. For example, remand is appropriate “where
the district court has received insufficient guidance
from state administrative agencies as to the merits of
a case, or where proper resolution of the disputed issue
requires expertise.” J.S. v. N.Y.C. Dep’t of Educ., 104
F. Supp. 3d 392, 413 n.5 (S.D.N.Y. 2015) (citation and
internal quotation marks omitted), aff ’d, 648 F. App’x

207a
96 (2d Cir. 2016). Courts have consistently applied
this rule, remanding cases to the SRO where the
educational expertise of the SRO is needed to address
unresolved questions or where further development of
the administrative record is necessary. See, e.g., P.G.
v. N.Y.C. Dep’t of Educ., 959 F. Supp. 2d 499, 516
(S.D.N.Y. 2013) (“[R]ather than review the IHO’s
determination and draw its own conclusion regarding
the appropriateness of a 12:1:1 setting for [the student], the [c]ourt finds it appropriate to remand the
question to the SRO for consideration of this education
policy in the first instance.”); T.L. v. N.Y.C. Dep’t of
Educ., 938 F. Supp. 2d 417, 436–37 (E.D.N.Y. 2013)
(noting that “[r]emand [was] appropriate to obtain the
necessary educational expertise of the IHO and the
SRO,” and noting also that “[a] district court may
remand the proceeding for further development and
clarification of the record”); cf. D.N. v. N.Y.C. Dep’t of
Educ., 905 F. Supp. 2d 582, 588–89 (S.D.N.Y. 2012)
(remanding case to the SRO to allow it to consider
“unaddressed claims” because the SRO was “uniquely
well suited to review the content and implementation
of the [s]tudent’s IEP” (internal quotation marks omitted)), stay denied pending appeal, 2013 WL 245780
(S.D.N.Y. Jan. 22, 2013).
Had the SRO properly determined that the compensatory education was awarded solely in connection
with the 2010–2011 school year and that Defendant
had appealed that award, there is no question what
the SRO would have done, or at least what it would
have been required to do—vacate the award of

208a
compensatory education. Indeed, the SRO concluded
that there was no merit to Plaintiffs’ request for
compensation for 200 hours of home instruction in
connection with the 2010–2011 school year in light of
the absence of any underlying FAPE denial for that
year. (See SRO Decision 23.) Moreover, there is no
possibility that the SRO could have, sua sponte,
determined that Plaintiffs were entitled to additional
compensation for the 2011–2012 school year, as no
such issue was put before the SRO on appeal, and any
award of the IHO becomes final unless appealed to
the SRO. See N.Y. Comp. Codes R. & Regs. tit. 8,
§ 200.5(j)(5)(v). Were Plaintiffs under the belief that
they were entitled to compensation for counseling
services rendered during the 2011–2012 school year,
they could have requested that relief or appealed the
denial of that relief to the SRO.
Because there are no questions on which the
SRO’s educational expertise is needed, remand is not
necessary in this circumstance. Instead, the award of
compensatory education will be vacated, as there is no
basis upon which to compensate Plaintiffs in connection with the 2010–2011 school year.
III.

Conclusion

For the foregoing reasons, Defendant’s Motion for
Summary Judgment is granted and Plaintiffs’ CrossMotion for Summary Judgment is denied. All claims
having been disposed of, the Parties are to inform the
Court within seven days of the date of this Opinion &

209a
Order whether there remain any disputes to be
adjudicated. If not, the Parties shall submit a proposed
judgment, which shall be entered forthwith, without
prejudice to either Party’s right to appeal that judgment. The Clerk of Court is respectfully directed to
terminate the pending Motions. (See Dkt. Nos. 60, 70.)
SO ORDERED.
DATED: July 18, 2017
White Plains, New York
/s/ Kenneth M. Karas
KENNETH M. KARAS
UNITED STATES
DISTRICT JUDGE

210a
[SEAL]
The University of the State of New York
The State Education Department
State Review Officer
www.sro.nysed.gov
No. 14-015
Application of the BOARD OF EDUCATION
OF THE HENDRICK HUDSON CENTRAL
SCHOOL DISTRICT for review of a determination of a hearing officer relating
to the provision of educational services
to a student with a disability
Appearances:
Thomas, Drohan, Waxman, Petigrow & Mayle, LLP, attorneys for petitioner, Daniel Petigrow, Esq., of counsel
DECISION
I.

Introduction

This proceeding arises under the Individuals with
Disabilities Education Act (IDEA) (20 U.S.C. §§ 14001482) and Article 89 of the New York State Education
Law. Petitioner (the district) appeals from a decision
of an impartial hearing officer (IHO) which found that
it failed to offer respondents’ (the parents’) son an
appropriate educational program for the 2012-13
school year and ordered it to reimburse them for the
costs of the student’s tuition and costs associated with
his attendance at a nonpublic residential school (NPS).
The appeal must be sustained in part.

211a
II.

Overview—Administrative Procedures

When a student in New York is eligible for
special education services, the IDEA calls for the
creation of an individualized education program
(IEP), which is delegated to a local Committee on
Special Education (CSE) that includes, but is not
limited to, parents, teachers, a school psychologist,
and a district representative (Educ. Law § 4402; see 20
U.S.C. § 1414[d][1][A]-[B]; 34 CFR 300.320, 300.321; 8
NYCRR 200.3, 200.4[d][2]). If disputes occur between
parents and school districts, incorporated among the
procedural protections is the opportunity to engage in
mediation, present State complaints, and initiate an
impartial due process hearing (20 U.S.C. §§ 1221e-3,
1415[e]-[f ]; Educ. Law § 4404[1]; 34 CFR 300.151300.152, 300.506, 300.511; 8 NYCRR 200.5[h]-[l]).
New York State has implemented a two-tiered
system of administrative review to address disputed
matters between parents and school districts
regarding “any matter relating to the identification,
evaluation or educational placement of a student with
a disability, or a student suspected of having a
disability, or the provision of a free appropriate public
education to such student” (8 NYCRR 200.5[i][1];
see 20 U.S.C. § 1415[b][6]-[7]; 34 CFR 300.503[a][1][2], 300.507[a][1]). First, after an opportunity to
engage in a resolution process, the parties appear at
an impartial hearing conducted at the local level before
an IHO (Educ. Law § 4404[1][a]; 8 NYCRR 200.5[j]).
An IHO typically conducts a trial-type hearing regarding the matters in dispute in which the parties

212a
have the right to be accompanied and advised by
counsel and certain other individuals with special
knowledge or training; present evidence and confront,
cross-examine, and compel the attendance of witnesses; prohibit the introduction of any evidence at the
hearing that has not been disclosed five business days
before the hearing; and obtain a verbatim record of
the proceeding (20 U.S.C. § 1415[f][2][A], [h][1]-[3];
34 CFR 300.512[a][1]-[4]; 8 NYCRR 200.5[j][3][v], [vii],
[xii]). The IHO must render and transmit a final written decision in the matter to the parties not later than
45 days after the expiration period or adjusted period
for the resolution process (34 CFR 300.510[b][2], [c],
300.515[a]; 8 NYCRR 200.5[j][5]). A party may seek a
specific extension of time of the 45-day timeline, which
the IHO may grant in accordance with State and
federal regulations (34 CFR 300.515[c]; 8 NYCRR
200.5[j][5]). The decision of the IHO is binding upon
both parties unless appealed (Educ. Law § 4404[1]).
A party aggrieved by the decision of an IHO may
subsequently appeal to a State Review Officer (SRO)
(Educ. Law § 4404[2]; see 20 U.S.C. § 1415[g][1]; 34
CFR 300.514[b][1]; 8 NYCRR 200.5[k]). The appealing
party or parties must identify the findings, conclusions,
and orders of the IHO with which they disagree and
indicate the relief that they would like the SRO to
grant (8 NYCRR 279.4). The opposing party is entitled
to respond to an appeal or cross-appeal in an answer
(8 NYCRR 279.5). The SRO conducts an impartial
review of the IHO’s findings, conclusions, and decision
and is required to examine the entire hearing record;

213a
ensure that the procedures at the hearing were
consistent with the requirements of due process; seek
additional evidence if necessary; and render an independent decision based upon the hearing record (34
CFR 300.514[b][2]; 8 NYCRR 279.12[a]). The SRO
must ensure that a final decision is reached in the
review and that a copy of the decision is mailed to each
of the parties not later than 30 days after the receipt
of a request for a review, except that a party may seek
a specific extension of time of the 30-day timeline,
which the SRO may grant in accordance with State
and federal regulations (34 CFR 300.515[b], [c]; 8
NYCRR 200.5[k][2]).
III. Facts and Procedural History
The student has been the subject of a prior administrative appeal related to the 2010-11 and 201112 school years, and as a result, the parties’ familiarity
with his earlier educational history and prior due
process proceedings is assumed and will not be repeated here in detail (Application of a Student with a
Disability, Appeal No. 12-138). Briefly, at the time of
the impartial hearing in this case, the student was
enrolled in the NPS (Tr. pp. 366, 601).1
On June 14, 2012, the CSE convened for an annual
review of the student’s program and to develop his IEP
1

The NPS has not been approved by the Commissioner of
Education as a school with which school districts may contract to
instruct students with disabilities (Tr. pp. 51, 189, 865-66; Dist.
Ex. 20 at p. 1; see 8 NYCRR 200.1[d]; 200.7).

214a
for the 2012-13 school year (Tr. pp. 137, 859; Dist. Exs.
19; 28 at p. 1). The June 2012 CSE determined that
the student remained eligible for special education and
related services as a student with an other healthimpairment (Dist. Ex. 19 at p. 1).2 Additionally, the
June 2012 CSE developed annual goals to address
the student’s needs relative to study skills, social/
emotional/behavioral needs, and career/vocational/
transitional needs (Tr. p. 159; Dist. Ex. 19 at pp. 6-7).
The June 2012 CSE also proposed program modifications for the student, which included access to class
notes, additional time for assignments, the provision
of nursing services as needed, and refocusing and
prompting, in addition to testing accommodations (Tr.
pp. 181-84; Dist. Ex. 19 at pp. 8-9). Having determined
that a small special class constituted an appropriate
educational setting for the student, and in light of the
parents’ desire to continue the student’s placement at
the NPS, the June 2012 CSE considered placement of
the student in a therapeutic 8:1+1 special class placement (Tr. pp. 186, 188-90; Dist. Exs. 19 at p. 7; 20 at
p. 1). The June 2012 CSE also recommended the
provision of two 30-minute sessions of counseling per
week, with one to be provided individually and one
in a small group (Dist. Exs. 19 at p. 7; 20 at p. 1). The
district’s director of pupil personnel services (the PPS
director) described two potential out-of-district placements for the student located in separate districts (Tr.
2

The student’s eligibility for special education and related
services as a student with an other health-impairment is not in
dispute on appeal (Tr. pp. 508, 779; see 34 CFR 300.8[c][9]; 8
NYCRR 200.1 [zz][10]).

215a
pp. 191-92; see Tr. pp. 193-94). The June 2012 CSE
planned to send referral packets to an out-of-district
Board of Cooperative Educational Services (BOCES)
program and another out-of-district program that
offered “certain therapeutic elements” (Tr. pp. 191-92,
199-200; see Tr. pp. 882-83; Dist. Ex. 20 at p. 1; see Dist.
Ex. 25 at p. 4). Consequently, on June 29, 2012, the
PPS director sent referral packets to both of the
potential out-of-district programs (Dist. Ex. 23).
In a letter to the PPS director dated July 19, 2012,
the central intake chairperson from the out-of-district
BOCES program advised that based upon a review of
the student’s IEP, supporting documentation, and an
intake interview with its school psychologist, the
BOCES central intake committee had determined that
a “suitable and appropriate Special Education program [did] exist for [the student]” (Dist. Ex. 25 at pp.
4-5). The central intake chairperson further indicated
that the student was recommended for placement
in a BOCES Therapeutic Support Program-Fragile
(BOCES) located at an out-of-district high school (id.).
On July 20, 2012, accompanied by his mother, the
student participated in an intake interview with the
school psychologist from BOCES (Tr. pp. 720, 742-43,
1071-72; Dist. Ex. 26 at p. 1).
By e-mail to the student’s mother dated July 26,
2012, the PPS director provided the parents with the
results of its referral of the student and informed her
that the non-BOCES out-of-district program declined
to accept the student (Dist. Ex. 25 at pp. 1, 3). She
further advised the student’s mother that her office

216a
was in the process of scheduling a “CSE program
review meeting” to discuss the referral results and
placement of the student, and suggested that the CSE
reconvene on August 15, 2012 (Tr. p. 217; Dist. Ex. 25
at p. 1).
In a letter to the PPS director dated July 27, 2012,
the student’s mother confirmed that the student
participated in the intake interview with the school
psychologist from BOCES, and based on the outcome
of that meeting, the parents had determined that it did
not constitute an appropriate educational setting for
the student (Dist. Ex. 26 at p. 1). The student’s mother
further outlined her objections to the BOCES program,
including that the program would have resulted in
complete segregation of the student from his typically
developing peers for the first semester of the school
year (id. at p. 3). She further noted that integration
between the BOCES special class and the high school
did “not occur on a regular basis or in a seamless
manner” (id.). In addition, the student’s mother noted
that because class profiles were not available, the
parents could not ascertain whether the proposed class
was comprised of students with similar academic,
social/emotional, and management needs as the
student (id.). Furthermore, the student’s mother questioned whether the recommendation for placement in
BOCES accounted for the significant progress that the
student made the prior school year or whether the
student would be able to participate in academically
rigorous courses (id.). Additionally, the student’s mother emphasized her concerns regarding the student’s

217a
health, and that the proposed program did not have a
plan in place to address the student’s school avoidance
in the event that the student’s migraine headaches
reoccurred (id.). Finally, the parents requested the
Behavior Assessment System for Children, Second
Edition (BASC-2) test protocols used in a May 2012
district psychological evaluation and the class profiles
of the students attending the BOCES program (id. at
p. 6; see Dist. Ex. 13).
On August 15, 2012, the CSE reconvened to review
the student’s program and placement as a result of the
referral to BOCES (Tr. pp. 221-22, 1083-84; Dist. Exs.
18; 28 at p. 1). The August 2012 CSE recommended
placement of the student in an 8:1+1 BOCES special
class, in conjunction with related services comprised of
one weekly 30-minute session of individual counseling
and one weekly 30-minute session of group counseling
(Dist. Ex. 18 at pp. 2, 9). However, the IEP also indicated that the student would be placed in general
education classes in math, science, and English (id. at
p. 12). The parents objected to the August 2012 CSE’s
program recommendation, deeming it “too restrictive”
for the student and because they believed that placement in the BOCES program would stigmatize him (id.
at p. 2). Moreover, the parents indicated that transferring the student from his NPS placement could
“trigger a relapse of his management of his migraines
and his school refusal behavior” (id.).
By letter to the district’s interim superintendent
of schools (superintendent), dated August 21, 2012,
the parents advised the district that they rejected the

218a
August 2012 IEP and had determined to unilaterally
place the student in the NPS for the 2012-13 school
year (Dist. Ex. 27 at pp. 2-3). After outlining their
reasons for rejecting the August 2012 IEP, the parents
further informed the district that due to its failure to
provide the student with an appropriate educational
program, they intended to seek an award of tuition
reimbursement, including related costs and expenses,
for the costs of the student’s unilateral private
placement (id.).
A. Due Process Complaint Notice
By due process complaint notice dated April 10,
2013, the parents commenced an impartial hearing,
requesting as relief an award of tuition reimbursement
and related expenses for the student’s attendance at
the NPS for the 2012-13 school year (IHO Ex. 1 at pp.
4-37). The parents listed over 140 allegations with
respect to their claim that the district denied the
student a free appropriate public education (FAPE) for
the 2012-13 school year (IHO Ex. 1 at pp. 6-30). In
pertinent part, the parents alleged that the June 2012
CSE lacked an individual other than themselves who
had first-hand knowledge of the student or his
educational needs (id. at p. 7). They maintained that
the June 2012 CSE selectively ignored information
from individuals who knew the student (id.). The
parents further contended that the June 2012 CSE
“made little attempt to identify possible placements
suitable for [the student],” and following a brief
discussion, only forwarded referral packets to two

219a
separate out-of-district programs (id. at p. 9). The
parents also asserted that the June 2012 CSE did not
engage in any meaningful discussion regarding whether the district high school could provide an appropriate
program for the student (id.). Furthermore, the parents maintained that the “functional non-involvement”
of the other members of the June 2012 CSE permitted
the PPS director “to railroad her agenda through,”
depriving the student of a FAPE (id.). Next, the parents alleged that the district’s failure to respond to
their July 2012 request for documentation prior to the
August 2012 CSE meeting impeded their participation
at the meeting (id. at pp. 12-13).
The parents also raised procedural and substantive defects surrounding the August 2012 CSE meeting
and resultant IEP (IHO Ex. 1 at pp. 14-30). For
example, the parents contended that the August 2012
CSE was also improperly composed, because it lacked
an individual who had previously taught the student
(id. at p. 14). The parents maintained that they were
the sole individuals in attendance who knew the
student (id. at p. 15). Moreover, they asserted that the
district made no attempts throughout the CSE process
to secure the attendance at the CSE meeting of a
representative from the NPS (id.). The parents also
challenged the sufficiency of the evaluative data before
the August 2012 CSE, and specifically alleged that the
August 2012 CSE did not receive, review, or consider
any teacher reports, classroom observation, updated
behavioral assessments, private provider letters, or
parent input (id. at p. 19). They further submitted that

220a
the August 2012 IEP omitted evaluative data from the
student’s providers, in addition to the results of the
February 2012 administration of the BASC-2 (id. at
p. 24). In addition, the parents argued that the annual
goals contained in the August 2012 IEP were not
appropriate, and they further alleged that despite
their efforts to review the goals at the August 2012
CSE meeting, the PPS director refused to further discuss the matter (id. at p. 19). With respect to the appropriateness of the annual goals, the parents asserted
that none of them “approach[ed] the high school level”
and that they were not aligned to the student’s needs
or were not specific to his special education needs (id.
at pp. 21-24, 30).
The parents also raised allegations that the outcome of the August 2012 CSE meeting was predetermined (IHO Ex. 1 at pp. 14, 24). With respect to the
appropriateness of the district’s recommendation to
place the student in a BOCES program, the parents
alleged that the district relied on inaccurate and/or
conflicting information in developing its program
recommendation for the student (id. at p. 16).
Specifically, the parents claimed that notwithstanding
the BOCES school psychologist’s representations
during the July 2012 intake interview discouraging
placement of the student in the mainstream environment during the first semester, at the August 2012
CSE meeting the BOCES school psychologist explained that the student could participate in any
general education class at that district high school (id.
at pp. 16, 20, 27). They also asserted that the August

221a
2012 CSE did not discuss how the student could be
placed in general education classes while simultaneously also receiving the benefits of the recommended
8:1+1 special class placement (id. at p. 28). Ultimately,
the parents contended that an “inherent contradiction
exist[ed]” between the August 2012 IEP’s recommendation for placement of the student in an 8:1+1 special
class and his “sudden” participation in the mainstream
environment (id. at p. 26). In summary, the parents
alleged that the district’s program recommendation
was “wholly inappropriate” to address the student’s
special education needs and would result in physical,
emotional, and academic regression (id. at p. 30). They
further maintained that the student required placement in a small, structured, supportive and predictable environment, with the availability of “therapeutic
recreation” (id. at pp. 20-21).
Next, the parents argued that the NPS provided a
program and services individually tailored to address
the student’s needs (IHO Ex. 1 at p. 30). Although the
parents acknowledged that the NPS was not a “therapeutic school,” they maintained that its environment
and nature were therapeutic (id.). They further
alleged that the NPS provided the student with an
educational setting that conformed to the recommendations of the student’s medical and mental health
providers and that the NPS also offered the student
services and accommodations aligned with his individual needs (id. at pp. 30-31). Furthermore, the parents contended that the student had progressed in his
primary areas of need (id. at pp. 31-32). Lastly, the

222a
parents alleged that they had participated in the CSE
process in good faith, and therefore, equitable considerations favored their request for an award of relief
in this instance (id. at pp. 32-33). If anything, the
parents asserted that equitable considerations should
weigh against the district, which they maintained did
“not act[ ] in as forthright a manner,” throughout the
CSE process (id. at pp. 33-35).
B. Impartial Hearing Officer Decision
On May 29, 2013, the parties proceeded to an
impartial hearing, which concluded on June 12, 2013,
after six days of testimony (Tr. pp. 1-1402). On December 17, 2013, the IHO rendered his decision, in which
he found that the district did not provide the student
with a FAPE for the 2012-13 school year, that the NPS
constituted an appropriate unilateral placement for
the student, and that equitable considerations favored
the parents’ claim for relief in this instance (IHO
Decision at pp. 9-20). Accordingly, the IHO ordered the
district to reimburse the parents for the costs of the
student’s tuition at the NPS for the 2012-13 school
year (id. at p. 20). Specifically, with respect to the
parents’ allegations surrounding a denial of a FAPE
for the 2012-13 school year, the IHO determined that
the August 2012 IEP failed to reconcile how the student would be able to take advantage of mainstreaming opportunities while enrolled in an 8:1+1 special
class placement, and he proceeded to characterize the
IEP as “incomplete” (id. at pp. 9-12). He further found
that the district failed to determine the extent to which

223a
the student could benefit from education in the general
education environment (id. at p. 11). While the IHO
noted both parties’ support for mainstreaming the
student, he described testimony from the BOCES
school psychologist as “equivocal,” and further indicated that she was “shifting in her commitment to such
programming” (id.). Moreover, he concluded that the
CSE never meaningfully discussed “the manner in
which the 8:1+1 class size would be integrated into the
mainstream environment” (id.). Under the circumstances, the IHO found that the August 2012 IEP was
internally inconsistent, given its provisions that the
student attend an 8:1+1 special class, while being
placed in general education classes for mathematics,
English and science (id. at p. 11).3, 4
3

The IHO also concluded that although none of the student’s
special or regular education teachers were in attendance at the
June 2012 and August 2012 CSE meetings, the absence of such
individuals from the CSE did not rise to the level of a denial of a
FAPE (IHO Decision at pp. 12-13). Similarly, he also concluded
that the district’s failure to respond to the parents’ July 2012
request for documentation did not rise to the level of a denial of a
FAPE (id. at p. 13). As neither party has appealed from these
determinations, they have become final and binding on the
parties and will not be reviewed on appeal (34 CFR 300.514[d]; 8
NYCRR 200.5[j][5][v]).
4
Additionally, the IHO acknowledged as issues, but did not
render findings on, the appropriateness of the 8:1+1 special class
placement through BOCES, or the appropriateness of the
proposed goals (IHO Decision at pp. 13-14). Although the district
raises these matters on appeal, the parents did not explicitly
assert them as additional bases on which to affirm the IHO’s
determination; therefore, they will not be further considered (34
CFR 300.514[a]; 8 NYCRR 200.5[j][5][v]; see M.Z. v. New York
City Dep’t of Educ., 2013 WL 1314992, at *6-*7, *10 [S.D.N.Y.
Mar. 21, 2013]).

224a
With regard to the appropriateness of the NPS,
the IHO concluded that the hearing record supported
a finding that it provided the student with specially
designed instruction to meet his educational needs
(IHO Decision at p. 15). In particular, the IHO found
that the student benefitted from the small class sizes
offered at the NPS, which allowed faculty members to
closely monitor his progress and give the student
individualized attention to address his difficulty managing stress and his migraine headaches (id. at pp. 1516). Additionally, the IHO noted that the student
participated in two study hall sessions, and that
personnel provided him with guided note taking as
well as additional time to take exams in a quieter room
than the classroom (id. at p. 16). The IHO also found
that the residential component to the NPS was an
essential feature to its appropriateness, because it
enabled the student to integrate his school and home
environments (id. at pp. 16-17). Moreover, the IHO
found that the NPS’s location afforded the student the
ability to participate in recreational activities that
alleviated his stress, which in turn diminished the
frequency of his migraines (id. at p. 17). Furthermore,
the IHO noted that the NPS provided the student with
an accommodation plan offering “very specific and
customized accommodations for the [s]tudent,” including counseling sessions, the use of an iPad, participation in a supervised study hall, and access to the
school’s nurse (id.). With respect to the provision of
counseling and nursing services, the IHO noted that
the NPS provided the student with informal
counseling sessions on a regular basis (id. at p. 18). In

225a
the event that the student experienced a migraine
headache, the IHO found that the NPS provided the
student with around the clock nursing services (id.).
Under the circumstances, the IHO found that the
student “ha[d] shown immense progress in coping with
his migraines” (id.). In view of the foregoing, the IHO
concluded that the hearing record established that the
NPS constituted an “ideal placement” for the student
(id. at p. 19). Lastly, with respect to a weighing of the
equities in this matter, the IHO found no basis upon
which to deny or diminish an award of relief (id. at
p. 20).
IV. Appeal for State-Level Review
The district appeals and requests findings that it
offered the student a FAPE for the 2012-13 school year,
that the NPS did not constitute an appropriate
unilateral placement for the student and that equitable considerations do not favor the parents’ request for
relief in this instance. Regarding its assertion that it
provided the student with a FAPE for the 2012-13
school year, the district argues that the August 2012
IEP’s recommendation for placement of the student in
an 8:1+1 special class was not inconsistent with the
IEP’s provision for mainstreaming. The district maintains that the hearing record establishes that the
student would initially be placed in an 8:1+1 special
class with the provision of counseling, and with the
support of the parents and the CSE, the student could
have access to general education classes during the
2012-13 school year. In addition, the district submits

226a
that the August 2012 IEP accurately reflected the
evaluative information gathered over the course of two
CSE meetings, and that the annual goals incorporated
into the August 2012 IEP were appropriate. Furthermore, the district asserts that placement of the student
in an 8:1+1 special class, in conjunction with the
provision of individual and group counseling was
appropriate for the student, because it offered him a
small, supportive, learning environment consistent
with the recommendations of his private providers.
Next, the district maintains that the NPS was not
appropriate to meet the student’s educational needs.
In pertinent part, the district alleges that the NPS did
not provide the student with specially designed instruction to meet his unique needs, nor was it capable
of providing him the necessary services. The district
claims that although the NPS effectuated an accommodation plan for the student, with the exception of
preferential seating, none of the accommodations or
supports was unique to the student. Moreover, the
district contends that despite the availability of certain
advantages at the NPS, such as small classes and
access to recreational activities, these advantages do
not constitute special education. Further, the district
alleges that the NPS is not a therapeutic placement
and that the student does not receive any formal
counseling sessions there through a trained therapist
or certified provider. With respect to progress, the
district claims that the student’s academic gains were
uneven due to the student’s failure to complete
homework assignment, his lack of engagement in

227a
assignments in which he was not interested, and his
display of inappropriate behavior. Finally, with respect
to equitable considerations, the district maintains that
they warrant a denial of relief in this instance because
the parents never intended to accept a district placement.
In an answer, the parents request that the IHO’s
decision be affirmed in full, and further seek findings
that the district did not offer the student a FAPE for
the 2012-13 school year, the NPS constituted an
appropriate unilateral placement for the student, and
that the equities favor their claim for relief. Specific to
their allegation that the district failed to provide the
student a FAPE for the 2012-13 school year, the parents argue that the IHO properly concluded that the
August 2012 IEP was self-contradictory and failed to
reconcile how the student could attend general education classes while enrolled in the 8:1+1 special class,
and that the CSE never meaningfully discussed the
benefits or the extent of the student’s participation in
the general education environment. In addition, the
parents note that despite their requests for class
profiles of the students in the BOCES, the district
failed to comply. Furthermore, the parents assert that
although they objected to the August 2012 IEP and the
CSE’s recommendation for placement in the BOCES
program, the PPS director made no further efforts to
identify an alternative placement for the student.
Next, the parents maintain that the NPS was
appropriate to meet the student’s special education
needs. In relevant part, the parents assert that the

228a
student’s placement at the NPS was consistent with
the recommendations of the student’s private providers. They further allege that the residential component of the NPS was an essential piece of an
appropriate program for the student, due to the
seamless integration between the student’s home and
school environment, which ultimately broke the student’s cycle of migraines. In addition, the parents
claim that the NPS provided the student with an
accommodation plan tailored to meet the student’s
unique needs. In particular, the parents claim that the
student’s use of an iPad and participation in study hall
have aided him with his homework and organization
difficulties. Furthermore, the parents argue that the
NPS provided the student with informal counseling on
a regular basis. Additionally, the parents assert that
the student had access to the school nurse to address
his migraine headaches which, coupled with the NPS
personnel’s compassionate approach to education,
addressed the student’s health-related needs. The
parents also allege that the student progressed in his
areas of need as a result of his enrollment in the NPS
during the 2012-13 school year. For example, the parents contend that the student’s self-confidence improved, and that the student progressed academically,
socially, and physically due to his placement in the
NPS. They also maintain that the student’s migraine
headaches decreased in frequency due to his enrollment in the NPS. Lastly, with respect to a weighing of
the equities, the parents maintain that there is no
basis in the hearing record upon which to deny or
diminish an award of relief.

229a
V.

Applicable Standards

Two purposes of the IDEA (20 U.S.C. §§ 14001482) are (1) to ensure that students with disabilities
have available to them a FAPE that emphasizes
special education and related services designed to
meet their unique needs and prepare them for further
education, employment, and independent living; and
(2) to ensure that the rights of students with disabilities and parents of such students are protected (20
U.S.C. § 1400[d][1][A]-[B]; see generally Forest Grove
Sch. Dist. v. T.A., 557 U.S. 230, 239 [2009]; Bd. of Educ.
v. Rowley, 458 U.S. 176, 206-07 [1982]).
A FAPE is offered to a student when (a) the board
of education complies with the procedural requirements set forth in the IDEA, and (b) the IEP developed
by its CSE through the IDEA’s procedures is reasonably calculated to enable the student to receive
educational benefits (Rowley, 458 U.S. at 206-07; R.E.
v. New York City Dep’t. of Educ., 694 F.3d 167, 189-90
[2d Cir. 2012]; M.H. v. New York City Dep’t of Educ.,
685 F.3d 217, 245 [2d Cir. 2012]; Cerra v. Pawling Cent.
Sch. Dist., 427 F.3d 186, 192 [2d Cir. 2005]). “ ‘[A]dequate compliance with the procedures prescribed would
in most cases assure much if not all of what Congress
wished in the way of substantive content in an IEP’ ”
(Walczak v. Florida Union Free Sch. Dist., 142 F.3d 119,
129 [2d Cir. 1998], quoting Rowley, 458 U.S. at 206; see
T.P. v. Mamaroneck Union Free Sch. Dist., 554 F.3d
247, 253 [2d Cir. 2009]). While the Second Circuit has
emphasized that school districts must comply with the
checklist of procedures for developing a student’s IEP

230a
and indicated that “[m]ultiple procedural violations
may cumulatively result in the denial of a FAPE even
if the violations considered individually do not” (R.E.,
694 F.3d at 190-91), the Court has also explained that
not all procedural errors render an IEP legally inadequate under the IDEA (M.H., 685 F.3d at 245; A.C. v.
Bd. of Educ., 553 F.3d 165, 172 [2d Cir. 2009]; Grim v.
Rhinebeck Cent. Sch. Dist., 346 F.3d 377, 381 [2d Cir.
2003]; Perricelli v. Carmel Cent. Sch. Dist., 2007 WL
465211, at *10 [S.D.N.Y. Feb. 9, 2007]). Under the IDEA,
if procedural violations are alleged, an administrative
officer may find that a student did not receive a FAPE
only if the procedural inadequacies (a) impeded the
student’s right to a FAPE, (b) significantly impeded the
parents’ opportunity to participate in the decisionmaking process regarding the provision of a FAPE
to the student, or (c) caused a deprivation of educational benefits (20 U.S.C. § 1415[f ][3][E][ii]; 34 CFR
300.513[a][2]; 8 NYCRR 200.5[j][4][ii]; Winkelman v.
Parma City Sch. Dist., 550 U.S. 516, 525-26 [2007];
R.E., 694 F.3d at 190; M.H., 685 F.3d at 245; A.H. v.
Dep’t of Educ., 394 Fed. App’x 718, 720, 2010 WL
3242234 [2d Cir. Aug. 16, 2010]; E.H. v. Bd. of Educ.,
2008 WL 3930028, at *7 [N.D.N.Y. Aug. 21, 2008], aff ’d,
361 Fed. App’x 156, 2009 WL 3326627 [2d Cir. Oct. 16,
2009]; Matrejek v. Brewster Cent. Sch. Dist., 471
F. Supp. 2d 415, 419 [S.D.N.Y. 2007], aff ’d, 293 Fed.
App’x 20, 2008 WL 3852180 [2d Cir. Aug. 19, 2008]).
The IDEA directs that, in general, an IHO’s decision must be made on substantive grounds based on a
determination of whether the student received a FAPE

231a
(20 U.S.C. § 1415[f ][3][E][i]). A school district offers a
FAPE “by providing personalized instruction with
sufficient support services to permit the child to benefit
educationally from that instruction” (Rowley, 458 U.S.
at 203). However, the “IDEA does not itself articulate
any specific level of educational benefits that must be
provided through an IEP” (Walczak, 142 F.3d at 130;
see Rowley, 458 U.S. at 189). The statute ensures an
“appropriate” education, “not one that provides everything that might be thought desirable by loving parents” (Walczak, 142 F.3d at 132, quoting Tucker v. Bay
Shore Union Free Sch. Dist., 873 F.2d 563, 567 [2d Cir.
1989] [citations omitted]; see Grim, 346 F.3d at 379).
Additionally, school districts are not required to
“maximize” the potential of students with disabilities
(Rowley, 458 U.S. at 189, 199; Grim, 346 F.3d at 379;
Walczak, 142 F.3d at 132). Nonetheless, a school
district must provide “an IEP that is ‘likely to produce
progress, not regression,’ and . . . affords the student
with an opportunity greater than mere ‘trivial advancement’ ” (Cerra, 427 F.3d at 195, quoting Walczak, 142
F.3d at 130 [citations omitted]; see T.P., 554 F.3d at
254; P. v. Newington Bd. of Educ., 546 F.3d 111, 118-19
[2d Cir. 2008]; Perricelli, 2007 WL 465211, at *15). The
IEP must be “reasonably calculated to provide some
‘meaningful’ benefit” (Mrs. B. v. Milford Bd. of Educ.,
103 F.3d 1114, 1120 [2d Cir. 1997]; see Rowley, 458 U.S.
at 192). The student’s recommended program must
also be provided in the least restrictive environment
(LRE) (20 U.S.C. § 1412[a][5][A]; 34 CFR 300.114
[a][2][i], 300.116[a][2]; 8 NYCRR 200.1[cc], 200.6[a][1];
see Newington, 546 F.3d at 114; Gagliardo v. Arlington

232a
Cent. Sch. Dist., 489 F.3d 105, 108 [2d Cir. 2007];
Walczak, 142 F.3d at 132; G.B. v. Tuxedo Union Free
Sch. Dist., 751 F. Supp. 2d 552, 573-80 [S.D.N.Y. 2010],
aff ’d, 486 Fed. App’x 954, 2012 WL 4946429 [2d Cir.
Oct. 18, 2012]; E.G. v. City Sch. Dist. of New Rochelle,
606 F. Supp. 2d 384, 388 [S.D.N.Y. 2009]; Patskin v. Bd.
of Educ., 583 F. Supp. 2d 422, 428 [W.D.N.Y. 2008]).
An appropriate educational program begins with
an IEP that includes a statement of the student’s
present levels of academic achievement and functional
performance (see 34 CFR 300.320[a][1]; 8 NYCRR
200.4[d][2][i]; Tarlowe v. New York City Bd. of Educ.,
2008 WL 2736027, at *6 [S.D.N.Y. July 3, 2008] [noting
that a CSE must consider, among other things, the
“results of the initial evaluation or most recent
evaluation” of the student, as well as the “ ‘academic,
developmental, and functional needs’ ” of the student]),
establishes annual goals designed to meet the student’s needs resulting from the student’s disability
and enable him or her to make progress in the general
education curriculum (see 34 CFR 300.320[a][2][i],
[2][i][A]; 8 NYCRR 200.4[d][2][iii]), and provides for
the use of appropriate special education services (see
34 CFR 300.320[a][4]; 8 NYCRR 200.4[d][2][v]; see also
Application of the Dep’t of Educ., Appeal No. 07-018;
Application of a Child with a Disability, Appeal No. 06059; Application of the Dep’t of Educ., Appeal No. 06029; Application of a Child with a Disability, Appeal
No. 04-046; Application of a Child with a Disability,
Appeal No. 02-014; Application of a Child with a

233a
Disability, Appeal No. 01-095; Application of a Child
Suspected of Having a Disability, Appeal No. 93-9).
A board of education may be required to reimburse
parents for their expenditures for private educational
services obtained for a student by his or her parents, if
the services offered by the board of education were
inadequate or inappropriate, the services selected by
the parents were appropriate, and equitable considerations support the parents’ claim (Florence County Sch.
Dist. Four v. Carter, 510 U.S. 7 [1993]; Sch. Comm. of
Burlington v. Dep’t of Educ., 471 U.S. 359, 369-70
[1985]; R.E., 694 F.3d at 184-85; T.P., 554 F.3d at 252).
In Burlington, the Court found that Congress intended
retroactive reimbursement to parents by school officials as an available remedy in a proper case under the
IDEA (471 U.S. at 370-71; see Gagliardo, 489 F.3d at
111; Cerra, 427 F.3d at 192). “Reimbursement merely
requires [a district] to belatedly pay expenses that it
should have paid all along and would have borne in
the first instance” had it offered the student a FAPE
(Burlington, 471 U.S. at 370-71; see 20 U.S.C.
§ 1412[a][10][C][ii]; 34 CFR 300.148).
The burden of proof is on the school district during
an impartial hearing, except that a parent seeking
tuition reimbursement for a unilateral placement has
the burden of proof regarding the appropriateness of
such placement (Educ. Law § 4404[1][c]; see R.E., 694
F.3d at 184-85; M.P.G. v. New York City Dep’t of Educ.,
2010 WL 3398256, at *7 [S.D.N.Y. Aug. 27, 2010]).

234a
VI. Discussion
A. Adequacy of the August 2012 IEP—
Mainstreaming Opportunities
Initially, as detailed below, the hearing record
supports the IHO’s determination that the August
2012 CSE never meaningfully discussed nor did the
August 2012 IEP reflect the manner in which the
student would be integrated into the mainstream
setting while contemporaneously enrolled in a fulltime 8:1+1 special class (IHO Decision at pp. 10-11).
In this instance, the hearing record suggests that
during the August 2012 CSE meeting, the parents
attempted to determine how the student would participate in mainstream courses while enrolled in an 8:1+1
special class in the BOCES program (see generally
Tr. pp. 1085-86). According to the student’s mother,
at the August 2012 CSE meeting, the BOCES school
psychologist stated that the student could be mainstreamed in “any class he wanted,” and that the
student would not be segregated from the remainder
of the student body (Tr. p. 1085). The student’s mother
testified that she was surprised by the BOCES school
psychologist’s representations at the August 2012 CSE
meeting because “it was 180 degrees from what she
had said” previously during the July 2012 intake, and
the student’s mother questioned how the student could
both be mainstreamed and be placed in an 8:1+1
special class (Tr. pp. 1085-86; see Tr. pp. 777-78, 1073).
Similarly, although the BOCES school psychologist
advised the August 2012 CSE that typically upon

235a
enrollment in BOCES, students required time to
acclimate to the program prior to availing themselves
of mainstreaming opportunities, mainstreaming was
possible from the start with parental and CSE support
(Tr. p. 234).
However, the PPS director noted that the BOCES
school psychologist did not indicate whether she was
ready or able to negotiate the student’s schedule at
that juncture, nor did the school psychologist have
sufficient information regarding available courses,
their enrollment numbers or teachers, and that information would be provided to the parents at a later date
(Tr. p. 235). Despite questions from the parents during
the August 2012 CSE meeting regarding how a student could be enrolled in an 8:1+1 special class and
participate in mainstream classes comprised of 24
students, the student’s mother testified that the
BOCES school psychologist did not clarify how this
scenario would work (Tr. p. 1086; Parent Ex. AA at p. 4;
see Dist. Ex. 28 at p. 1). The PPS director added that
there was no information presented at the CSE
regarding how students enrolled in the program spent
their day or how it was structured (Tr. pp. 523-24).
Moreover, the student’s mother and the PPS director
further testified that no discussion took place during
the August 2012 CSE meeting regarding in what
classes the student would be mainstreamed (Tr. pp.
340, 1086).
Subsequently, at the August 2012 CSE meeting,
the PPS director presented the CSE’s recommendation
for a 10-month school year 8:1+1 special class BOCES

236a
placement (Dist. Ex. 18 at pp. 9-10; see Tr. p. 238; Dist.
Ex. 28 at pp.1-2). In addition to the supports available
within the BOCES program, the August 2012 CSE
recommended that the student receive one 30-minute
session of both individual and small group counseling
per week (Dist. Ex. 18 at p. 9). With respect to the
student’s removal from the general education environment, the August 2012 IEP indicated that the student
required the support of a small class program with
therapeutic supports and that he would be scheduled
for general education classes in math, science, and
English (id. at p. 12). The PPS director explained that
she specified those classes on the August 2012 IEP for
mainstreaming because:
there was agreement that he needed a small
class program with therapeutic support.
Having had [the BOCES school psychologist]
at the meeting with us, saying that . . .
mainstreaming from the start is a possibility
but they would never consider it unless they
knew the CSE and the parent were behind it
and in support of it, this was my statement of
support for that mainstreaming. It really unfortunately ought to say something probably
more like he will be considered for scheduling
in these classes.
(Tr. p. 240).5
5

In this instance, the district provided testimony explaining
how the student could have been mainstreamed in the recommended BOCES (Tr. pp. 240, 1085). However, “[i]n determining
the adequacy of an IEP, both parties are limited to discussing the
placement and services specified in the written plan and therefore

237a
Notwithstanding the BOCES school psychologist’s
willingness to work with the parents to arrange
scheduling the student in appropriate mainstream
classes, the PPS director conceded at the impartial
hearing that the August 2012 CSE did not specify in
which classes the student would be mainstreamed (Tr.
pp. 338-39). She further confirmed that there had not
been a determination that math, science, and English
were the classes in which the student would be
mainstreamed, but she felt that there needed to be a
statement to support the parents’ concern and request
for mainstreaming (Tr. pp. 240-41). Therefore, the
hearing record supports the IHO’s conclusion that the
CSE did not discuss in which academic classes the
student would be mainstreamed, nor did it address the
representation set forth in the August 2012 IEP that
the student would receive instruction in an 8:1+1
special class for six hours per day, and also receive instruction in general education mathematics, English,
and science classes, which resulted in an IEP that
“contradict[ed] itself ” (IHO Decision at pp. 10-11; Dist.
Ex. 18 at pp. 1, 12).
Accordingly, based on the failure of the August
2012 IEP to indicate how the student would simultaneously attend an 8:1+1 special class placement
reasonably known to the parties at the time of the placement
decision” (R.E., 694 F.3d at 187). Therefore, in reviewing the
program offered to the student, the focus of the inquiry is on the
information that was available at the time the IEP was formulated (see C.L.K. v Arlington Sch. Dist., 2013 WL 6818376, at *13
[S.D.N.Y. Dec. 23, 2013]; D.A.B. v New York City Dept. of Educ.,
2013 WL 5178267, at *12 [S.D.N.Y. Sept. 16, 2013]).

238a
while enrolled in mainstream classes, the hearing
record supports the IHO’s conclusion that the IEP was
internally inconsistent, resulting in a denial of a FAPE
to the student (see, e.g., R.E., 694 F.3d at 186 [holding
that “[a]t the time the parents must choose whether to
accept the school district recommendation or to place
the child elsewhere, they have only the IEP to rely on,
and therefore the adequacy of the IEP itself creates
considerable reliance interests for the parents”]).
B. Unilateral Placement
Having concluded that the district failed to provide the student with a FAPE for the 2012-13 school
year, I must next consider whether the NPS constituted an appropriate unilateral placement for the
student. A private school placement must be “proper
under the Act” (Carter, 510 U.S. at 12, 15; Burlington,
471 U.S. at 370), i.e., the private school must offer an
educational program which meets the student’s special
education needs (see Gagliardo, 489 F.3d at 112, 115;
Walczak, 142 F.3d at 129; Matrejek, 471 F. Supp. 2d at
419). A parent’s failure to select a program approved
by the State in favor of an unapproved option is not
itself a bar to reimbursement (Carter, 510 U.S. at 14).
The private school need not employ certified special
education teachers or have its own IEP for the student
(Carter, 510 U.S. 7). Parents seeking reimbursement
“bear the burden of demonstrating that their private
placement was appropriate, even if the IEP was
inappropriate” (Gagliardo, 489 F.3d at 112; see M.S.,
231 F.3d at 104).
“Subject to certain limited

239a
exceptions, ‘the same considerations and criteria that
apply in determining whether the [s]chool [d]istrict’s
placement is appropriate should be considered in
determining the appropriateness of the parents’ placement’ ” (Gagliardo, 489 F.3d at 112, quoting Frank G.,
459 F.3d at 364; see Rowley, 458 U.S. at 207). Parents
need not show that the placement provides every
special service necessary to maximize the student’s
potential (Frank G., 459 F.3d at 364-65). When determining whether the parents’ unilateral placement is
appropriate, “[u]ltimately, the issue turns on” whether
that placement is “reasonably calculated to enable the
child to receive educational benefits” (Frank G., 459
F.3d at 364; see Gagliardo, 489 F.3d at 115; Berger v.
Medina City Sch. Dist., 348 F.3d 513, 522 [6th Cir.
2003]). A private placement is only appropriate if it
provides education instruction specially designed to
meet the unique needs of a student (20 U.S.C.
§ 1401[29]; 34 CFR 300.39[a][1]; Educ. Law § 4401[1];
8 NYCRR 200.1[ww]; Rowley, 458 U.S. at 188-89;
Gagliardo, 489 F.3d at 114-15 [noting that even
though the unilateral placement provided special
education, the evidence did not show that it provided
special education services specifically needed by the
student]; Frank G., 459 F.3d at 365; Stevens v. New
York City Dep’t of Educ., 2010 WL 1005165, *9
[S.D.N.Y. Mar. 18, 2010]).
The Second Circuit has set forth the standard for
determining whether parents have carried their
burden of demonstrating the appropriateness of their
unilateral placement.

240a
No one factor is necessarily dispositive in
determining whether parents’ unilateral placement is reasonably calculated to enable the
child to receive educational benefits. Grades,
test scores, and regular advancement may
constitute evidence that a child is receiving
educational benefit, but courts assessing the
propriety of a unilateral placement consider
the totality of the circumstances in determining whether that placement reasonably
serves a child’s individual needs. To qualify
for reimbursement under the IDEA, parents
need not show that a private placement
furnishes every special service necessary to
maximize their child’s potential. They need
only demonstrate that the placement provides
educational instruction specially designed to
meet the unique needs of a handicapped child,
supported by such services as are necessary to
permit the child to benefit from instruction.
(Gagliardo, 489 F.3d at 112, quoting Frank G., 459 F.3d
at 364-65).
1. Student Needs
The hearing record shows that the student’s
presentation prior to the beginning of the 2011-12
school year—his first year at the NPS—had significantly changed by September 2012, the beginning of
the school year in contention in this appeal (compare
Tr. pp. 818-22, 967-70, 990-91; Dist. Ex. 23 at pp. 34-40;
and Parent Ex. S at pp. 8-9, with Tr. pp. 939-45, 105658; Dist. Exs. 17 at pp. 1-2; 18 at p. 2; and Parent Ex. S

241a
at pp. 1-2). Specifically, during the 2011-12 school year
the frequency of the student’s headaches decreased as
compared to the 2010-11 school year, resulting in
significantly improved school attendance, final grades
within a “C+” to “B+” range, and exhibited improvements socially and with organization skills (Tr. pp.
818-19, 823-26; Dist. Ex. 18 at p. 2; Parent Exs. H at
pp. 1-3; N).
In May 2012, the student’s English I and honors
biology teachers both completed a BASC-2 Teacher
Rating Scales-Adolescent, and the student’s mother
completed a BASC-2 Parent Rating Scales-Adolescent
(Dist. Exs. 10 at pp. 1-2, 11 at pp. 1-2, 12 at pp. 1-3).
The district school psychologist prepared a report
dated May 11, 2012 based upon the completed BASC2 forms (Tr. pp. 121, 124; Dist. Ex. 13 at pp. 1-3). In her
report, the school psychologist indicated that the
student’s English I teacher had rated somatization and
social skills as areas of difficulty for the student,
specifically that the student “always” visited the nurse,
experienced headaches, and did not encourage others
to do their best or offer to help others (Dist. Ex. 13 at
p. 3). According to the May 2012 report, the student’s
honors biology teacher rated hyperactivity and atypicality as problem areas for the student, indicating that
the student sometimes had trouble staying seated,
disrupted others, and exhibited poor self-control (id.).
The honors biology teacher also indicated that the
student sometimes acted strangely, had strange ideas,
and said things that did not make sense (id.). The

242a
school psychologist’s report indicated that the parents
did not rate any areas as concerns (id.).
On May 11, 2012, the PPS director observed the
student in his NPS English I class (Dist. Ex. 6 at pp. 12). The class was composed of 11 students and one
teacher (id. at p. 1). At the outset of the class, the PPS
director reported that the student sat upright and
appeared to be attentive, contributing correct information six times (id.). During another part of the lesson,
when the student was not selected to answer questions
at the board, he was observed to slump down in his
seat and rest his head on his desk (id.). However, when
the teacher asked students to review the information
on the board for correctness, the student sat up and
twice correctly responded (id.). Turning to another
activity, the student was observed to return to a
slumped posture with his head on the table, until he
asked the teacher if he needed to take notes (id. at pp.
1-2). When the teacher responded in the affirmative,
the student sat upright and appeared to write in his
notebook (id. at p. 2).
The hearing record contains June 5, 2012 NPS
teacher reports and the student’s report card from the
fourth marking period of the 2011-12 school year (Dist.
Ex. 8 at pp. 1-5; Parent Ex. H at pp. 1-3). The reports
indicated that at times in geometry class, the student
fell asleep due to difficulty sleeping at night, and that
his appearance of being tired affected his ability to
remain alert and engaged in class (Dist. Ex. 8 at p. 1;
Parent Ex. H at p. 2). The student’s geometry teacher
reported that the student was strong in mathematics,

243a
found geometry to be relatively easy, achieved a final
grade of “B+,” and that he recommended that the
student enroll in honors algebra for the next school
year (id.). The English I teacher reported that the student had a good year in English, earned a final grade
of “B+,” was an active participant in class, related class
topics to his prior knowledge, and exhibited critical
thinking skills (Dist. Ex. 8 at p. 2; Parent Ex. H at p. 1).
She further suggested that the student continue to
focus on organization skills, noting that when the
student struggled it was when he came to class
unprepared, without materials, or without completed
homework (id.). The world cultures teacher indicated
that the student was usually focused in class, but that
the student could be forgetful, arrive without needed
materials, and demonstrate inconsistent effort and
interest (Dist. Ex. 8 at p. 3; Parent Ex. H at p. 3; see
Dist. Ex. 15 at p. 2). According to the world cultures
teacher’s comments, the student achieved a final grade
of “B,” was one of his brightest students when drawing
connections and making inferences, and was “so comfortable in embracing his own eccentricities” (Dist. Ex.
8 at p. 3; Parent Ex. H at pp. 2-3). The honors biology
teacher reported that the student earned a final grade
of “B,” showed progress in his organization and focus,
loved to participate in class, and because he picked up
the information very quickly, the student was at times
bored in class, which led to inattention (Dist. Ex. 8 at
p. 4; Parent Ex. H at p. 2). According to the honors
biology teacher, the student exhibited behavior such
as playing class clown to draw attention to himself,
which the teacher opined was “in line with a typical,

244a
somewhat immature, bright 9th grader” (Dist. Ex. 8 at
p. 4). The honors biology teacher reported that the
student suffered from migraine headaches, “which
seem to be triggered by stress” leading to a lack of sleep
that fed into a cycle of disorganization, missing class,
and missing assignments (id.). In Spanish I, the student had a “satisfactory” final quarter of the school
year, achieving a final grade of “C+,” with his teacher
noting an improvement from the previous quarter
(Dist. Ex. 8 at p. 5; Parent Ex. H at p. 1). According to
the Spanish I teacher, five of the student’s homework
assignments were either incomplete or missing, daily
preparation for class remained an area in need of
improvement, and his classroom behavior was “poor”
(id.). The Spanish I teacher indicated that on numerous occasions, the student had shown he was fully
capable of succeeding in the class, but his attention to
detail and daily preparation were his downfall in
terms of his overall grade (Dist. Ex. 8 at p. 5; Parent
Ex. H at pp. 1-2).
In a letter to the CSE dated June 13, 2012, the
student’s psychiatrist reported that he had seen the
student in December 2011 and April 2012, and opined
that the student continued to qualify for special education as a student with an other health-impairment
(Dist. Ex. 17 at p. 1). The psychiatrist reported that
the student continued to have a diagnosis of a migraine
headache disorder, evidenced by “the just about monthly
occurrence of migraine headaches,” that although they
occurred with much less frequency than the prior
school year, the migraines continued to have an impact

245a
on his educational performance (id.). According to the
psychiatrist, the student’s migraine headache disorder
was better controlled and appeared well managed in
the NPS, which “appears individually appropriate for
him with small supportive classes, 24 hour nursing
services from 2 nurses, a structured study hall, medication management, therapeutic recreational services,
flexible individualized counseling services, flexibility
with assignments, an individual accommodation plan,
an academic advisor, and careful monitoring by staff ”
(id.).
The psychiatrist’s June 2012 letter described the
student’s past (May 2011) difficulties, remarking that
from his perspective, the student had made excellent
progress academically, socially, and physically in one
year (Dist. Ex. 17 at p. 1). He attributed the student’s
progress in large part to his placement in a small
supportive, residential school environment that suited
his educational, medical, and “special emotional needs”
(id. at pp. 1-2). The psychiatrist further noted that the
student had been tapered off his anti-migraine medications, passed every class, and participated in class
regularly (id. at p. 1). Although the student’s grades
were “uneven,” the psychiatrist attributed this to the
student’s difficulty during the 2010-11 school year,
when he was unable to complete most of the work and
received medical exemptions in almost every class (id.
at pp. 1-2). As the student’s progress according to the
psychiatrist was “quite notable” yet the student was
“still fragile,” the psychiatrist did not recommend any
change of school placement for the 2012-13 school year,

246a
stating that disrupting the student’s positive progress
would be “both emotionally and educationally devastating” (id. at p. 2). The psychiatrist further expressed
his fear that a change in placement could lead to
“emotional regression and a return to the debilitating
physical symptoms” the student exhibited during the
2010-11 school year (id.).
In the June 2012 letter, the psychiatrist indicated
that the student’s “persistent vulnerabilities” in the
areas of somatization and social skills identified in the
district school psychologist’s June 2012 BASC-2 report
coincided with his ongoing clinical impressions of the
student (Dist. Ex. 17 at p. 2). In addition, the district
school psychologist’s report, and the reports from three
out of four of the student’s teachers, raised concerns
suggestive of an attention deficit hyperactivity disorder (ADHD) symptomology in the student, which
warranted further clinical evaluation that the psychiatrist would undertake in upcoming sessions (id.). The
psychiatrist further advocated that the “supportive,
informal counseling” provided by one of the student’s
teachers during the 2011-12 school year, be supplemented by a “more systematic psychotherapy program”
during the 2012-13 school year, to more “effectively
address those areas of continuing vulnerability with
which [the student] continues to struggle” (id.). Updated diagnostic impressions included a headache disorder with physical and psychological contributants;
associated features of anxiety and dysthymia; possible
ADHD; internalizing personality features; migraine

247a
headaches by history; and school and social adjustment problems (Dist. Ex. 17 at p. 2).
The August 2012 IEP reflected teacher reports
that the student had difficulty with sleep, complained
of headaches during class, and evidenced behavior
consistent with clinically significant somatization and
at-risk somatization, social skills, and atypical behavior as reported on the BASC-2 (Dist. Ex. 18 at p. 6).
According to the August 2012 IEP, the student’s
psychiatrist had reported that the student continued
to exhibit vulnerabilities in the areas of somatization
and social skills, as well as features of anxiety and a
mood disorder, and that the psychiatrist advocated for
a “ ‘more systematic psychotherapy program’ ” to address the student’s vulnerabilities (id.). The August
2012 IEP reflected the student’s private therapist’s
report that the student’s social skills were immature,
and that he lacked insight into the connection between
his experiences with school stress and his migraines,
also advocating for a therapeutic intervention to
address those needs (id.). Additionally, the August
2012 IEP indicated that the student continued to have
difficulty with organization and independent completion of expected work (id. at p. 2).
The August 2012 IEP social/emotional present
levels of performance indicated that the student had
“dramatically improved in his school attendance and
participation” while attending the NPS (Dist. Ex. 18 at
p. 6). Although the student’s headaches continued to
occur, the August 2012 IEP indicated that the number
of debilitating migraines had significantly decreased

248a
(id.). Strengths identified in the August 2012 IEP
included that the student made and maintained several important friendships and enjoyed socializing outside of school, and that he was respectful and attentive
to adults (id.). The August 2012 IEP identified
specific social/emotional needs, including that the
student needed counseling to increase his ability to
cope with frustration and stress and decrease his
anxiety regarding school and social situations; access
appropriate school personnel during stressful situations; and develop a positive self-concept and demonstrate confidence in his many talents and abilities (id.
at pp. 2, 6). Management needs included in the August
2012 IEP were that the student needed a structured
and supportive environment and to improve coping
skills to manage academic and social stressors (id. at
p. 7).
2. Description of the NPS
The hearing record describes the NPS as a “coeducational, independent, boarding and day school
serving students in grades nine through the postgraduate year” (Parent Ex. Z at p. 5). During the 201213 school year approximately 172 students attended
the NPS, mostly as “boarders” (Tr. p. 590). The student’s tenth grade English II teacher and school
counselor (counselor) testified that the NPS described
itself as “principally a college preparatory school” (Tr.
pp. 588-91, 601; IHO Ex. 32 at p. 3). The NPS does not
have a consulting psychologist or psychiatrist on staff,
nor is it a therapeutic placement, although the

249a
counselor stated he had observed its “therapeutic
manifestations” (Tr. pp. 463, 590; IHO Ex. 32 at p. 4).
According to the counselor, the environment at the
NPS was “psychologically safe” in that although not
“stress-free,” it emphasized the importance of not
having students feel belittled, in competition with each
other, or bullied, but rather “celebrating eccentricity”
(Tr. pp. 655-58, 668-72; IHO Ex. 32 at p. 4). The NPS
also had a “very heavy athletic slant,” and according to
the counselor, the opportunities for outdoor activities
also contributed to a psychologically safe setting (Tr.
pp. 591, 670-71). The student attended the NPS for
tenth grade during the 2012-13 school year and
received instruction in western civilization, English II,
Spanish II, honors algebra II, and honors chemistry
(Parent Exs. I at pp. 1-3; J at pp. 1-3; L at pp. 1-3).
a. The NPS Accommodation Plan
Turning first to the parties’ dispute over whether
the NPS provided the student with specially designed
instruction to meet the student’s unique educational
needs, the director of college guidance (guidance
director) at the NPS testified that he knew the student
in that he had reviewed the materials the family provided to develop an accommodation plan, and because
he saw the student four or five times a day (Tr. pp. 42426). The guidance director and counselor described the
student as a “bright young man,” who appeared to be
an average student exhibiting both strengths and
weaknesses in the classroom, noting that the student’s
enthusiasm waned when he was not interested in the

250a
subject matter (Tr. pp. 426-27, 429, 605-09). The guidance director further described the student as a “normal tenth grade boy” who although—“like many tenth
grade boys”—he was socially awkward, was also
comfortable talking with peers and adults (Tr. p. 432).
The guidance director was aware that the student had
missed a few days of school due to a headache disorder,
and that he experienced difficulty with anxiety (Tr. pp.
432-33).
On or about September 4, 2012, the guidance
director developed an accommodation plan based upon
materials provided to him by the parents (Tr. pp. 43435; Parent Ex. C). In late September 2012, the guidance director met with the parents and reviewed the
August 2012 IEP and the accommodation plan (Tr. pp.
434-35, 833-34). On October 5, 2012, the guidance
director revised the accommodation plan, which was
then distributed to the student’s NPS teachers (Tr.
p. 435; Parent Ex. D). The guidance director testified
that he did not believe that there had been any
changes to the student’s accommodation plan since
October 2012 (Tr. p. 435). The counselor testified that
he did not know how the student’s accommodation
plan was initially drafted, nor did he recall whether he
had a role in drafting the accommodation plan (Tr. pp.
616-17). He stated that the guidance director provided
him with “all pertinent information,” and throughout
the year provided reminders and followed up (Tr.
p. 617).
The October 2012 NPS accommodation plan indicated that the student had received a diagnosis of a

251a
mixed headache disorder, and outlined seven accommodations to be provided to the student: (1) extended
time for in-class assignments; (2) preferential seating;
(3) graphic organizers or guided notes to support information presented verbally; (4) iPad for use in class;
(5) supervised study hall; (6) individualized/regular
counseling sessions with the school counselor; and (7)
access to the school nurse (Parent Ex. D).6
(1). Extended Time, Preferential
Seating, Guided Notes, iPad
The guidance director testified that the student
was allowed access to and permitted to use an iPad in
class (Tr. p. 440). The iPad was added to the student’s
October 2012 accommodation plan because of the success the student had using it in chemistry class (Tr. pp.
451-52; 835-36). The guidance director testified that
“generally” all students had the opportunity to use
iPads at the NPS, and although teachers had varying
policies, the iPad was generally used as an instructional or learning aid (Tr. pp. 452-53). He further
testified that he reminded the student’s teachers that
guided notes were required, and asked the teachers if
they needed help implementing that accommodation
(Tr. p. 440).

6

The October 2012 accommodation plan also indicated that
the student did not take medication for his “condition” and
advised that questions about the plan or requests to review
supporting documents should be made to the guidance director
(Parent Ex. D).

252a
The counselor, who also taught the student’s English II class, testified that he was aware that per the
accommodation plan, the student was allowed extended time, test administration in a smaller setting, and
guided notes, which he stated were provisions that
were “integrated into daily life here anyway” (Tr. pp.
617-18). Extra time was provided in the counselor’s
English II class to any student who asked for it (Tr.
p. 648). The counselor stated that he did not know if
there was an accommodation that the student be provided with an iPad (id.). According to the counselor, a
number of students in the English II class—and the
NPS in general—were “sliding” into using tools such as
laptops and iPads in the classroom (Tr. pp. 619-20).7
When asked if the accommodation plan was helping
the student, the counselor replied that he “believe[d]”
so, but could not provide “quantifiable evidence” (Tr.
p. 620).
The student’s western civilization teacher stated
that he was aware the student had an accommodation
plan, and that he had received information about the
plan from the guidance director (Tr. pp. 365-66, 37980). The teacher testified that the student was allowed
extra time and a separate room/quiet space if the
student wanted it to complete tests but that by his
choice, the student did not take tests in a separate
location (Tr. pp. 377, 379, 413-14). In western civilization class, the student was encouraged to use an iPad,
7

The student’s mother testified that iPads were not used in
all classes at the NPS at the beginning of the 2012-13 school year
(Tr. p. 836).

253a
which all students were allowed to use (Tr. p. 378). The
amount of organizational help with which the teacher
provided the student lessened since the student began
using the iPad for organization (Tr. pp. 378, 380-81).
The student also used the iPad for note taking and
homework (Tr. pp. 382-83). All students in the western
civilization class were provided with guided notes,
which the teacher stated he did not think the student
needed (Tr. p. 378). The western civilization teacher
testified that the student also received preferential
seating next to the teacher in class, and that all
students sat at an oval table where the teacher could
see everyone, and that the teacher was no more than
seven feet away from any student at a given time (Tr.
pp. 381, 385).
(2). Supervised Study Hall
The hearing record shows that the student
participated in supervised study hall in two formats:
one free period per day of supervised study hall held in
the library with a teacher, who helped ensure the
student was organized and “on top of his work” and—
along with the other students in his dorm—a two-hour
evening study hall (Tr. pp. 388-89, 441; IHO Ex. 32 at
p. 5).8 The guidance director indicated that the
October 2012 accommodation plan referred to the
daytime supervised study hall, which was added to the
8

The guidance director indicated that the student had asked
to participate in an additional afternoon study hall, which showed
“a kind of maturity and self-advocacy” (Tr. pp. 441-42).

254a
October 2012 accommodation plan at the parents’
request, and was an “additional service” available to all
students (Tr. pp. 456-57).
(3). Counseling
The counselor testified that outside of the English
II class, he spoke to the student approximately three
to five times per day in situations such as lunch and
assemblies, and was aware that the student’s accommodation plan included “regular counseling” (Tr. pp.
609-10, 617-18; see Tr. pp. 442-43). According to the
counselor, he did not see the student for sessions in his
office on a regularly scheduled basis (Tr. pp. 621-24,
649). Rather, the counselor testified that he provided
the student with counseling services—which he
described as “regular purposeful attentive conversations by me to see how [the student] is doing and to
either coach or prod or ask"—in informal settings such
as in the student’s dorm room, at an assembly or in the
dining room, and on the way to go rock climbing (Tr.
pp. 624, 649). He further indicated that he held the
“purposeful” conversations with the student “a little
bit” more frequently than with other students because
of the student’s history of migraines, and that part of
the conversation involved assessing how the student
was doing (Tr. pp. 672-73; see Tr. p. 649). The counselor
opined that the student “probably thinks I am just
being friendly,” and that there was “not a great need to
be sticking my finger at [the student] all the time and
say[ing] how are you doing” (Tr. pp. 624-25).

255a
The counselor testified that he did not know what
triggered the student appearing withdrawn at times,
nor did he know if that presentation was connected to
the student’s headaches (Tr. pp. 647-48). He indicated
that he had not been able to identify the precursors to
the student’s headaches, despite looking at calendars
to attempt to ascertain a cause/effect or pattern (Tr. pp.
652-53). The counselor stated that he did not know
why the student continued to experience migraines
during the 2012-13 school year, albeit at a significantly
decreased frequency (Tr. pp. 653-54).
Although the counselor did not recommend that
the student receive “outside counseling,” when the
parents asked him to provide a recommendation, he
provided the name of a private clinical social worker
(Tr. pp. 625-26). The guidance director testified that he
was aware that the parents had arranged—with the
help of the counselor—for the private clinical social
worker to see the student at the NPS, but that he had
not met the private clinical social worker (Tr. pp. 443,
463-64). Beginning in March 2013, the private clinical
social worker used the counselor’s office to conduct
approximately five sessions with the student (Tr. pp.
626-27, 1042-43, 1365-66). The counselor testified that
the private clinical social worker told him her sessions
with the student involved “more coaching than
therapy,” and that she worked on coping skills and
strategies for reducing stress (Tr. pp. 634-35). The
counselor stated that he was not aware of a treatment
plan the private clinical social worker followed, and did
not know the “particulars” of what she worked on with

256a
the student (Tr. p. 635). The parent testified that the
private clinical social worker worked on increasing the
student’s socialization, self-advocacy, relaxation, and
self-awareness skills (Tr. pp. 1043-45).9
(4). Nursing Services
According to the guidance director, the NPS had
two full time nurses on staff who held office hours at
specific times during the day, one of whom was always
on-call (Tr. pp. 438-39). He further testified that all
NPS students had access to the nurses (Tr. p. 457; see
Tr. p. 618). Nursing records indicated that the student
experienced headaches on multiple occasions throughout the 2012-13 school year and received nursing
assistance in the form of administration of medication
and provision of food and liquids, and that the parents
and counselor were updated about the student’s
condition (Parent Ex. T at pp. 1-10).10

9

The hearing record is devoid of testimony from the private
social worker or evidence related to her sessions with the
student.
10
According to nursing records, in May 2013, the student
experienced a headache lasting approximately five days (Parent
Ex. T at pp. 1-5). Nursing notes indicated that the nurse,
counselor, and one of the student’s teachers discussed the situation, and determined that the “student may have to go home to
heal if needed for the week if he cannot leave his room to attend
class, sports and spring program” (id. at p. 2). The records further
indicated that the parents “underst[oo]d that if [the] student
continues to have [a] migraine for a longer period of time and it is
d[e]bilitating, he will go home” (id.).

257a
b. Additional NPS Amenities
(1). Small Class Size
Although not identified as a specific accommodation on the student’s plan, the hearing record consistently cites the “small class” sizes available at the
NPS as a contributing factor to the student’s success
(see, e.g., Tr. pp. 383-86, 445-46, 823, 828-29; Dist. Ex.
17 at p. 1; Parent Ex. S at p. 2). The guidance director
testified that classes at the NPS typically ranged from
10-12 students, that no classes had more than 15 students, and that there were approximately six classes
composed of fewer than six students (Tr. p. 445). When
asked if class size had any effect on the student, the
guidance director testified that he “imagine[d]” it had,
and provided testimony about what he perceived to be
the benefits of smaller classes, including the ability to
debate classmates in a safe forum where students were
respected and to receive individual attention from the
teacher; further stating that it was easier for teachers
to tailor their lessons to meet the student’s needs (Tr.
pp. 445-46). The western civilization teacher stated
that he “couldn’t see” the discussion-based style of
learning that occurred in his class of 11 students taking place in a larger public school classroom, and that
it was discussion-based learning which had helped
bring the student “out of his shell” (Tr. pp. 383-84).

258a
(2). Boarding/Physical Activities
Component
Notwithstanding the parents’ contentions that the
student required a residential placement in order to
reap educational benefits from his program, the district asserts that the student does not require such a
restrictive level of programming because there is no
evidence that the student has regressed in a special
education day program. Although the restrictiveness
of the parental placement may be considered as a
factor in determining whether the parents are entitled
to an award of tuition reimbursement (C.L. v. Scarsdale Union Free Sch. Dist., 2014 WL 928906, at *7 [2d
Cir. Mar. 11, 2014]; Rafferty v. Cranston Pub. Sch.
Comm., 315 F.3d 21, 26-27 [1st Cir. 2002]; M.S., 231
F.3d at 105; Schreiber v. East Ramapo Cent. Sch. Dist.,
2010 WL 1253698, at *19 [S.D.N.Y. Mar. 21, 2010];
W.S. v. Rye City Sch. Dist., 454 F. Supp. 2d 134, 138
[S.D.N.Y. 2006]; Pinn v. Harrison Cent. Sch. Dist., 473
F. Supp. 2d 477, 482-83 [S.D.N.Y. 2007]), parents are
not as strictly held to the standard of placement in the
LRE as are school districts (C.L., 2014 WL 928906, at
*8; see Carter, 510 U.S. at 14-15). The Circuit Courts
of Appeal have adopted varying tests to determine
whether unilateral residential placements are reimbursable under the IDEA (see, e.g., Richardson Indep.
Sch. Dist. v. Michael Z., 580 F.3d 286, 297-300, 298 n. 8
[5th Cir. 2009] [holding that a residential placement
must be essential for the student to receive meaningful
educational benefits and primarily oriented toward
enabling the student to receive an education]; Mary T.

259a
v. Sch. Dist., 575 F.3d 235, 242-44 [3d Cir. 2009] [holding that a residential placement must be necessary for
educational purposes as opposed to being a response to
medical or social/emotional problems segregable from
the learning process]; Dale M. v. Bd. of Educ., 237 F.3d
813, 817 [7th Cir. 2001] [holding that the services provided by the residential placement must be primarily
oriented toward enabling the student to obtain an
education, rather than noneducational activities]; see
also Munir v. Pottsville Area Sch. Dist., 723 F.3d 423,
432 [3d Cir. 2013]). However, it is not necessary to
select a particular test to employ in this case, as the
Second Circuit has reaffirmed that when evaluating a
unilateral parent placement in a residential setting,
the operative determination is the appropriateness of
the placement to meet the student’s educational needs,
not whether it was necessary to meet them (D. D-S. v.
Southhold Union Free Sch. Dist., 506 Fed. App’x 80, 82
[2d Cir. Dec. 26, 2012]; see Mrs. B., 103 F.3d at 1120-22;
see also Jefferson County Sch. Dist. R-1 v. Elizabeth E.,
702 F.3d 1227, 1238-39 [10th Cir. 2012] [holding that
the essential question is whether the residential
placement provides specially designed instruction and
related services to meet the student’s unique needs],
cert. denied 133 S. Ct. 2857 [June 24, 2013]; Indep. Sch.
Dist. No. 284 v. A.C., 258 F.3d 769, 775-77 [8th Cir.
2001] [holding that the relevant inquiry is not whether
the problems are themselves educational, but whether
the social/emotional problems prevent the student

260a
from receiving educational benefits and must be addressed in order for the student to learn]).11
In this instance, the guidance director opined that
the NPS’s “residential learning community” was good
for the student because of the “wealth of learning that
happens outside of class,” such as his ability to interact
with teachers until 10:30 p.m. and engage in extracurricular activities (Tr. pp. 443-44). The western civilization teacher testified that an overall benefit from
being at the NPS was that the student lived with staff
(Tr. p. 389). Because the teacher was a dorm parent,
he was available if the student had questions (Tr. pp.
389, 397). Both the guidance director and the western
civilization teacher testified that the student benefitted from additional “nonacademic” activities such as
soccer, whitewater rafting, and kayaking (Tr. pp. 39091, 443-44). Based upon his subjective observations,
the counselor “guess[ed]” that outdoor activities had
11

To the extent that some circuits have relied on regulatory
language providing that a residential program must be provided
only if “necessary to provide special education and related
services” (34 CFR 300.104; see Ashland Sch. Dist. v. Parents of
Student R.J., 588 F.3d 1004, 1009 [9th Cir. 2009]; Richardson,
580 F.3d at 299; Mary T., 575 F.3d at 244), I consider these cases
inapposite, as the regulation refers to the district’s obligation to
offer a FAPE (20 U.S.C. § 1412[a][1], [10][B]), not the remedies of
which parents may avail themselves once the district has failed
to meet its obligations (20 U.S.C. § 1412[a][10][C]; see Residential
Placement, 71 Fed. Reg. 46,581 [Aug. 16, 2006] [stating that 34
CFR 300.104 “applies to placements that are made by public
agencies in public and private institutions for educational
purposes and clarifies that parents are not required to bear the
costs of a public or private residential placement if such
placement is determined necessary to provide FAPE”]).

261a
helped create a psychologically safe setting for the
student (Tr. p. 671).
The private psychologist stated that the student’s
attitude toward school and his parents had positively
changed because of the change in environment moving
from the public school to the NPS (Tr. pp. 944, 949).
Specifically, that the student found the NPS to be
small, supportive, and allowing a great deal of physical
activity and freedom from both his parents and his
“imagination” of the expectations and dynamics at
home (Tr. pp. 944-45). The private psychologist opined
that factors specific to the NPS prompted those
changes, including being surrounded by “normal” peers,
the structure and teacher support provided, outdoor
activities as a means to thrive in a nonacademic area,
and “having his own space” and not feeling as if he was
being watched or doing something wrong (Tr. pp. 946,
966). He testified that the boarding aspect of the NPS
had helped the student feel more independent and
competent, moving him from “whatever subtle or not
so subtle family dynamics that may have been influencing the headaches” (Tr. p. 951). The private psychologist opined that the student would not have
received the same benefit from a day program, because
it would not address family “issues,” and the student
would still have to go home each night (Tr. pp. 951-52).
The parent testified that the residential component of the NPS helped the student become more
socially integrated because of the simplicity of the
environment and the presence of students around him
all the time (Tr. pp. 823, 850). She stated that the

262a
student’s ability to stay home when experiencing a
migraine was reinforcing, and to break the cycle of
migraines it was “educationally necessary” for the
student to be outside of the home in a “seamless”
environment without a distinction between home and
school (Tr. pp. 841-42).12 Additionally, the parent
testified that the structured routine of the NPS helped
the student “tremendously,” as did the proximity to
outdoor activities, weekend social activities, and
accessibility to staff (Tr. pp. 849-50, 852-54).
In this case, it is without question that during the
2012-13 school year, the student exhibited progress in
the sense that except when experiencing a migraine,
he attended classes consistently, achieved grades in
the “A-” to “C+” range, and demonstrated increased
maturity and ability to socially interact with peers
while attending the NPS (Tr. pp. 427-28, 430, 601-03,
616, 630-31; Dist. Exs. 18 at pp. 2, 6; 31 at p. 6; Parent
Exs. L at pp. 1-3; N; S at pp. 1-2).13 However, despite
12

Although the parents assert that the student required a
“seamless” environment in order to access his education, the
IDEA does not require that the district provide an ideal learning
environment. Rather, the IDEA requires that the district provide
a “basic floor of opportunity” which confers “some educational
benefit” upon the student (Rowley, 458 U.S. at 200-01), “not one
that provides everything that might be thought desirable by
loving parents” (Walczak, 142 F.3d at 132, quoting Tucker, 873
F.2d at 567; see R.C. v. Byram Hills Sch. Dist., 2012 WL 5862736,
at *15 [S.D.N.Y. Nov. 16, 2012]).
13
Despite the evidence in the hearing record that the
student made some progress at the NPS, the Second Circuit has
found that progress made in a unilateral placement, although
“relevant to the court’s review” of whether a private placement

263a
the accommodations and amenities described above
provided to the student at the NPS, the hearing record
does not contain evidence that the NPS provided the
student with specially designed instruction to meet his
ongoing need to develop insight and understanding
into what triggered his stress and anxiety, and positive
coping skills to address stress and decrease anxiety;
difficulties that the hearing record showed not only
contributed to the student’s tendency to develop
migraine headaches, but also to exhibit organizational
deficits and avoidance behaviors (Tr. pp. 997-1003,
1006-09, 1017-21, 1025-27, 1333-34; Dist. Exs. 17 at
p. 2; 18 at pp. 2, 6-7; 36 at pp. 1-2; 37 at pp. 1-2). In
September 2012, the parents informed the NPS of a
goal they identified for the student; that he “shall
understand and identify the factors leading to stress
and express such factors and feelings, rather than
internalizing and somatizing stress,” noting that the
goal would be achieved during continued meetings
with the counselor (Dist. Ex. 36 at p. 2). While the
student appears to have benefitted from the informal
was appropriate, is not sufficient in itself to determine that the
unilateral placement offered an appropriate education (Gagliardo,
489 F.3d at 115; see Frank G., 459 F.3d at 364 [holding that
although a student’s “[g]rades, test scores, and regular advancement [at a private placement] may constitute evidence that a
child is receiving educational benefit . . . courts assessing the
propriety of a unilateral placement consider the totality of the
circumstances in determining whether that placement reasonably serves a child’s individual needs”]; Lexington County Sch.
Dist. One v. Frazier, 2011 WL 4435690, at *11 [D.S.C. Sept. 22,
2011] [holding that “evidence of actual progress is also a relevant
factor to a determination of whether a parental placement was
reasonably calculated to confer some educational benefit”]).

264a
nature of his interactions with the NPS counselor, the
hearing record is devoid of information such as
counseling notes, progress reports toward goals, etc.,
showing how, if at all, these sessions addressed the
student’s need to develop insight and coping skills (Tr.
pp. 622-25; see Tr. pp. 1006-09; Dist. Ex. 18 at pp. 2,
6).14 The hearing record reflects that in June 2012, the
private psychiatrist recommended that the “supportive, informal counseling” provided by the NPS be
supplemented by a “more systematic psychotherapy
program” during the 2012-13 school year which, by
December 2012, the parents agreed was needed and
obtained from non-NPS personnel (Tr. pp. 838; Dist.
Ex. 38 at pp. 1-2). There is no evidence regarding if or
how private counseling addressed the student’s needs.
Similarly, the NPS report cards and interim progress updates show that although the student achieved
satisfactory grades during the 2012-13 school year, he
continued to exhibit organizational and motivational/
behavioral difficulties at times in his class (Dist. Ex. 37
at pp. 1-2; Parent Exs. I at pp. 1-2; J at pp. 1-2; K at
pp. 2-3, L at pp. 1-2; M at pp. 4, 7, 21, 26, 28, 32). In
September 2012, the parents informed the guidance
director and counselor of their belief that “getting [the
student] to focus on stronger organization skills and
14

In contrast, the hearing record included the private
psychologist’s session notes, which reflected the discussions the
student and the private psychologist had about the student’s
headaches, triggers, stress, family pressure and dynamics, and
benefits of self-awareness (Dist. Ex. 31 at pp. 5-6). The private
psychologist testified that he did not have any conversations with
the counselor during the 2012-13 school year (Tr. p. 983).

265a
keeping him ahead of due dates will both allow him
to do better in class, while avoiding a return of his
repeated migraines” (Dist. Ex. 36 at p. 1). The parents
provided the NPS with goals—that they had identified—which related to the student completing assignments in a timely manner, proofreading/perfecting/
augmenting analysis rather than turning in a first
draft, turning in homework on time, and maintaining
contemporaneous notebooks for each class to be reviewed with his teachers to ensure the sufficiency of
his notes (id. at pp. 1-2). Although obtained near the
conclusion of the 2012-13 school year, a recommendation from the student’s May 2013 district-funded
neuropsychological evaluation report further supports
the position that the student required “direct instruction with planning and organization of complex
assignments, time and task management, and with
social skills, particularly in the context of team projects” (Parent Ex. X at p. 7; see Tr. pp. 1291-92). Outside
of the accommodations provided to the student—which
as described above were available to most if not all
students at the NPS—the hearing record does not
include information about how the NPS addressed the
student’s needs identified by the parents in their
suggested goals, or how it otherwise provided specially
designed instruction to address the student’s organizational difficulties (Dist. Ex. 36 at pp. 1-2; Parent
Ex. D).
It is understandable why the parents selected a
placement such as the NPS, which offered the type of
environment that resulted in a decrease in the number

266a
of the student’s migraine headaches, and social and
academic progress. However, placing the student in
the NPS setting—which the hearing record did not
show provided the student with specially designed
instruction to address organizational needs, the need
to develop insight, and his underlying vulnerability
toward and lack of coping skills related to anxiety,
stress, and somatization—is not sufficient in this case
to meet the parents’ burden to establish that the NPS’s
program provided the student with educational instruction specially designed to meet his unique needs
(see Gagliardo, 489 F.3d at 113-15; Frank G., 459 F.3d
at 365; see also Rowley, 458 U.S. at 188-89; Application
of the Dep’t of Educ., Appeal No. 09-031; Application of
the Dep’t of Educ., Appeal No. 08-042; Application of
a Student Suspected of Having a Disability, Appeal
No. 08-023; Application of a Student with a Disability,
Appeal No. 08-021).15 Rather, it appears that the
student’s placement at the NPS provided him with “the
kind of educational and environmental advantages
and amenities that might be preferred by parents of
any child, disabled or not” (Gagliardo, 489 F.3d at
115).16 Consequently, I find that the parents did not
15

Per State regulation, specially-designed instruction means
“adapting, to the needs of an eligible student . . . the content,
methodology, or delivery of instruction to address the unique
needs that result from the student’s disability; and to ensure
access of the student to general curriculum, so that he or she can
meet the educational standards that apply to all students” (8
NYCRR 200.1[vv]).
16
While access to the recreational activities offered at the
NPS may have alleviated the student’s stress levels and in turn,
reduced the frequency of his migraine headaches, such activities

267a
establish that the NPS was an appropriate placement
for the student for the 2012-13 school year, and that
the IHO’s determination must be overturned.
VII. Conclusion
In summary, having found that district failed to
offer the student a FAPE for the 2012-13 school year
and that the parents failed to establish that the NPS
was an appropriate placement for the student, the
necessary inquiry is at an end and I need not reach
the issue of whether equitable considerations supported the parents’ claim for reimbursement (see M.C.
v. Voluntown Bd. of Educ., 226 F.3d 60, 66 [2d Cir.
2000]; D.D-S. v. Southold Union Free Sch. Dist., 2011
WL 3919040, at *13 [E.D.N.Y. Sept. 2, 2011]). I have
considered the parties’ remaining contentions and find
that it is not necessary to address them in light of my
determinations herein.
THE APPEAL IS SUSTAINED TO THE
EXTENT INDICATED.

do not themselves rise to the level of special education. In this
case it is clear that the NPS provided the student a small class
size and that appears have helped. However, the parties point to
no authority, and I have found none, that holds that small class
size alone constitutes special education within the meaning of the
IDEA (see Frank G. v. Board of Educ. of Hyde Park, 459 F.3d 356,
365 [2d Cir. 2006] [declining to determine whether small class
size alone constituted special education]), and I am not inclined
to extend such a rule under the totality of the factual circumstances presented in this case.

268a
IT IS ORDERED that the IHO’s decision dated
December 17, 2013 is modified, by reversing that
portion which found that the parents established
that the NPS was appropriate and awarded them
reimbursement for tuition and the costs of the
student’s 2012-13 attendance at the NPS.
Dated: Albany, New York
March 18, 2014
JUSTYN P. BATES
STATE REVIEW OFFICER

269a
[SEAL]
The University of the State of New York
The State Education Department
State Review Officer
www.sro.nysed.gov
No. 12-138
Application of a STUDENT WITH A
DISABILITY, by his parents, for review
of a determination of a hearing officer
relating to the provision of educational
services by the Board of Education of the
Hendrick Hudson Central School District
Appearances:
Thomas, Drohan, Waxman, Petigrow & Mayle, LLP,
attorneys for respondent, Daniel Petigrow, Esq., of
counsel
DECISION
I.

Introduction

This proceeding arises under the Individuals with
Disabilities Education Act (IDEA) (20 U.S.C. §§ 14001482) and Article 89 of the New York State Education
Law. Petitioners (the parents) appeal from the decision
of an impartial hearing officer (IHO) which denied
their request for compensatory education services for
their son for the 2010-11 school year and denied their
request for reimbursement of their son’s tuition costs
at a nonpublic residential school (NPS) for the 2011-12

270a
school year. Respondent (the district) cross-appeals
from the IHO’s determinations that it denied the
student a free appropriate public education (FAPE) for
the 2010-11 and 2011-12 school years, and that
equitable considerations supported the parents’ claim
for reimbursement for the costs of the student’s tuition
at the NPS for the 2011-12 school year. The appeal
must be dismissed. The cross-appeal must be sustained in part.
II.

Overview—Administrative Procedures

When a student in New York is eligible for special
education services, the IDEA calls for the creation of
an individualized education program (IEP), which is
delegated to a local Committee on Special Education
(CSE) that includes, but is not limited to, parents,
teachers, a school psychologist, and a district representative (Educ. Law § 4402; see 20 U.S.C. § 1414[d][1][A][B]; 34 CFR 300.320, 300.321; 8 NYCRR 200.3,
200.4[d][2]). If disputes occur between parents and
school districts, incorporated among the procedural
protections is the opportunity to engage in mediation,
present State complaints, and initiate an impartial
due process hearing (20 U.S.C. §§ 1221e-3, 1415[e]-[f ];
Educ. Law § 4404[1]; 34 CFR 300.151-300.152, 300.506,
300.511; 8 NYCRR 200.5[h]-[l]).
New York State has implemented a two-tiered
system of administrative review to address disputed
matters between parents and school districts regarding “any matter relating to the identification,

271a
evaluation or educational placement of a student with
a disability, or a student suspected of having a
disability, or the provision of a free appropriate public
education to such student” (8 NYCRR 200.5[i][1]; see
20 U.S.C. § 1415[b][6]-[7]; 34 CFR 300.503[a][1]-[2],
300.507[a][1]). First, after an opportunity to engage in
a resolution process, the parties appear at an impartial
hearing conducted at the local level before an IHO
(Educ. Law § 4404[1][a]; 8 NYCRR 200.5[ j]). An IHO
typically conducts a trial-type hearing regarding the
matters in dispute in which the parties have the right
to be accompanied and advised by counsel and certain
other individuals with special knowledge or training;
present evidence and confront, cross-examine, and
compel the attendance of witnesses; prohibit the
introduction of any evidence at the hearing that has
not been disclosed five business days before the hearing; and obtain a verbatim record of the proceeding (20
U.S.C. § 1415[f ][2][A], [h][1]-[3]; 34 CFR 300.512[a][1][4]; 8 NYCRR 200.5[ j][3][v], [vii], [xii]). The IHO must
render and transmit a final written decision in the
matter to the parties not later than 45 days after the
expiration period or adjusted period for the resolution
process (34 CFR 300.510[b][2], [c], 300.515[a]; 8 NYCRR
200.5[ j][5]). A party may seek a specific extension of
time of the 45-day timeline, which the IHO may grant
in accordance with State and federal regulations (34
CFR 300.515[c]; 8 NYCRR 200.5[ j][5]). The decision of
the IHO is binding upon both parties unless appealed
(Educ. Law § 4404[1]).

272a
A party aggrieved by the decision of an IHO may
subsequently appeal to a State Review Officer (SRO)
(Educ. Law § 4404[2]; see 20 U.S.C. § 1415[g][1]; 34
CFR 300.514[b][1]; 8 NYCRR 200.5[k]). The appealing
party or parties must identify the findings, conclusions,
and orders of the IHO with which they disagree and
indicate the relief that they would like the SRO to
grant (8 NYCRR 279.4). The opposing party is entitled
to respond to an appeal or cross-appeal in an answer
(8 NYCRR 279.5). The SRO conducts an impartial
review of the IHO’s findings, conclusions, and decision
and is required to examine the entire hearing record;
ensure that the procedures at the hearing were
consistent with the requirements of due process; seek
additional evidence if necessary; and render an independent decision based upon the hearing record (34
CFR 300.514[b][2]; 8 NYCRR 279.12[a]). The SRO must
ensure that a final decision is reached in the review
and that a copy of the decision is mailed to each of the
parties not later than 30 days after the receipt of a
request for a review, except that a party may seek a
specific extension of time of the 30-day timeline, which
the SRO may grant in accordance with State and
federal regulations (34 CFR 300.515[b], [c]; 8 NYCRR
200.5[k][2]).
III.

Facts and Procedural History

According to the hearing record, the student, who
was educated in district schools from the 2002-03
through 2010-11 school years, received diagnoses of a

273a
migraine headache disorder1 with associated features
of school related anxiety and dysthymia (see Tr. pp.
170, 174, 208-09, 348-49, 1632; Dist. Exs. 13; 30; 55 at
p. 1; Joint Exs. 6 at p. 2; 11 at p. 2; 39 at p. 6; 40 at p. 1;
50a at pp. 1-2; IHO Ex. IV at pp. 2, 4-5). At the time of
the impartial hearing, the student was attending the
NPS, which was a nonpublic residential school that has
not been approved by the Commissioner of Education
as a school with which school districts may contract to
instruct students with disabilities (Tr. pp. 1580, 182223; Dist. Exs. 51 at p. 1; 52 at p. 1; IHO Ex. V at p. 1;
see 8 NYCRR 200.1[d], 200.7).
After the student performed well academically
from elementary school through fifth grade, the parent
stated that the student first began experiencing
headaches in fall 2009, after which time they became
“progressively worse” (Tr. pp. 1632-36, 1639-40, 196061; Joint Exs. 4 at p. 1; 40 at p. 1; 68-70).2 In April
1

In April 2010, a pediatric neurologist reported his impression that the student had “a mixed headache disorder with a
combination of muscle contraction headaches with temporomandibular joint [TMJ] discomfort and migraine headaches” (Joint
Ex. 6 at p. 2; see Parent Ex. MM). The condition is interchangeably referred to as “headaches” and “migraines” throughout the
hearing record (see, e.g., Joint Exs. 1 at p. 1; 4 at p. 1; 6; 11 at p. 2;
21-23; 28). To maintain consistency, I use the term “headache”
throughout this decision.
2
The hearing record contains duplicative exhibits. For
purposes of this decision, only Parent exhibits or Joint exhibits
are cited in instances where multiple exhibits are identical. I
remind the impartial hearing officer that it is her responsibility
to exclude evidence that she determines to be irrelevant,
immaterial, unreliable, or unduly repetitious (see 8 NYCRR
200.5[ j][3][xii][c]).

274a
2010, the parent referred the student to the district’s
section 504 committee, which subsequently obtained a
psychoeducational evaluation of the student because of
his “debilitating headaches” (Tr. p. 1641; Dist. Exs. 1;
43; Joint Ex. 4 at pp. 1, 5).3
On June 14, 2010, the section 504 committee
convened and developed an accommodation plan for
the student’s 2010-11 school year which included,
among other things, extended time to complete assignments, both in class (1.5) and due to absences, access
to the school nurse as needed, access to class notes,
access to home tutoring, and testing accommodations
which included breaks as needed and a flexible setting
(Tr. pp. 1204-14; Joint Ex. 11; see Dist. Ex. 2; Joint Exs.
10; 12). The June 2010 accommodation plan noted the
parent’s concern that the student’s headaches were
affecting his educational performance, insofar as they
were causing the student’s “excessive absences” which
impeded his ability to complete assignments (Joint Ex.
11 at p. 2). However, the June 2010 accommodation
plan also referenced the results of a May 25, 2010
psychoeducational evaluation of the student, which
noted the student’s above average overall cognitive
functioning, generally average to above average standardized academic scores, generally average social/
emotional functioning, and overall description as a
“well-related student” (id.; see Joint Ex. 4).

3

“Section 504” refers to section 504 of the Rehabilitation Act
of 1973 (29 U.S.C. §§ 701-796[l] [1998]).

275a
On September 27, 2010, the student experienced
his first cycle of headaches during the 2010-11 school
year which, according to the hearing record, led to
numerous absences from school during the balance of
the 2010-11 school year and prompted the parents to
request that the district provide him with home instruction services on an as-needed basis (Tr. pp. 47175, 1887; Dist. Ex. 7; see Tr. pp. 263, 515-17, 519, 64950, 1250, 1271-72, 1274-77, 1307, 1328, 1354, 1395-96,
1657-59, 1666-72, 1675-76, 1887, 1906-12, 1914-15;
Dist. Exs. 9-10; 12; 16; 18; 34; 50 at p. 1; Parent Exs. T
at p. 1; U; W; X at p. 1; Y; YY at p. 1; Joint Exs. 25 at
p. 1; 67 at pp. 2, 7; 70). The hearing record also reflects
that from November 2010 through April 2011, the
parents obtained private medical evaluations of the
student, in order to ascertain the cause of and provide
treatment for the student’s headaches (Dist. Ex. 13;
Joint Exs. 21-22; 38; see Dist. Ex. 30).
In February 2011, the student and his parents
visited the NPS, after which the parents requested
that the district forward student’s educational records
to the school (Tr. p. 1915; Joint Exs. 20; 20a). In March
2011, the parents submitted an application to the
school and the student was accepted to attend the NPS
for the 2011-12 school year (Tr. pp. 1810, 1919-20; Dist.
Exs. 51-53; Parent Ex. II). On April 11, 2011, the
parents signed an enrollment contract reserving the

276a
student’s seat at the school for the 2011-12 school year
(Tr. pp. 1924-25; Parent Ex. B).4
On April 12, 2011 the parents requested an
“emergency” section 504 committee review meeting,
and also referred the student to the CSE (Tr. p. 1927;
Dist. Ex. 17; Joint Exs. 28; 32-33; see Tr. pp. 1343-44).
On April 15, 2011 the section 504 committee convened
and added weekly, in-school individual counseling
services to the student’s accommodation plan, and,
pursuant to the parents’ request, also recommended
conducting a psychiatric evaluation of the student (Tr.
pp. 488-505, 1691-98, 1928, 1973-75; Joint Ex. 35 at
p. 2 see Joint Ex. 34). On April 22, 2011, the student
again visited the NPS (Tr. pp. 1922-25; see Dist. Ex. 54
at p. 2).
On May 25, 2011, the CSE convened to determine
the student’s was eligibility for special education and
related services (Joint Exs. 42, 45; see Dist. Ex. 30 at
p. 1) and concluded that, due to the lack of psychiatric
and “hospital” evaluation reports, it was unable to
determine whether the student was eligible, and it
decided to adjourn without classifying the student,
pending receipt and review of those reports and the
results of an independent psychiatric evaluation of
the student (Tr. pp. 149-52, 506-08, 658-63, 825, 829,

4

The enrollment contract contained in the hearing record
bears a handwritten notation “Dep 2,500” which suggests that the
parents remitted a $2,500 deposit at the time they signed the
enrollment contract (Parent Ex. B; see also Dist. Ex. 53).

277a
1950-52; Dist. Exs. 22; 25).5 According to the hearing
record, the student’s frequent absences from school
continued throughout the remainder of the 2010-11
school year and, by the end of June 2011, the student
had missed in excess of 100 school days (Tr. p. 263; see
Tr. pp. 1250, 1675-76; Joint Exs. 50b; 67).
During summer 2011, due to headaches he
allegedly suffered on June 1, 2011 and July 19, 2011,
the student was unable to participate in an in-person
psychiatric evaluation with an independent psychiatrist as had been agreed to during the May 2011 CSE
meeting;6 however, the student was able to attend a
private residential summer camp, which focused on
outdoor activities, for four weeks, during which his
mother reported that the student was “doing exceptionally well” (Tr. pp. 1030, 1033-34; 1717-18, 1721-23,
1796-97, 1952-54; Dist. Ex. 30; Joint Exs. 21 at p. 1; 49
at p. 1). In July 2011, the parent, the independent
psychiatrist, and the district’s director of pupil
personnel services (director) met and decided that the
district would accept information furnished by the
5

The hearing record indicates that on May 5, 2011, an
independent psychiatrist prepared a psychiatric consultation
report which did not include an in-person assessment of the
student, and that the May 2011 CSE reviewed this consultation
report at the CSE meeting (Tr. pp. 506-07; Joint Ex. 43).
6
The hearing record also indicates that the student had been
unable to attend a previous psychiatric evaluation, scheduled for
May 5, 2011, which had been requested by the student’s mother
at the April 2011 section 504 committee meeting, also allegedly
due to a headache (Tr. pp. 1691, 1695-96, 1698-1703; Joint Ex. 58
at p. 2).

278a
private professionals who were working with the
student in lieu of an in-person psychiatric evaluation,
and would reconvene the CSE (Tr. pp. 154, 158-64). In
August 2011, the district received letters from a
different private psychiatrist who had conducted an
initial consultation with the student on May 18, 2011
and had begun “active neuropsychiatric treatment” of
the student, from the student’s pediatrician, and from
the student’s private psychologist, who had met with
the student on five occasions from May 2011 through
the end of July 2011 (Joint Exs. 50-51a).
On August 26, 2011, the CSE convened again
(Dist. Ex. 30 at p. 1; Joint Exs. 48 at p. 1; 52-53). In
attendance were the director, a special education teacher,
a general education teacher, a school psychologist, and
the student’s mother (Dist. Ex. 52; Joint Ex. 53 at p. 1).
The August 2011 CSE determined that the student
was eligible for special education programs and related
services as a student with another health-impairment,
and recommended, among other things, a special
education program consisting of an 8:1+1 special class;
related services consisting of counseling, twice per
week for 30 minutes per session in a 1:1 setting;
program modifications consisting of access to class
notes, additional time for assignments, and nursing
services as needed; and testing accommodations
consisting of flexible setting and extended time (1.5) on
tests (Joint Ex. 53 at pp. 1-2, 8-9). According to the
hearing record, the August 2011 CSE considered recommending placement of the student in the district’s
high school, but ultimately rejected this option because

279a
it determined that the environment would not have
provided adequate support for the student; however,
“[g]iven his need for counseling, therapeutic supports
throughout the day, and opportunities for both
academic rigor and socialization with students without
disabilities, the CSE recommended referral to [s]pecial
[c]lass programs with counseling as a related service,”
and discussed “expedited referral to two BOCES programs offered at public schools with temporary home
instruction placement pending acceptance by one of
these programs” (Dist. Ex. 30; IHO Ex. V at p. 2).7 In
the interim, the CSE discussed the student receiving
home instruction during the referral process, but the
hearing record reflects that the student’s mother declined the CSE’s proposal for interim home instruction
and verbally informed the district that the student
would be attending the NPS for the 2011-12 school
year and “expressed that the IEP was good to have in
case [the NPS] doesn’t work out for [the student]” (Tr.
pp. 1740-41; Dist. Ex. 30; Joint Ex. 55 at p. 1).
By letter dated August 31, 2011, the parents
informed the district that they were withdrawing the
student from public school, enrolling him at the NPS
for the 2011-12 school year and, because the district
had allegedly denied the student a FAPE, would be
seeking reimbursement for the costs of the student’s
tuition at public expense (Joint Ex. 54). In September
2011, the student began the 2011-12 school year at the
7

Although not defined in the hearing record, it is sufficiently
clear that “BOCES” refers to “Board of Cooperative Educational
Services.”

280a
NPS (Parent Ex. NN; see Tr. p. 1632; Parent Exs. OOPP; TT).
In a letter dated October 3, 2011, the director
requested parental consent to refer the student to two
BOCES programs in order to “complete the CSE
process” and finalize the “draft” IEP that had been
developed at the August 2011 CSE meeting (Joint Ex.
55; see Joint Ex. 53 at p. 1). On October 17, 2011, the
student’s mother provided her consent and on November 2, 2011, the district sent referral packets to two
BOCES programs that it determined were potential
placements for the student for the 2011-12 school year
(Tr. pp. 196-203; Joint Exs. 56-60). On November 21,
2011, and November 30, 2011, the parents visited the
BOCES programs contacted by the district and, in a
December 6, 2011 letter to the director, described their
concerns as to why they felt that both BOCES
programs were inappropriate for the student (Joint
Ex. 63).
A. Due Process Complaint Notice
In an amended due process complaint notice dated
January 25, 2012, the parents alleged that the district
violated section 504 and failed to offer the student with
a FAPE during the 2010-11 and 2011-12 school years
(IHO Ex. IV). Specifically, relative to the 2010-11
school year, the parents alleged that the district
violated its child find obligation by failing to refer the
student for evaluation by the CSE prior to their
referral of the student in April 2011, and that the

281a
district failed to provide the student with home-based
instruction and counseling services, thereby denying
the student a FAPE (id. at pp. 7-12). As a remedy for
the district’s alleged failure to offer the student a
FAPE for the 2010-11 school year, the parents sought
an award of compensatory education and counseling
services (id. at p. 26).
Relative to the 2011-12 school year, the parents
alleged that the district violated its child find obligation by failing to timely evaluate and classify the
student, and that after the CSE did classify the student, the district failed to produce an appropriate IEP
for the student prior to the start of the 2011-12 school
year (IHO Ex. IV at pp. 17-20). The parents also
asserted that the August 2011 CSE was improperly
constituted, lacking an additional parent member, and
that the August 2011 draft IEP contained deficient
annual goals for the student that were “not individualized” (id. at pp. 18, 20). In addition, the parents
alleged that the student’s unilateral placement at the
NPS was appropriate for the 2011-12 school year
because it provided the student with a “therapeutic”
environment, an appropriate student-teacher ratio,
and counseling services, and that equitable considerations weighed in favor of the parents’ request for relief
(id. at pp. 21-23). As relief for the 2011-12 school year,
the parents requested reimbursement for the costs of
the student’s tuition at the NPS (id. at p. 26).8

8

The parents also asserted that the district violated the
student’s right of confidentiality under the IDEA and the Family

282a
B. Impartial Hearing Officer Decision
After a prehearing conference held on January 20,
2012, an impartial hearing was convened on February
2, 2012 and concluded on April 2, 2012 after nine days
of proceedings (Tr. pp. 1-2069).
On June 21, 2012, the IHO issued a “second
corrected” decision9 addressing the merits of the
parents’ claims relative to the 2010-11 and 2011-12
school years (IHO Decision).10 Relative to the 2010-11
school year, the IHO found, among other things, that
Educational Rights and Privacy Act (IHO Ex. IV at pp. 23-24; see
20 U.S.C. § 1232g); these claims are not presented for review on
appeal. On January 30, 2012, the IHO issued an interim order
noting that complaints regarding a breach of the district’s duty to
enforce the confidentiality provisions are beyond the scope of an
impartial hearing but directing the district to take all necessary
steps to protect the confidentiality of the student’s personally
identifiable information (IHO Ex. IX). Neither party appealed
this interim decision.
9
The “second corrected” decision indicates that IHO issued
her original decision on May 30, 2012 but, due to computer
formatting errors, issued a “corrected” decision on June 1, 2012
and, for reasons not indicated in the “corrected” decision or the
hear ing record, issued a “second corrected” decision on June 21,
2012; however, review of each version of the IHO’s final decision
indicates that the IHO’s substantive analysis, reasoning, and
findings are the same in all three decisions. For clarity in this
decision, I reference the pagination as reflected in the most recent
version, the IHO’s June 21, 2012 decision, as the “IHO decision”
at issue in the appeal at bar.
10
The IHO is encouraged to consecutively paginate her
written decisions. In referencing her decision, this decision cites
to the text of the decision as beginning on page 4, omitting to
number the cover page and the blank page after hearing
appearances.

283a
the district violated its child find obligations by failing
to refer the student to the CSE and thereby denied the
student a FAPE (id. at pp. 24-28, 40-41). Specifically,
the IHO determined that, by January 3, 2011, the
district possessed sufficient information to suspect that
the student may have been a student with a disability
and, therefore, may have been in need of special
education programs and related services, but failed to
evaluate and classify the student (IHO Decision at pp.
24-26). The IHO also found that the information
contained in the hearing record indicated that the
student met the criteria for classification as a student
with an other health-impairment and therefore was
eligible to receive special education programs and
related services from the district during the 2010-11
school year (id. at p. 27). The IHO found that “the
student was certainly entitled to receive counseling
from the beginning of January 2011, when the district
should have referred the student for evaluation and
developed the student’s IEP” and awarded the parents
reimbursement for privately obtained counseling
services, and also awarded the student an additional
15 hours of compensatory counseling services; however, the IHO denied the parents’ request for 200 hours
of compensatory home instruction, concluding that
“the parent has not offered evidence that the student
is in need of academic remediation,” and finding that
“the student’s lower grades were due to his failure to
turn in work on time and organization issues” (id. at
pp. 28, 41; see Joint Ex. 51). The IHO also dismissed
the parents’ section 504 claims applicable to the

284a
student’s 2010-11 school year (IHO Decision at pp. 4041).
With regard to the 2011-12 school year, the IHO
found, among other things, that the district violated its
child find obligation by failing to timely evaluate the
student and failing to have an appropriate IEP in place
for him at the start of the 2011-12 school year, and
therefore denied the student a FAPE (IHO Decision at
pp. 29-32, 41). Specifically, the IHO determined that
the district failed to evaluate the student within 60
school days after receipt of parental consent in contravention of State regulations, and that this failure
denied the student a FAPE for the 2011-12 school year
(id. at pp. 29-30). The IHO also found that both the
May 2011 and August 2011 CSEs were improperly
constituted in that neither included an additional
parent member, but that these deficiencies did not
impede the student’s right to a FAPE (id. at pp. 30-31).
However, the IHO also concluded that the hearing
record lacked evidence establishing that either CSE
included a special education teacher who was familiar
with the student or had experience with the types of
programs being considered for the student, or a regular
education teacher familiar with the student, and that
these deficiencies, taken together, “caused a loss of educational benefit, impacted adversely on the parent’s
participation and compromised the development of an
appropriate IEP” (id. at pp. 31-32). The IHO also found
that the district failed to timely offer the student a
specific public school placement for the 2011-12 school
year, constituting a denial of a FAPE (id. at p. 32).

285a
However, the IHO next found that the parents did
not satisfy their burden of proving that the NPS was
an appropriate placement for the student for the 201112 school year, because they failed to establish that
the school “provided educational instruction specially
designed to meet the student’s unique educational
needs during the 2011-12 school year” (IHO Decision
at pp. 32-39). Specifically, the IHO noted that the
school did not have a psychologist or psychiatrist on
staff, and concluded that the hearing record lacked
evidence demonstrating that the NPS addressed any
of the student’s underlying social/emotional or
counseling needs, or his needs relating to organization
issues and study skills, or that the school provided
the student with instruction or services specifically
designed to meet his unique special education needs
(id. at p. 39).
Additionally, although noting that consideration of
equitable considerations was not required in this case
in light of her finding that the NPS was not an
appropriate unilateral placement for the student, the
IHO nevertheless determined that the parents “fully
co-operated with the [d]istrict and the CSE process”
and actively participated in the CSE meetings, and
that while “the [hearing] record supports the finding
that the parents hoped that the student could go to the
NPS [they] were open to a recommendation from the
[d]istrict” (IHO Decision at p. 39).
Although the IHO denied their request for tuition
reimbursement for the costs of the student’s attendance at the NPS for the 2011-12 school year, the IHO
nevertheless ordered the district to reimburse the

286a
parents for evaluative and diagnostic expenses incurred in connection with the preparation of an August
11, 2011 psychiatric evaluation of the student, which
was reviewed by the August 2011 CSE (IHO Decision
at pp. 28, 41).
IV.

Appeal for State-Level Review

The parents appeal from the IHO decision and
argue, among other things, that the student was entitled to an award of compensatory education services
for the district’s failure to provide him with a FAPE for
the 2010-11 school year, and that they were entitled to
reimbursement of the costs of their son’s tuition at the
NPS for the 2011-12 school year.11
11

In the petition, the parents argue that the NPS was an
appropriate placement for the student for the 2011-12 school year;
they set forth their remaining arguments—that equitable
considerations supported their claims and that that the IHO
erred in finding that the student was not entitled to compensatory
education services for the 2010-11 school year—in their memorandum of law. These latter two arguments are not properly
raised insofar as a memorandum of law may not be used as a
substitute for a pleading under State regulations (8 NYCRR
279.4, 279.6; Application of the Dep’t of Educ., Appeal No. 11-147;
Application of the Bd. of Educ., Appeal No. 11- 142; Application of
a Student with a Disability, Appeal Nos. 11-059 & 11-061;
Application of the Bd. of Educ., Appeal No. 10-122; Application of
the Dep’t of Educ., Appeal No. 09-051; Application of a Student
Suspected of Having a Disability, Appeal No. 08-100; Application
of a Student with a Disability, Appeal No. 08-053; Application of
a Student with a Disability, Appeal No. 08-003; Application of a
Child with a Dis ability, Appeal No. 07-139; Application of the Bd.
of Educ., Appeal No. 07-121; Application of a Child with a
Disability, Appeal No. 07-113; Application of a Child with a

287a
In its answer, the district asserts, among other
things,12 that the hearing record supports the IHO’s
finding that the NPS was not an appropriate placement for the student for the 2011-12 school year and
that the IHO properly denied the parents’ request for
tuition reimbursement. The district also cross-appeals
the portions of the IHO’s decision which found that,
relative to the 2010-11 school year, the district violated
its child find obligations because it possessed sufficient
information to reasonably suspect that the student
may have been a student with a disability and therefore may have been in need of special education
programs and related services and that, relative to the
2011-12 school year, the district failed to timely
develop an appropriate IEP for the student’s 2011-12
Disability, Appeal No. 07-112; Application of a Child with a
Disability, Appeal No. 06-096; Application of the Bd. of Educ.,
Appeal No. 05-031). Accordingly, for the reasons stated below,
the IHO’s decision on these issues is final and binding on the
parents.
12
The district also alleges in its answer that the parents
impermissibly stated their allegations in footnotes in their
petition, rather than in numbered paragraphs as required under
State regulations (8 NYCRR 279.8[a][3]).
Documents not
comporting with the form requirements of the Regulations of the
Commissioner governing practice before the Office of State
Review may be rejected in the sole discretion of an SRO (8
NYCRR 279.8[a]). In this case, the parents did use extensive footnotes in their petition; however, in the exercise of my discretion,
I do not find that the parents, who have appeared pro se in this
matter, have inflicted any undue prejudice upon the district by
impeding its ability to respond or that it is necessary to reject or
not consider the petition on that ground. I do, however, remind
the parents to comply with the form requirements in the future
(see 8 NYCRR 279.8[a][5]).

288a
school year and that equitable considerations favored
the parents’ request for reimbursement. The district
seeks dismissal of the parents’ petition and reversal of
the portions of the IHO’s decision that were adverse to
the district. The parents answer the district’s crossappeal, generally realleging the claims raised in their
petition and denying the claims raised by the district.
V.

Applicable Standards

Two purposes of the IDEA (20 U.S.C. §§ 14001482) are (1) to ensure that students with disabilities
have available to them a FAPE that emphasizes
special education and related services designed to
meet their unique needs and prepare them for further
education, employment, and independent living; and
(2) to ensure that the rights of students with disabilities and parents of such students are protected (20
U.S.C. § 1400[d][1][A]-[B]; see generally Forest Grove
Sch. Dist. v. T.A., 557 U.S. 230, 239 [2009]; Bd. of Educ.
v. Rowley, 458 U.S. 176, 206-07 [1982]).
A FAPE is offered to a student when (a) the board
of education complies with the procedural requirements set forth in the IDEA, and (b) the IEP developed
by its CSE through the IDEA’s procedures is
reasonably calculated to enable the student to receive
educational benefits (Rowley, 458 U.S. at 206-07; R.E.
v. New York City Dep’t. of Educ., 694 F.3d 167, 189-90
[2d Cir. 2012]; M.H. v. New York City Dep’t of Educ.,
685 F.3d 217, 245 [2d Cir. 2012]; Cerra v. Pawling
Cent. Sch. Dist., 427 F.3d 186, 192 [2d Cir. 2005]).

289a
“ ‘[A]dequate compliance with the procedures prescribed would in most cases assure much if not all of
what Congress wished in the way of substantive content in an IEP’ ” (Walczak v. Florida Union Free Sch.
Dist., 142 F.3d 119, 129 [2d Cir. 1998], quoting Rowley,
458 U.S. at 206; see T.P. v. Mamaroneck Union Free
Sch. Dist., 554 F.3d 247, 253 [2d Cir. 2009]). While the
Second Circuit has emphasized that school districts
must comply with the checklist of procedures for developing a student’s IEP and indicated that “[m]ultiple
procedural violations may cumulatively result in the
denial of a FAPE even if the violations considered
individually do not” (R.E., 694 F.3d at 190-91), the
Court has also explained that not all procedural errors
render an IEP legally inadequate under the IDEA
(M.H., 685 F.3d at 245; A.C. v. Bd. of Educ., 553 F.3d
165, 172 [2d Cir. 2009]; Grim v. Rhinebeck Cent. Sch.
Dist., 346 F.3d 377, 381 [2d Cir. 2003]; Perricelli v.
Carmel Cent. Sch. Dist., 2007 WL 465211, at *10
[S.D.N.Y. Feb. 9, 2007]). Under the IDEA, if procedural
violations are alleged, an administrative officer may
find that a student did not receive a FAPE only if the
procedural inadequacies (a) impeded the student’s
right to a FAPE, (b) significantly impeded the parents’
opportunity to participate in the decision-making process regarding the provision of a FAPE to the student,
or (c) caused a deprivation of educational benefits (20
U.S.C. § 1415[f ][3][E][ii]; 34 CFR 300.513[a][2]; 8
NYCRR 200.5[ j][4][ii]; Winkelman v. Parma City Sch.
Dist., 550 U.S. 516, 525-26 [2007]; R.E., 694 F.3d at 190;
M.H., 685 F.3d at 245; A.H. v. Dep’t of Educ., 394 Fed.
App’x 718, 720, 2010 WL 3242234 [2d Cir. Aug. 16,

290a
2010]; E.H. v. Bd. of Educ., 2008 WL 3930028, at *7
[N.D.N.Y. Aug. 21, 2008], aff ’d, 361 Fed. App’x 156,
2009 WL 3326627 [2d Cir. Oct. 16, 2009]; Matrejek v.
Brewster Cent. Sch. Dist., 471 F. Supp. 2d 415, 419
[S.D.N.Y. 2007], aff ’d, 293 Fed. App’x 20, 2008 WL
3852180 [2d Cir. Aug. 19, 2008]).
The IDEA directs that, in general, an IHO’s
decision must be made on substantive grounds based
on a determination of whether the student received a
FAPE (20 U.S.C. § 1415[f ][3][E][i]). A school district
offers a FAPE “by providing personalized instruction
with sufficient support services to permit the child to
benefit educationally from that instruction” (Rowley,
458 U.S. at 203). However, the “IDEA does not itself
articulate any specific level of educational benefits that
must be provided through an IEP” (Walczak, 142 F.3d
at 130; see Rowley, 458 U.S. at 189). The statute ensures an “appropriate” education, “not one that provides everything that might be thought desirable by
loving parents” (Walczak, 142 F.3d at 132, quoting
Tucker v. Bay Shore Union Free Sch. Dist., 873 F.2d
563, 567 [2d Cir. 1989] [citations omitted]; see Grim,
346 F.3d at 379). Additionally, school districts are not
required to “maximize” the potential of students with
disabilities (Rowley, 458 U.S. at 189, 199; Grim, 346
F.3d at 379; Walczak, 142 F.3d at 132). Nonetheless, a
school district must provide “an IEP that is ‘likely to
produce progress, not regression,’ and . . . affords the
student with an opportunity greater than mere
‘trivial advancement’ ” (Cerra, 427 F.3d at 195, quoting
Walczak, 142 F.3d at 130 [citations omitted]; see T.P.,

291a
554 F.3d at 254; P. v. Newington Bd. of Educ., 546 F.3d
111, 118-19 [2d Cir. 2008]; Perricelli, 2007 WL 465211,
at *15). The IEP must be “reasonably calculated to
provide some ‘meaningful’ benefit” (Mrs. B. v. Milford
Bd. of Educ., 103 F.3d 1114, 1120 [2d Cir. 1997]; see
Rowley, 458 U.S. at 192). The student’s recommended
program must also be provided in the least restrictive
environment (LRE) (20 U.S.C. § 1412[a][5][A]; 34 CFR
300.114[a][2][i], 300.116[a][2]; 8 NYCRR 200.1[cc],
200.6[a][1]; see Newington, 546 F.3d at 114; Gagliardo
v. Arlington Cent. Sch. Dist., 489 F.3d 105, 108 [2d Cir.
2007]; Walczak, 142 F.3d at 132; G.B. v. Tuxedo Union
Free Sch. Dist., 751 F. Supp. 2d 552, 573-80 [S.D.N.Y.
2010], aff ’d, 486 Fed. App’x 954, 2012 WL 4946429 [2d
Cir. Oct. 18, 2012]; E.G. v. City Sch. Dist. of New
Rochelle, 606 F. Supp. 2d 384, 388 [S.D.N.Y. 2009];
Patskin v. Bd. of Educ., 583 F. Supp. 2d 422, 428
[W.D.N.Y. 2008]).
An appropriate educational program begins with
an IEP that includes a statement of the student’s
present levels of academic achievement and functional
performance (see 34 CFR 300.320[a][1]; 8 NYCRR
200.4[d][2][i]; Tarlowe v. New York City Bd. of Educ.,
2008 WL 2736027, at *6 [S.D.N.Y. July 3, 2008] [noting
that a CSE must consider, among other things, the
“results of the initial evaluation or most recent
evaluation” of the student, as well as the “‘academic,
developmental, and functional needs’“ of the student]),
establishes annual goals designed to meet the student’s needs resulting from the student’s disability and
enable him or her to make progress in the general

292a
education curriculum (see 34 CFR 300.320[a][2][i],
[2][i][A]; 8 NYCRR 200.4[d][2][iii]), and provides for
the use of appropriate special education services (see
34 CFR 300.320[a][4]; 8 NYCRR 200.4[d][2][v]; see also
Application of the Dep’t of Educ., Appeal No. 07-018;
Application of a Child with a Disability, Appeal No. 06059; Application of the Dep’t of Educ., Appeal No. 06029; Application of a Child with a Disability, Appeal
No. 04-046; Application of a Child with a Disability,
Appeal No. 02-014; Application of a Child with a Dis
ability, Appeal No. 01-095; Application of a Child
Suspected of Having a Disability, Appeal No. 93-9).
A board of education may be required to reimburse
parents for their expenditures for private educational
services obtained for a student by his or her parents, if
the services offered by the board of education were
inadequate or inappropriate, the services selected by
the parents were appropriate, and equitable considerations support the parents’ claim (Florence County
Sch. Dist. Four v. Carter, 510 U.S. 7 [1993]; Sch. Comm.
of Burlington v. Dep’t of Educ., 471 U.S. 359, 369-70
[1985]; R.E., 694 F.3d at 184-85; T.P., 554 F.3d at 252).
In Burlington, the Court found that Congress intended
retroactive reimbursement to parents by school officials as an available remedy in a proper case under the
IDEA (471 U.S. at 370-71; see Gagliardo, 489 F.3d at
111; Cerra, 427 F.3d at 192). “Reimbursement merely
requires [a district] to belatedly pay expenses that it
should have paid all along and would have borne in
the first instance” had it offered the student a FAPE

293a
(Burlington, 471 U.S. at 370-71; see 20 U.S.C.
§ 1412[a][10][C][ii]; 34 CFR 300.148).
The burden of proof is on the school district during
an impartial hearing, except that a parent seeking
tuition reimbursement for a unilateral placement has
the burden of proof regarding the appropriateness of
such placement (Educ. Law § 4404[1][c]; see R.E., 694
F.3d at 184-85; M.P.G. v. New York City Dep’t of Educ.,
2010 WL 3398256, at *7 [S.D.N.Y. Aug. 27, 2010]).
VI.

Discussion
A. Scope of Impartial Hearing

A party requesting an impartial hearing may not
raise issues at the impartial hearing that were not raised
in its original due process complaint notice unless the
other party agrees (20 U.S.C. § 1415[f ][3][B]; 34 CFR
300.508[d][3][i], 300.511[d]; 8 NYCRR 200.5[ j][1][ii])
or the original due process complaint is amended prior
to the impartial hearing per permission given by the
IHO at least five days prior to the impartial hearing
(20 U.S.C. § 1415[c][2][E][I][II]; 34 CFR 300.508[d][3][ii];
8 NYCRR 200.5[i][7][b]). Additionally, although an
IHO has the authority to ask questions of counsel or
witnesses for the purposes of clarification or completeness of the hearing record (8 NYCRR 200.5[ j][3][vii]),
it is impermissible for the IHO to raise issues that
were not presented by the parties to the hearing and
then base his or her determination on the issues raised
sua sponte.

294a
In this case, the IHO found that both the May 2011
and the August 2011 CSEs were improperly constituted because they both lacked an additional parent
member, but that these deficiencies, standing alone,
did not rise to the level of denying the student of a
FAPE (IHO Decision at pp. 30-31). Additionally, the
IHO also found that both the May 2011 and August
2011 CSEs lacked “an appropriately qualified special
education teacher” who “was remotely familiar with
the student or had any experience in the types of
programs under consideration for the student,” and a
regular education teacher “who was familiar with the
student,” and concluded that these deficiencies, taken
together, denied the student a FAPE” for the 2011-12
school year (id. at pp. 31-32). Although the parents
amended their due process complaint notice to interpose a claim regarding CSE composition, they alleged
in that claim only that the August 2011 CSE was
improperly constituted because it lacked an additional
parent member; the amended due process complaint
notice is bereft of any allegations regarding the composition of the May 2011 CSE or the regular education or
special education teachers who participated in either
the May 2011 or August 2011 CSE meetings, and it
cannot reasonably be read to include such allegations
(see IHO Ex. IV).13 Moreover, there is no indication in
13

Assuming for the sake of argument that the parents
properly asserted this argument in their petition, although the
parent testified during the impartial hearing that she “would
have benefited” from the presence of an additional parent member
and that the presence of an additional parent member “would
have been helpful” during both CSE meetings (Tr. pp. 1707-08,
1725-26, 1946-48), she also testified that she neither requested

295a
the hearing record that the parents requested, or that
the IHO authorized, a further amendment to the due
process complaint notice to include these additional
issues. Nor is there any evidence that the district
agreed to expand the scope of the impartial hearing to
cover these new issues.14 Thus, the IHO should have
adjournments of the CSE meetings nor raised any concerns with
the district after the CSE meetings regarding the absence of an
additional parent member (Tr. pp. 1948-49), and there is no
evidence in the hearing record that this technical violation
impeded the student’s right to a FAPE, significantly impeded the
parents’ meaningful participation in the CSE process, or caused
a deprivation of educational benefits in this case (see Tr. pp. 1627,
1630-31; 20 U.S.C. § 1415[f ][3][E][ii]; 34 CFR 300.513[a][2]; 8
NYCRR 200.5[ j][4][ii]; A.H., 2010 WL 3242234, at *2; Application
of a Student with a Disability, Appeal No. 12-047; Application of
the Dep’t of Educ., Appeal No. 10-070).
14
To the extent that the Second Circuit recently held that
issues not included in a due process complaint notice may be ruled
on by an administrative hearing officer when the district “opens
the door” to such issues with the purpose of defeating a claim that
was raised in the due process complaint notice (M.H., 685 F.3d at
250-51; see D.B. v. New York City Dep’t of Educ., 2013 WL
4437247, at *6-*7 [S.D.N.Y. Aug. 19, 2013]; N.K., 2013 WL
4436528, at *5-*7; A.M. v. New York City Dep’t of Educ., 2013 WL
4056216, at *9-*10 [S.D.N.Y. Aug. 9, 2013]; J.C.S., 2013 WL
3975942, at *9; B.M., 2013 WL 1972144, at *5-*6), I note that
reference at the impartial hearing to the composition of the May
2011 CSE was initially made by the parents during direct
examination of the student’s mother (see Tr. pp. 1705-08, 172526); counsel for the district cross-examined the student’s mother
on this issue only after it was raised by the parents (see Tr. pp.
1946-49). The district did not argue that the composition of the
May 2011 CSE was adequate to enable the parent to meaningfully
participate in the CSE process in response to a claim properly
raised in the parents’ amended due process complaint notice and,
therefore, I find that the district did not “open the door” to this
issue under the holding of M.H..

296a
confined her determination to the issues raised in the
parents’ January 25, 2012 amended due process complaint notice and it was not necessary to issue findings
on these issues (see 20 U.S.C. § 1415[c][2]; [f ][3][B];
34 CFR 300.508[b], [d][3]; 300.511[d]; 8 NYCRR
200.5[i][1][iv], [i][7]; [ j][1][ii]; N.K. v. New York City
Dep’t of Educ., 2013 WL 4436528, at *5-*7 [S.D.N.Y.
Aug. 13, 2013]; J.C.S. v. Blind Brook-Rye Union Free
Sch. Dist., 2013 WL 3975942, at *8-*9 [S.D.N.Y. Aug. 5,
2013]; B.M. v. New York City Dep’t of Educ., 2013 WL
1972144, at *6 [S.D.N.Y. May 14, 2013]; C.H. v. Goshen
Cent. Sch. Dist., 2013 WL 1285387, at *9 [S.D.N.Y. Mar.
28, 2013]; B.P. v. New York City Dep’t of Educ., 841
F. Supp. 2d 605, 611 [E.D.N.Y. 2012]; M.R. v. S. Orangetown Cent. Sch. Dist., 2011 WL 6307563, at *12-*13
[S.D.N.Y. Dec. 16, 2011]; C.F. v. New York City Dep’t of
Educ., 2011 WL 5130101, at *12 [S.D.N.Y. Oct. 28, 2011];
C.D. v. Bedford Cent. Sch. Dist., 2011 WL 4914722, at
*13 [S.D.N.Y. Sept. 22, 2011]; R.B. v. Dep’t of Educ.,
2011 WL 4375694, at *6-*7 [S.D.N.Y. Sept. 16, 2011];
M.P.G., 2010 WL 3398256, at *8). The IHO must disclose his or her intention to reach an issue which the
parties have not raised as a matter of basic fairness
and due process of law (see John M. v. Bd. of Educ., 502
F.3d 708 [7th Cir. 2007]). Although an IHO has the
authority to ask questions of counsel or witnesses for
the purposes of clarification or completeness of the
hearing record (8 NYCRR 200.5[ j][3][vii]), or even inquire as to whether the parties agree that an issue
should be addressed, it is impermissible for the IHO to
simply expand the scope of the issues raised without
the express consent of the parties and then base his or
her determination on those issues (see Dep’t of Educ.

297a
v. C.B., 2012 WL 220517, at *7-*8 [D. Haw. Jan. 24,
2012] [finding that the administrative hearing officer
improperly considered an issue beyond the scope of the
parents’ due process complaint notice]).
B. Scope of Review—Jurisdictional and
Finality Provisions
I note that, relative to the 2010-11 school year, the
parties cannot properly raise the IHO’s dismissal of
the parents’ Section 504 claims,15 nor do they appeal or
cross-appeal the relief of reimbursement for sessions
with the student’s clinical psychologist and 15 hours of
compensatory counseling services for the student.
Additionally, relative to the 2011-12 school year, the
parties do not appeal or cross-appeal the IHO’s directive to reimburse the parents for expenses incurred in
connection with the preparation of the August 11, 2011
psychiatric evaluation (IHO Decision at pp. 28, 40-41).
An IHO decision is final and binding upon the parties
unless appealed to an SRO (34 CFR 300.514[a]; 8
15

There is no basis for appealing the section 504 issues to
this forum as the New York State Education Law makes no
provision for State-level administrative review of IHO decisions
in section 504 hearings and an SRO does not review section 504
claims (see A.M. v. NYC Dep’t of Educ., 2012 WL 120052, at *7
n.17 [E.D.N.Y. Jan. 17, 2012]; Application of a Student Suspected
of Having a Disability, Appeal No. 12-014; Application of the Bd.
of Educ., Appeal No. 11-122; Application of a Student with a
Disability, Appeal No. 11-098; see also Educ. Law § 4404[2]).
Consequently, to the extent that the parents allege section 504
claims against the district in their answer to the district’s crossappeal (see Answer ¶¶ 56-57), I decline to consider them, insofar
as they are not properly before me.

298a
NYCRR 200.5[j][5][v]). Consequently, I am without
authority to review these findings and they will not be
further addressed in this decision.
C. 2010-11 School Year
1. Child Find
I will next consider the district’s cross-appeal
alleging that the IHO erred when she determined that
the district violated its child find obligations by not
referring the student to the district’s CSE and thereby,
denied the student a FAPE. The purposes of the “child
find” provisions of the IDEA are to identify, locate, and
evaluate students who are suspected of being a student
with a disability and thereby may be in need of special
education and related services, but for whom no determination of eligibility as a student with a disability
has been made (see Handberry v. Thompson, 446 F.3d
335, 347-48 [2d Cir. 2006]; E.T. v. Bd. of Educ., 2012 WL
5936537, at *11 [S.D.N.Y. Nov. 26, 2012]; A.P. v. Woodstock Bd. of Educ., 572 F.Supp.2d 221, 225 [D. Conn.
2008], aff ’d, 2010 WL 1049297 [2d Cir. March 23, 2010];
see also 20 U.S.C. § 1412[a][3][A]; 34 CFR 300.111; 8
NYCRR 200.2[a][7]). The IDEA places an affirmative
duty on State and local educational agencies to identify, locate, and evaluate all children with disabilities
residing in the State “to ensure that they receive
needed special education services,” and courts have
interpreted the child find obligation as “distinct from
the requirement of [a school district] to provide [a]
FAPE to its residents” (20 U.S.C. § 1412[a][3]; 34 CFR

299a
300.111[a][1][i]; Forest Grove, 557 U.S. at 245; E.T., 2012
WL 5936537, at *11; see 20 U.S.C. § 1412[a][10][A][ii];
see also 8 NYCRR 200.2[a][7]; New Paltz Cent. Sch.
Dist. v. St. Pierre, 307 F. Supp. 2d 394, 400 n.13
[N.D.N.Y. 2004]). The “child find” requirements apply
to “children who are suspected of being a child with a
disability . . . and in need of special education, even
though they are advancing from grade to grade” (34
CFR 300.111[c][1]; see 8 NYCRR 200.2[a][7]; D.K. v.
Abington Sch. Dist., 696 F.3d 233, 249 [3d Cir. 2012];
J.S. v. Scarsdale Union Free Sch. Dist., 826 F. Supp.
2d 635, 660 [S.D.N.Y. Nov. 18, 2011]). To satisfy the
requirements, a board of education must have procedures in place that will enable it to find such children
(Application of a Student Suspected of Having a
Disability, Appeal No. 10-009; Application of a Student
Suspected of Having a Disability, Appeal No. 09-132;
Application of a Child with a Disability, Appeal No. 07062; Application of a Child Suspected of Having a
Disability, Appeal No. 05-090; Application of a Child
with a Disability, Appeal No. 04-054; Application of a
Child Suspected of Having a Disability, Appeal No. 01082; Application of a Child with a Disability, Appeal
No. 93-41).
Because the child find obligation is an affirmative
one, the IDEA does not require parents to request that
the district evaluate their child (Application of a Child
Suspected of Having a Disability, Appeal No. 05-127;
Application of a Child Suspected of Having a Disability, Appeal No. 05-040; Application of a Child with
a Disability, Appeal No. 03-043; Application of a Child

300a
Suspected of Having a Disability, Appeal No. 01-082).
A district’s child find duty is triggered when there is
“reason to suspect a disability and reason to suspect
that special education services may be needed to address that disability” (J.S., 826 F. Supp. 2d at 660; New
Paltz, 307 F. Supp. 2d at 400 n.13, quoting Dep’t of
Educ. v. Cari Rae S., 158 F. Supp. 2d 1190, 1194 [D.
Haw. 2001]; see Application of a Student Suspected of
Having a Disability, Appeal No. 10-128; Application of
a Child Suspected of Having a Disability, Appeal No.
06-092; Application of a Child Suspected of Having a
Disability, Appeal No. 06-087; Application of a Child
Suspected of Having a Disability, Appeal No. 05-127;
Application of a Child Suspected of Having a Dis
ability, Appeal No. 05-040; Application of a Child
Suspected of Having a Disability, Appeal No. 04-087;
Application of the Bd. of Educ., Appeal No. 04-037;
Application of a Child with a Disability, Appeal No. 03043; Application of a Child with a Disability, Appeal
No. 02-092; Application of a Child Suspected of Having
a Disability, Appeal No. 01-082). To determine that a
child find violation has occurred, school officials must
have overlooked clear signs of disability and been
negligent by failing to order testing, or have no rational
justification for deciding not to evaluate (A.P., 572
F.Supp.2d at 225, citing Bd. of Educ. v. L.M., 478 F.3d
307, 313 [6th Cir. 2007]). States are encouraged to
develop “effective teaching strategies and positive
behavioral interventions to prevent over-identification
and to assist students without an automatic default to
special education” (Los Angeles Unified Sch. Dist. v.
D.L., 548 F.Supp.2d 815, 819 [C.D.Cal. 2008], citing 20

301a
U.S.C. § 1400[c][5]). Additionally, the school district
must initiate a referral and promptly request parental
consent to evaluate a student to determine the student
needs special education services and programs if a
student has not made adequate progress after an
appropriate period of time when provided instruction
in a school district’s response to intervention programs
(8 NYCRR 200.4[a]).
In this case, the issue presented is not whether the
district had procedures in place but whether, upon the
facts presented, the student should have been referred
to the CSE prior to April 2011 because there was reason to suspect a disability and reason to suspect that
special education services may be needed to address
that disability. The IHO found that “[i]n early December 2010, the student’s mother reached out to [the
school psychologist] for counseling and the possibility
of other interventions. Even in the face of conflicting
signals from the parents, the [d]istrict should have
heeded the mother’s initial call for help and if was not
clear what the parent wanted, under the circumstances of such excessive [student] absenteeism, the
[d]istrict had the obligation to find out,” and added
that, “[b]y January 3[, 2011] the [d]istrict had sufficient information to suspect that the student had a
disability and to trigger its child find obligation,” and
that “the existing [May 25, 2010 d]istrict psychoeducational evaluation coupled with the student’s
continued absences should have put the [d]istrict on
notice that the student might be a student with a
disability” prior to the parents’ referral of the student

302a
to the CSE in April 2011 (IHO Decision at pp. 25-26;
see Dist. Ex. 5; Joint Ex. 4). However, a student’s failure to perform in school because of absence from school
does not by itself constitute a basis to suspect that the
student has a disability (Application of a Child with a
Disability, Appeal No. 01-082; Application of a Child
Suspected of Having a Handicapping Condition,
Appeal No. 91-33). On cross-appeal, the district
argues that notwithstanding his absences, the student
achieved academically during the 2010-11 school year
and was performing at expected proficiency levels.
The hearing record reflects that throughout winter 2010 and into spring 2011, the parents and district
personnel were in frequent communication about the
student’s numerous absences from school and his
difficulty completing classwork (see, e.g., Tr. pp. 471-75,
1674; Dist. Exs. 6; 7 at p. 2; 9-10; 12; 15; Parent Exs.
T-V; X-Y; Joint Exs. 15-17; 19; 23-27). Included among
these communications was an early December 2010
telephone call from the student’s mother to the school
psychologist, regarding which she testified that she
“noted that I was very concerned about [the student],
he had missed all of November and had constant
migraines and there was a cycle and I asked [the school
psychologist] if there were any services available that
he could recommend . . . or any school-based counseling or any other interventions he could think of ” (Tr.
pp. 1677-78). Although the student’s mother characterized the school psychologist’s response as “very
dismissive,” the hearing record reflects that the
school psychologist recommended “private relaxation

303a
counseling,” which he explained was based upon the
facts that there had existed “a pattern of [the student]
resisting going to school,” oppositional behavior toward
the parents over that issue, a “long history of the
somatization16 and at that point nobody is saying it’s a
real crisis . . . the teachers in school [were] saying
socially and emotionally he wasn’t presenting as in
crisis,” and that the school psychologist “thought that
the primary issue resided at home in relationships and
that [because of ] the oppositional behavior and the
somatization I thought the best recommendation was
to suggest to the parents [that] they begin private
therapy for him” (Tr. pp. 838, 1678-79; see Tr. p. 810).
Moreover, the hearing record establishes that shortly
after this telephone conversation, the student’s mother
withdrew her request that the school psychologist meet
with her son, noting that “[a]ctually, when he does not
have his migraines, he seems happy and well adjusted,
so I don’t think the talk is necessary,” and further
stated that “it’s probably best to hold off, given that
[the student] may feel singled out and really just wants
to maintain normalcy” (Dist. Ex. 6; Parent Ex. W).
The evidence also shows that the student’s
mother requested and received a meeting with the
district at the end of December 2010 with the student’s
16

The school psychologist defined “somatization” as “[p]hysical complaints, complaints of being ill” (Tr. p. 716; see Joint Ex. 4
at p. 4). The director defined “somatization” as “a clinical term
that would refer to the physical manifestation of illness prompted
by something other than physical, something mental and/or
emotional in basis” (Tr. p. 425).

304a
teachers,17 during which his teachers “noted they
would keep providing the accommodations on the
[Section] 504 plan . . . and keep E-mailing assignments
and be[ing] flexible,” and the hearing record reflects
that the student’s teachers did, in fact, work within the
parameters of the student’s June 2010 Section 504
accommodation plan with both the student and his
mother to enable the student to catch up on his classwork despite his protracted absences by, among other
things, forwarding him class assignments, quizzes, and
tests for completion at home, and affording him extra
time to complete assignments; these accommodations
prompted the student’s mother to note that “[m]y only
consolation through all of this is how wonderful you
and the teachers have been. It means a lot, so thank
you for your caring and understanding” and that “[h]is
teachers have been very supportive and helpful and I
know this is frustrating and difficult for them also” (Tr.
pp. 1204-14, 1679-80, 1683; Dist. Exs. 7 at p. 1; 46 at
pp. 1-2; 47 at pp. 1-2; 48 at p. 1; 49; 50 at p. 1; Parent
Exs. T at p. 1; V; X-Y; Joint Exs. 11; 17 at p. 1; 19; 23).
The hearing record also indicates that on January 3,
2011, the student’s mother cancelled a section 504
committee program review meeting, scheduled for
January 5, 2011, in part because “I think we have
everything in place. Our main goal is to keep away the
headaches so [the student] can attend school. [The
student] had a great break with no headaches and is
17

The student’s mother testified that she did not inform the
district that the student had been seen by a private psychiatrist
on December 22, 2010 (Tr. pp. 1938-39).

305a
in a good frame of mind,” and added that “I still
anticipate that he will struggle with the headaches,
but his teachers understand the issues” (Dist. Ex. 7;
Joint Exs. 16; 18; but see Tr. pp. 1681-83).
One of the student’s counselors, who worked with
him in his district placement from the start of the
2010-11 school year until December 1, 2010, explained
the process that the district followed for providing
home instruction and tutoring to those students
medically unable to attend school for protracted time
periods and described the additional supports in place
to further assist them (Tr. pp. 1176-79). She further
testified that from September through November 2010,
she was “assisting [the student] at this time [by] providing homework [and] sending it home” and during
November 2010, “[t]here [was] communication between myself and [the student’s mother] about the
tutoring” and that “my understanding was that he
needed his medical condition to be resolved so that he
could come back to school” (Tr. pp. 1240-41). The student’s pediatric neurologist reported that the student
“does have accommodations in school, which are
helping at least to mitigate some of the problems with
missing school,” (Parent Ex. YY at pp. 64-65; see Tr. pp.
1519-21), and the student’s private psychologist
testified that when the student was physically present
in school, “he would function well in the school setting,”
and that “[m]y understanding was because he is not a
student with a learning disability and he is not a student with significant social deficits, that he functions
fairly well in school” (Tr. p. 1117). The student’s

306a
counselor testified that “[w]hen he was in school, [the
student] was engaged . . . I saw [the student] playing
and he seemed to really enjoy . . . flag football on the
soccer field” and also served during the 2010-11 school
year as a “peer mediator,” assisting to resolve interpersonal conflicts between other students (Tr. pp. 1218,
1237-39). The student’s mother testified that, as late
as February 2011, despite his missing a few days of
school per week due to headaches, the student “would
make a real effort . . . [h]e would be excited to go to
school, he actually wanted to do the work” (Tr. pp. 1912,
1914).
Furthermore, the hearing record indicates that
the student responded to the academic interventions
provided by the district and was making progress
within the general curriculum despite his absences.
The student’s 2010-11 report card reflects that he
achieved first quarter grades as follows: A- in English,
B+ in “enriched” English, A- in social studies, 93 in
integrated algebra, 87 in “Lv” Environment, 80 in
French, A+ in gym, and A- in orchestra (Joint Ex. 70).
His English and enriched English teachers described
the student as “a pleasure to have in class,” his social
studies teacher commended his “good effort,” and his
integrated algebra teacher noted that the student was
“[m]aking good progress” and “seems to be current
despite absences” (id.). During the second quarter,
according to his report card, the student achieved the
following grades: 78 in integrated algebra, 90 in Lv
Environment, A- in enriched art, A+ in gym, and A- in
orchestra; the student received “medicals” in English,

307a
social studies, and French, which, according to the
hearing record, signified that “no grade will be given”
(id.; Parent Ex. CC). During the second quarter, the
student’s integrated algebra teacher noted that he was
“[o]utstanding when in class,” his French teacher
indicated that he did “[g]ood work when present,” and
his enriched art teacher commented “[g]ood effort.
Actively participates in class discussions and projects.
Assignments meet or exceed project requirements”
(Joint Ex. 70). The student received medicals for all
classes during third quarter, although his French
teacher noted “[g]ood classwork when present;” during
fourth quarter, the student received an A in social
studies (as well as for a final subject grade), scored an
82 on his June 2011 integrated algebra Regents examination (and an 85 final subject grade), and received
medicals for the balance of his subjects (id.; see Tr.
pp. 1685-91; Dist. Ex. 32; Parent Exs. CC-GG). The
hearing record indicates that it was during the third
quarter—when the frequency of the student’s absences
began to compromise his ability to achieve academically—that the student was ultimately referred to the
CSE for evaluation as a student suspected of having a
disability and potentially eligible to receive special
education and related services (see Dist. Exs. 32-33;
Joint Ex. 39). The hearing record also reflects that the
student achieved a scaled score of 680, equivalent to
the State-designated performance level 3 (proficient),
on the May 2011 administration of the State English
Language Arts (ELA) examination (Tr. pp. 420-21;
Dist. Ex. 32; see “New York State Testing Program
Grades 3-8 English Language Arts Tests School

308a
Administrator’s Manual [2011 Edition], available at
http://www.p12.nysed.gov/assessment/sam/ela/archive/
elaei-sam-11.pdf). Additionally, in June 2011, the student achieved a score of 82 on the Regents Integrated
Algebra examination (Dist. Ex. 32).
The student’s English teacher during the 2010-11
school year, when providing the student with a
reference for his the NPS application, stated that the
student “could be among very top of my students, but
due to his absences, he has not accumulated enough
grades to demonstrate this” (Dist. Ex. 51 at p. 2). When
describing his social/emotional functioning, she commented that the student “is a level-headed and controlled adolescent. His behavior is appropriate at all
times,” and stated that his character could be relied
upon “[a]lways” (id.). She also indicated that the student “has a passion for reading that is unique,”
possessed an “exceptional” intellectual curiosity and
desire for learning, and, in comparison to his same age
peers, rated the student as an “excellent” person and
an “outstanding” student (id.). She also added that
“[s]ince September [2010], [the student] has distinguished himself as a young man with impressive
abilities—to write thoughtfully, to soak up sophisticated vocabulary, and to read voraciously,” and that
“[w]hile [the student] has not been a consistent physical presence in class due to his absences, [his] ability
to seamlessly return to class, his classmates, and whatever task is currently at hand has been impressive” (id.
at p. 3). In addition to noting the student’s “upbeat
mood” and “sharp intellect,” the student’s English

309a
teacher also indicated that “enough cannot be said of
his ability to write clearly and cohesively, and far above
the range of the typical [eighth] grader” (id.). In his
reference on behalf of the student to the NPS, the
student’s 2010-11 integrated algebra teacher noted
that the student placed in the upper half of his honorslevel algebra class, characterized the student as “very
cooperative,” possessing “outstanding” character, and
as “excellent” person and student (Dist. Ex. 52 at
p. 2). He also described the student as a “strong,
hardworking student,” and observed that, “[o]ften
working on his own, he has reached a high level of
conceptualization on the topics covered thus far” (id.
at p. 3). He also characterized the student as “a young
person of outstanding integrity and compassion” who
“can always be counted on to be on task and working
until the job is done” and “is also willing to help those
in need of assistance in the class” (id.).
Based upon the evidence contained in the hearing
record as discussed above, I find that despite the
student’s recurring headaches and resulting absences
during the 2010-11 school year, the hearing record
supports a finding that the even if the district had
reason to suspect that the student had a disability, the
district had no reason to suspect that the student
required special education to address such disability
prior to April 2011 because the student progressed
very well in the general education curriculum with the
accommodations provided by the district in its June
2010 section 504 plan (Tr. pp. 1117, 1218, 1519-21;
Dist. Exs. 32; 51 at pp. 2-3; 52 at pp. 2-3; Parent Ex. YY

310a
at pp. 64-65; Joint Ex. 70; see D.K., 696 F.3d at 252;
J.S., 826 F. Supp. 2d at 662-63; A.P., 572 F. Supp. 2d at
225-26).
Nor do I concur with the IHO’s finding that the
contents of the May 25, 2010 psychoeducational
evaluation report (Joint Ex. 4) gave the district reason
to suspect that the student required special education
services in order to address a disability. This report,
which was generated during the course of the section
504 committee’s evaluation of the student following
the parents’ referral in April 2010, indicated no history
of academic difficulties and no current intervention
services, and noted that the student’s current grades
for seventh grade were “mostly [on] an upward trend
over the course of the year” (Tr. pp. 700, 703; Joint Ex.
4 at p. 1). Behaviorally, the evaluating school psychologist noted that: the student spoke intelligibly, used
age-appropriate vocabulary, and exhibited no difficulty
following directions; displayed consistent attention to
task and demonstrated no difficulty initiating, shifting,
or maintaining attention and concentration during
the evaluation; possessed adequate gross motor skills
and appropriate posture, pencil grip, and legible handwriting, but demonstrated relatively weaker fine
motor skills; and displayed no unusual behaviors or
language during the evaluation (id. at p. 2).
On the Woodcock-Johnson III Tests of Cognitive
Abilities (WJ-III COG), the report indicated that the
student achieved a general intellectual ability standard score of 121, placing him in the 92nd percentile
and in the above average range in comparison to same

311a
age peers (Joint Ex. 4 at p. 2). Specifically, the student’s WJ-III COG results indicated, among other
things, that relative to language, the student possessed
age appropriate vocabulary, was consistent in following directions, exhibited “strong potential” on formal
language tests, achieved above average scores in his
awareness of word usage and vocabulary, demonstrated strong potential for abstract thinking, and,
relative to his above average range skills for simple
auditory processing and phonemic awareness, the
school psychologist characterized the student’s performance as “impressive” (id.). The student exhibited
average to above average attention on tasks requiring
attention and concentration (id.). He showed average
skills relative to short-term auditory recall and
auditory working memory, and high average long term
memory when presented with new verbal and visual
information (id.). The student also exhibited above
average reasoning skills when presented with verbal
information and achieved “well above the average
range” on conceptual tasks involving visual information, while demonstrating “excellent potential for
abstract and conceptual thinking skills” (id. at pp. 2-3).
Test results in the visual-spatial area suggested average skills in identifying components of geometric figures and processing speed for visual fine motor tasks,
and although he demonstrated an “unevenly developed” ability to process visual information quickly and
efficiently, the school psychologist noted that the test
results were not suggestive of any visual-spatial
deficits (id. at p. 3).

312a
The student’s scores on administration of the
Woodcock-Johnson III Tests of Achievement (WJ-III
ACH), used to assess the student’s academic functioning, fell in the low average to above average range
across multiple domains (Joint Ex. 4 at p. 3). His broad
reading standard score of 109 placed him in the 72nd
percentile, within the average range for his age, displayed adequate decoding skills and sight-word
vocabulary, was sufficiently effective in reading simple
sentences for meaning within time limits, and exhibited high average comprehension of longer reading
passages; in summary, the evaluating school psychologist concluded that “[g]rade level reading material
should be manageable for [the student]” (id.). In math,
the student achieved a standard score of 113, in the
80th percentile, which placed him in the high average
range for his age (id.). Although the student experienced some difficulty processing simple math under
time limits, he exhibited above average calculation
skills, good accuracy, albeit at a slow pace, was “highly
successful in completing word problems,” made effective use of scrap paper, and appeared to be efficient
when negotiating multiple step problems (id.). Relative to written language, the student achieved a
standard score of 125, placing him in the 95th percentile and in the above average range for his age (id.
at p. 4). The student exhibited average spelling skills
and written expression skills that were assessed as
well above average, and the evaluating school psychologist noted that the student proved “highly effective in
creating well-constructed meaningful sentences under

313a
time pressure” with sufficiently legible handwriting
(id.).
Relative to the student’s social/emotional functioning, the school psychologist characterized the student as “pleasant and cooperative,” and “soft-spoken
throughout the evaluation, but appropriately related
and emotionally stable” (Joint Ex. 4 at p. 4). The
student and two of his teachers supplied information
during administration of the Behavior Assessment
System for Children-Second Edition (BASC-2), and,
according to the report, on the teachers’ information
produced scores in the average range, with the
exception of somatization; on the student’s form, two
areas produced scores in the “at risk” range—relations
to parents, which the school psychologist noted “is
reflective of the difficult communication patterns that
often exist between parents and young teenagers,” and
attitude toward school, which suggested that the
student felt bored and disliked school (id.; see Tr. pp.
709-20; Dist. Exs. 5a-c).
In summary, the school psychologist described the
student as: intellectually, possessing above average
intellectual potential, with strong language and conceptual thinking skills, and relatively weak fine motor
skills; possessing academic skills ranging from low
average (fluency tasks involving numbers) to average
(reading comprehension) to above average (mathematics and written expression); and socially/
emotionally, although presenting “a high level of
physical complaints during academics . . . a negative
attitude about school and mild oppositional behavior

314a
at home,” the student exhibited “no serious socialemotional concerns . . . at this time” and noted that
“[a]ll other areas of social-emotional functioning are
reported to be average for his age” (Joint Ex. 4 at p. 5;
see Tr. pp. 703-07). The school psychologist recommended, among other things, that “[t]eachers’ input
about daily functioning and behavior will be essential
in determining the impact of [the student’s] headaches”
and that the student’s [a]ttitude toward school and
oppositional behavior should be monitored for possible
intervention” (id.).
In summary, based upon the evidence contained in
the hearing record discussed above,18 most notably the
18

In addition to the evidence described above, I note that the
hearing record indicates that, prior to the parents’ referral of the
student to the CSE in April 2011, the parent indicated that in
March 2011, she provided the school nurse at the student’s public
school with a copy of a physician’s report, dated March 6, 2011,
from a headache specialist (Tr. pp. 1933-35; Joint Ex. 22). A
review of the physician’s report indicates that, although the
student confirmed that “stress” triggered his headaches, the
student also denied experiencing anxiety, depression, panic
attacks, suicidal ideation, irritability, or mood swings, and the
March 6, 2011 physician’s report did not otherwise suggest a
psychological component to the student’s difficulties (Joint Ex. 22
at pp. 2-3). The physician’s recommendations contained in the
March 6, 2011 report, such as scheduling an MRI of the brain,
completing of laboratory examinations, and prescribing various
medications to alleviate the onset of impending headaches, were
medical in nature and did not suggest the existence of a disability
requiring special education programs and related services (see id.
at p. 5). I also note that the hearing record contains a neurological report documenting a November 22, 2010 “consultation for
headaches” which indicated that there “may be stress and
exercise precipitants” for the student’s headaches, but described

315a
accommodations already provided to the student by
the district under its section 504 plan to address his
headaches, the student’s level of academic performance,
and the results of the May 25, 2010 psychoeducational
evaluation of the student conducted by the district, I
find that the hearing record does not support the IHO’s
finding that the district had sufficient reason to believe
that the student had a disability requiring special
education and related services prior to the parents’
referral of the student to the CSE for evaluation in
April 2011 (J.S., 826 F. Supp. 2d at 662). In light of my
determination, I will reverse the IHO’s finding that the
district violated its child find obligations for the 201011 school year.
2. Compensatory
Services

Home

Instruction

Next I will address the parents’ appeal from the
IHO’s denial of their claim for 200 hours of
the student as “pleasant, conversational, and in no distress,”
noted that he exhibited no changes in behavior or attention
problems, no focal weaknesses, sensory changes, or seizures,
appeared “alert and interactive,” and demonstrated age appropriate vocabulary, attention, and concentration (Joint Ex. 21),
and a February 3, 2011 physician’s report relative to a January
31, 2011 evaluation of the student for Lyme disease which noted
the student’s history of headaches, described him as alert and
oriented, and included among its recommendations laboratory
examinations, antibiotics, and dietary modifications (Dist. Ex.
13). After careful review of these physician’s reports, however, I
find that their content was also insufficient to have placed the
district on notice that the student had a disability requiring
special education programs and related services.

316a
compensatory home instruction for the student for the
2010-11 school year and the district’s cross-appeal
from the IHO’s finding that the district denied the
student a FAPE for a part of the 2010-11 school year.
Compensatory education is an equitable remedy
that is tailored to meet the unique circumstances of
each case and may be awarded to a student with a
disability who no longer meets the eligibility criteria
for receiving instruction under the IDEA (Wenger v.
Canastota, 979 F. Supp. 147, 151 [N.D.N.Y. 1997]; see
20 U.S.C. §§ 1401[3], 1412[a][1][B]; Educ. Law §§ 3202[1],
4401[1], 4402[5]). In New York State, a student who is
otherwise eligible as a student with a disability may
continue to obtain services under the IDEA until he or
she receives either a local or Regents high school diploma (34 CFR 300.102[a][3][i]; 8 NYCRR 100.5[b][7][iii]),
or until the conclusion of the ten-month school year in
which he or she turns age 21 (Educ. Law §§ 3202[1],
4401[1], 4402[5][b]; 8 NYCRR 100.9[e], 200.1[zz]; see
34 CFR 300.102[a][1], [a][3][ii]). Within the Second
Circuit, compensatory education has been awarded to
students who are ineligible by reason of age or graduation if there has been a gross violation of the IDEA
resulting in the denial of, or exclusion from, educational services for a substantial period of time (see
French v. New York State Dep’t of Educ., 2011 WL
5222856, at *2-*3 [2d Cir. Nov. 3, 2011]; Somoza v. New
York City Dep’t of Educ., 538 F.3d 106, 109 n.2, 113 n.6
[2d Cir. 2008]; Mrs. C. v. Wheaton, 916 F.2d 69 [2d Cir.
1990]; Burr v. Ambach, 863 F.2d 1071 [2d Cir. 1988];
Cosgrove v. Bd. of Educ., 175 F. Supp. 2d 375, 387

317a
[N.D.N.Y. 2001]; Application of a Child with a Disability, Appeal No. 03-078).
Compensatory relief may also be awarded to a
student with a disability who remains eligible for
instruction under the IDEA (see 20 U.S.C. §§ 1401[3],
1412[a][1][B]; Educ. Law §§ 3202[1], 4401[1], 4402[5]).
Within the Second Circuit, compensatory relief in the
form of supplemental special education or related
services has been awarded to such students if there
has been a denial of a FAPE (see Newington, 546 F.3d
at 123 [stating that the “IDEA allows a hearing officer
to fashion an appropriate remedy, and . . . compensatory education is an available option under the Act to
make up for denial of a” FAPE]; Student X. v. New York
City Dep’t of Educ., 2008 WL 4890440, at *23 [E.D.N.Y.
Oct. 30, 2008] [finding that compensatory education
may be awarded to students under the age of twentyone]; see generally R.C. v. Bd of Educ., 108 LRP 49659,
[S.D.N.Y. March 6, 2008], adopted at 50 IDELR 225
[July 7, 2008]). Likewise, SROs have awarded
compensatory “additional services” to students who
remain eligible under the IDEA and have been denied
appropriate services, if such deprivation of instruction could be remedied through the provision of
additional services before the student becomes
ineligible for services under the IDEA by reason of age
or graduation (Bd. of Educ. v. Munoz, 16 A.D.3d 1142
[4th Dep’t 2005] [finding it proper for an SRO to order
a school district to provide “make-up services” to a
student upon the school district’s failure to provide
those educational services to the student during home

318a
instruction]; see, e.g., Application of the Dep’t of Educ.,
Appeal No. 11-132; Application of a Student with a
Disability, Appeal No. 11-091.
The purpose of an award of additional services is
to provide an appropriate remedy for a denial of a
FAPE (see Newington, 546 F.3d at 123 [holding that
compensatory education is a remedy designed to “make
up for” a denial of a FAPE]; see also Reid v. Dist. of
Columbia, 401 F.3d 516, 524 [DC Cir. 2005] [holding
that, in fashioning an appropriate compensatory education remedy, “the inquiry must be fact-specific, and
to accomplish IDEA’s purposes, the ultimate award
must be reasonably calculated to provide the educational benefits that likely would have accrued from
special education services the school district should
have supplied in the first place”]; Parents of Student
W. v. Puyallup Sch. Dist., 31 F.3d 1489, 1497 [9th Cir.
1994] [holding that “(a)ppropriate relief is relief designed to ensure that the student is appropriately educated within the meaning of the IDEA”]; Application of
the Dep’t of Educ., Appeal No. 11-075; Application of a
Student with a Disability, Appeal No. 10-052).
Accordingly, an award of additional services should
aim to place the student in the position he or she would
have been in had the district complied with its
obligations under the IDEA (see Newington, 546 F.3d
at 123 [holding that compensatory education awards
should be designed so as to “appropriately address[ ]
the problems with the IEP”]; see also Draper v. Atlanta
Indep. Sch. Sys., 518 F.3d 1275, 1289 [11th Cir. 2008]
[holding that “(c)ompensatory awards should place

319a
children in the position they would have been in but
for the violation of the Act”]; Bd. of Educ. v. L.M., 478
F.3d 307, 316 [6th Cir. 2007] [holding that “a flexible
approach, rather than a rote hour-by-hour compensation award, is more likely to address (the student’s)
educational problems successfully”]; Reid, 401 F.3d at
518, 525 [holding that compensatory education is a
“replacement of educational services the child should
have received in the first place” and that compensatory
education awards “should aim to place disabled
children in the same position they would have occupied
but for the school district’s violations of IDEA”];
Puyallup, 31 F.3d at 1497 [“There is no obligation to
provide a day-for day compensation for time missed”];
Application of the Dep’t of Educ., Appeal No. 11-132;
Application of a Student with a Disability, Appeal No.
11-091).
For a student not previously identified as having a
disability, the district must arrange for the appropriate
special education programs and services to be provided
within 60 school days of the receipt of consent to
evaluate (8 NYCRR 200.4[d]). In this case, the IHO
determined that the district denied the student a
FAPE for “a portion of the 2010-11 school year” because
of its “failure to classify the student or provide him
with services in the required time frame”—ostensibly
60 school days from the date that the district should
have evaluated the student—which, according to the
IHO, would have been approximately January 3, 2011

320a
(IHO Decision at pp. 27, 40-41).19 However, the IHO
also denied the parents’ request for 200 hours of
compensatory home instruction services on the sole
ground that the hearing record lacked evidence
establishing that the student required “academic
remediation” (id. at p. 28).
According to the hearing record, the parents
referred of the student to the CSE for evaluation on
April 12, 2011; on April 15, 2011, they provided consent
for the district to evaluate the student; on April 29,
2011, the district received the student’s CSE referral
form; and on May 25, 2011, the CSE convened for an
initial CSE meeting (see Tr. pp. 132-74, 506, 1343-44,
1705; Dist. Exs. 17; 30; Joint Exs. 28-29; 31-33; 45). Per
State regulations, however, the district was not required
to arrange for the appropriate special education
19

The IHO concluded in the decision that “[b]ased on the
information available to the [d]istrict, the evidence in the
[hearing] record supports a finding that if the CSE had convened,
the student met the criteria for the classification of other health
impairment” (IHO Decision at p. 27). Under the State regulations, an “other health impairment” is defined as:
having limited strength, vitality or alertness, including
a heightened alertness to environmental stimuli, that
results in limited alertness with respect to the educational environment, that is due to chronic or acute health
problems, including but not limited to a heart condition,
tuberculosis, rheumatic fever, nephritis, asthma, sickle
cell anemia, hemophilia, epilepsy, lead poisoning,
leukemia, diabetes, attention deficit disorder or attention deficit hyperactivity disorder or tourette syndrome,
which adversely affects a student’s educational
performance.
(8 NYCRR 200.1[zz][10]; see 34 CFR 300.8[c][9]).

321a
programs and services to be provided to the student
until 60 school days after receiving consent to evaluate
the student, which, in this case, expired after the 201011 school year ended.20 Consequently, because the district was not obligated to provide the student with
special education programs and services during the
remaining balance of the 2010-11 school year, there
was no denial of a FAPE to the student for the 2010-11
school year, and the student was therefore not entitled
to an award of compensatory home instruction services
(see Newington, 546 F.3d at 123; S.M., 2013 WL
773098, at *6). In consideration of the foregoing, although I will reverse the IHO’s finding that the district
denied the student a FAPE for a portion of the 2010-11
school year, the IHO nevertheless correctly reached the
conclusion that the parents’ claim for 200 hours of
compensatory home instruction for the 2010-11 school
year must be denied.
D.

2011-12 School Year
1. August 2011 Draft IEP

I now turn to the district’s argument on crossappeal that the IHO erred when she determined that
the district failed to timely develop an appropriate IEP
for the student’s 2011-12 school year, and therefore
denied the student a FAPE. As discussed above, the
CSE convened on May 25, 2011 and August 26, 2011 to
develop an IEP for the student’s 2011-12 school year
20

As a matter of State law, the school year runs from July 1
through June 30 (Educ. Law § 2[15]).

322a
(see Dist. Ex. 30; Joint Exs. 45; 52-53). Although the
hearing record reflects that the May 2011 reviewed
some evaluative information relative to the student,
including a May 5, 2011 psychiatric “consultation”
report (see Tr. pp. 359, 361-64, 373-74, 390, 533-34, 652,
657-58; Dist. Ex. 30; Joint Exs. 4-5; 22; 40; 43-44; 6567), and, according to the testimony of the district’s
assistant director of pupil personnel services (assistant director), while “ [i]t would have been possible” to
classify the student as a student with another health
impairment at the May 2011 CSE meeting, the
evaluative information that the CSE possessed at the
time of the May 2011 meeting “did not clearly indicate
[the student’s] needs . . . and what his disability was”
and, therefore, the committee agreed to adjourn the
initial meeting without formally classifying the
student pending completion of a psychiatric evaluation
and receipt of an additional hospital report (see Tr. pp.
364-69, 488-505, 662-63, 666, 676-84, 825, 829, 195052; Dist. Ex. 25). The hearing record reflects that after
the May 2011 CSE meeting, the district undertook to
schedule the psychiatric evaluation, but due to recurrences of the student’s headaches, the evaluation did
not occur, and the CSE’s August 2011 meeting proceeded without it, resulting in a determination that
the student was eligible for special education programs
and related services as a student with another health
impairment and therefore, was entitled to an IEP (Tr.
pp. 141-62, 488-505, 1699-1703, 1717-23, 1952-54; Dist.
Exs. 29-30).

323a
Although the August 2011 CSE developed a “draft”
IEP for the student’s 2011-12 school year, the hearing
record reflects that the August 2011 IEP was never
finalized, as the student’s mother had already
informed the CSE during the meeting that the student
would be attending the NPS for the 2011-12 school
year (Tr. pp. 404, see Tr. pp. 1740-41; Dist. Ex. 30; Joint
Ex. 55 at p. 1). However, this information regarding
the parents’ intention to enroll their son at the NPS
did not relieve the district of its obligation under the
IDEA to offer the student a FAPE for the 2011-12
school year. At the beginning of each school year, a
school district is required to have an IEP in effect “for
each child with a disability in [its] jurisdiction” (20
U.S.C. § 1414[d][2][A]; see also 34 CFR 300.323[a];
Cerra, 427 F.3d at 194 (“the District fulfilled its legal
obligations by providing the IEP before the first day of
school”). Federal regulations specifically direct that a
school district must have an IEP in place at the
beginning of the school year (34 CFR 300.323[a]; see
also Letter to Reyes, 59 IDELR 49 [OSEP 2012]). In
this case, the hearing record demonstrates that the
district failed to have a finalized IEP in place for the
student at the start of the 2011-12 school year, in
contravention of the IDEA and federal regulations;
consequently, I find that the IHO correctly determined
that the district denied the student a FAPE for the
2011-12 school year.

324a
2. Unilateral Placement
Having found above that the district failed to offer
the student a FAPE for the 2011-12 school year, I will
now consider the parents appeal from the IHO’s finding that the NPS was not an appropriate placement for
the student because the school did not provide
educational instruction specially designed to meet the
student’s unique educational needs.
A private school placement must be “proper under
the Act” (Carter, 510 U.S. at 12, 15; Burlington, 471 U.S.
at 370), i.e., the private school offered an educational
program which met the student’s special education
needs (see Gagliardo, 489 F.3d at 112, 115; Walczak,
142 F.3d at 129; Matrejek, 471 F. Supp. 2d at 419). A
parent’s failure to select a program approved by the
State in favor of an unapproved option is not itself a
bar to reimbursement (Carter, 510 U.S. at 14). The private school need not employ certified special education
teachers or have its own IEP for the student (Carter,
510 U.S. 7; Application of the Bd. of Educ., Appeal No.
08-085; Application of the Dep’t of Educ., Appeal No.
08-025; Application of the Bd. of Educ., Appeal No. 08016; Application of the Bd. of Educ., Appeal No. 07-097;
Application of a Child with a Disability, Appeal No. 07038; Application of a Child with a Disability, Appeal
No. 02-014; Application of a Child with a Disability,
Appeal No. 01-105). Parents seeking reimbursement
“bear the burden of demonstrating that their private
placement was appropriate, even if the IEP was
inappropriate” (Gagliardo, 489 F.3d at 112; see M.S. v.
Bd. of Educ., 231 F.3d 96, 104 [2d Cir. 2000]). “Subject

325a
to certain limited exceptions, ‘the same considerations
and criteria that apply in determining whether the
[s]chool [d]istrict’s placement is appropriate should be
considered in determining the appropriateness of the
parents’ placement’ ” (Gagliardo, 489 F.3d at 112, quoting Frank G. v. Bd. of Educ., 459 F.3d at 364 [2d Cir.
2006]; see Rowley, 458 U.S. at 207). Parents need not
show that the placement provides every special service
necessary to maximize the student’s potential (Frank
G., 459 F.3d at 364-65). When determining whether
the parents’ unilateral placement is appropriate,
“[u]ltimately, the issue turns on” whether that placement is “reasonably calculated to enable the child to
receive educational benefits” (Frank G., 459 F.3d at
364; see Gagliardo, 489 F.3d at 115 [citing Berger v.
Medina City Sch. Dist., 348 F.3d 513, 522 [6th Cir.
2003] [stating “evidence of academic progress at a
private school does not itself establish that the private
placement offers adequate and appropriate education
under the IDEA”]]). A private placement is only appropriate if it provides education instruction specially
designed to meet the unique needs of a student (20
U.S.C. § 1401[29]; 34 CFR 300.39[a][1]; Educ. Law
§ 4401[1]; 8 NYCRR 200.1[ww]; Rowley, 458 U.S. at
188-89; Gagliardo, 489 F.3d at 114-15 [noting that even
though the unilateral placement provided special
education, the evidence did not show that it provided
special education services specifically needed by the
student]; Frank G., 459 F.3d at 365; Stevens v. New
York City Dep’t of Educ., 2010 WL 1005165, *9
[S.D.N.Y. Mar. 18, 2010]).

326a
The Second Circuit has set forth the standard for
determining whether parents have carried their burden of demonstrating the appropriateness of their
unilateral placement:
No one factor is necessarily dispositive in
determining whether parents’ unilateral
placement is reasonably calculated to enable
the child to receive educational benefits.
Grades, test scores, and regular advancement
may constitute evidence that a child is receiving educational benefit, but courts assessing the propriety of a unilateral placement
consider the totality of the circumstances in
determining whether that placement reasonably serves a child’s individual needs. To
qualify for reimbursement under the IDEA,
parents need not show that a private placement furnishes every special service necessary to maximize their child’s potential. They
need only demonstrate that the placement
provides educational instruction specially
designed to meet the unique needs of a handicapped child, supported by such services as
are necessary to permit the child to benefit
from instruction.
(Gagliardo, 489 F.3d at 112, quoting Frank G., 459 F.3d
at 364-65).
The parties do not contest the IHO’s description of
the student’s special education needs identified in the
hearing record. The hearing record indicates that although the student historically achieved high grades,
he was in need of assistance with organization and

327a
study skills (Joint Exs. 40 at p. 3; 44 at pp. 2, 4-6; 53 at
p. 4; 68-70; see Joint Exs. 4 at pp. 3-4; 7). According to
the hearing record, the student required counseling
services to address social/emotional needs, including
interventions to address his attitude toward school,
difficulty with anxiety, and problems related to stress
as an underlying factor contributing to his headaches
(Joint Exs. 50a; 51a). The hearing record further
establishes that the student needed to improve his
ability to cope with and manage stress related to
academics and social situations (Joint Ex. 51a). The
parties agreed that for the 2011-12 school year, the
student required an educational placement outside the
district’s high school (Dist. Ex. 30; Joint Ex. 53 at p. 1).
On May 5, 2011, an independent psychiatrist
retained by the district conducted a review of the
student’s special education records, participated in a
telephone discussion with the student’s mother, and
prepared a psychiatric consultation report “in order to
understand the impact of any underlying psychiatric
issues upon this student’s behavioral/academic functioning” in advance of the scheduled May 2011 CSE
initial review meeting (Joint Ex. 43 at p. 1). After
considering various interventions addressing the
student’s headaches and the effect of their symptoms
on his life, the independent psychiatrist recommended
to the student’s mother that “it would be wise to reframe [the student’s] case and view his symptoms as
pain induced by chronic stressors” (id. at p. 2). The
independent psychiatrist spoke “at length” about
considering cognitive-behavioral approaches as a

328a
component to help manage pain, and he suggested
that the student may benefit from an approach
“incorporating biofeedback/relaxation techniques,
mindfulness training, [and] play therapy” (id. at pp. 23). The independent psychiatrist also suggested that
the student “may respond better to behavioral
approaches to teach him how to self-modulate his
pain response,” that the parents consult with a pain
management team at an area hospital, and that they
provide the student with access to an outdoor
adventure-based program to engage him in learning to
cope with stress (id. at p. 3).
On August 10, 2011, the student’s pediatrician
wrote to the CSE that the student’s headaches rendered him unable to attend school and that although
prescribed therapies did not control the headaches,
when the school year ended, the headaches stopped
(Joint Ex. 50b). He opined that the student’s attendance at a large public school, such as the district’s
middle school, was a trigger for the student’s headaches, and that a “smaller, supportive school environment” would be less likely to trigger headaches in the
upcoming school year, and, during testimony at the
impartial hearing, further described the ideal school
environment for the student as one in which “the
classes are small, [and] there is comradery and a
support that each of the students will feel both from
the staff and from the other students;” according to the
pediatrician, these attributes would allow the student
to be successful at learning and not trigger the
headaches (Tr. pp. 1495, 1512-13; Joint Ex. 50b).

329a
In an August 11, 2011 letter to the CSE, the
student’s private psychiatrist, who initially consulted
with the student on May 18, 2011, reported that the
student had a “history of chronic and significantly impairing physical symptoms,” which, despite extensive
medical workup, did not yield an organic diagnosis
(Joint Ex. 50a at p. 1). He further reported that
“[t]here eventually accrued evidence of a component of
anxiety [and] school avoidance as a significant secondary component of these impairing headaches,
prompting both psychotherapeutic [and] psychopharmacological interventions, which regrettably were also
not effective in curtailing the headaches and school
absences” (id.). According to the private psychiatrist,
the cessation of the student’s headaches, contemporaneous with the end of school in June 2011, together
with the “other atypical features of [the student’s]
headache pattern,” were “strongly suggestive of the
major role of anxiety and school avoidance in the evolution and persistence of the headaches” (id.). Noting the
student’s “intrinsic vulnerability to anxiety,” the private psychiatrist also noted indications of the student’s
social anxiety with peers, and indicated that during
sessions, the student exhibited a “sustained reluctance
to discuss emotional issues of likely relevance to the
psychogenic [contributors] to his headaches and to
his school avoidance,” and that the student was
unwilling to elaborate on parental reports indicating
the possible presence of teasing and rejection by peers
(id. at pp. 1-2; see Tr. pp. 891-93). As of August 2011,
the private psychiatrist offered the student diagnoses
including a headache disorder with both physical and

330a
psychological contributors, and associated features of
both anxiety and dysthymia (Joint Ex. 50a at p. 2).21
The private psychiatrist recommended that the
student attend a smaller school environment away
from home, which offered small classes and provided
“supportive counseling and educational services that
enable him to return to normal social and educational
functioning” and stated that the student would require
“neurological, medical [and] psychiatric follow-up”
(Joint Ex. 50a at p. 2). During the impartial hearing,
the private psychiatrist testified that “[the student’s]
“problems are not primarily psychiatric in the domains
of conduct disorders, anxiety, depression and schizophrenia, that would be more suitable for an emotionally disturbed population of psychiatrically based
patients,” who were “ordinarily referred for residential
settings in psychiatrically accommodated boarding
schools;” rather, the private psychiatrist testified, the
“best solution” for the student would be to attend “a
boarding school setting where there was a supportive
environment with small class size, guidance available
on a more frequent and regular basis, [and] the
availability of outdoor activities” (Tr. pp. 874, 882, 92224).
In an August 19, 2011 letter to the CSE, a private
psychologist, who had worked with the student on five
21

The private psychiatrist’s diagnostic impressions of the
student at that time included the internalizing of personality
features, migraine headaches and TMJ by history, possible Lyme
disease exposure, and school and social adjustment problems
(Joint Ex. 50a at p. 2).

331a
occasions between May 2011 and July 2011, indicated
that he had observed the student “in a range of
contexts” and “got to know him relatively well” (Joint
Ex. 51a at p. 1). The private psychologist described the
student’s internalizing personality style and his difficulty coping with stress caused by academic and social
pressures at school, and noted that when the student
experienced a headache, he became “overwhelmed by
the basic demands of life” and “was absolutely unable
to attend school and interact socially when he had a
headache” (id.). The private psychologist reported that
“medical consensus has only agreed that [the student]
has a biological propensity to get migraine headaches,
there is some physiological trigger, and that these
headaches are partly triggered and exacerbated by
both physiological and emotional stresses,” and that
the student’s headache pattern suggested that stress
from school was a “major contributor to his problem”
(id. at p. 2). The private psychologist testified during
the impartial hearing that that the student exhibited
“limited insight” into the potential stressors, but that
the student identified school performance, such as
tests and large projects, and the stresses of falling
behind with peers and school work, as headache
triggers (Tr. pp. 1046-47).
The private psychologist indicated that it was unlikely that the student would succeed if he continued
in the mainstream public school system, even in a
modified program or self-contained class, as it would
not be the ‘ “right fit” ’ for him academically or
emotionally; rather, the student’s needs required a

332a
“small, individualized learning environment that reduces stress and supports [the student’s] emotional
development,” and a clearly structured day/evening,
the “on-going provision of support from teachers and
staff that can focus on his unique needs,” and both
social and academic support due to the amount of
school the student missed during the 2010-11 school
year and due to the extent to which he had isolated
himself socially (Joint Ex. 51a at p. 2). The private
psychologist suggested that living away from home
would help prevent the student from “falling back into
old habits” and would provide him with opportunity for
outdoor activities (id.). During the impartial hearing,
the private psychologist testified that the student
required a smaller program where he could receive
small group and individualized attention, where his
time was well structured, and where he could engage
in physical activity similar to his summer camp
experiences (Tr. pp. 1017-18, 1029-30, 1055-58).
According to the parent, after the initial visit to
the NPS in February 2011, the school appeared to be a
“perfect fit” for the student, and testified that she liked
the school culture, supportive atmosphere, small
classes, the individuals she met with, the opportunity
for the student to partake in outdoor activities, and the
school staff who “seemed to be really interested [in]
and caring about the students and monitoring them”
(Tr. pp. 1805-06). She further testified that the NPS
was a “therapeutic environment without being overtly
therapeutic because [the student] could not be in a
therapeutic residential program, he didn’t have needs

333a
that would qualify him for that,” and that at the school,
the student would receive counseling, be in classes
numbering six to seven students, and be exposed to
academics that were “rigorous . . . but not overly
competitive” (Tr. pp. 1806-07).
The NPS is described in the hearing record as an
“independent, co-educational college preparatory school
serving a boarding and day population of 175 students
in grades 9 to 12,” which sought applications “from
motivated, positive young men and women who seek a
challenging academic environment, a competitive athletic experience, and involvement in community
service” (Tr. pp. 1552-58; Parent Ex. L at pp. 2, 21). The
ninth grade class during the 2011-12 school year
consisted of 20 students, with class sizes ranging
between 9 and 12 students (Tr. p. 1560). The NPS did
not have a consulting psychiatrist or psychologist on
staff (Tr. pp. 1774-75). The “wellness team” at the NPS
consisted of registered nurses, an athletic trainer, and
a NPS counselor, whose role, as described in the hear
ing record, was to oversee the “social and personal wellbeing of students,” and whose job duties included
working one-on-one with students, arranging referrals
to outside counseling agencies, overseeing faculty
advising, facilitating conflict resolution, and advising
student organizations (Parent Ex. L at p. 17).
In a July 20, 2011 e-mail to the NPS’s school
counselor (the NPS counselor), the parents requested
that the student receive approximately 30 minutes per
week of “mandatory counseling” built into his schedule,
and, in a July 24, 2011 e-mail response, the NPS

334a
counselor indicated that it “makes sense for [the student] to start with a regular check in with someone,”
which could either be the NPS counselor or outside
independent counselors (Parent Ex. UU). In a September 2, 2011 e-mail to the parent, the NPS counselor
indicated that the school assigned a nurse as the
student’s advisor, but that the NPS counselor would
be “the main component of regular weekly chats/
counseling,” and stated that, “we don’t call ourselves a
therapeutic school, yet we have a lot of faith in the
school’s therapeutic culture” (Parent Ex. VV).
On August 30, 2011, the NPS developed an “official
accommodation plan” based upon the student’s June
2010 section 504 accommodation plan (compare Parent
Ex. MM, with Joint Ex. 11). The NPS’s accommodation
plan provided the student with extended time for inclass assignments, preferential seating, graphic organizers or guided notes to support information presented
verbally, and regular counseling sessions with the NPS
counselor (Tr. pp. 1562-63; Parent Ex. MM). The NPS
counselor testified that his regular counseling sessions
with the student “started very structured. [W]eekly
conversations, as I said to all parents I am not going to
provide therapy, I am a coach here . . . so in the first
marking period I am going to guess . . . we met five
times,” and added that “[t]hen we certainly got less
formal about it. I stopped down to his room frequently
[to] find a chair and chat . . . so I judged the need, I let
that become much less formalized” (Tr. pp. 1564, 1791;
see Parent Ex. JJ).

335a
The NPS counselor testified that, although the
counseling conversations with the student “went well,”
they were “more superficial” in an office setting than
he expected, and that the conversations improved
when he talked with the student in the student’s room
(Tr. p. 1572). The NPS counselor further testified
that when the student was not manifesting problems,
he did not remind or discuss with the student past
difficulties, although he did “check” with the student to
determine whether the student was feeling “academic
stress,” especially on the three occasions the student
experienced a headache; however, the NPS counselor
testified that he did not keep a written log or notes
about his meetings with the student, and that at the
time that he gave testimony during the impartial
hearing in March 2012, he and the student were no
longer meeting on a weekly basis (Tr. pp. 1572, 1769,
1785-86; Parent Ex. JJ). The NPS counselor also
testified that, in addition to the meeting with the
student, as he did with all students under his care, he
also spoke with the student “a couple of times a day,”
adding that “as with all kids, this isn’t just specific to
[the student], all kids, we pull them aside and make a
little comment about the way they interact and how is
it going,” and that he asked questions of them, such as
whether the students had completed specific class
assignments, and stated that the NPS staff “constantly” assessed how the students were doing and
addressed problems as needed (Tr. pp. 1565-66, 1770;
see Parent Ex. JJ).

336a
According to the NPS counselor, based upon the
information about the student that the school gathered
during the admissions process, the NPS assigned a
school nurse to serve as the student’s advisor, and her
role was to provide a contact person for parents and to
ensure adult monitoring of every student, and not to
provide formal academic or personal advising to
students; the NPS counselor also testified that nurses
were available to the student at the school and that
there was a system in place to monitor his medication
(Tr. pp. 1560-61, 1573-75, 1784-85). The NPS counselor
described the school not as a “therapeutic school,” but
rather as “a college prep school with a heavy emphasis
on physical activity;” however, he further testified that
“all of the factors that go into a therapeutic school [the
NPS] happen[s] to have, honesty, predictable cause/
effect patterns, integration into social groups, learning
one’s role as part of a larger community bigger than
one’s self ” (Tr. p. 1581).
Turning to the student’s organizational and study
skill needs, the NPS counselor testified that the school
expected ninth grade students to complete approximately 30 minutes of homework per night per course,
and that the school provided a 2 hour evening study
session in the dormitory, and a 40-minute structured
study hall period per day in the library where “younger
students” could receive faculty assistance with reviewing their planners and structuring homework
assignments; because the structured study hall was
offered to all freshman students, the NPS counselor
“presumed” that the student was a part of that

337a
program (Tr. pp. 1558-60, 1771-73, 1778-80, 1783-84;
see Parent Ex. SS). When asked what additional
supports the NPS provided to the student beyond
study halls, the NPS counselor testified that the student received “[ j]ust what every kid gets, which is a
busy little hive here with all adult contact,” and stated
that “I can’t think of anything formalized” (Tr. p. 1571).
The NPS counselor testified that the NPS’s official
accommodation plan for the student was “more academic” and provided accommodations such as preferential seating and extended time, and noted that he
was responsible to implement was the counseling component of the student’s official accommodation plan (Tr.
pp. 1562-63, 1789-90; Parent Ex. MM); he explained that
because “the nature of our regular offering covers a lot
of typical requests [and accommodations]” found in
IEPs and section 504 accommodation plans, accommodations enumerated on the school’s official accommodation plan for the student, such as preferential
seating and extended time, were already built in to
the school’s curriculum, and those accommodations
“just happen anyway” (Tr. pp. 1790-91). He testified
that, although he knew the student’s teachers each
possessed a copy of the student’s official accommodation plan, “I am not familiar with what the particular teachers did with that particular document” (id.).
The NPS counselor testified that during informal
“encounters,” he and the student’s teachers shared
their observations about how students generally
performed in class, and denied that he specifically met
with the student’s teachers to discuss the amount of

338a
time the student required to complete assignments;
rather, the NPS counselor and the student’s teachers
“talked a lot about all of the kids,” but he did not have
formal conversations with the student’s teachers to
develop strategies to enable the student to improve his
organizational skills relative to school work (Tr. pp.
1767-68, 1751-53). Although he acknowledged that
the student exhibited organizational difficulties, the
NPS counselor testified that the school “turn[ed] up
the heat” on its students by increasing its academic
demands steadily every year (Tr. pp. 1568-69). The
NPS counselor testified that he was unaware if the
student had difficulties keeping track of his papers
and handing in assignments on time, but noted that
the student’s organizational problems were evident
outside of the classroom, and that he had “leaned on
[the student]” about his untidy room, but was unaware
if his efforts were successful (Tr. pp. 1570-71, 1765-67).
Academically, the student’s report card contained
in the hearing record, which covered the two quarters
spanning September 2011 through February 2012,
reflected grades ranging from “A” to “C,” and effort
designations ranging from “P” (poor) to “E” (excellent)
(Parent Ex. TT). Teacher comments contained on the
report card illustrated the student’s variable effort and
academic performance; relative to the student’s organizational and study skills, his English teacher reported
that the student appeared to struggle most with
writing and essay assignments; his Spanish teacher
noted that a considerable amount of homework assignments were either missing or incomplete, and he was

339a
urged to do a better job staying on top of daily
homework assignments and participating in class; his
math teacher commented that the student needed to
put more time in preparing for the final examination
than he did for his midterm examination; his biology
teacher remarked that, despite small improvements
the student still struggled with organization, but
suggested that he could improve his grades with more
study time, by attending extra help sessions, and by
completing the midterm review packet; and his world
cultures teacher identified the student’s “issue” as with
his diligence in classwork preparation, and indicated
that that, although the student was ill on two quiz
days, he was “very lackadaisical about making them
up,” and while the student’s world cultures teacher
acknowledged that the student “gets stressed out by
the pressure of work, . . . that does not release him
from his responsibilities” (id.). The NPS counselor
testified that he was unaware of specific teacher
comments contained on the student’s report card (Tr.
pp. 1754-66). He testified that the student was doing
“okay” academically, and probably ranked above average in comparison to the rest of the NPS’s freshman
class, but that he was unaware as to whether the
student had progressed academically, and commented
that the student was in need of “a little discipline
academically” (Tr. pp. 1568, 1579, 1754-66).
While the hearing record supports a finding that
the student’s social/emotional and academic functioning improved since the end of the 2010-11 school year,
apparently due in large part to the fact he was no

340a
longer required to engage in activities at the public
school that he perceived as stressful (compare Tr. pp.
1662, 1721-23; Joint Exs. 43; 50a; 50b; 51a; 67 at p. 1;
70, with Tr. pp. 1079-80, 1465-66; Parent Exs. HH, TT),
and that the student achieved some progress academically during the 2011-12 school year,22 the hearing
record lacks evidence demonstrating that the NPS
provided instruction that was designed to address the
student’s tendencies to develop physical symptoms and
exhibit school avoidance when under stress, or his
need to develop coping skills to manage stress related
to academics and social interactions, and to improve
his organizational/study skills related to academics,
and, that the instruction that the student received
during the 2011-12 school year was, in fact, available
to all students enrolled at the NPS. The hearing record
fully supports the IHO’s determination that the
parents presented no evidence that the student’s
22

I note, however, that the Second Circuit has found that
progress made in a unilateral placement, although “relevant to
the court’s review” of whether a private placement was appropriate, is not sufficient in itself to determine that the unilateral
placement offered an appropriate education (Gagliardo, 489 F.3d
at 115; see Frank G., 459 F.3d at 364 [holding that although a
student’s “[g]rades, test scores, and regular advancement [at a
private placement] may constitute evidence that a child is
receiving educational benefit . . . courts assessing the propriety of
a unilateral placement consider the totality of the circumstances
in determining whether that placement reasonably serves a
child’s individual needs”]; Lexington County Sch. Dist. One v.
Frazier, 2011 WL 4435690, at *11 [D.S.C. Sept. 22, 2011] [holding
that “evidence of actual progress is also a relevant factor to a
determination of whether a parental placement was reasonably
calculated to confer some educational benefit”]).

341a
underlying emotional issues, organizational issues, or
study skills were addressed by the NPS (IHO Decision
at p. 41).23 In particular, the IHO noted that the NPS
counselor offered no testimony regarding the student’s
social/emotional or counseling needs, such that the
hearing record contained no evidence that the NPS
counselor was familiar with the student’s needs (id.).
Placing the student in the NPS’s residential setting—
which merely eliminated his exposure to the public
school environment and to activities that he perceived
as stressful—is not sufficient in this case to meet the
parents’ burden to establish that the NPS’s program
provided the student with educational instruction
specially designed to meet his unique needs (see Gagliardo, 489 F.3d at 113-15; Frank G., 459 F.3d at 365;
see also Rowley, 458 U.S. at 188-89; Application of the
Dep’t of Educ., Appeal No. 09-031; Application of the
Dep’t of Educ., Appeal No. 08-042; Application of a
Student Suspected of Having a Disability, Appeal No.
08-023; Application of a Student with a Disability,
Appeal No. 08-021). Rather, it appears that the student’s placement at the NPS provided him with “the
kind of educational and environmental advantages
and amenities that might be preferred by parents of
any child, disabled or not” (Gagliardo, 489 F.3d at 115).
Consequently, I find that the parents did not establish
that the NPS was an appropriate placement for the

23

This should not suggest that the NPS was responsible for
“curing” the student or guaranty him a specific level of benefit or
progress, but it should have clearly shown what efforts of the NPS
were specially designed to address the deficits.

342a
student for the 2011-12 school year, and that the IHO’s
determination was correct.
Having determined that the parents did not meet
the second criterion for an award of tuition reimbursement, the necessary inquiry is at an end and I need not
reach the issue of whether equitable considerations
supported the parents’ claim (see M.C. v. Voluntown
Bd. of Educ., 226 F.3d 60, 66 [2d Cir. 2000]; C.F., 2011
WL 5130101, at *12; D.D-S. v. Southold Union Free
Sch. Dist., 2011 WL 3919040, at *13 [E.D.N.Y. Sept. 2,
2011; Application of the Dep’t of Educ., Appeal No. 12005; Application of the Dep’t of Educ., Appeal No. 11147; Application of a Child with a Disability, Appeal
No. 08-158; Application of a Child with a Disability,
Appeal No. 05-038).]).
VII. Conclusion
In summary, upon due consideration of the evidence contained in the hearing record, I find that,
relative to the 2010-11 school year, the district did not
violate its child find obligations and the parents were
not entitled to an award of compensatory home
instruction services; relative to the 2011-12 school
year, I agree with the conclusions reached by the IHO
and find that the district failed to offer the student a
FAPE for the 2011-12 school year and that the parents
failed to establish that the NPS was appropriate for
the student, and, consequently, it is unnecessary for me
to address whether equitable considerations supported
the parents’ tuition reimbursement claim.

343a
I have considered the parties’ remaining contentions and find that it is not necessary to address them
in light of my determinations herein.
THE APPEAL IS DISMISSED.
THE CROSS-APPEAL IS SUSTAINED TO
THE EXTENT INDICATED.
IT IS ORDERED that the IHO’s decision dated
June 21, 2012 is modified, by reversing that portion
which found that the district violated its child find
obligation consequently denied the student a FAPE for
the 2010-11 school year.
Dated: Albany, New York
January 31, 2014

JUSTYN B. BATES
STATE REVIEW
OFFICER

344a
UNIVERSITY OF THE STATE OF NEW YORK
STATE EDUCATION DEPARTMENT
IN THE MATTER OF THE
IMPARTIAL HEARING
BROUGHT UPON THE
REQUEST OF PARENTS
ON BEHALF OF THEIR
CHILD

Decision and Order
Case Number: 76914

AGAINST
HENDRICK HUDSON
CENTRAL SCHOOL
DISTRICT
Introduction
This document constitutes the Decision and Order of
the undersigned, the duly designated Impartial Hearing Officer (IHO) in an Impartial Hearing brought
pursuant to the Individuals with Disabilities Education Act (IDEA) and the New York State Education
Laws. The district will be referred to as District, the
parents as Parents and the student will be referred to
as Student.
Procedural History
This case came about by the filing of a complaint
notice on April 10, 2013. (IHO 1) The District responded on April 22, 2013. (IHO 1) A telephone
conference was held on April 24, 2013 and hearing

345a
dates were scheduled. Out of deference for the fact
that one of the Parents is a school board member, the
venue was changed. In order to expedite the case, I
made the decision that witnesses who would otherwise
be unavailable for the Parents could be called out of
order. The Parents filed a motion in limine to preclude
possible “retrospective” testimony of three anticipated
witnesses for the District. Decision was deferred until
the hearing and now, based on this decision, I make
no further consideration of the issue. There was
some dispute regarding the issuance of subpoenas
which had been discussed in a telephone conference.
Through a series of correspondence, I determined that
the concerns of the subpoena opponent were premature as the subpoenas had not been issued, and in any
event, I was without jurisdiction to enforce subpoena
compliance. I also concluded that, in all but one case,
the opponent was not the proper party to challenge the
subpoenas. Following the mutual efforts to resolve
these issues, the parties made accommodations and
the issues were abandoned. With this background,
the hearing began. The scope of the impartial hearing
is limited to the issues raised in the due process
complaint. 8 NYCRR 200.5 (j)(1)(ii), 20 U.S.C.
1415(F)(3)(B), SRO decision 11-035, (See also, SRO
decisions 10-105 & 11-010)
Parents’ Position
In the complaint notice, the Parents assert that the
District did not provide an appropriate program for the
2012-2013 school year and are seeking reimbursement

346a
for the Student’s tuition at a private school (the
Private School) and other costs and relief. They complain that the substance of the recommended placement,
an 8:1:1 setting in a public school with unplanned
mainstreaming opportunities in a segregated program
in another public high school is inappropriate. Procedurally, the Parents assert that there were problems
related to the June 14, 2012 Committee on Special
Education (CSE) meeting. They continue that the
District did not include anyone (other than the
Parents) who knew or who had taught the Student.
Further, the CSE relied on the assessment from the
District Psychologist and did not consider the
information provided by the Student’s Psychologist or
the Psychiatrist. (Exs. 17 & S)
District’s Position
The District contends that CSE developed an appropriate program for the Student for the 2012-2013
school year, consisting of a therapeutic day placement
with small class sizes, regular counseling, and access
to mainstream courses. The CSE developed appropriate IEP goals to address the Student’s organizational
and social/emotional/behavioral needs. The District
also states that the unilateral placement is not appropriate because it is not a therapeutic school nor does it
have a staff psychologist or psychiatrist. The District
therefore asserts that the Private School has no
program designed to meet the individual needs of the
Student. The District argues that equities warrant
the denial of tuition reimbursement.

347a
Prefatory Remarks
The central issue in this litigation is whether or not
the District offered the Student a “free appropriate
public education” (“FAPE”) for the 2012-2013 school
year. The remedy sought for denial of PAPE is
reimbursement of tuition. In a “reimbursement” case
there is a three prong test set forth by the Supreme
Court. A board of education may be required to
reimburse parents for their expenditures for private
educational services obtained for a student by his or
her parent: (1) if the services offered by the board of
education were inadequate or inappropriate, (2) the
services selected by the parent were appropriate, and
(3) equitable considerations support the parents’ claim
(Sch. Comm. of Burlington v. Dept of Educ., 471 U.S.
359 [1985]; Florence County Sch. Dist. Four v. Carter,
510 U.S. 7 [1993]; Cerra v. Pawling Cent. Sch. Dist., 427
F.3d 186, 192 [2d Cir. Sept. 28, 2005]). In order to
determine if the services offered by the District were
appropriate, I look to the purpose of IDEA. That is was
the Student provided with a “basic floor of opportunity”
of access to specialized instruction and related services
that are individually designed to provide educational
benefits. Board of Education, Hendrick Hudson CSD
v. Rowley, 458 U.S. 176, 189-190, 102 S. Ct. 3034 (1982)
I find the District presented a flawed case. Although
the CSE met twice, ostensibly allowed for Parental
input and created an IEP with a small class size in
an environment designed for “fragile” students, I
nevertheless find that the District’s efforts fell short
of providing the Student a FAPE. The process and

348a
program failed to account for the extraordinary characteristics of the Student himself, the resultant IEP
failed to provide the opportunities likely to produce an
educational benefit and the mandated “individualization” of the program was lacking. The Parents presented a Student in the hearing who did not fit in the
“TPS Fragile Program” recommended by the District.
They focused on the Student’s unique attributes,
highlighting the nature and extent of his migraine
headache condition. The Parents successfully persuaded me that he is not fragile. While the District
acknowledged certain strengths and limits of the
Student, they failed to create a comprehensive plan
that would address the Student’s needs in a wellreasoned, appropriate manner.
The Parents’ presentation also successfully developed
the fact that the private placement is a fortunate fit
for the Student. Their effective prong two argument
underscored the limits of the District’s placement.
Finally, I find no equitable basis to reduce tuition
reimbursement.
Student History
The Student is a sixteen year old boy who was classified by the District as a Student with a Disability—
Other Health Impairment because of a “headache
disorder with associated features of both anxiety and
dysthimia.” (IHO Decision, dated June 1, 2012) The
Student attended the District schools from kindergarten through eighth grade. During his eighth grade

349a
year, in the fall of 2010, the Student missed his first
days of school due to migraines. These headaches
were debilitating and almost immediately and caused
him to fall behind in school work. (Tr. at 819) The
Student’s report card indicates that he missed approximately 108 days of school for each of the primary areas
of instruction. The migraines directly impacted and,
for much of the time, incapacitated him during the
2010-2011 school year. He was unable to do school
work, or even read, and he lost all interest in activities.
(Tr. at 820-821) During ninth grade (2011-2012) the
Student started attending the Private School where
his health improved greatly. He remains at the
Private School for the tenth grade year, (2012-2013)
the subject of this hearing.
ANALYSIS
Prong I
The purpose of IDEA is to provide students with a
“basic floor of opportunity” of access to specialized
instruction and related services that are individually
designed to provide educational benefits. Board of
Education, Hendrick Hudson CSD v. Rowley, 458 U.S.
176, 189-190, 102 S. Ct. 3034 (1982); Walczak v. Florida
UFSD, 142 F.3d 119 (2nd Cir. 1998). Neither the IDEA,
nor Article 89 of the New York State Education Law,
requires a school district to provide special education
and related services designed to maximize the potential of a disabled student. Nor do federal and state
education laws require a school district to provide the

350a
best possible educational program and related services, or match those services requested by a parent.
Application of a Child With a Disability (City School
District of Buffalo), S.R.O. Decision 04-20 (2004).
Rather, the goals and mandates of the IDEA and N.Y.
Education Law are relatively modest: namely, to
provide appropriate specialized education and related
services sufficient for the disabled student to benefit
from his/her education. Straube v. Florida UFSD, 801
F. Supp. 1164, 1175-1176 (S.D.N.Y. 1992); Moubry v.
Independent School District, 9 F. Supp.2d 1086, 1104
(D. Minn. 1998) (citing Rowley)
This straightforward obligation of the District is
accompanied by the requirement to demonstrate the
appropriateness of the program recommended by its
CSE. (Application of a Child Suspected of Having a
Disability, Appeal No. 93-9; Application of a Child with
a Handicapping Condition, Appeal No. 92-7; Application of a Handicapped Child, 22 Ed Dept Rep 487
[1983]). To meet its burden, a board of education
must show that its recommended program is
reasonably calculated to confer educational benefits
(Bd. of Educ. v. Rowley, 458 U.S. 176 [1982]). The
recommended program must also be provided in the
least restrictive environment (34 C.F.R. § 300.550[b]; 8
NYCRR200.6[a][1]).
The Parents have raised both procedural and substantive violations. Below, I identify the main issues and
segregate them according to their nature as either
procedural or substantive while recognizing that there

351a
are often features from either category in any given
issue.
Procedural Issues
The Parents assert the following:
1.

A direct conflict between the IEP student/teacher
ratio and the proposed placement of the Student
in mainstream classes;

2.

The CSE failed to include the Student’s regular
education teacher or special education teacher in
the relevant CSE meetings;

3.

That the District failed to disclose documents in a
timely fashion and the CSE did not consider select
information. Specifically, the District Psychologist
did not speak to anyone who knew the Student in
preparation for the CSE meetings and did not
distribute the updated BASC-II protocols despite
the timely parental request.
Substantive Issues
The Parents assert the following:

1.

That the District failed to demonstrate that the
proposed IEP could provide educational benefit;

2.

That the proposed placement was inappropriate
based on the grouping of students;

3.

That the District ignored the advancements of the
Student during the year prior;

4.

That the goals on the IEP are inappropriate and
fail to reflect progress or parental input;

352a
Procedural Issues
Detailed procedural provisions lie at the heart of the
IDEA. 20 U.S.C. §§ 612 and 615; 34 C.F.R. §§300.300300.576; Evans v. Rhinebeck Central School District,
930 F. Supp. 83 (S.D.N.Y. 1996); B.E. R.R. v. State Bd.
of Educ. 874 F.2d 1036, 1041 (5th Cir. 1989) In order
to achieve the goal of providing all children with
eligible disabilities with a FAPE, the IDEA statute
requires that the states comply with “extensive
procedural rights and safeguards” in order to receive
federal funds for use in special education programs.
See 20 U.S.C. Sec. 615(a); LIH v. New York City Board
of Educ., 33 IDELR 1 (E.D.N.Y. 2000); J.G. v. Board of
Education of the Rochester City Sch. Dist., 830 F.2d
444, 445 (2d Cir. 1987)
The United States Supreme Court has made it clear
that the Act’s procedural guarantees are not mere
procedural hoops through which Congress wanted
state and local educational agencies to jump. See
Brandon R.R. 874 F. 2d at 1041, Walczak v. Florida
Union Free School Dist., 142 F.3d 119, 122 (2d Cir.
1998) Rather, the formality of the Act’s procedures is
itself a safeguard against arbitrary or erroneous
decision making. The United States Supreme Court
has articulated that material procedural violations, in
and of themselves, often can constitute failures to
provide a FAPE. In fact, a single material violation of
the Act’s procedural guarantees is a sufficient ground
for holding that a school district failed to provide a
FAPE. Id.

353a
For this reason, the Supreme Court held in Board of
Education v. Rowley, 458 U.S. 176 (1982) that the very
first inquiry in a case of this type is to determine
whether or not there have been any material procedural violations. As the Rowley Court held “ . . . the
importance Congress attached to these procedural
safeguards cannot be gainsaid.” 458 U.S. 176
In evaluating whether the District has complied
with the procedural requirements of the IDEA, I
consider whether the alleged procedural violation
either 1) impeded the student’s right to a free and
appropriate public education, 2) significantly impeded
the parents’ opportunity to participate in the decision
making process regarding the provision of a free and
appropriate education, or 3) caused a deprivation of
educational benefits. 20 U.S.C. § 1415(t)(3)(E)(ii);
see also, Matrejek v. Brewster Cent. Sch. Dist., 471
F. Supp.2d 415, 419 [S.D.N.Y. Jan. 9, 2007]),
Application of a Child with a Disability, Appeal No. 07007
Analysis of Procedural Issues
IEP fails to adequately consider the LRE
The Parents assert a direct conflict between the IEP
student/teacher ratio and the proposed placement of
the Student in mainstream classes. (IHO Ex. 1; complaint notice ¶ 121) The IEP recommends an 8:1:1
class size and also recommends mainstreaming in
Math, English and Science (general education classes
have a ratio of 24:1). This inconsistency frustrates

354a
the entire program and violates the requirement that
a Free Appropriate Public Education (FAPE) be provided in the Least Restrictive Environment. (LRE)
In order to evaluate this argument, I first turn to the
predicate facts. Chronologically, I look to the recommendation following the June 14th CSE for the
student to attend a BOCES program. (Prior Written
Notice (Generic BOCES Program) (D-20)) This recommendation was pursued by the Parents who discovered
during the initial intake interview with the BOCES
Psychologist that there was no opportunity for mainstreaming at the proposed placement. The Mother
testified that she was advised by the BOCES
Psychologist at that time (July 20, 2012) that there
were no available mainstream classes for at least six
months. (Tr. pp. 1073-1074) Upon learning this, the
Mother wrote to CSE Chair on July 27, 2012:
At the meeting, [The BOCES Psychologist]
stated that [the Student] would not be
mainstreamed and would be placed in [a]
completely segregated program for at least
the first half of the year. As [the Student] is
currently, and always has been in mainstream
programs with all non-disabled students, and
as his teachers have viewed his presence as
beneficial, rather than disruptive, no rational
basis exists for this isolation from the school
community. (Ex, 26 @ 2)
The matter was returned to the CSE on August 15,
2012. At that meeting, the BOCES Psychologist
changed her position completely, (“180 degrees”, Tr.
p. 1085) indicating that mainstream classes would be

355a
available. Although the BOCES Psychologist had little, if any, independent recollection of the intake or the
meeting, (Tr. p. 721, et seq.) based upon the testimony
of the CSE Chair it is clear that there was a turnaround. (Tr. pp. 220-221 & 234 “If the school CSE and
the parent are very supportive of and want to see
mainstreaming happen right from the start, it can
happen.”)
The main problem that was never addressed by the
CSE is that the general education classes (where the
mainstreaming opportunities exist) have a ratio of
24:1. (Tr. p. 1086) The District did offer testimony that
“there were students who did go out for a mainstream
class, typically with some kind of program support,
whether it was a paraprofessional or even classroom
teacher . . . ” (Tr. p. 232) But there is no testimony or
documentation as to how how these differing ratios
could be reconciled for the Student. In fact, the
BOCES Psychologist never made any attempt to work
out a mainstream course schedule at the CSE. “She
didn’t have the courses and their enrollment numbers
or the names of the teachers with her.” (Tr. p. 235)
After the fact, meaning, after the end of the CSE
meeting, the CSE Chair added the mainstreaming
opportunities in Math, Science and English. (Tr. pp.
240-241 & D 18 @10) Her explanation was that she
wanted to make a “statement of support for
mainstreaming.” (Tr. p. 240) During testimony, she
conceded that this was not a final determination. (Tr.
p. 240) As a result, and in consideration of the
foregoing, I find the IEP deficient.

356a
A student’s recommended program must be provided
in the LRE (20 U.S.C.§ 1412[a][5][A]; 34 C.F.R.
§§ 300.114[a][2][i], 300.116[a][2]; 8 NYCRR 200.1[cc],
200.6[a][1];see Newington, 546 F.3d at 114 [2d Cir.
2008]; Gagliardo, 489 F.3d at 108; Walczak, 142 F.3d at
132; Patskin, 583 F. Supp. 2d at 428). In determining
an appropriate placement in the LRE, the IDEA
requires that students with disabilities be educated to
the maximum extent appropriate with students who
are not disabled and that special classes, separate
schooling or other removal of students with disabilities
from the general educational environment may occur
only when the nature or severity of the disability is
such that education in regular classes with the use
of supplementary aids and services cannot be
achieved satisfactorily. The determination involves,
first, “whether education in the regular classroom, with
the use of supplemental aids and services, can be
achieved satisfactorily for a given child,” and, if not,
then “whether the school has mainstreamed the child
to the maximum extent appropriate.” Newington, 546
F.3d at 120.
In the instant case, the District has failed to demonstrate any meaningful focus on the extent that the
Student could benefit from education in the regular
classroom. Although the District showed support for
the proposition of mainstreaming and the Parents
advocated for such services consistently, the BOCES
Psychologist was shifting in her commitment to such
programming and equivocal in her testimony. It
appears that the CSE never held a meaningful

357a
discussion about the timing of mainstream services,
the manner in which the 8:1:1 class size would be
integrated into the mainstream environment (i.e. in a
collaborative team taught model or the need for the use
of supplemental aids or other services). In the final
analysis, the IEP contradicts itself. It calls for the
Student to be in a program with an 8:1:1 ratio. (Ex. 18
@ 7) It also calls for the Student to be placed in general
education Mathematics, Science and English classes.
(Ex. 18 @ 12) It is my finding that the Parents and
Student were justified in rejecting the incomplete
program offered by the District.
CSE Composition
The Parents also assert two distinct claims about the
composition of the CSE, which they argue constitute a
procedural violation denying the Student a FAPE.
First, that the CSE meetings did not include any of the
Student’s special education teachers. Second, that the
CSE meetings did not include any of the Student’s
regular education teachers.
The record indicates that a special education teacher
was present at both the June and August CSE meetings. (D. Ex. 18, Tr. p. 499) Additionally, there was
testimony by the CSE chair that the special education
teacher was familiar with one or more of the proposed
programs that were discussed based on her previous
attendance at other CSE meetings where those same
programs were discussed. (Tr. pp. 499-502) Given
these facts, I rule for the District on this issue.

358a
The CSE did include a regular education tenth grade
teacher who had not taught the Student in the past.
(Ex. B). The Parents argue that the District was obligated to include a teacher who was providing instruction to the Student. (Tr. 189) The District argues that
the teacher in question is appropriate for the CSE
because he may teach the Student in the future.
Furthermore, the District claims it made a good faith
effort to secure the attendance of one of the Student’s
teachers from the Private School. (Tr. p. 142; 314-315;
320-321)
Ideally, a teacher from the Private School would have
participated in the CSE to provide information about
the private placement’s mainstreaming opportunities.
However, on the strict construction of CSE composition, I find that the errors, if any, were de minimus.
Disclosure of Documents by District
The final procedural claim asserted by the Parents is
that the District failed to disclose documents in a
timely fashion and the CSE did not consider select
information. Specifically, the District Psychologist did
not speak to anyone who knew the Student in preparation for the CSE meetings and did not distribute the
updated BASC-II protocols despite the Parents’ timely
request. The record reflects that the Mother requested
the updated BASC-II protocols on July 27 but was not
provided with a copy prior to the August 14, 2012 CSE
meeting. (Ex. 26)

359a
The District responds that the Parents had access to
the information contained in the documents requested
because they had copies of the Psychologist’s reports
underlying the final documents. (Tr. 125-126) The
District further states that the Parents did not show
that the Student’s right to a FAPE was impacted by
any failure to disclose. As with the issue of CSE
composition, I rule for the District and find that any
error is de minimus.
Analysis of Substantive Issues
Based upon the above ruling that there was a procedural violation denying FAPE, it is unnecessary to
review the substantive issues in any detail. Specifically, my finding of a denial of FAPE, above, renders
analysis hypothetical, at best. Other issues that I
acknowledge, but do not address are whether the
placement is inappropriate based upon the class profile
of the BOCES program and whether the District’s
goals were appropriate considering his profile and
improvements.
I do note the striking facts in the record which indicate
that Student made significant social and educational
progress in the prior school year at the Private School.
He no longer showed school avoidance tendencies. (Tr.
823) His absences decreased from 108 days to nine
days. (Tr. 823) He had tapered off Depakote, Amitriptyline and Zoloft. (Tr. 826-827) His report card from
the previous school year also reflected significant
improvements. (Ex. H)

360a
Prong II
I must now consider whether the Parents met their
burden of proving the appropriateness of the placement of the Student at the Private School. On Prong
H, New York federal courts have held that parental
placements are “subject to fewer constraints than
that applied to the school authorities.” Schreiber v.
E. Ramapo Cent. Sch. Dist., 700 F. Supp 529 [S.D.N.Y.
2010] The Second Circuit has clearly stated:
“ . . . [P]arents need not show that a private
placement furnishes every special service
necessary to maximize their child’s potential.
They need only demonstrate that the placement provides educational instruction specially designed to meet the unique needs of a
handicapped child, supported by such services as are necessary to permit the child to
benefit from instruction.” Gagliardo v. Arlington Cent. Sch. Dist., 489 F.3d 105 [2d Cir.
2007] quoting Frank G. v. Bd. of Educ., 459
F.3d 356, 364 [2d Cir. 2006]
Moreover, parents “may not be subject to the same
mainstreaming requirements as a school board.”
Frank G. v. Bd. of Ed. of Hyde Park [2d Cir. 2006]
quoting M.S. v. Bd. of Ed. of City Sch. Dist. of Yonkers,
231 F.3d 96, 105 [2d Cir. 2000] citing Warren G. v.
Cumberland County Sch. Dist., 190 F.3d 80, 84 [3d Cir.
1999] (holding that “the test for the parents’ private
placement is that it is appropriate, and not that it is
perfect”).
Here, I find that the Private School in which the
Student was unilaterally placed by the Parents is

361a
providing the Student with educational instruction
specially designed to meet his needs, including certain
necessary support services. This finding is supported
by the record; in particular, the small class sizes, the
Private School’s environment, its accommodation plan
for the Student and the Private School’s nursing and
counseling services. As the Student’s Psychiatrist
stated in an affidavit, the Student “has clearly benefited from the small class size, supportive environment,
structured schedule, outdoor recreational actitivies,
individualized counseling, accommodations and supportive health services.” (P Ex. 5 @ 2)
Small Class Size
According to the IEP and testimony, an appropriate
placement for the Student would include classes with
a small number of other students. For instance, the
Neuropsychologist testified about what type of environment the Student should be placed in:
In my opinion he would need to have small
class size, he would need to be in a small
group, because I felt he has an intense social
anxiety. He’s very uncomfortable around
people and particularly when he’s expected to
perform and he’s around people. And that in
order to learn he would need to have a small,
very small class size, he would need to have
classmates who are of at least, you know,
average, higher than average intellectual
capacity, and teachers who have flexibility in
their instructional style, to be nurturing and
non-threatening and to know [the Student]

362a
and to have, you know, an emotionally
supportive environment and an appropriate
intellectual challenge. (Tr. p. 1318)
This is precisely the type of classroom environment
provided by the Private School. The Private School has
placed the Student in small class sizes, ranging from
5-11 students. The small number of other students in
the classes allows the Private School faculty to closely
monitor the Student’s progress. He goes to two
supervised study halls to complete his homework and
is given help with getting organized (during other
students’ free period). (Tr. p. 441) He also has a
nightly study hall session where faculty monitor the
Student to ensure that he is working on homework and
staying on track academically. (Tr. p. 441) In his
classes, the Student is guided in note taking and given
additional time to take exams in a quieter room than
the classroom. (P.Ex. F) The small class sizes allow
faculty to give the Student individualized attention to
address his stress and migraines.
Environment at the Private School
The residential nature of the Private School is an
important part of the Student’s placement. The Student’s Psychiatrist testified that when the Student was
at home, the Parents could inadvertently relieve the
stress causing the migraine, leading to a cycle in which
the migraine becomes an escape from the Student’s
underlying stress. (Tr. p. 894-895) The fact that the
Student could stay home from the stressful school
environment practically reinforced the migraines.

363a
Therefore, the Student requires a placement where
there is integration between his home life and education. As the Mother testified, at the District school, the
Student “ . . . had trouble integrating between a home
and school environment . . . ” (Tr. p. 850) At the Private School, on the other hand, the “seamless residential environment has just made all the difference.”
(Tr. p. 850)
When asked if the residential aspect of the school was
beneficial, the Neuropsychologist testified: “Being in
a context, social context in different settings, not just
a classroom setting, benefits him in the classroom.
Because his classmates know him in other contexts in
which he can be comfortable and do well, so they can
be more accepting of him or he can be more comfortable
with them in a classroom, which helps him.” (Tr.
p. 1322)
In addition, the location of the school in the mountains
has given the Student the ability to cope with stress
through outdoor activities, including rock climbing,
snowboarding and kayaking. (Tr. pp. 373, 390, 610)
This is important because stress underlies the Student’s history of migraines. The residential nature of
the Private School and its location within the mountains make it uniquely suited to address the Student’s
migraines.
Private School’s Accommodation Plan for the Student
In considering the Student’s migraines, the Private
School developed an “Accommodation Plan.” This

364a
involves very specific and customized accommodations
for the Student. These accommodations include: extended time for in-class assignments, preferential
seating, graphic organizers or guided notes to support
information presented verbally, individualized regular
counseling sessions with School Counselor, assistive
technology (an iPad for use in class), supervised study
hall and access to the school’s nurse. (P.Ex. C) This
personalized Accommodation Plan was updated as the
faculty saw necessary based upon the Student’s continuing needs and progress. (P.Ex. C)
This Accommodation Plan describes, in detail, the
Private School’s method of educational instruction
specially designed to meet the unique needs of the
Student.
Private School’s Counseling and Nursing Services
The Private School has provided the Student with
regular counseling sessions with the School Counselor.
The Student meets with the Counselor on a regular
basis. (Tr. p. 621) These sessions take place informally. The informal counseling sessions are specially
designed to meet the Student’s needs because previously he had not been eager to take part in counseling.
(Tr. p. 622) By talking with the Student in his dorm or
while rock climbing, the Counselor is able to monitor
the Student’s well being and progress. (Tr. p. 673) As
stated in the Private School Student Handbook, each
student is assigned a facultor advisor for counseling.

365a
(Ex. Z @ 22) The advisor is available to the students
“at all times.” (Ex. Z @ 22)
In addition, when the Student suffers from a migraine,
the Private School is able to provide medical treatment
by providing nursing services to the Student around
the clock. (Tr. p. 828-829) The Private School nurses
are able to check on the Student and monitor his
medication when he is suffering from a migraine. (Tr.
387)
The record shows that the Student has shown immense progress in coping with his migraines. The
Mother testified that there was “ . . . a tremendous
improvement in [the Student] since attending [the Private School], beginning in September of 9th grade. . . .
his headaches have gone down from – essentially from
being completely debilitating, you know, causing him
to be an invalid, to having about one, approximately
one a month.” (Tr. p. 823)
Prong II Conclusion
The totality of the record suggests that the Private
School is an ideal placement for a student with this
Student’s particular documented disability and tendency for absenting himself from public school. The
unique attributes of the Private School provide the
Student with educational instruction specially designed to meet his unique needs. Therefore, in consideration of the forgoing, I find that the Parents
satisfied their burden under the Prong II analysis.

366a
No one factor is necessarily dispositive in determining whether parents’ unilateral placement is reasonably calculated to enable the
child to receive educational benefits. Grades,
test scores, and regular advancement may
constitute evidence that a child is receiving
educational benefit, but courts assessing the
propriety of a unilateral placement consider the
totality of the circumstances in determining
whether that placement reasonably serves a
child’s individual needs. . . . Gagliardo v. Arlington Cent. Sch. Dist., 489 F.3d 105112 [2d
Cir. 2007] quoting Frank G. v. Bd. of Educ., 459
F.3d 356, 364-365 [2d Cir. 2006]
Accordingly, I now move to the Prong III analysis.
Prong III
Tuition reimbursement may be reduced or denied if
parents do not provide notice of the unilateral placement either at the most recent CSE meeting prior to
removing the child from public school, or by written
notice ten business days before such removal, “that
they were rejecting the placement proposed by the
public agency to provide a [FAPE] to their child, including stating their concerns and their intent to enroll
their child in a private school at public expense.” (20
U.S.C. § 612[a][10][C][iii]1; see 34 C.F.R. § 300.148[d])
1

20 U.S.C. § 612[a][10][C] states in pertinent part: (iii) Limitation on reimbursement. – The cost of reimbursement . . . may
be reduced or denied – ”
(I)if – “(aa) at the most recent IEP meeting . . . ; or “(bb) 10
business days (including any holidays that occur on a business day) prior to the removal of the child from the public

367a
This statutory provision “serves the important purpose
of giving the school system an opportunity, before the
child is removed, to assemble a team, evaluate the
child, devise an appropriate plan, and determine
whether a [FAPE] can be provided in the public
schools.” (Greenland Sch. Dist. v. Amy N., 358 F.3d 150,
160 [1st Cir. 2004])
I find no basis under prong III to reduce or deny tuition
reimbursement.
Dated: December 17, 2013
It is therefore ORDERED
That the District reimburse one hundred percent of the
tuition and costs associated with the attendance at the
Private School upon the presentation of properly
receipted bills for such amounts.
Martin Kehoe, IHO
Exhibits considered – see addendum
school, the parents did not give written notice to the public
agency . . .
(iv) Exception. – Notwithstanding the notice requirement
in clause (iii)(I), the cost of reimbursement—
(I) shall not be reduced or denied for failure to provide such
notice if – . . . ; or (cc) compliance with clause (iii)(I) would
likely result in physical harm to the child; and
(II) may, in the discretion of a court or a hearing officer,
not be reduced or denied for failure to provide such notice if
– . . . (bb) compliance with clause (iii)(I) would likely result
in serious emotional harm to the child.

368a
THE STATE EDUCATION DEPARTMENT
THE UNIVERSITY OF THE STATE OF NEW YORK
--------------------------------------------------------------- x
In the Matter of the Due Process Complaint
Notice of W. A. W. and M.W., individually and
on behalf of their child, W. E. W.,
Petitioners,
-againstHENDRICK HUDSON SCHOOL DISTRICT,
Respondent.
--------------------------------------------------------------- x
Second Corrected Findings of
Fact and Decision
(Filed June 21, 2012)
Hearing Officer’s Findings of Fact and Decision W.A.W.
and M.W. v. Hendrick Hudson School District
Introduction
By letter dated November 18, 2011, the parents of the
student requested an impartial hearing pursuant to
the Individuals with Disabilities Education Improvement Act, (“IDEIA”) 20 U.S.C. Section 1415. IHO Ex. I.
The parents alleged that the Hendrick Hudson School
district (“the District”) denied their son a free and
appropriate public education (“FAPE”) for the 20102011 and 2011-2012 school years. The parents also
alleged that the District violated the student’s rights

369a
of confidentiality in violation of 20 U.S.C. Sec.
1412(a)(8), 1417(c), and 34 C.F.R. Sec. 300.623. As
relief, the parents requested reimbursement for the
student’s tuition at the Northwood School, Lake Placid,
New York, for the 2011-2012 school year, compensatory
counseling services for the 2010-2011 school year, and
any further relief the impartial hearing officer finds
just and necessary. The parents filed an Amended Due
Process Complaint on January 25, 2012. IHO Ex. II.
In addition to the IDEIA claims set forth in their
original complaint, the parents alleged that the
District violated Section 504 of the Rehabilitation Act
of 1973 (“Section 504”) by failing to provide the student
with counseling and adequate home instruction pursuant to his Section 504 plan, for the 2010-2011 school
year. As relief, the parents maintained their request
for tuition reimbursement and also requested related
Northwood fees and costs, and compensatory educational and counseling services for the 2010-2011
school year. The student’s father, W.A.W., an attorney,
represented the parents. Daniel Petigrow, Esq., of
Thomas, Drohan, Waxman, Petigrow & Mayle, LLP,
represented the District. Lists of the individuals who
appeared and the documents that were entered into
the record are included in this decision.
Procedural History
I was appointed to hear the matter on November 21,
2011. The District responded to the parents’ initial
complaint by letter dated November 28, 2011. IHO
Ex. II. The thirty day resolution period ran until

370a
December 18, 2011, without a session being scheduled.
A pre-hearing conference was held on December 22,
2011, and continued on January 20, 2012. IHO Ex. III;
Tr. 1-47. At the parents’ request, the parties scheduled
a resolution session for January 6, 2012, and no
resolution was reached. Tr. 59-60.
On January 6, 2012, the parents filed a motion requesting the impartial hearing officer to enforce
certain confidentiality provisions of the IDEIA based
on alleged violations of the District. IHO Ex. VI. On
January 20, 2012, the District filed a Memorandum of
Law in opposition to the parents’ request. IHO Ex. VII.
The parents submitted a Letter Brief in reply to the
District’s Memorandum of Law, dated January 25,
2012. IHO Ex. VIII. I rendered a Decision and Interim
Order on the Parents’ Request for Enforcement of
IDEIA Confidentiality Provisions on January 30, 2012.
IHO Ex. IX, Tr. 60-62.
As noted above, the parents filed an Amended Due
Process Complaint on January 25, 2012, which was
accepted by the District on January 25, 2012. By
letter dated January 27, 2012, the District responded
to the parents’ Amended Due Process Complaint.
IHO Ex. IV. On January 31, 2012, the parties waived
the thirty day resolution period. IHO Ex. X; Tr. 60.
The hearing was held on February 1, February 7,
February 15, February 16, March 7, March 8, March
20, March 21 and April 2, 2012.

371a
Extensions of the time lines
Extensions were granted as follows: On March 12,
2012, the parents requested an extension of the March
16, 2012 compliance date due to the unavailability of
their witnesses. An extension was granted on March
16, 2012, to April 15, 2012. IHO Ex. XIII. On April 2,
2012, the District requested and I granted an extension of the compliance date due to the District’s request
to submit a post-hearing closing statement and legal
brief. The compliance date was extended to May 16,
2012. IHO Ex. XXVI-2; Tr. 2065-2068. On May 11,
2012, the parties jointly requested an extension of the
compliance date due to the District’s need for additional time to complete the post-hearing memorandum
of law and the parents’ requests for changes to the
transcripts. An extension was granted on May 14,
2012, to May 30, 2012. IHO Ex. XXVI-1. The record
closed on May 16, 2012.
Background
The student is a fifteen year old boy who currently is
classified by the District as a Student with a Disability,
specifically, other health impairment (“OHI”), due to a
“headache disorder with associated features of both
anxiety and dysthimia.
These conditions have
severely limited his participation in social activities and
school.” Joint Ex. 53-5. Currently, the student is in
the ninth grade at the Northwood School (“Northwood”).1
1

Northwood is a private general education school, and as
such has not been approved by the Commissioner of Education as
a school with which district may contract to instruct students
with disabilities. (see 8 NYCRR 200.1[d], 200.7).

372a
The student attended the kindergarten through the
fifth grade in the District’s Furnace Woods School, from
which he graduated with high grades and positive
behavioral reports. Tr. 1632; Parent Ex. M. The student transitioned to the Blue Mountain Middle School
for sixth through eighth grades. Tr. 1635.
2008-2009/Sixth Grade
During the student’s sixth grade year, 2008-2009, he
was absent approximately 26 entire school days and
missed instruction for portions of additional days due
to abdominal pain. Joint Ex. 65; Tr. 1188, 1191-1193,
1637. After a number of consultations which did not
result in identifying the cause of the pain, the gastroenterologist consulted by the parents recommended an
appendectomy to relieve the symptoms. Tr. 1638. The
student had an appendectomy in May 2009 and the
symptoms abated. Joint Ex. 4; Tr. 1639. A neurologist
subsequently identified the student’s abdominal pains
as abdominal migraines. See Tr. 889-890. The student
finished his sixth grade year as mostly an A student.
Joint Ex. 68.
2009-2010/Seventh Grade
In the fall of the student’s seventh grade school year,
2009-2010, the student began to experience headaches.
At approximately the end of the second quarter the
parents met with the student’s core teachers and guidance counselor and discussed organizational issues as
well as the student’s progress. The teachers agreed to

373a
informally accommodate the student by allowing him
extended time for assignments and extra time to make
up work. Tr. 1196, 1641; Joint Ex. 1. By the third quarter the student had missed “a cluster of days” which
made it difficult to complete his third quarter grades
on time. Tr. 1199-1200. An Instructional Support
Team (“IST”) meeting took place in the spring of 2010.
The team discussed allowing the student to receive
incompletes for some of his classes “so that he could
have additional time to make up some tests and
quizzes he needed to do in order to get his third quarter
grades.” Tr. 1199-1200. The team devised a plan to
give the student a two-week period during which he
would have the opportunity to make up that work and
receive the grade that he earned. Tr. 1200.
By e-mail dated April 23, 2010, the parent asked Ms.
Bolen to arrange tutoring for the student even though
he had not missed ten consecutive school days as
generally required by school policy. Assistant Superintendent Alice Gottlieb approved home tutoring for
the student, as is permitted by the policy. Tr. 12011202.
By e-mail dated April 23, 2010, the parent sent
Caroline Almeida and Kathleen Coughlin a request for
a Section 504 evaluation for the student. Joint Ex. 1.
The parent stated that the student had been diagnosed
with Temporomandibular Joint Disorder and had been
experiencing “debilitating headaches throughout the
year”, almost daily since September. The parent
noted that the teachers had been “accommodating him
informally by allowing extended time for assignments

374a
and extra time to make up work, “but at this point, due
to the duration and the effect on this [sic] learning, [the
student] requires more formal intervention and possible services.” Joint Ex. 1. The parent stated: “This
physical/mental impairment is substantially limiting
his major life activities of learning, thinking and
concentrating.” Id. The parent asked that the process
be expedited since it was so late in the school year.
By letter dated April 26, 2010, Dr. Ronald Jacobson, of
Division of Pediatric Neurology, Children’s & Women’s
Physicians of Westchester, wrote subsequent to an
examination of the student on that same date:
“My impression is he has a mixed headache
disorder with a combination of muscle contraction headaches with temporomandibular
joint discomfort and migraine headaches. . . .
I strongly recommend a trial of Nortriptyline,
which can treat mixed headache disorder,
muscle contraction headaches, TMJ, as well as
migraines.”
Joint Ex. 6-2.
The parent signed a Section 504 Consent for Evaluation form on May 4, 2010. Joint Ex. 2. By notice dated
May 18, 2010, the district notified the parents that the
Section 504 Committee was scheduled to meet to
review the student’s educational services on June 14,
2010. Joint Ex. 3.
A Hendrick Hudson School District 504 Referral Form
signed by John Owen, Blue Mountain Middle School
Principal on May 18, 2010, indicates that the student

375a
was referred by the parent and that there were
communications with the parents at a team meeting
on March 4, 2010, and a telephone call on April 23,
2010. Dist. Ex. 1. The classroom accommodations
and modifications currently used which are circled
are copy of class notes and extensions of deadlines
with the language added: “only to accommodate
frequent absences”. District Ex. 1-4. The student’s
areas of strength are described as follows: “[The
student] is a very intelligent young man and when ill
his parents have been very communicative with staff
to enable him to catch up on missed work.” Id. The
described area of weakness was: “Chronic health
issues have led to frequent absences. [The student’s]
organization while improving is an area of difficulty.”
Id.
The student’s medications are noted as
Nortriptyline and medical conditions are “TMJ/
migraine headaches”. Dist. Ex. 1-6. The section on
social emotional functioning indicates that the
student’s relationships with peers and adults are
“fair”. His “behavioral adjustment” is “fair” and the
supervision the student requires is “minimal”. Id. The
form indicates that the student needs improvement in
the area of organizational skills and that his study
skills are fair. Id.
On or about May 18 and May 25, 2010, Dr. Richard
Brodsky, a Certified School Psychologist, conducted a
psycho-educational evaluation of the student and
wrote a report of the results. Joint Ex. 4. Dr. Brodsky
noted that the reason for the student’s referral to
the Section 504 Committee was “debilitating headaches”. The student’s medical history included an

376a
appendectomy for abdominal pain, headaches began
in fourth grade and current impressions include “a
history of TMJ and a mixed headache disorder”.
Joint Ex. 4-1.
Dr. Brodsky administered the Woodcock-Johnson III
(“WJ-III”), Tests of Cognitive Abilities and Tests of
Academic Achievements, and Behavior Assessment
System for Children-second edition (“BASC2”), as well
as relied upon teacher interviews and a review of
records. Joint Ex. 4-1; Tr. 703-704.
On the WJ-III Tests of Cognitive Abilities, the student’s General Intellectual Ability standard score of
121, with a percentile rank of 92, placed him above the
average range compared to same age peers. Joint Ex.
4-2, 4-3. The student demonstrated “above average
intellectual potential overall with strong language and
conceptual thinking skills. Weaknesses were noted in
fine-motor skills.” Joint Ex. 4-5.
On the WJ-III Tests of Achievement, the student’s
scores ranged from low average to above average.
Joint Ex. 4-3. On the Broad Reading sub-test, the
student obtained a standard score (“SS”) of 109, placing
him in the 72nd percentile or average range for his
age. The student received average scores for reading
fluency (SS-103/58%) and decoding (SS-105/62%).
The student’s reading comprehension on longer
passages was within the average range (SS-113/81%)
which led the evaluator to conclude that grade level
reading material “should be manageable” for the
student. Joint Ex. 4-3; 4-4; 4-5. The student’s Broad

377a
Math SS of 113 or 80% placed him in the high average
range for his age. The student demonstrated above
average calculation skills “during paper and pencil
tasks”, but “gave a significantly weaker performance
when processing simple math under time pressure.”
Id. The student’s scores were above average (SS113/81%) for math word problems. Id. The evaluator
noted that “time pressure can result in awkward
processing” for the student. Id. The student’s spelling
skills were in the average range (SS-109/72%). The
student’s Broad Written Language SS of 125 (95%)
placed him in the above average range for his age.
Joint Ex. 4-4.
The BASC-2 was completed by the student and two of
his teachers.
“On the teachers’ forms nearly every area had
scores in the average range. Only one score
from one teacher produced a clinically significant score; this was in the area of Somatization. This seems to be directly related to
moments where [the student complains of not
feeling well and asks to see the nurse. On [the
student’s] form all scores were in the average
range with the exception of two At-Risk
scores. The first of these elevated scores was
in Relations to Parents and is reflective of
difficult communication patterns that often
exist between parents and young teenagers.
The second elevated score was in Attitude
Towards School and was marked by responses
related to feeling bored with school and
disliking school.”

378a
Joint Ex. 4-4; Dist. Ex. 5a, 5b, 5c; Tr. 712-719. In his
summary, the psychologist noted that the student was
diagnosed with a “mixed headache disorder” in a
recent neurological evaluation. Id. at 5. “Data gained
from multiple source rating scales and projective
testing suggests a high level of physical complaints
during academics. There are also indications of a
negative attitude about school and mild oppositional
behavior at home. All other areas of social-emotional
functioning are reported to be average for his age.”
Joint Ex. 4-5.
Dr. Brodsky recommended that the 504 Committee
consider all relevant data and reports and obtain
teachers’ input about daily functioning and behavior to
determine the impact of the student’s headaches. Dr.
Brodsky also recommended that the “[s]tudent’s
attitude towards school and oppositional behavior
should be monitored for possible intervention.” Joint
Ex. 4-5.
An Initial Social History dated May 10, 2010, was
completed with the student’s mother, and noted that
the student “began having some headaches in school in
fourth grade. He saw a neurologist then, Dr. Jay
Selman, who prescribed Tylenol as needed in school
and the headaches abated.” Joint Ex. 5-1. In fifth
grade, the student began having stomach pains on the
lower right side. The pains increased in the winter of
sixth grade and the student’s gastroenterologist, Dr.
Bostwick, recommended an appendectomy. The student had his appendix removed in May 2009 and “the
pains basically ended.” Joint Ex. 5-1.

379a
The parent wrote:
“We are concerned about [the student’s]
headaches and the impact on his school work
and development. The headaches have been
debilitating of late and have caused him to
miss a substantial number of school days.
Also, when ill, he is unable to complete
homework or get organized. I am worried
about the impact on his study, social and
organizational skills, and think he may need
a little additional support, both to catch up
from the impact of what has occurred and to
prepare if this problem continues in the
future.”
Joint Ex. 5-3. By marking an “X” near the word “No”,
the parent indicated that she did not want anyone to
call her to further discuss the form or the CSE process.
Id.
A Blue Mountain Middle School document generated
on May 19, 2010 indicates that on the New York State
English Language Assessment (“ELA”) the student
scored a 3.0 in 5th grade, and a 4.0 in 6th grade. On
the New York State Math Assessment, the student
scored a 4.0 in 5th grade and a 4.0 in 6th grade. Joint
Ex. 7.
A “Student Period Attendance Detail” generated on
June 14, 2010, indicates that for the student’s seventh
grade year, he had been absent approximately 30 full
days and missed 81 class periods of instruction up
until that date. Joint Ex. 8-3.

380a
On June 14, 2010, the 504 Committee met. According
to the attendance sheet, the participants included:
Sean Dolinar as Chair; Kelly Rudyk, seventh grade
English teacher; Margaret McCorry, school nurse;
Richard Brodsky, school psychologist; Brooke Bolen,
school counselor; and the student’s mother. Joint Ex.
10. The 504 plan itself lists Caroline Almeida, Assistant Director of Pupil Personnel Services as Chair.
Joint Ex. 11-2.2 The committee determined that the
student was eligible for a Section 504 accommodation
plan. The available sources of information included:
Parent Report and Observations; physical examination; report card; teacher reports; psychoeducational
evaluation dated 5/25/10 and physician’s letter dated
01/21/10. Joint Ex. 11-2. The Committee found that
the student had a limited major life activity:
“The student has a physical impairment in
the following area: Neurological. This impairment substantially limits the following major
life activity: Learning; which adversely affects
appropriate participation in academic activities.”
The comments section included the student’s current
diagnosis of mixed headache disorder. The parent’s
concern that the student’s headaches were causing
excessive absences was noted. The psycho-educational
report was reviewed. The teacher reported that the
student “has difficulties with organization, especially
on extended assignments.” Ex. 11-2. The student’s
2

Ms. Almeida testified that her name is included in error.
She did not attend the June 14, 2010, Section 504 meeting. Tr. 467.

381a
excessive absences were noted to impact on his ability
to complete assignments. Joint Ex. 11-1. The student
was given the following accommodations throughout
the school day: extended time (1.5); extended time to
complete assignments-due to absences; nursing services as needed; access to school nurse as needed;
access to class notes; and access to home tutoring
“when appropriate”. Joint Ex. 11-2.
By letter dated June 28, 2010, the district sent the
parent the Section 504 Recommendation for Services
and Consent.
The student completed the 2009-2010 school year with
28.5 absences. He earned grades of As and Bs. Joint
Ex. 69.
By e-mail and attachment dated July 29, 2010, the
parent returned the signed consent and explained the
delay due to her wanting to get approval for the
services from the student. Joint Ex. 13 and 14.
2010-2011/Eighth Grade
In eighth grade, the student missed his first days of
school over September 27 through September 29, 2010,
due to a headache. Joint Ex. 67; Tr. 1657. In October,
the student was next absent for three consecutive days
due to migraines on October 20, 21, and 22, and on
October 29, 2010. Joint Ex. 67. In November, the
student missed 10 complete days. Joint Ex. 67. In
December, the student missed 10 full days as well.
Joint Ex. 67. The student also missed half or portions

382a
of other school days during that time period. Joint Ex.
67, 70. At the time, pursuant to the treatment plan of
the neurologist, Dr. Jacobson, he was taking Amitryptyline as a preventive measure and Advil or Aleve
as an abortive measure to get rid of the headaches.
Tr. 1658.
From the end of September through December, pursuant to the student’s 504 plan, the Blue Mountain
guidance counselor had “numerous” brief conversations with the student in order to monitor him for
attitude towards school and oppositional behavior. In
her view, no specific concerns were raised. She also
was in communication with the parents. At the
parent’s request, the guidance counselor arranged for
home instruction pursuant to the student’s 504 plan,
at the end of September, at the end of October and in
November. Tr. 1204, 1207, 1209, 1659; Dist Ex. 34.
The guidance counselor facilitated having the teachers
send homework home for the student and monitored
whether the student was turning in the homework and
his progress. Tr. 1236, 1240, 1257-1258. The teachers
e-mailed homework to the student, but often the
student could not do any work. The student could
listen, but he could not read, write, or do numeric
operations. Tr. 1660-1662, 1902-1903. The student’s
mother was dissatisfied with the tutor sent by the
District, Jan Dyckman, because she felt that he did not
engage the student or actually provide instruction, but
gave him work to do and observed the student. Tr.
1666-1667.

383a
On November 22, 2010, the student had a neurological
examination at Weill Cornell Division of Pediatric
Neurology, due to his headaches. The report confirmed
a diagnosis of mixed headache disorder. Joint Ex. 21.
The report noted “may be stress and exercise precipitants”. Joint 21-3. The attending doctor increased the
student’s prescription and discussed biofeedback with
the student’s father. Joint Ex. 21-3.
Jackie Kilanowski replaced Brooke Bolen as the
guidance counselor on December 1, 2010. Prior to Ms.
Kilanowski assuming the position, Ms. Bolen informed
her about the student and reviewed his 504 plan with
Ms. Kilanowski. Tr. 1285-1286; 1293-1294, 1326-1327.
The student’s mother never asked Ms. Kilanowski to
find a different tutor for the student. Tr. 1903.
In early December, the parent called Dr. Brodsky to
note her concern about the student, and among a
number of issues discussed, asked Dr. Brodsky to
speak to the student. Tr. 1677-1678, 1963. By e-mail
dated December 6, 2010, the student’s mother wrote to
Dr. Brodsky to inform him that that the student did
not think that it was necessary to speak with Dr.
Brodsky and seemed “a bit resistant” to talking with
him. She added: “Actually, when he does not have his
migraines, he seems happy and well-adjusted, so I
don’t think the talk is necessary.” Dist. Ex. 6. The
parent asked that if Dr. Brodsky had not yet spoken to
the student, “it’s probably best to hold off, given that
[the student] may feel singled out and really just wants
to maintain normalcy.” Dist. Ex. 6.

384a
By e-mail dated December 9, 2010, Ms. Kilanowski
wrote to the student’s mother to let her know that she
had met with the student to talk to him about his
French grade. She noted missing assignments from
the first and second quarters, explained the student’s
potential grades if he completes the assignments or
does not, and gave the student a copy of the missing
assignments. Ms. Kilanowski suggested to the student
a time when he might work with the French teacher
to “catch up with the missing assignments.” Dist. Ex.
50. The student’s mother responded in an email dated
December 9, 2012, noted that the student had not been
in school for a full week since early October, was absent
“almost all of November”, and will make up the missed
work. She also added that the priority was to keep the
student migraine-free so that he can attend school.
Consequently, the parent was not putting pressure on
the student to make up his homework. Dist. Ex. 50.
By e-mail dated December 13, 2010, the parent asked
for a 504 meeting to review the student’s program. The
parent expressed concern about the student’s absenteeism and headaches. Tr. 471. “He is continuing to
suffer from his migraines., and is having difficulty
both attending school and keeping up with his work.
He has missed 21 days this year, already. We are stuck
in a cycle (migraine leads to missed school, which leads
to missed work and falling behind which leads to more
stress and more migraines). He also has two incompletes from last quarter. I would like to discuss
whether we may add more accommodations or services, or whether the team has any other ideas.” Dist.

385a
Ex. 7-2. The parent offered to provide more recent
medical information. That same day, Ms. Almeida emailed the parent and offered to schedule a meeting
for December 27, 2011, or for the week following the
holiday break. Dist. Ex. 7-2. The parent responded by
e-mail and chose to meet after the holiday break. Dist.
Ex. 7-2.
By notice dated December 13, 2010, the district sent
the parent a notice of a Section 504 Committee
meeting scheduled for January 5, 2011. Joint Ex. 16.
In an e-mail dated December 13, 2010, Jackie Kilanowski wrote to Dr. Brodsky about a call from the student’s
mother who voiced concern that her son was missing
so much school that he was getting overwhelmed
which is making him miss more school. The student’s
mother also told Ms. Kilanowski that she had spoken
to Dr. Brodsky about counseling. In response to the
guidance counselor’s inquiry about whether Dr. Brodsky was providing the student with counseling, Dr.
Brodsky wrote that the previous week, the student’s
mother had asked him to speak to the student because
of some recent absences, but when the student
returned to the school, the mother called to say it was
not necessary for Dr. Brodsky to see him. Joint Ex. 15;
Parent W; Tr. 730, 765-766. Dr. Brodsky noted that
he does not regularly see students for counseling and
had no caseload. He further wrote; “I offered to see
him briefly with the intentions of steering the family
towards private therapy.” Joint Ex. 15. Dr. Brodsky
wrote that he did not know what the parent had in

386a
mind, but that the parent knows that she can call him
to discuss her son at any time. Joint Ex. 15.
On December 13, 2010, the parent e-mailed Jackie
Kilanowski, the guidance counselor, to inform her of
the upcoming 504 review and to ask what other class
the student could take if he were to drop French. Joint
Ex. 17. In a response e-mail dated December 14, 2010,
Ms. Kilanowski informed the parent that the decision
as to whether the student could drop French would be
made at the program review and that in its place he
could go into “content support”. Id.3 The parent responded in an e-mail dated December 14, 2010, stating
that they could discuss the alternative to French in
January. The parent also expressed concern about
helping the student “get through December”. The
parent stated that the student “appears to be in a crisis
as to school” and suggested some interventions. Joint
Ex. 17. The parent requested that class notes be sent
home for Science, French, Social Studies and English.
The parent stated that she “will try to schedule home
instruction but it is difficult to coordinate because
when he is home, [the student] usually feels too poorly
to access it.” Joint Ex. 17-1. The parent asked for a
team meeting before the school holiday break to
“prioritize assignments to do during the break and
salvage this semester, so [the student] can feel okay
about being in school”. Joint Ex. 17. The parent
3

Ms. Kilanowski testified that since the student already had
dropped Enriched English after the first quarter, her understanding was that it was necessary to determine whether he
should drop French in the context of a 504 meeting. Tr. 1316.

387a
stated that she would call Dr. Brodsky as to any
suggestions he may have to alleviate apparent stress
when in school, and noted that the student “has not
been willing to see him. . . .” Joint Ex. 17.
By e-mail dated December 15, 2010, the student’s
mother wrote to Wendy Tarricone, the eighth grade
French teacher, asking her to provide an extra copy of
a workbook that had “disappeared” so that the tutor
coming later in the day could bring it. The student’s
mother also noted that the student was unable to make
any progress on the missing French assignments since
his meeting with Ms. Kilanowski, and “it was apparent
that the frustration led to more headaches.” Dist. Ex.
49-2.
By e-mail dated December 15, 2010, the student’s
mother notified Ms. Kilanowski of her request to Ms.
Tarricone and specified missing assignment from the
first quarter French class, requesting those as well.
The student’s mother confirmed that she had received
copies of the social studies, math and English that
were mailed. Dist. Ex. 49.
The school team meeting took place during the week
before the December holiday break. Tr. 1296-1299,
1680-1681. The team and parents reviewed the student’s missing assignments, determined what work
needed to be made up, modified the assignments and
set priorities. Tr. 1296-1298.
In preparation for the January 5, 2011, 504 meeting,
the student’s teachers completed reports and submitted them to the Office of Pupil Personnel where

388a
they were stamped received on January 3, 2011. Joint
Ex. 18. The English teacher noted that the student’s
greatest area of success was “literary analysis” and his
greatest difficulty was attendance. Joint Ex. 18-1. The
teachers noted that the student had average to above
average performance in all areas except attendance,
turning in assignments timely, and attitude toward
school, which were below average. Joint Ex. 18; Tr. 611.
The English teacher noted that the student’s assignments were modified. Joint Ex. 18-1. The Integrated
Algebra teacher noted that the student’s area of
greatest success was “[s]elf directed learning” and his
area of greatest difficulty was “[m]aking up missed
work”. Joint Ex. 18-2. The science teacher noted the
student’s greatest areas of success as “[c]ontent knowledge, abstract thinking, test-taking skills, independent
learning” and his area of greatest difficulty as “attendance, catching up w/missed assignments”. Joint Ex.
18-4. The science teacher noted that the student was
provided with copies of notes and power points, alternate assignments (working out of a Regents review
book), and modified homework assignment expectations. Id. The French teacher noted that the student’s
area of greatest success was a good understanding of
concepts and that his greatest area of difficulty was his
“completion of homework, especially when absent.”
Joint Ex. 18-5. The French teacher also wrote a
separate letter recommending a French tutor for the
student since the current home tutor did not cover
French. She wrote that the student needs direct
instruction and practice, noting that he missed so
much of the second quarter that he cannot be assessed.

389a
She explained that the class is moving at too fast a
pace for the student to keep up and observed that it
would be difficult for him to pass French or get a good
grade if his rate of absenteeism continues. Alternatively, she suggested that the student drop French so
as to ease his stress. Joint Ex. 18-6.
By e-mail dated January 3, 2011, the parent wrote to
Ms. Almeida and Ms. Kilanowski and stated that she
did not know whether the 504 meeting scheduled for
January 5, 2012, was necessary because “the main
purpose of the meeting was to determine whether [the
student] should drop French, and he really does not
want to do that. He now has a private tutor for French,
so should be able to catch up. [The student] has all the
program modifications in place, and we met with his
team before break to make sure they understood what
was going on.” District Ex. 7-1. The parent expressed
a willingness to meet “if the team would like to or if
you have other ideas, but I think we have everything
in place.” The parent wrote that the student was on a
new medication, “had a great break with no headaches”, and while the parent anticipated that her son
would continue to struggle with the headaches, “his
teachers understand the issues”. Dist. Ex. 7. In conclusion, the parent wrote that unless Ms. Almeida
disagreed, she proposed canceling the 504 meeting and
would let Ms. Almeida know if “things change”. Dist.
Ex. 7-1.
In response, on January 3, 2011, Ms. Almeida sent the
parent an e-mail in which she stated that she would
cancel the 504 meeting. Dist. Ex. 7.

390a
The student was enrolled in Enriched English class for
the first quarter and dropped it in the second quarter.
Joint Ex. 70; Tr. 1316-1317.
In an e-mail to Alice Gottlieb dated January 28, 2011,
the parent referenced a January 26, 2011, conversation
“seeking help in finding another tutor for my son . . .
for home bound instruction.” Joint Ex. 19. The parent
explained that the student had missed over thirty days
of school due to severe migraines and explained that
“[h]e has only accessed a few days of home instruction
because when he is ill at home, he is not well enough
to do anything. Also, even when he feels okay in the
afternoon, he has not been successful in working with
the current tutor, Mr. Dyckman that the District has
hired.” Id. The parent asked Ms. Gottlieb to search for
a new tutor particularly to cover biology, Integrated
Algebra, and U.S. History. The parent noted that she
had found a private French tutor. Id.
By e-mail dated February 18, 2011, Wendy Tarricone,
the student’s French teacher, wrote to Jonathan Brown,
the Assistant Principal of Blue Mountain Middle
School, asking to meet about the student. Ms. Tarricone noted that the student, to date, had been absent
for 45 days, that Ms. Tarricone had been “in constant
contact” with the student’s mother regarding the
making up of work. Ms. Tarricone explained: I have
been given conflicting information from [the student’s
mother] regarding whether her son should do homework or not, how to count it, whether I should waive it
all together, etc. She has changed her mind . . . many
times. . . .” Parent Ex. CC.

391a
By e-mail dated February 28, 2011, the parent
informed the guidance counselor, Jackie Kilanowski
that the student “saw a school over break that he
absolutely loved” and that “we are looking into all
options for him next year, since this year has been so
difficult.” Joint Ex. 20. The parent asked that the
student’s records, including all of the special education
evaluations, be sent to Northwood School. Joint Ex.
20a. The district sent the student’s 504 plan and the
psychoeducational report to Northwood on March 1,
2011. Joint Ex. 20b.
By letter dated March 6, 2011, from Dr. Madeleine
Kitaj, a neurologist and headache specialist, to Dr.
Lasser and Dr. Fyer, Dr. Kitaj, she wrote regarding her
initial evaluation and plan for the student. Dr. Kitaj
wrote that the student “confirms triggers of his headaches from stress.” Joint Ex. 22-2. Dr. Kitaj noted that
the student “denies anxiety, depression, panic attacks,
suicidal ideation, irritability, mood-swings”. Joint Ex.
22-3. Dr. Kitaj prescribed medications prednizone and
phenegran in combination (at the first sign of an
impending migraine) and scheduled the student for an
MRI and MRA. Joint Ex. 225.
By e-mail thread dated March 15, 2011, between the
student’s mother, Margaret McCorry and Jackie Kilanowski, the parent forwarded a prescription from Dr.
Kitaj documenting a medical excuse for his second and
third quarter absences and grades, “as needed” and
noted that she had forwarded Dr. Kitaj’s full report to
Nurse McCorry. Joint Ex. 23-1.

392a
Instructional Support Team (“IST”)4 minutes dated
March 18, 2011, indicate that teacher concerns were
excessive absences due to medical issue and difficulty
to develop a grade for the student without assessments. “Student has been recommended for outside
counseling. Has been seen by Dr. Brodsky.” Dist. Ex.
16. The IST goal is to ensure student receives tutoring.
The plan of action is to send work home when the
student is absent. The monitoring plan is listed as
guidance will follow up with tutor. Dist. Ex. 16; Tr.
1301-1302.
The only documentation that would have recorded
whether tutoring occurred was the reimbursement
request forms required and maintained by the district
office. Tr. 1322. Ms. Kilanowski completed a form for
Tim Cavanaugh for eight hours on April 29, 2011, and
for Donna Sullivan for two hours on April 12, 2011. Ex.
34-9, 34-10; Tr. 1323-1325.
A March 21, 2011, progress note from Dr. Kitaj
indicates that the previous week the student returned
to school for three days, got a repeat severe headache,
medication helped, the student was able to “run
around” on Saturday, but then got another severe
headache. Dr. Kitaj’s notes indicated that she advised
the student’s mother to increase the number of therapy
sessions with the psychologist, Dr. Gilette, to 2-3 times
per week “to get to probable emotional issue that is
4

Ms. Kilanowski testified that the IST consisted of the
assistant principal, the counselors, the school nurse, the school
social worker, and the school psychologist. Tr. 1301-1302.

393a
causing repeat migraines.” (emphasis in original). Dr.
Kitaj also advised the parent to give the student Zonig,
get him out of bed and urge him to go to school in the
afternoon. Tr. 40.
By e-mail dated March 25, 2011, the student’s mother
wrote to Ms. Kilanowski and stated that she would be
contacting Mr. Cavanaugh about tutoring. She added
that the student “has not been up to it, but I’ll see what
times work for him.” Joint Ex. 24. The parent expressed the hope that the student would be able to
finish Algebra, but noted that the student could retake
all of his classes in high school. Id.
By e-mail dated March 29, 2011, the student’s mother
thanked Mr. Cavanaugh for agreeing to tutor her son
and noted the amount of school and course work her
son had missed. She wrote: “he is unable to work when
he has a headache, so he has missed a lot of work and
tutoring was impossible to schedule.” Joint Ex. 25.
By letter dated April 6, 2011, the district notified the
parents of a meeting scheduled for May 31, 2011, to
review the student’s Section 504 plan. District Ex. 14.5
On April 11, 2011, the parents signed and mailed the
Northwood enrollment contract with a $2,500 deposit
by the enrollment deadline. Tr. 1813, 1927, Parent
Ex. B.

5

Caroline Almeida testified that the Section 504 meeting
scheduled for May 31, 2011, was canceled because the parent
subsequently referred the student to the CSE. Tr. 484-485.

394a
By e-mail dated April 12, 2011, the parent requested
an emergency Section 504 program review and a referral to the CSE “to determine whether he is eligible
for special education services as a child with an other
health impairment.” Joint Ex. 28; Joint Ex. 31. The
parent noted that she had not yet heard from Tim
Cavanaugh about the tutoring and that her son was in
need of tutoring when he is not in school. Additionally
she noted that her son did receive tutoring in Algebra
from Donna Sullivan and described it as “very helpful”.
Id.
By letter dated April 13, 2011, Ms. Coughlin acknowledged receipt of the parent’s CSE referral, explained
the evaluation process, requested the parent’s consent
for evaluations, and sent a Procedural Safeguards
Notice as well as the consent form. Joint Ex. 32; Tr.
135-136, 139. Ms. Coughlin also sent the parent a
Social History to complete. Tr. 135-136, 139. The parent signed and returned the consent form to the
district on April 15, 2011. Joint Ex. 33.
An expedited Section 504 Committee meeting took
place on April 15, 2011. Tr. 485. It was attended by
Richard Brodsky, Karin Roberts, an intern with Dr.
Brodsky, the parents, Mark Bjornson, a general
education teacher, John Owens, the middle school
principal, Margaret McCorry and Jackie Kilanowski.
Joint Ex. 34; Joint Ex. 35-2; Tr. 485-486, 742-743.
Ms. Almeida testified that at the meeting, the parents
provided a medical update and referenced a number of
different specialists the student had been taken to
see. Tr. 486-487; Joint Ex. 35-2. Additionally the

395a
participants discussed all of the questions listed in
the parent’s e-mail of April 12, 2011. Specifically, the
parent asked whether the student should be placed
on home instruction for the remainder of the year,
whether the student could receive counseling and
relaxation when in school, whether the student could
receive more help with organization in school to
minimize his feeling overwhelmed, whether the
student should receive additional evaluations, and
whether the student should prepare and participate in
Regents and finals. The parent also asked how the
student could be helped to access his work and how to
set up a tutor that the student can work with. Tr. 486;
Joint Ex. 28; Joint Ex. 31. The Middle School principal
discussed “how to best alleviate stress from the burden
of having to make up missed work while planning for
exams.” Tr. 486-487. The Comments on the Section
504 Accommodation Plan note that teacher reports
were also reviewed.
The Committee considered and recommended the addition of counseling to the student’s accommodation
plan for the remainder of the school year. Tr. 486;
Joint Ex. 35-2. The parents mentioned that the
student was receiving therapy from an outside
therapist, Dr. Drew Robins, a psychologist familiar to
Dr. Brodsky. Tr. 743-744, 785. There was some
discussion about the student’s like for the outdoors
and that his outside therapist was a good match
because he also likes outdoor activity. Tr. 490-491, 742743, 1696-1697. Counseling was going to be provided

396a
by Dr. Brodsky who could engage the student in the
course of an engaging physical activity.6
The Comments section also notes that a psychiatric
evaluation was recommended to be conducted in
preparation for the upcoming initial CSE meeting.
Joint Ex. 35-2; Tr. 489. The parent provided signed
consent on April 15, 2011, Tr. 490, 649; Joint Ex. 33.
Ms. Almeida testified that the Committee decided that
due to the psychoeducational evaluation performed
less than a year prior, they determined that no updated
psychological or educational testing was needed. Tr.
488-489.
Dr. Brodsky asked for consent to speak to Dr. Robins,
obtained it, and spoke to Dr. Robins within a couple of
days of the meeting. Tr. 744, 746. At that time, Dr.
Robins indicated that he had not yet seen the student
because the parents were having trouble getting the
student to see him. Tr. 747. Dr. Brodsky and Dr.
Robins agreed that they would share information once
Dr. Robins got started. Tr. 747.
Following the Section 504 meeting Dr. Brodsky never
met with the student to provide counseling because
the student “never was available when I sought him

6

Ms. Almeida and the student’s mother both recalled that
Dr. Brodsky was designated to provide counseling during the 504
meeting. Tr. 491-492, Dr. Brodsky did not understand from the
discussion at the meeting that he would be the counselor and
testified that Ms. Almeida mentioned to him that he would be
subsequently. Tr. 746.

397a
out. I sought him out on a number of occasions but he
was almost never in school.” Tr. 746, 783-784.
By e-mail dated April 15, 2011, Ms. Almeida scheduled
a psychiatric evaluation of the student by Dr. Hahn for
May 5, 2011, and the parent confirmed hers and the
student’s availability. Joint Ex. 36.
IST minutes dated April 18, 2011, indicate that the
team convened for 504 program review follow-up. The
main teacher concern noted is an inability to grade the
student because he was absent in excess of 60 days.
Dist. Ex. 16.
The student visited Northwood for a day on April 22,
2011. Tr. 1923.
By e-mail dated April 28, 2011, the parent forwarded
to Margaret McCorry, the school nurse, an April 27,
2011, e-mail exchange between her and Dr. Joshua
Cohen, Headache Fellowship Program Director of the
Headache Institute and Adolescent Headache Center
Roosevelt Hospital, following up on an appointment
the student had with Dr. Cohen a couple of weeks
earlier in April. The student was about to begin week
three of a regimen of Depakote prescribed by Dr.
Cohen and the parent had not seen any improvement.
The parent also reported that Dr. Cohen’s advice for
the student to take prescribed doses of Aleve and a
sports drink only provided temporary relief. The
parent reported that the student went to school only
two half days of eight school days since their office
visit. Dr. Cohen urged patience and explained that it
would take five weeks for the student to reach a full

398a
dose of Depakote and another six to eight weeks for the
medication to become most effective. Joint Ex. 38.
A CSE Referral Form, signed April 29, 2011, by John
Owen, principal of Blue Mountain Middle School, and
stamped received by the Office of PPS on that same
date, indicates that Instructional Support Team
Reviews occurred on April 19, 2010, March 18, 2011
and April 18, 2011. Joint Ex. 39, Tr. 1343. Classroom
Accommodations and modifications currently used are
indicated as being preferential seating, abbreviated
assignments, and copy of class notes. State test results
are provided. The student’s medical conditions are
listed as TMJ/migraine headache. The student’s social
emotional functioning indicates that his organizational and study skills are good and that he has no issues
with relationships with peers or adults, his selfconcept, or behavioral adjustment. Joint Ex. 39-6; Tr.
1377. The form indicates that the student was prescribed Zoloft and Aleve at that time. Joint Ex. 39-6.
Tutoring Request Forms were completed for the
student for 2 hours per week tutoring in each of the
following subjects: social studies, English, integrated
algebra and Living Environment, from April 29, 2011,
until the end of school in June 2011. Tr. 1375-1376;
Dist Ex. 34.
By e-mail dated May 2, 2011, the parent provided a
social history update. Joint Ex. 40. The parent noted
that the student’s migraines have had the greatest
impact on his educational performance due to his lack
of attendance in school. As of May 2, 2011, the student

399a
had missed over 70 days of school, during which he was
“in severe pain and unable to work.” Joint Ex. 40-3.
The parent further explained her view that because of
the missed school and lack of practice and work, the
student showed less interest in school work, appeared
to have difficulty writing and had lost interest in
reading. Id. The parent also noted the student’s organizational difficulties. In terms of the student’s
emotional/social functioning, the parent stated her
belief that the migraines were causing the student to
appear “depressed, anxious, unhappy, withdrawn,
oppositional and agitated.” The parent further stated
that while she did not think that an underlying
emotional condition is causing the migraines, “ . . . a
neurologist and a psychiatrist have surmised that
anxiety could be causing the migraines . . . ” Id. The
parent noted that the migraines have “caused social
isolation”. Id. The parent wrote that the student
“needs as much support as possible to regain his health
and energy and then his confidence, love of learning
and his organizational and study skills.” Id.
By e-mail dated May 2, 2011, the student’s mother
forwarded the completed social history to Caroline
Almeida. The mother stated that while the student
was in school that day, she would contact Ms. Almeida
on May 4, 2011, to let her know how the student is
feeling “to anticipate whether he will be well for the
appointment” on May 5, 2011. Joint Ex. 40.
The parent provided a Social History dated May 2,
2011. Joint Ex. 40-2. The parent provided a brief
history of the student’s medical history including

400a
treatment for his diagnosed severe migraine disability,
mixed headache disorder and TMJ. Id. The parent
included a list of the student’s current medications
including Depakote and Zoloft. Joint Ex. 40-3. The
parent identified areas of concern for the CSE. The
parent noted that the educational concerns, most
significantly, were the student’s absences which the
parent observed are causing the student to have less of
an interest in school work, less enjoyment reading and
more difficulty writing. The parent also noted that the
student has organizational difficulties. Joint Ex. 40-3.
The parent also wrote about the impact of the student’s
migraines on his emotional state. The parent noted
her belief that the migraines make the student appear
“depressed, anxious, unhappy, withdrawn, oppositional
and agitated.” Id. The parent stated that “a neurologist and psychiatrist have surmised that anxiety could
be causing the migraines, so we need to explore this as
a possibility.” Id. The parent noted that the student’s
illness has caused social isolation. The parent also
noted that when the student is with the close group of
friends that he maintains “he appears to be having
fun” and when he is at school “he appears happy” even
though he stated that he does not like school. Id. In
terms of management/behavioral needs, the parent
notes that the student generally internalizes problems
and does not act out or cause behavioral concerns. Id.
In conclusion, the parent stated that the student
“needs as much support as possible to regain his health
and energy and then his confidence, love of learning
and his organizational and study skills.” Id.

401a
Ms. Almeida testified that she did not hear from the
parent on May 4, 2011. Tr. 4957. Ms. Almeida testified
that she received an e-mail from the student’s mother
on the morning of May 5, 2011, stating that the student
was in a lot of pain and would not be able to make the
evaluation appointment. The parent spoke to Dr.
Hahn by telephone. Tr. 499.
By letter to the parents dated May 5, 2011, the district
scheduled an Initial/Annual Review CSE meeting for
May 25, 2011. Joint Ex. 42.
By letter dated May 5, 2011, Dr, Hahn wrote that he
enclosed “the summary of the psychiatric consultation” for the student. Joint Ex. 43. In the summary,
Dr. Hahn noted that the summary was requested by
the District “in order to understand the impact of any
underlying psychiatric issues upon this student’s
behavioral/academic functioning.” Joint Ex. 43-2
Dr. Hahn indicated that he had reviewed the student’s
records, consulted with district staff and had a
telephone conversation with the student’s mother. Dr.
Hahn wrote: “Upon consideration of the various interventions for [the student’s] chronic migraines and the
impact of his symptoms on his life, I explained that
perhaps it would be wise to re-frame his case and view
his symptoms as pain induced by chronic stressors.”
7

The parent stated that she did not contact Ms. Almeida the
day before because the parent thought that the student “would be
well enough. . . .” Dist. Ex. 21. The parent noted that the student
“did attend school the rest of the week.” Id. The parent asked to
reschedule the evaluation appointment. Tr. 496.

402a
Joint Ex. 43-2. Dr. Hahn noted that he discussed a
possible home visit that same day with the parent and
that they “concluded that there was no need to draw
more attention to his difficulties.” Id.
Dr. Hahn recommended an initial parent consultation
“with the Pediatric pain management team.” Dr.
Hahn thought that the student “may benefit from a
more holistic approach incorporating bio-feedback/
relaxation techniques, mindfulness training, and play
therapy.” Joint Ex. 43-3. Dr. Hahn noted that his
findings suggested that the student might respond
better to behavioral approaches to teach him how to
self-modulate his pain response, including access to an
outdoor adventure based program. Dr. Hahn suggested an opportunity to meet with the student and his
family if it can be arranged by the district. Joint Ex.
43-3.
By e-mail dated May 6, 2011, the parent informed Ms.
Almeida that she followed up on Dr. Hahn’s suggestion
for a consultation with Dr. Cynthia Pfeffer at New York
Presbyterian and made an appointment with a recommended specialist in “mind/body interactions and pain
disorders in children”. Dist. Ex. 22. The parent wrote
that she believed that Dr. Hahn’s “theories of pain are
just one piece of this puzzle. . . . After thinking about
this more, I do believe that it is important for Dr. Hahn
to meet [the student] if at all possible, before
submitting a consultation letter to the CSE. I know
that Dr. Hahn does not think that this is necessary, but
I think that it is important.” Dist. Ex. 22.

403a
By e-mail dated May 23, 2011, the student’s mother
wrote to Anne Edwards, the Northwood coordinator for
curriculum, that the student would be attending in the
fall. Dist. Ex. 55, Tr. 19261927. The student’s mother
stated with respect to that statement on the e-mail:
“It’s not true but that’s what I told her.” Tr. 1927.
The CSE meeting occurred on May 25, 2011, with Ms.
Almeida as chair. Tr. 649. The other participants
included the student’s mother, Richard Brodsky as
school psychologist, Elizabeth Kahn as special education teacher, Mark Bjornson as general education
teacher, Jackie Kilanowski, guidance counselor, Jane
Hitney, substitute school nurse, and Karin Roberts,
psychology intern. Joint Ex. 45. The parties stipulated
that no parent member was present at the meeting.
Tr. 1706-1707.
The CSE reviewed medical information on the student’s treatment and condition, Dr. Brodsky’s May
2010 psychoeducational evaluation, Dr. Hahn’s consultation letter, teacher reports and the parent’s social
history. Tr. 507. Ms. Almeida testified that the Committee did not feel that it had sufficient information to
reach any determination because it did not have either
a psychiatric report from Dr. Hahn or a report from
another doctor that the Committee had understood
would be evaluating the student. Tr. 507-508, 666. Ms.
Almeida further explained: “The information that we
had was medical in nature and it didn’t rule in or rule
out any psychological concerns that we had that we
would have needed to make a determination on
eligibility or to recommend an appropriate program for

404a
him.” Tr. 508. “To enable the committee to understand
[the student’s] needs and be able to make an appropriate decision on classification and an appropriate
recommendation for a program for him.” Tr. 663. “We
required information about his psychological functioning, his emotional well-being, and any mental impairment he may be suffering from that may have been
intervening or causing the physical condition.” Tr. 659.
Ms. Almeida explained that she needed that information because she had only a lot of medical information,
but “what seemed to always be a roadblock for me was
getting at the psychological part of it, and when I say
psychological I don’t mean cognitive functioning, I am
talking about mental—any mental contributing factors”. Tr. 661-662. The CSE needed information that
would give a clearer picture of the student’s emotional
needs. Ms. Almeida stated that the classification of
OHI does not require a psychiatric or emotional
component and it would have been possible to classify
the student as OHI at the time of the meeting. Tr. 662.
Ms. Almeida testified that the committee “[t]abled the
decision on eligibility pending receipt of the reports,
the psychiatric evaluation and the report from the
hospital.” Tr. 508.
Ms. Almeida stated that at the end of the CSE meeting,
the parent informed the CSE that she had decided to
place the student in a private school and that she
understood that it would not be at public expense. Ms.
Almeida stated that the parent still wanted the CSE
process to continue in the event that the private
placement did not work out. Tr. 510, 666-667.

405a
During the meeting Nurse Hitney took notes which she
typed up for Nurse McCrory who she was substituting
for. Dist. Ex. 25; Tr. 1390. Ms. Hitney wrote:
In a nutshell, no action was taken. Too many
questions: what would the classification be/
What program would he be in? Is he eligible?
The committee will reconvene late June/early
July once reports from Dr. Hahn and Dr.
Williams (Columbia Presb.) and others.
Dist. Ex. 25. Nurse Hitney’s notes also state that the
family “looked at a residential HS program in Lake
Placid, and [the student] liked it a lot. Would like to go
there. Family knows that the district will not send
him; it would be privately.” Joint Ex. 25.
A June 1, 2011, appointment was scheduled for the
student with Dr. Hahn, but was canceled. Tr. 510.
The parties stipulated that the student missed 105.5
school days during his eighth grade year. Tr. 262-263.
The parties stipulated that from March 2, 2011, the
student’s number of absences escalated. Tr. 264.
The District stipulated that the student received medicals as a final grade in English, Living Environment,
French, Home and Careers, Physical Education,
Computers. Tr. 1336-1337; Joint Ex. 70.
Kathleen Couglin, Director of Pupil Personnel Services, called the student’s mother in early July, 2011,
to discuss whether the parents wanted the CSE referral to proceed. Tr. 154-155, 1719. Ms. Couglin
informed the student’s mother that if the CSE referral

406a
proceeds, it was important to complete the psychiatric
evaluation and that Dr. Hahn had an appointment
available on July 19, 2011. Tr. 155, 1719.
Within a day or two, the student’s mother informed Ms.
Coughlin, by phone, that she would have her son
available for an appointment on July 19, 2011, and
that she wanted to proceed with the CSE process. Tr.
159, 1720-1721.
On July 19, 2011, the parent came to the district
without the student who she reported was at home
“huddled in a ball and very anxious” and was not going
to be able to participate. Tr. 160, see also Tr. 1723. She
explained that they would not try to schedule the
appointment with Dr. Hahn again because it would not
be productive and instead the parents would provide
reports from Dr. Williams and Dr. Robins, who the
student had been seeing. Tr. 1723. Ms. Coughlin
informed the parent that if another psychiatrist and
other clinicians who have been working with the
student could provide the CSE with some information,
Ms. Coughlin would schedule the CSE and use that
information for consideration in the decision. Tr. 162,
164. The student’s mother also informed Ms. Coughlin
that the parents hoped the student would be attending
Northwood, but they were not sure and wanted the
CSE to provide an appropriate placement for the 20112012 school year. Tr. 164, 1721.
On or about August 9, 2011, Ms. Coughlin telephoned
the parent, and discussed obtaining reports from the
parent and scheduling a CSE meeting. The parent felt

407a
strongly that the CSE should convene and make a
decision. The parent also discussed the potential of
privately placing her son and seeking tuition reimbursement. Tr. 168. Subsequently, Ms. Coughlin
received reports e-mailed from the parent on August
17, August 18, and August 24, 2011. Tr. 169-170. The
student’s mother forwarded a letter written by Dr.
Daniel Williams, (Joint Exs. 49, 50a), a letter from the
student’s pediatrician, Dr. Michael Lasser, (Joint Ex.
50b), and a letter from Dr. Andrew Robins (Joint Ex. 51a).
The CSE convened on August 26, 2011, with Ms.
Coughlin as chair, Dr. Richard Brodsky, school psychologist, Mr. Bugara a middle school science teacher8,
Ms Kissinger, a special education teacher and the
student’s mother. Tr. 174-175, 390, 391-392. At the
CSE meeting, the team reviewed the previously submitted documentation and acknowledged “the tremendous difficulty” the student had had in the prior year.
Tr. 180-181. The team then reviewed and considered
the letters provided by the parents. Ms. Couglin
testified:
Each spoke to a significant migraine disorder,
but all spoke to underpinnings of socialemotional need of whether it was anxiety, I
think one of them used a more general term
of stress and school being a trigger, but that
there was no question that was real
experienced pain, but it was—there was a
8

Ms. Coughlin identified Mr. Bugara as a teacher who had
taught the student (Tr. 184) but conceded that she did not know
that with certainty and later agreed that he did not. (Tr. 208).

408a
connection, a causal relationship to anxiety
and social-emotional need.
Tr. 181. During the discussion about the appropriate
classification for the student, Dr. Brodsky asserted
that the classification of emotional disturbance could
appropriately describe the specific and primary area of
need for the student while the parent advocated in
favor of a classification of other health impairment
since the doctors in at least two of the letters
referenced other health impairment and it was also by
definition a classification that could be used to describe
the student’s needs. Tr. 182. The team reached
consensus that the student was eligible as a student
with an other health impairment. Tr. 220, 392.
The CSE recommended a special class 8:1:1 as well as
counseling twice weekly in an individual session. Tr.
186.
Ms. Coughlin discussed placement options with the
parent. Tr. 179. The options discussed were through
BOCES, one in Southern Westchester and one in
Putnam Northern Westchester. “The specifics of the
level of service were for small class therapeutic
environment.” Tr. 180, 187-188.
The student’s mother testified that she gave notice to
the District that she was placing the student at
Northwood at public expense. Tr. 1740-1741. After the
CSE meeting the student’s mother gave verbal notice
to the Superintendent of Schools that the mother did
not think that the student “had enough support during
the 2010-2011 school year, did not have appropriate

409a
placement for the 2011-2012 school year, and that the
parents would be filing for due process and seeking
tuition at public expense.” Tr. 1740-1741.
Ms. Coughlin testified that she acknowledged that the
referral process to a particular placement would need
to be expedited, but that it would not occur by the first
day of school. Potential placements would be sent
packets of information about the student upon consent
of the parents. Tr. 190, 192-193. The intake processes
of the two programs contemplated typically expect to
meet the parents and student at a school visit. Tr. 194195. The student would be entitled to receive home
instruction until such time as a placement was
secured, a period of up to two weeks, according to Ms.
Coughlin. Tr. 393-394. The parent shared her feelings
about home instruction during the CSE meeting and
felt that the student needed to be in school and stated
that she felt they would proceed with placing the
student in Northwood School. Tr. 191, 396-397. Ms.
Coughlin did not ask the parent for consent to send out
packets of information to the proposed placements at
that time. Tr. 196. The parent was not given a draft of
the IEP at the end of the meeting. Tr. 398, 404.
Ms. Coughlin testified that she took minutes at the
meeting and entered them onto the form probably a
couple of days after the meeting. Tr. 178-179; Dist. Ex.
30.
The district received written notice, dated August 30,
2011, of the parents’ unilateral placement of the
student at Northwood. Joint Ex. 54; Tr. 197, 1741.

410a
By letter dated October 3, 2011, Ms. Coughlin wrote
the parents a letter, recapping what had occurred at
the CSE review up until that date and requested
parental consent to send the educational records to the
intake coordinators at the two BOCES programs
discussed at the CSE review. She stated that the
purpose of obtaining the consent was to “continue the
CSE process on behalf of your son and finalize an IEP
for him.” Joint Ex. 55-2; Tr. 198-199.
The parent returned a signed consent and requested,
in an e-mail dated October 17, 2011, that the district
redact all personally-identifying information from the
student’s records. The parent also noted that she had
been waiting for the draft IEP so that his Northwood
teachers, advisor and counselors could work on the
goals. Joint Ex. 56.
By letter dated October 21, 2011, Ms. Coughlin notified
the parents that she was able to redact most of the
information and informed the parents what information would have to remain in order to send out the
referral packets. Ms. Coughlin informed the parents
that once she received a response from the parents
indicating their approval to send the redacted referral
packets with the remaining identifying information,
she would do so. Tr. 201; Joint Ex. 57. Ms. Coughlin
recapped her perspective of what had transpired in
relation to a CSE referral or Section 504 referral from
the time the parents requested that the student’s
records be sent to Northwood to complete his application in March 2011 to the date of her letter. Joint Ex.
57. Ms. Coughlin informed the parent that consistent

411a
with what she had told the parent at the CSE review,
the student would have only a draft IEP until such
time that a special education day program was identified through the referral process and named on the
IEP. Joint Ex. 57-2. She further explained that the
IEP remains in draft form until a program name is
included on it and only then would the parent be
provided with a copy of the IEP. Id. Only a finalized
IEP would be presented to the Board of Education for
approval. Tr. 422.
Ms. Coughlin testified that on November 2, 2011, she
forwarded the referral packets to both Putnam BOCES
and Southern Westchester BOCES. Tr. 201-202, 398.
The programs informed Ms. Coughlin that the parents
visited the programs. Tr. 201-202. Personnel at Southern BOCES informed Ms. Coughlin that they would
need to see the student in order to make an acceptance
determination, but that the parents did not seem
inclined to have the student participate in the
admissions process. Tr. 202.
By letter dated December 6, 2011, the parents informed Ms. Couglin of their visits to the two proposed
placements and their impressions. The parents did not
find the placements to be appropriate and informed
Ms. Coughlin that they were keeping the student at
Northwood School for the 2011-2012 school year. Joint
Ex. 63.
As of the date of Ms. Coughlin’s testimony, February 7,
2012, no final IEP existed. Tr. 404.

412a
The District’s Position
The District’s position is that it took appropriate steps
to identify, locate, and evaluate the student, and
developed timely and appropriate Section 504 plans for
both the 2010-2011 and 2011-2012 school years. The
District presented testimony from Brooke Bolen and
Jackie Kilanowski, the student’s guidance counselors,
who testified that they, together with the school nurse,
teachers and administrators supported and accommodated the student’s academic needs while the student
suffered from serious medical issues. The District
contends that due to the parents’ unwillingness to
cooperate with the District’s efforts to schedule a
psychiatric evaluation of the student, they effectively
prevented the District from obtaining an evaluation
the District thought was necessary to develop an
appropriate IEP.
The Director of Pupil Personnel testified that in
preparation for the CSE review, she expected to obtain
a psychiatric evaluation that would have included
direct contact with the student and offered an informed opinion about a mental health diagnosis and
based on that diagnosis, recommendations about how
to move forward to serve the student. Tr. 148-149.
The Director of Pupil Personnel testified that the
information in Dr. Hahn’s report was insufficient for
the CSE to classify the student with an other health
impairment. Tr. 363. The committee was seeking the
completion of a psychiatric evaluation. Tr. 363. The
school psychologist and Assistant Director of Pupil
Personnel also testified that as part of the CSE, they

413a
did not feel that they had sufficient information to
make a determination about the student’s classification or his needs.
The District maintains that the parents’ failure to
bring the student to Dr. Hahn for an evaluation and
their subsequent submission of private evaluations in
August 2011, prevented the District from developing
an IEP in time for the start of the 2011-2012 school
year. Additionally, the District asserts that the parents’ premature unilateral placement of the student in
the Northwood School thwarted the District’s ability to
develop an IEP in a timely manner.
The District asserts that Northwood is not an
appropriate placement for the student because it does
not specifically address his special education needs
and therefore the parents should be denied reimbursement. Last the District maintains that equitable considerations weigh in favor of the District and the
parents request for reimbursement should be denied.
The Parents’ Position
For the 2010-2011 school year the parents claim that
the District failed to meet its Child Find obligations by
failing to identify the student as a student with a
disability under the IDEIA. Additionally the parents
assert that the District’s actions or inaction with respect to the student’s Section 504 accommodation plan,
rose to the level of bad faith or gross misjudgment, in
that the student never received counseling and
received no home instruction from November 12, 2010

414a
through April 10, 2011, although the student was
absent during that period for 58 days and his Section
504 accommodation plan provided for home instruction.
For the 2011-2012 school year the parents maintain
that the District denied the student a FAPE under the
IDEIA on procedural and substantive grounds. The
parents argue that the District did not complete its
CSE referral of the student within 60 days from obtaining consent. Additionally the parents assert that
the District offered no evidence regarding a proposed
placement for the 2011-2012 school year or how it
would meet the student’s needs.
The parents claim that their unilateral placement of
the student at Northwood School is appropriate to
meet the student’s special education needs and offer
proof of his good health, as well as his academic and
social progress there to support their position. The
parents also maintain that the equities weigh in their
favor for an award of tuition reimbursement as they
were consistently involved in the process and
cooperative with the District.
Applicable Legal Standards
Two purposes of the IDEA (20 U.S.C. §§ 1400-1482) are
(1) to ensure that students with disabilities have
available to them a FAPE that emphasizes special
education and related services designed to meet their
unique needs and prepare them for further education,
employment, and independent living; and (2) to ensure

415a
that the rights of students with disabilities and
parents of such students are protected (20 U.S.C.
§ 1400[d][1][A]-[B]; see generally Forest Grove v. T.A.,
129 S. Ct. 2484, 2491 [2009]; Board of Education of the
Hendrick Hudson Central School District v. Rowley,
458 U.S. 176, 206-07 [1982]).
To determine whether a school district provided an
appropriate education as required under IDEIA,
courts examine: 1) whether the school district complied
with the procedural requirements of the IDEA; and, 2)
whether the educational plan developed by the school
was “reasonably calculated to confer education benefits
to the child (Board of Education of the Hendrick
Hudson Central School District v. Rowley, 458 U.S. 176,
206-07 (1982)). While school districts are required to
comply with all IDEA procedures, not all procedural
errors render an IEP legally inadequate under the
IDEA (A.C. v. Bd. of Educ., 553 F.3d 165, 172 [2d Cir.
2009]; Grim v. Rhinebeck Cent. Sch. Dist., 346 F.3d 377,
381 [2d Cir. 2003]; Perricelli v. Carmel Cent. Sch. Dist.,
2007 WL 465211, at *10 [S.D.N.Y. Feb. 9, 2007]). Under
the IDEA, if a procedural violation is alleged, an
administrative officer may find that a student did not
receive a FAPE only if the procedural inadequacies (a)
impeded the student’s right to a FAPE, (b) significantly
impeded the parents’ opportunity to participate in the
decision-making process regarding the provision of a
FAPE to the student, or (c) caused a deprivation of
educational benefits (20 U.S.C. § 1415[f ][3][E][ii]; 34
C.F.R. § 300.513[a][2]; 8 NYCRR 200.5[j][4][ii]; Winkelman v. Parma City Sch. Dist., 550 U.S. 516, 525-26

416a
[2007]; A.H. v. Dep’t of Educ., 2010 WL 3242234, at *2
[2d Cir. Aug. 16, 2010]; E.H. v. Bd. of Educ., 2008 WL
3930028, at *7 [N.D.N.Y. Aug. 21, 2008]; Matrejek v.
Brewster Cent. Sch. Dist., 471 F. Supp. 2d 415, 419
[S.D.N.Y. 2007] affd. 2008 WL 3852180 [2d Cir. Aug. 19,
2008]).
The IDEA directs that, in general, an impartial hearing officer’s decision must be made on substantive
grounds based on a determination of whether the
student received a FAPE (20 U.S.C. § 1415[f ][3][E][i]).
A school district offers a FAPE “by providing personalized instruction with sufficient support services
to permit the child to benefit educationally from that
instruction” (Rowley, 458 U.S. at 203). However, the
“IDEA does not itself articulate any specific level of
educational benefits that must be provided through an
IEP” (Walczak v. Florida Union Free Sch. Dist., 142
F.3d 119, 130 [2d Cir. 1998]; see Rowley, 458 U.S. at
189). A school district must provide “an IEP that is
‘likely to produce progress, not regression,’ and . . .
affords the student with an opportunity greater than
mere ‘trivial advancement’ (Cerra, 427 F.3d at 195,
quoting Walczak, 142 F.3d at 130 [citations omitted];
see P. v. Newington Bd. of Educ., 546 F.3d 111, 118-19
[2d Cir. 2008]; Perricelli, 2007 WL 465211, at * 15). The
IEP must be “reasonably calculated to provide some
‘meaningful’ benefit” (Mrs. B. v. Milford Bd. of Educ.,
103 F.3d 1114, 1120 [2d Cir. 1997]; see Rowley, 458 U.S.
at 192). The student’s recommended program must
also be provided in the LRE (20 U.S.C. § 1412[a][5][A];
34 C.F.R. §§ 300.114[a][2][i], 300.116[a][2]; 8 NYCRR

417a
200.1[cc], 200.6[a][1]; see Newington, 546 F.3d at 114;
Gagliardo v. Arlington Cent. Sch. Dist., 489 F.3d 105,
108 [2d Cir. 2007]; Walczak, 142 F.3d at 132; E.G. v. City
Sch. Dist. of New Rochelle, 606 F. Supp. 2d 384, 388
[S.D.N.Y. 2009].
An appropriate educational program begins with an
IEP that accurately reflects the results of evaluations to
identify the student’s needs (34 C.F.R. § 300.320[a][1]; 8
NYCRR 200.4[d][2][i]; Tarlowe v. Dep’t of Educ., 2008
WL 2736027, at *6 [S.D.N.Y. July 3, 2008]), establishes
annual goals related to those needs (34 C.F.R.
§ 300.320[a][2]; 8 NYCRR 200.4[d][2] [iii]), and provides
for the use of appropriate special education services (34
C.F.R. § 300.320[a][4]; 8 NYCRR 200.4[d][2][v]; see
Application of the Dep’t of Educ., Appeal No. 07-018;
Application of a Child with a Disability, Appeal No. 06059; Application of the Dep’t of Educ., Appeal No. 06029; Application of a Child with a Disability, Appeal
No. 04-046; Application of a Child with a Disability,
Appeal No. 02-014.
The burden of proof is on the school district during an
impartial hearing, except that a parent seeking tuition
reimbursement for a unilateral placement has the
burden of proof regarding the appropriateness of such
placement. Educ. Law § 4404[1][c].

418a
Findings of Fact and Conclusions of Law
2010-2011
For the 2010-2011 school year, the Hendrick
Hudson School District Failed to Provide the
Student a Free and Appropriate Public
Education.
Here, the District failed to provide the student with a
FAPE by failing in its obligation to identify the student
as a student suspected of having a disability, failing to
evaluate the student as a consequence of that obligation, and failing to classify the student as a student
with a disability and develop an appropriate IEP. I
find that the District’s failure to convene a CSE to
review the information available to the District, determine if additional evaluations were necessary, and
complete the procedures required to identify students
with disabilities, resulted in the denial of a FAPE.
The District Violated its Child Find Obligations
The District had a duty to fulfill its child find obligations under the IDEA and Section 504. The purpose
of the “child find” provisions of the IDEA are to identify,
locate, and evaluate students who are suspected of
being a student with a disability and thereby may be
in need of special education and related services, but
for whom no determination of eligibility as a student
with a disability has been made. See Handberry v.
Thompson, 446. F.3d 335, 347-48 [2d Cir. 2006]; A.P. v.
Woodstock Bd. of Educ., 572 F.Supp.2d 221, 225 [D.
Conn. 2008] affd 2010 WL 1049297 [2d Cir. March 23,

419a
2010]; see also 20 U.S.C. § 1412[a][3][A]; 34 C.F.R.
§ 300.111; 8 NYCRR 200.2[a][7]. The IDEA places an
affirmative duty on State and local educational agencies to identify, locate, and evaluate all children with
disabilities residing in the State “to ensure that they
receive needed special education services.” 20 U.S.C.
§ 1412[a][3]; 34 C.F.R. § 300.111[a][1][i]; Forest Grove,
129 S. Ct. at 2495; see 20 U.S.C. § 1412[a][10][A][ii];
see also 8 NYCRR 200.2[a][7]; New Paltz Cent. Sch.
Dist. v. St. Pierre, 307 F. Supp. 2d 394, 400, n.13
[N.D.N.Y. 2004]. The “child find” requirements apply
to “children who are suspected of being a child with a
disability . . . and in need of special education, even
though they are advancing from grade to grade” (34
C.F.R. § 300.111[c][1]; see 8 NYCRR 200.2[a][7]). To
satisfy the requirements, a board of education must
have procedures in place that will enable it to find such
children. Application of a Student Suspected of Having a Disability, Appeal No. 10-009; Application of a
Student Suspected of Having a Disability, Appeal No.
09-132; Application of a Child with a Disability,
Appeal No. 07-062; Application of a Child Suspected
of Having a Disability, Appeal No. 05-090.
The District’s child find obligation is an affirmative
one. A district’s child find duty is triggered when there
is “reason to suspect a disability and reason to suspect
that special education services may be needed to
address that disability.” New Paltz, 307 F. Supp. 2d at
400, n.13, quoting Dep’t of Educ. v. Can Rae S., 158
F. Supp. 2d 1190, 1194 [D. Haw. 2001]; see Application
of a Student Suspected of Having a Disability, Appeal

420a
No. 11-092 & 11-094; Application of a Child Suspected
of Having a Disability, Appeal No. 06-092; Application
of a Child Suspected of Having a Disability, Appeal No.
06-087; Application of a Child Suspected of Having a
Disability, Appeal No. 05-127; Application of a Child
Suspected of Having a Disability, Appeal No. 05-040;
Application of a Child Suspected of Having a Disability, Appeal No. 04087; Application of the Bd. of
Educ., Appeal No. 04-037; Application of a Child with
a Disability, Appeal No. 03-043; Application of a Child
with a Disability, Appeal No. 02-092; Application of a
Child Suspected of Having a Disability, Appeal No.
01-082. To determine that a child find violation has
occurred, school officials must have overlooked clear
signs of disability and been negligent by failing to
order testing, or have no rational justification for
deciding not to evaluate. A.P., 572 F.Supp.2d at 225,
quoting Bd. of Educ. v. L.M., 478 F.3d 307, 313 [6th Cir.
2007].
The parents argue that the District failed to provide
FAPE for the 2010-2011 school year because the
information available to the District as of the time it
had the results of Dr. Brodsky’s psycho-educational
evaluation and the cumulative information available
to it at the June 14, 2010, Section 504 meeting, triggered the District’s child find obligation. The record
supports the finding that the District did not fulfill its
child find obligation for the 2010-2011 school year,
however the weight of the evidence shows that based

421a
on the information available to the District, the
District’s obligation was triggered at a later date.9
By January 3 of the 2010-2011 school year the District
had sufficient information to suspect that the student
had a disability and to trigger its child find obligation.
The record demonstrates that by that time, the student
had a pattern of missing school for an increasing
numbers of days over the sixth, seventh and eighth
grades for, at a minimum, health problems that were
having an impact on his education by virtue of the fact
that he was not attending school and could not
complete his work. The student had dropped his
advanced English class. Tr. 1681; Joint Ex. 70, and
numerous teachers reported that he was missing
assignments or that they would not be able to grade
him due to his failure to turn in sufficient work. Joint
Ex. 18.
By January 3, 2011, the District was or should have
been aware that by June 14, 2010, the student had
missed approximately 30 days of school in the seventh
grade. Joint Ex. 8-3, Joint Ex. 69. The same pattern
emerged in eighth grade with the student missing
approximately 27 days from September to December.
Joint Ex. 67. The April 2010, Section 504 referral form
indicates that the District was aware that the student
had headaches, was taking prescription medication to
9

It is noted that on the social history submitted by the
parent in relation to the initial 504 referral, the parent indicated
that she did not want to further discuss the CSE process.
Although the 504 Committee did have Dr. Brodsky’s findings on
the BASC-2.

422a
address them, had organization issues, and had only
“fair” ratings related to behavioral adjustment and
relationships with peers and adults. Dist. Ex. 1. The
record reflects that the parent informed the nurse on a
daily basis if the student was absent and the reasons
for the absence. Tr. 1661. The record also shows that
the guidance counselor was aware of the student’s
absences because she checked in with the student
when he was present, arranged for his homework to be
sent home, monitored its return and arranged home
instruction. Tr. 1232-1233, 1236, 1240, 1257-1258.
In early December 2010, the student’s mother reached
out to Dr. Brodsky for counseling and the possibility of
other interventions. Even in the face of conflicting
signals from the parents, the District should have
heeded the mother’s initial call for help and if it was
not clear what the parent wanted, under the circumstances of such excessive absenteeism, the District
had the obligation to find out.10 The existing District
psycho-educational evaluation coupled with the student’s continued absences should have put the District
on notice that the student might be a student with a
10

While the parent sought the school psychologist’s help to
reach out to her son, once her son expressed resistance to the idea,
the parent promptly contacted the school psychologist and told
him that she did not think that the talk was necessary. Dist. Ex.
6. Additionally, while the parent expressed urgency in a
December 14, 2010, request for a 504 meeting, when the District
offered an almost immediate date, the parent opted for a meeting
date 2-3 weeks later., and instead chose to again have a more
immediate meeting with the student’s teachers to address the
student’s missed school work. Tr. 1893-1894.

423a
disability. The BASC-2 results from the previous
spring contained the clinically significant score related
to somatization and an at risk score for the student’s
attitude toward school. While it may have been reasonable to interpret those results in a particular light
and develop the specific accommodations on the 504
plan back on June 14, 2010, by January 3, 2011, the
plan clearly was insufficient to meet the student’s
needs. The plan was not succeeding in getting the student to school and the District had an obligation to
identify the student, evaluate him and learn why.
All of this information should have given rise to a
suspicion that the student was a child with a disability
and regardless of whatever theories any particular
individual may have had with respect to the student’s
absences the District had an obligation to identify the
student, make a CSE referral, obtain parental consent,
conduct their own evaluations, convene a CSE, and
make a recommendation regarding the student’s eligibility for services.
Additionally, whatever procedures the District maintains that it had in place, with respect to its child find
procedures, the nurse did not refer the student to the
CSE and the student’s Section 504 case manager was
unfamiliar with the term and appeared to have no
knowledge of its requirements, see Tr. 1225-1226, 1357.
Moreover, the Director of Pupil Personnel Services,
wrote to the parents that the District had fulfilled its
child find obligations in relation to the student on June
14, 2010, “when it found [the student] eligible under
Section 504 of the Americans with Disabilities Act.”

424a
Joint Ex. 61. A district’s child find obligations under
the IDEIA are not satisfied by the provision of a
Section 504 plan under the Rehabilitation Act. See El
Paso Indep. Sch. Dist. v. Richard R., 567 F.Supp.2d. 918,
950 (W.D. Tex. 2008); D.G. BNF B.G., 2011 WL 2118813
at *8. The District, therefore, also did not meet its
burden to prove that it had adequate procedures in
place to meet its child find requirements.
Accordingly, the District failed to provide the student
with a FAPE for the 2010-2011 school year because it
failed to fulfill its child find obligations.
For part of the 2010-2011 school year, the District
Failed to Provide the Student with a FAPE by
Failing to Evaluate Him, Classify Him and
Provide Him with an Appropriate IEP or Special
Education Services.
The preferable remedy where the District has failed to
evaluate a student, conduct a proper CSE review, and
make an eligibility determination, would be to remand
the case to the CSE for those steps to be taken.
However, the timing of this case precludes that from
being an efficacious alternative. The evidence in the
record can serve as a basis for making that determination retrospectively.
For the 2010-2011 school year, by January 3, 2011,
the information available to the District included:
the student’s numerous absences from sixth, seventh
and eighth grades, the increase in the frequency of
the student’s absences, the results of Dr. Brodsky’s

425a
Psycho-educational Evaluation with the findings of a
significant score for somatization and at risk score for
attitude toward school, Dr. Jacobson’s diagnosis of the
student with mixed headache disorder and migraines,
the student’s mother’s Social History about the impact
of the headaches and absences on the student’s study,
social and organizational skills, the notation on the
Weill Cornell Neurology report that there “may be
stress and exercise precipitants”, the teachers’ reports
regarding the student’s performance made in preparation for the January 5, 2011, 504 review, and the failure
of the existing 504 plan to sufficiently improve the
student’s educational performance.11
Based on the information available to the District, the
evidence in the record supports the finding that if the
CSE had convened, the student met the criteria for the
classification of other health impairment.
Other health impairment is defined as:
“having limited strength, vitality or alertness,
including a heightened alertness to environmental stimuli, that results in limited
alertness with respect to the educational
environment, that is due to chronic or acute
health problems, including but not limited to
a heart condition, tuberculosis, rheumatic
fever, nephritis, asthma, sickle cell anemia,
11

The fact that on November 2, 2010, Dr. Jacobson noted to
Dr. Lasser that the student was receiving accommodations in
school “which are helping at least to mitigate some of the
problems with missing school” did not mean that the 504 plan was
sufficiently addressing the student’s needs. Parent Ex. YY-65

426a
hemophilia, epilepsy, lead poisoning, leukemia, diabetes, attention deficit disorder or
attention deficit hyperactivity disorder or
tourette syndrome, which adversely affects a
student’s educational performance.”
8 NYCRR 200.1(zz)(10).
The student clearly had limited strength or vitality as
his headaches completely debilitated him and certainly resulted in “limited alertness with respect to the
educational environment.” In fact, the student either
could not even make it to school or when he did, he
often would go to the nurse or leave after a limited
amount of time. Joint Ex. 8. The cause, at that time
was thought to be a headache disorder, of a degree or
severity that could be considered chronic or acute, such
as the list of conditions included by example. Last, the
student’s headaches most certainly adversely affected
his educational performance since he had to drop an
advanced English course and was receiving medical
excuses in lieu of grades, meaning that he would not
earn credit for those courses.
Rather than agree to cancel the 504 meeting the
District had scheduled for January 5, 2011, the District
should have reviewed the reports completed by the
teachers in preparation for that meeting instead of
ignoring them, considered all of the information it had
in its possession, made a referral to the CSE, and ask
the parent for consent to evaluate the student. The
District’s failure to classify the student or provide him
with services in the required time frame was a denial
of FAPE.

427a
Parents’ Request for Relief for the 2010-2011
School Year
Having found that the District deprived the student of
a FAPE for a portion of the 2010-2011 school year, a
determination must be made as to whether there is an
appropriate remedy. The parents have asked that they
be awarded 200 hours of compensatory education
services for the hours of home instruction the parents
claim the student was owed but did not receive, 20
hours of compensatory counseling, and reimbursement
of counseling services provided to the student by Dr.
Robins and Dr. Williams.
As an equitable remedy, an impartial hearing officer
may order a district to pay costs for unapproved
services to allow parents to be reimbursed once they
have obtained and paid for appropriate services. See
Application of NYC Department of Education, No. 05073 (citing 20 U.S.C. 1412[a][10][C][ii]; 34 C.F.R.
§ 300.403[c]; see generally Sch. Comm. of Burlington v.
Dep’t of Educ., 471 U.S. 359, 370-71 [1985]; A.A. v. Bd.
of Educ., 196 F. Supp. 2d 259, 264 [E.D.N.Y. 2002];
Application of a Child with a Disability, Appeal No. 05039, at n.7; Application of a Child with a Disability,
Appeal No. 05-025, at n.1; Application of a Child with
a Disability, Appeal No. 04-092; Application of the Bd.
of Educ., Appeal No. 04-037). “Reimbursement merely
requires [a district] to belatedly pay expenses that it
should have paid all along and would have borne in
the first instance” had it offered the student a FAPE.
Burlington, 471 U.S. at 37071; see 20 U.S.C.
§ 1412[a][10][C][ii]; 34 C.F.R. § 300.148.

428a
With respect to the sessions provided by Dr. Williams,
the District shall reimburse the parents for those
sessions that provided Dr. Williams the diagnostic
information he relied upon to prepare his evaluation
report dated August 11, 2011, which the District relied
upon for making the student’s eligibility determination and to develop his IEP. Evaluative and diagnostic
services provided by a licensed physician to determine
whether the student has a medically related disability
which may result in the student’s need for special
education and related services are considered related
services. Accordingly, upon presentation of proof of
those services provided and their costs from May 18,
2011 up until the date of the report, August 11, 2011,
the District shall reimburse the parents for those
expenses.
With respect to the counseling sessions provided by Dr.
Robins, the student was certainly entitled to receive
counseling from the beginning of January 2011, when
the District should have referred the student for
evaluation and developed the student’s IEP. The student’s need for school-based counseling that was
recognized by the District during the May 25, 2011,
Section 504 meeting participants only corroborates a
finding that the student had a prior need for counseling that could have been addressed by a 504 accommodation plan. Accordingly, the parents are entitled to
reimbursement for the five sessions documented in Dr.
Robin’s letter dated August 19, 2011. Joint Ex. 51.
Compensatory education may be awarded to students
still eligible for services but who have not received

429a
FAPE. P. v. Newington, 546 F.3d 111 (2d Cir. 2008).
Compensatory education is an “equitable” remedy that
should be designed to “compensate” a student for
missed services. Student X v. New York City Dep’t. of
Educ., 2008 WL 4890440, at 26 (E.D.N.Y. 2008). This
standard is similar to the standards articulated by
other courts—the idea that compensatory education
should provide services to try to place the student in
the same position s/he would be in if the denial of
FAPE had not occurred. Id. Further, in determining
an award of compensatory education or make-up
services, most courts seek to ascertain the child’s needs
at the time the relief is sought. Reid ex rel Reid v.
District of Columbia, 401 F.3d 516, 43 IDELR 32 (D.C.
Cir. 2005).
The evidence establishes that the student was entitled
to two hours of home instruction for every day that he
missed school. The home instruction was intended to
teach the student the eighth grade curriculum for the
courses he was taking. With respect to the 200 hours
of home instruction that the student did not receive,
regardless of the reasons, the parent has not offered
any evidence that the student is in need of academic
remediation. Neither the student’s mother nor the
student’s Northwood counselor indicated that the
student was academically behind. The evidence shows
that the student’s lower grades were due to his failure
to turn in work on time and organization issues. The
parents’ request for 200 hours of compensatory
education services is denied.

430a
The student was entitled to counseling which he did
not receive. The evidence supports the finding that the
student has emotional needs related to the stressors
that trigger his migraines and needs counseling.
Accordingly, he is entitled to an additional fifteen
hours of counseling, the twenty hours claimed by the
parents less the five hours they are being reimbursed
for the five previous hours provided by Dr. Robins.
2011-2012
For the 2011-2012 school year, the Hendrick
Hudson School District Failed to Provide the
Student a Free and Appropriate Public
Education.
A board of education may be required to reimburse
parents for their expenditures for private educational
services obtained for a student by his or her parents, if
the services offered by the board of education were
inadequate or inappropriate, the services selected by
the parents were appropriate, and equitable considerations support the parents’ claim. Florence County Sch.
Dist. Four v. Carter, 510 U.S. 7 [1993]; Sch. Comm. of
Burlington v. Dep’t of Educ., 471 U.S. 359, 369-70
[1985]. In Burlington, the Court found that Congress
intended retroactive reimbursement to parents by
school officials as an available remedy in a proper case
under the IDEA (471 U.S. at 370-71; Gagliardo v.
Arlington Cent. Sch. Dist., 489 F.3d 105, 111 [2d Cir.
2007]; Cerra v. Pawling Cent. Sch. Dist., 427 F.3d 186,
192 [2d Cir. 2005]). “Reimbursement merely requires
[a district] to belatedly pay expenses that it should

431a
have paid all along and would have borne in the
first instance” had it offered the student a FAPE.
Burlington, 471 U.S. at 370-71; see 20 U.S.C. § 1412
[a][10][C][ii]; 34 C.F.R. § 300.148.
Procedural Violations
As set forth above, a procedural violation constitutes a
denial of a FAPE only if procedural inadequacies either
result in a loss of educational opportunity for the
student, seriously infringe on the parents’ opportunity
to participate in formulating the IEP, or compromise
the development of an appropriate IEP in a way that
deprives the student of educational benefits. 20 U.S.C.
§ 1415[f ][3][E][ii]; 34 C.F.R. § 300.513[a][2]; 8 NYCRR
200.5[j][4][ii]; See Werner v. Clarkstown Cent. Sch.
Dist., 363 F. Supp.2d 656, 659 (S.D.N.Y. 2005). The importance of the IDEA’s procedural provisions was
highlighted by the Rowley Court when it stated: “[t]he
initial procedural inquiry is no mere formality” Id.
“Adequate compliance with the procedures prescribed
[by IDEA] would, in most cases assure much, if not all,
of what Congress wished in the way of substantive
content in an IEP” (Rowley, 458 U.S. at 206).
Timely Evaluation and Development of IEP
The District violated significant procedural requirements depriving the student of a FAPE. The District
failed to timely complete its evaluation of the student
within 60 days and to provide a recommendation to the
board of education in order for it to arrange for the
appropriate special education programs and services

432a
to be provided to the student within 60 school days.
The regulations provide that “[t]he individual evaluation shall be completed within 60 days of receipt of
consent unless extended by mutual agreement of the
student’s parents and the CSE pursuant to sections
200.4(b)(7)(i) and 200.4(j)(1) of this Part.” 8 NYCRR
Sec. 200.4(b)(1). For a student who previously has not
been identified as having a disability, such as the
student in this case, the board of education must implement the student’s IEP within 60 days of the receipt
of consent to evaluate. 8 NYCRR 200.4(e)(1); see also
8 NYCRR 200.4(d). Here, the parents made the
referral on April 13, 2011, and signed consent on April
15, 2011. Joint Ex. 32; Joint Ex. 33. The CSE made a
determination to classify the student on August 26,
2011 – 133 days later, well beyond the mandated 60
days.
The District argues that the parents repeatedly failed
or refused to produce the student for the psychiatric
evaluation, an explicit exception to the 60 day requirement for an initial evaluation.12 8 NYCRR 200.4(b)(7)(ii)
states: “The initial evaluation to determine if a student
is a student with a disability must be completed within
60 days of receiving parental consent for the evaluation. The 60 day time frame shall not apply if: the

12

The parent argues that 8 NYCRR Sec. 200.4(b)(7)(ii)
should not be considered since it is not identified as an exception
within Sec. 200.4(b)(1), which does expressly identify Sec.
200.4(b)(7)(i). The plain meaning of 8 NYCRR Sec. 200.4(b)(7)(ii)
creates an exception under the circumstances described.

433a
parent of a student repeatedly fails or refuses to
produce the student for the evaluation.”
The District argues that the Section 504 committee
that met on April 15, 2011, recommended that a
psychiatric evaluation be conducted as part of the CSE
referral process. Tr. 488-489; Joint Ex. 35-2. While the
parent disputes who originally suggested the necessity
of a psychiatric evaluation and that the District did not
put the request for evaluation in writing, the fact
remains that the 504 plan notes that the recommendation was made and the parent signed consent on April
15, 2011. The District argues that three attempts were
made to schedule the evaluation, however, the parents
failed to produce the student on each of those scheduled dates. The student’s mother testified that on each
of the scheduled dates the student had a migraine, she
could not convince him to go, and she could not forcibly
carry him. On May 5, 2011, the first scheduled date,
the weight of the evidence shows that the student’s
mother and Dr. Hahn together decided that it would
not be productive for Dr. Hahn to visit the student at
home, an option the parent was amenable to arranging.
Dr. Hahn wrote: “We discussed if conducting a home
visit today was helpful and concluded that there was
no need to draw more attention to his difficulties.”
Joint Ex.43; Tr. 1699-1703. Evidence in support of this
finding lies in the fact that the student’s mother
immediately followed up on the recommendation made
to her by Dr. Hahn during their May 5, 2011 telephone
conversation. Dist. Exh. 22. On the second scheduled
date, June 1, 2011, the student had a debilitating

434a
migraine and the parent was unable to bring him to
Dr. Hahn’s office. On July 19, 2011, the student’s
mother explained that the student had seemed fine
earlier in the day and when she attempted to have
them leave for the scheduled appointment at the
District, the student’s reaction and refusal to go was so
extreme that it frightened her. Tr. 1722. Given the
difficulty the parent was having in bringing the student to Dr. Hahn, if the District thought that the
evaluation was critical to reaching a CSE determination, the District had the affirmative obligation to get
the evaluation conducted even if it meant sending a
psychiatrist to the student’s home. Weighing the
circumstances as a whole, the provisions of 8 NYCRR
200.4(b)(7)(ii), do not apply and the CSE failed to
timely evaluate the student and make its recommendation.
Thus, the District’s failure to make a timely evaluation
and recommendation adversely impacted the student
because it significantly delayed any consideration of
his classification and the development of his IEP. In
fact, the District still has not given the parent a final
IEP. The procedural violation, in this instance, resulted in a denial of a FAPE.
CSE Composition
Parent Member
The parents assert that the CSE was improperly
constituted because there was no parent member
present at either the May 25, 2011, or the August 26,

435a
2011, CSE meeting. See also Joint Ex. 45, Joint Ex. 52.
New York State law requires the presence of an additional parent member at the CSE meeting that formulates a student’s IEP (Educ. Law § 4402[1][b][1][a];
8 NYCRR 200.3[a][1][viii].
The parties stipulated that no parent member was
present at the meeting. Tr. 1706-1707. The student’s
mother testified that she would have benefited from
the presence of a parent member because the meeting
was very difficult for her and the parent member would
have provided support, advocated for the parent and
would have noted the need to classify the student
immediately. Tr. 1707-1708. The student’s mother
testified that she is aware that you could request a
CSE meeting be adjourned if a parent member is not
available, but did not think of it then. Tr. 1948. The
student’ mother did not raise a concern about the
absence of the parent member because her “main
concern was going forward with the meeting. Tr. 1949.
With respect to the August 26, 2012, CSE the student’s
mother testified that she would have benefited from
the presence of a parent member because the district
was proposing a more restrictive placement and “it was
difficult to know exactly how to approach the meeting
because no one at the meeting really knew [the
student] except me. I didn’t feel like there was an
understanding. A parent member would have been
helpful in providing support and being an advocate.”
Tr. 1726.
While the presence of a parent member might have
been a source of support or comfort to the parent, the

436a
absence of the parent member under the circumstance
does not rise to a procedural violation that deprived
the student of a FAPE. The hearing record indicates
that the student’s mother was able to actively
participate at both the May 25, 2011, and August 26,
2011, CSE meetings, and did so, stating her beliefs that
the student required classification, that the information that the CSE had was sufficient to classify the
student as other health impaired at the first meeting,
and successfully advanced her belief that other health
impaired was the appropriate classification rather
than emotionally disturbed, at the second meeting.
Under the circumstances I find that the lack of an
additional parent member did not impede the student’s right to a FAPE, significantly impede the
parents’ opportunity to participate in the decisionmaking process regarding the provision of a FAPE to
the student, or cause a deprivation of educational
benefits to the student (W.S. v. Nyack Union Free Sch.
Dist., 2011 WL 1332188, at *8-*9 [S.D.N.Y. Mar. 30,
2011]; see 20 U.S.C. § 1415[f ][3][E][ii]; 34 CFR
300.513[a][2]; 8 NYCRR 200.5[j][4][ii]; Winkelman,
550 U.S. at 525-26; A.H., 2010 WL 3242234, at *2; E.H.,
2008 WL 3930028, at *7; Matrejek, 471 F. Supp. 2d at
419).
Special Education Teacher or Provider
The IDEIA requires that an IEP be developed by a
group of individuals including at least one special
education teacher, or where appropriate, at least one
special education provider of such child (20 U.S.C.

437a
§ 1414[d][1][B][iii]; see 34 C.F.R. § 300.344[a]; 8 NYCRR
200.3[a][1][iii]). The Official Analysis of Comments to
the federal regulations indicates that the special
education teacher or provider “should” be the person
who is or will be responsible for implementing the
student’s IEP (IEP Team, 71 Fed. Reg. 46670 [Aug. 14,
2006]).
In Application of a Child with a Disability, Appeal No.
00-031, the State Review Officer held that the student’s special education teacher member of a CSE
could be the student’s private school teacher, a special
education teacher who was likely to implement the
student’s IEP, or the student’s related service provider.
He noted that it was unreasonable to expect a board of
education to designate the special education teacher
who would be a student’s teacher before the CSE had
met to even determine the student’s needs. He went
on, however, to point out that it was reasonable to
expect that a board of education would have sufficient
information about the student to designate a special
education teacher who was not only appropriately
certified to teach the student, but was also teaching in
one of the programs which might be appropriate for the
student. (Application of a Child with a Disability,
Appeal No. 05-087).
There is no evidence in the record that the special
education teacher who participated in the CSE meeting was remotely familiar with the student or had any
experience in the types of programs under consideration for the student. (20 U.S.C. § 1415[f ][3][E][ii]; see
34 CFR 300.513; 8 NYCRR 200.5[j][4]). Coupled with

438a
the fact that no one at the meeting besides the
student’s mother really knew the student and no one
seemed to have substantive information about the
possible programs and placements, the failure to
provide an appropriately qualified special education
teacher is found to have caused a loss of educational
benefit, impacted adversely on the parent’s participation and compromised the development of an
appropriate IEP.
Regular Education Teacher
The IDEIA requires a CSE to include, among others,
not less than one regular education teacher of the
student if the student is or may be attending a general
education environment (20 U.S.C. § 1414[d][1][B][ii];
see 34 C.F.R § 300.321[a][2]; 8 NYCRR 200.3[a][1][ii]).
The regular education teacher “shall, to the extent
appropriate, participate in the development of the IEP
of the child, including the determination of appropriate
positive behavioral interventions and supports and
other strategies and supplementary aids and services,
program modifications, and support for school personnel” (20 U.S.C. § 1414[d][3][C]; 34 C.F.R. § 300.324[a][3];
8 NYCRR 200.3[d]). The New York State regulations
require that a general education teacher participate in
the CSE whenever the student is or may be participating in general education. 8 NYCRR 200.3(a)(1)(ii).
The record establishes that the general education
teacher had no familiarity with the student. Since the
student always had been a general education student

439a
and the recommended program was a special education program, the District should have had a teacher
present who was familiar with the student and who
meaningfully could participate in the development of
the student’s IEP. Taken together with the failure of
the district to provide the requisite type of special
education teacher, the failure to provide a general
education teacher who was familiar with the student
deprived the student of a FAPE.
Substantive Violations
No Placement Offered
The District did not put on any evidence to prove that
it offered an appropriate placement to the student for
the 2011-2012 school year. Although the District
argues that the parents’ actions prevented it from
offering a timely appropriate placement, my finding
with respect to the parents’ actions and the psychiatric
evaluation are applicable here as well. The District
also argues that the parents’ unilateral placement of
the student was premature and prevented the District
from making a timely offer. The record does not
support this finding. Accordingly, for failure to offer
the student a placement for the 2011-2012 school year,
the District denied the student a FAPE.
Once a determination is made that the District failed
to provide the student with a FAPE, the analysis turns
to whether the parents’ unilateral placement is
appropriate.

440a
Prong 2: The parents did not meet their burden
of proof to show that Northwood School was an
appropriate placement for the student.
The well established standard parents must meet to
prove the appropriateness of their placement is that
“the placement provides educational instruction specially designed to meet the unique needs of a handicapped child, supported by such services as are
necessary to permit the child to benefit from instruction.” (Gagliardo, 489 F.3d at 112; see Frank G., 459
F.3d at 364-65). When determining whether the parents’ unilateral placement is appropriate, “[u]ltimately,
the issue turns on” whether that placement is
“reasonably calculated to enable the child to receive
educational benefits” (Frank G., 459 F.3d at 364; see
Gagliardo, 489 F.3d at 115 [citing Berger v. Medina
City Sch. Dist., 348 F.3d 513, 522 [6th Cir. 2003]
[stating “evidence of academic progress at a private
school does not itself establish that the private placement offers adequate and appropriate education under
the IDEA”]). A “private placement is only appropriate
if it provides ‘education instruction specifically designed to meet the unique needs of a handicapped
child’ ” (Gagliardo, 489 F.3d at 115 [emphasis in original], citing Frank G., 459 F.3d at 365 quoting Rowley,
458 U.S. at 188-89; see also, 20 U.S.C. § 1401[29]; 34
C.F.R. § 300.39[a][1]; Educ. Law § 4401[1]; 8 NYCRR
200.1[ww]; Stevens v. New York City Dep’t of Educ.,
2010 WL 1005165, *9 [S.D.N.Y. Mar. 18, 2010]).
A parent’s failure to select a program approved by the
State in favor of an unapproved option is not itself a

441a
bar to reimbursement. Carter, 510 U.S. at 14. The private school need not employ certified special education
teachers or have its own IEP for the student. Carter,
510 U.S. 7; Application of the Bd. of Educ., Appeal No.
08-085; Application of the Dep’t of Educ., Appeal No.
08-025; Application of the Bd. of Educ., Appeal No. 08016; Application of the Bd. of Educ., Appeal No. 07-097;
Application of a Child with a Disability, Appeal No. 07038; Application of a Child with a Disability, Appeal
No. 02-014; Application of a Child with a Disability,
Appeal No. 01-105. Parents seeking reimbursement
“bear the burden of demonstrating that their private
placement was appropriate, even if the IEP was inappropriate.” Gagliardo, 489 F.3d at 112; see M.S. v.
Bd. of Educ., 231 F.3d 96, 104 [2d Cir. 2000]. “Subject
to certain limited exceptions, ‘the same considerations
and criteria that apply in determining whether the
[s]chool [d]istrict’s placement is appropriate should be
considered in determining the appropriateness of the
parents’ placement . . . ’ ” Gagliardo, 489 F.3d at 112;
Frank G. v. Bd. of Educ., 459 F.3d at 364 [2d Cir. 2006]
[quoting Rowley, 458 U.S. at 207 and identifying exceptions]. Parents need not show that the placement
provides every special service necessary to maximize
the student’s potential. Frank G., 459 F.3d at 36465.
The Second Circuit has set forth the standard for
determining whether parents have carried their
burden of demonstrating the appropriateness of their
unilateral placement.

442a
No one factor is necessarily dispositive in
determining whether parents’ unilateral
placement is reasonably calculated to enable
the child to receive educational benefits.
Grades, test scores, and regular advancement
may constitute evidence that a child is receiving educational benefit, but courts assessing the propriety of a unilateral placement
consider the totality of the circumstances in
determining whether that placement reasonably serves a child’s individual needs. To
qualify for reimbursement under the IDEA,
parents need not show that a private placement furnishes every special service necessary to maximize their child’s potential. They
need only demonstrate that the placement
provides educational instruction specially
designed to meet the unique needs of a
handicapped child, supported by such services
as are necessary to permit the child to benefit
from instruction (Gagliardo, 489 F.3d at 112;
see Frank G, 459 F.3d at 364-65).
Based on the circumstances in this case, as discussed
more fully below, I find that the parents have not met
their burden of demonstrating that Northwood provided educational instruction specially designed to
meet the student’s unique educational needs during
the 2011-2012 school year.
The student’s special education needs have been identified throughout the record. The student achieved
high grades, yet consistently was in need of help with
his organizational and study skills. This need was
identified at the 504 meetings as well as at the CSE

443a
meetings. Joint Ex. 53. The student was in need of
counseling to address his significant social-emotional
concerns. T. 1731-1732. The student was in need of
intervention to address his attitude toward school and
somatization issues. The student needed to improve
his ability to cope with and manage stress related to
academics and social situations. The student was
noted to have anxiety. The parent asserted that the
student ‘s needs included placement in a residential
setting and attributed the student’s need for a
residential setting to the need to break the cycle of
school avoidance.
Dr. Williams, the treating psychiatrist, explained in his
testimony and in the report he prepared for the CSE
meeting that the student had extensive medical testing that resulted with no finding of an organic
diagnosis for the student’s severe headaches. This
result, coupled with the “chronological correlation with
school times, as well as with indications of schoolrelated anxiety, have raised the question of stressinduced psychogenic contributants to the physical
symptoms.” Joint Ex. 50a.
Dr. Williams added:
The relatively prompt cessation of [the
student’s] headaches with the end of classes
in June 2011, together with other atypical
features of his headache pattern, are strongly
suggestive of the major role of anxiety and
school avoidance in the evolution and persistence of the headaches. Furthermore, aside
from [the student’s] intrinsic vulnerability to

444a
anxiety, there are indications of social anxiety
with peers. The fact that these disabling
headaches resisted rather sustained efforts at
neurological, psychiatric and antibiotic treatment over the past academic year, suggests
that there are features of [the student’s] complex neuropsychiatric condition that make it
inadvisable for him to continue his education
at this time within the local public school
system.
Joint Ex. 50a-1. Dr. Williams concluded that based on
his findings, “it is highly advisable to shift [the
student] to a smaller environment, with small classes,
where he can receive both supportive counseling and
educational services that enable him to return to
normal social and educational functioning. Insofar as
the existing family dynamics have inadvertently
predisposed to and tolerated the now chronic pattern
of [the student’s] school avoidance, despite efforts at
ongoing psychotherapy, I believe that school placement
away from home is advisable.” Id. Dr. Williams also
stated that the student will require neurological,
medical and psychiatric follow-up. Id.
Dr. Robins, the student’s psychologist, explained his
views of the student’s needs and an appropriate
placement in a letter to the CSE as well. Dr. Robins
echoed Dr. Williams’s view that the medical doctors
who have evaluated the student agree that he has “a
biological propensity to get migraine headaches” which
are “partly triggered by and exacerbated by both
physiological and emotional stresses. . . .” Joint Ex. 512. Dr. Robins agreed that the pattern of the student

445a
having headaches primarily on school days and less
frequently on weekend or vacations suggested that
“stress from school was a major contributor to his
problem, as he himself had suggested. . . .” Joint Ex.
51-2.
Regarding the type of school placement Dr. Robins
recommended, he wrote:
. . . it is unlikely that [the student] will
succeed in the 9th grade if he continues in the
mainstream public school system. . . . His
medical/emotional disability, which could
easily be classified as Other Health Impaired,
demands a small, individualized learning
environment that reduces stress and supports
his emotional development. He needs a
clearly structured day (including evenings) and
the ongoing provision of support from teachers
and staff that can focus on his unique
needs. . . . Additionally, living away from
home can help him from falling back into old
habits and can provide him with greater
opportunities for the type of outdoor activities
in which he has thrived.
Joint Ex. 51-2. Dr. Robins testified that he recommended a smaller school environment because the
student was “finding himself overwhelmed with social
demands and with just sort of the sheer number of
people that he was sharing his classes with.” Tr. 1056.
Dr. Robins explained that a smaller school environment would allow the teachers to get to know him
better and allow him to sort of feel more comfortable
and less overwhelmed by social pressures.” Id. Dr.

446a
Robins testified that an individualized learning
environment would benefit the student, “particularly if
he had a headache, he would fall behind and become
quite anxious about being behind and a more
individualized learning environment would allow him
to pick up right where he left off rather than—or I
suppose to get some fill in the gap kind of meetings
with staff rather than having to jump back in and
figure out what he had been missing over the past few
days.” Tr. 1057, see also Tr. 1114. Dr. Robins believed
that a more structured environment would benefit the
student because the student specifically stated that
“he would like a more structured environment; that he
thought that going to a place where homework time
was structured and monitored by adults who could be
there to help that were not parents involved in his
work, he felt that was wonderful.” Tr. 1057. Since Dr.
Robins agreed with the student’s assessment on the
benefit of the structured homework time he supported
that factor. Id. With respect to the benefit to the
student of placement away from home, Dr. Robins
testified: “I never had a great handle on the dynamics
at home that may have been reinforcing headaches,
but I know that when the student was away at camp,
he liked to be independent and I understood there
could be some dynamics at home that were somehow
reinforcing or not minimizing or reducing the
frequency of headaches.” Tr. 1057-1058, see also Tr.
1116-1117. Dr. Robins thought that a placement with
outdoor activities would be a benefit to the student
because they are therapeutic for the student and
boosted his self esteem. Tr. 1058.

447a
Upon visiting Northwood, the parents viewed it as “a
perfect fit.” Tr. 1805. The student’s mother’s described
her understanding as to the special services Northwood would provide as a “therapeutic environment
without being overtly therapeutic.” The student did
not qualify for a therapeutic residential program
because he did not have needs that would qualify him
for that. Tr. 1806. The parent attributed the student’s
need for a residential setting to the need to break the
cycle of school avoidance he was in that was caused by
the district’s failure to provide appropriate services.
The student’s mother explained: “Therapeutic boarding school that was for just students with disabilities
would not have been appropriate for [the student] but
Northwood is different, he is with all non-disabled
peers.” Tr. 1822-1823. The parent also noted that the
around the clock nursing care is essential to the
student. Tr. 1826.
The parents presented one witness from Northwood,
Donald Mellor, an English teacher and school counselor. Tr. 1550. Mr. Mellor described Northwood as a
college preparatory school with a heavy emphasis on
physical activity. Tr. 1581. Mr. Mellor stated that
Northwood’s mission statement is “to grow young
people so they can have opportunities for later in life,
with the philosophy “in a friendly, supportive candid
community where there won’t be a lot of judgment and
where kids won’t be ostracized and where they can
speak eye to eye with good adults, then they grow, they
just blossom and that isn’t spelled out anywhere but
I think we all share it.” Tr. 1554. Northwood’s core

448a
values are responsibility, compassion, courage, integrity and respect. Tr. 1554. Mr. Mellor stated that the
activities to instill these values in the student are the
formal sports program which for the student was rock
climbing with Mr. Mellor in the fall and recreational
skiing in the winter, in a less structured format. Tr.
1555-1556.
Mr. Mellor explained that volunteer
community service work also helped the student to
grow. Tr. 1556-1557.
Mr. Mellor testified that Northwood has 172-173
students enrolled for the 2011-2012 school year. The
school serves grades nine through twelve. Tr. 1788.
The school is mainly in one building in an isolated
setting. The 9th grade has twenty students. Tr. 1560.
There are nine to twelve students per class.
Mr. Mellor testified that Northwood accepts students
“based on what we feel is a good fit and a likelihood of
success.” Tr. 1552. Mr. Mellor testified that the
admissions materials included the parents’ explanations and documentation of the student’s struggles in
school as well as specific recommendations from school
teachers. Mr. Mellor noted that the student’s “intellect
was going to be sufficient”, but the school was
uncertain about whether the student’s headaches were
going to be an issue. Tr. 1560-1561.
Mr. Mellor testified that the admissions information
assisted in the process of selecting the student’s
advisor, Ingrid Van Slyke, the school nurse. Tr. 1561.
Mr. Mellor explained that the role of the advisor is
“pretty loose, we want to make sure no student is left

449a
alone.” Tr. 1574. The advisor is an initial contact for
the parents and an individual who the parents can
contact. Tr. 1574. Mr. Mellor elaborated: “It’s just it’s
a little bit of a firewall to make sure that every kid has
some adult eyes on him or her.” Tr. 1575. The advisor
does not provide any formal academic support. “It’s not
a huge part of a student’s life.” Tr. 1785.
Northwood has a second school nurse, Karen Fleming,
who lives on the same floor as the student. Tr. 15611562. Mr. Mellor testified that the nurses monitor the
student. Tr. 1573. Generally speaking, the teachers fill
out a form and sign it each time a student takes
medication, the nurses collect the sheet and keep a
chart, and “keep the parents generally informed as to
how it’s going.” Tr. 1573-1574.
Mr. Mellor testified that at Northwood, John Spear
drafted an accommodation plan for the student. Tr.
1562; Parent Ex. MM. Mr. Mellor recollected “it as
being more academic about extended time and preferential seating.” Tr. 1563. Mr. Mellor recalled that he
was “most interested” in the “regular counseling” and
as a staff they were “going to keep an eye on the
headaches, talk about that as an alert.” Tr. 1563. Mr.
Mellor testified that many students’ accommodation
plans and IEPs are satisfied by the nature of
Northwood’s “regular offering[s].” Tr. 1790-1791. Mr.
Mellor testified that Northwood is not a therapeutic
school, but Northwood happens to have all of the
factors that go into a therapeutic school: “honesty,

450a
predictable cause/effect patterns, integration into
social groups, learning one’s role as part of a larger
community bigger than one’s self.” Tr. 1581.
Mr. Mellor testified that he provided regular
counseling to the student. Tr. 1563-1564, Tr. 1791. Mr.
Mellor described the counseling as “very structured”,
initially. Mr. Mellor explained that he was asked by
the parents for weekly conversations. Mr. Mellor
informed the parents that he was not going to provide
therapy since he is “a coach” or “a counselor”. Tr. 1564.
During the first marking period Mr. Mellor stated that
his “guess” was that he met with the student on five
Tuesdays, and each of them forgot an appointment on
two other weeks. Tr. 1564. Subsequently, Mr. Mellor
stated that he “let that become much less formalized.”
Id. Mr. Mellor stopped down to the student’s room
“frequently” and chatted with the student, had lunch
with him or walked a trail on the way to a cliff, as Mr.
Mellor “judged the need.” Id. Mr. Mellor testified that
these types of meetings occur at least on a weekly
basis. Tr. 1792. Mr. Mellor testified that the counseling
has “gone well and more superficial” than Mr. Mellor
had expected. Tr. 1572. He added that he was not sure
“if this is what his parents were expecting, I want him
to succeed here and if he is not manifesting problems,
I am not going to continue to remind children that, oh,
let me remind you, let’s talk about those problems you
used to have. I talked about how is it going today. So
they are shallower than I thought they would be. . . .”
Tr. 1572-1573. Mr. Mellor testified that there is no

451a
consulting psychiatrist or psychologist on staff. Tr.
1774-1775.
Mr. Mellor testified about the class schedules. The fall
structure is: optional breakfast from 6:45 to 7:15;
classes from 7:45 through 1:30 am; lunch; followed by
classes until 2:30 pm. Sporting activities run until
5:00 or 5:30 pm, followed by mandatory dinnertime,
followed by two hours of supervised dorm study13 with
teachers monitoring the students’ behaviors, then an
hour of free time followed by a 10:45 time for lights out.
Tr. 1576-1577. Additionally, the lower grades have a
supervised structured study hall for one period a day,
13

Mr. Mellor later described a two hour supervised study
period during which the student must put all electronic equipment outside of their rooms. Tr. 1782-1783. Mr. Mellor described
a smaller group of students who were placed in a separate
supervised room during this two hour period because they
required “an adult staring at them while they used that time.” Tr.
1783. Mr. Mellor did not think that the student had been elected
to that smaller group in the fall. Tr. 1783. Mr. Mellor did not
know whether he received an e-mail dated February 9, 2012, on
which he is listed as a recipient, from Anne Edwards, announcing
the cancellation of “evening supervised study hall/bullpen for
students who are weak academically.” Parent Ex. SS-2; Tr. 17711772. The e-mail indicates that the student is one of several
students who as of the date of the e-mail is now to be assigned to
the library during his free period. Parent Ex. SS-2, SS-3. The
theory behind the change is to provide these students “the
attention they need from the study hall monitor, learn study
skills, how to manage their time, and also, get extra help from the
teachers who are free when those students are in the library.
Parent Ex. SS-2. Mr. Mellor stated that he presumed that the
student was assigned to the library during his free period because
Mr. Mellor understood that all freshman and sophomores,
regardless of their academic success, were assigned to the library.
Tr. 1773.

452a
during their free period, where they have support from
two teachers who check in on the students’ planners,
organization of their work and content. Tr. 1559, 17831784.
Mr. Mellor testified that the student is “doing okay”,
with “a little ragged edge here and there” academically.
Tr. 1568. Mr. Mellor elaborated: “ . . . I think he is
probably above average in the freshman class but in
need of a little discipline academically.” Tr. 1568. Mr.
Mellor stated that Northwood would provide that discipline once a student looks like they are comfortable.
“He has got some organizational issues and we increase our demands every year steadily.” Tr. 15681569. Mr. Mellor testified that he has spoken to the
student’s teachers regarding the student’s organizational issues during informal encounters, when in
keeping with the culture of the school, the teachers
routinely and regularly share each others’ observations. Tr. 1750-1751. Mr. Mellor did not recollect any
formal conversations with the students’ teachers about
how the student could improve his organizational
skills. Tr. 1767-1768.
Mr. Mellor could not answer whether the student has
progressed academically. Tr. 1579. Mr. Mellor testified
that he could not “give you empirical data” with respect
to whether the student has benefited academically
from being at Northwood. Mr. Mellor stated that he
trusts that “the barrage of homework and the constant
daily supervision and the two-hour study hall are
“gaining traction” and he hasn’t “heard otherwise”. Tr.
1581-1582. Mr. Mellor testified that he believed that

453a
he observed the student, informally, just in an English
class. Tr. 1750.
Mr. Mellor was aware that the student’s grades in
World Culture and Spanish are his two lower grades.
Mr. Mellor stated that he does not know the teachers’
particular comments without being able to reference
the reports. Tr. 1757-1758. He was not aware that the
student was absent on two quiz days from World
Cultures class. Tr. 1761-1762.
According to the second quarter report, the student’s
World Cultures teacher stated that “The issues lie with
his diligence in his class work preparation. Twice he
was ill on quiz days, and was very lackadaisical about
making them up. Of the quizzes and tests he
completed, he received a 14% on one and a C plus on
the recent test on India. I understand that [the student] gets stressed out by the pressure of work, but
that does not release him from his responsibilities.”
Parent Ex. TT-3. The student’s second quarter grade
dropped from a C plus to a C and his effort dropped
from a “Good” rating to “Fair”. Parent Ex. TT-2.
On the second marking period report card, the student’s Spanish teacher wrote: “[T]he student has not
worked hard to improve during the second quarter in
Spanish II. A considerable amount of homework
assignments (5) were either missing or incomplete
during the quarter.” Parent Ex. TT-1. He finished the
quarter with a C plus and semester grade of C.
The student’s science teacher noted that the student
“has a great mind for science”. Parent Ex. TT-2. The

454a
teacher also noted that the student’s “disorganization
resulted in 2 late and 1 missing homework assignments this quarter.” Id. The student maintained a B
plus average from the first quarter.
In Geometry the student’s teacher noted that the
student is “one of the top students in the class.” Parent
Ex. TT-2. The teacher wrote that the student is “the
most active participant in class discussion and he
shows a genuine interest in the topics that we are
studying.” Parent Ex. TT-2. The student earned a
quarter grade of A-, down from an A the first quarter,
with a semester grade of A-. The lower grade appears
to be due to a B– on the midterm exam, a grade the
teacher noted “was a bit of a disappointment”. Id.
Mr. Mellor testified that the student is doing “really
well” with his peers based on his own observations as
well as those of the student’s teachers and North wood
administrators. Tr. 1566-1567.
Mr. Mellor testified that he does not know if the
student has difficulty handing in assignments on time
or keeping track of his papers. Tr. 1765. Mr. Mellor
has not heard that the student has difficulty coming to
class prepared for the day. Id.
The student’s mother testified about the student’s
progress. “His health is virtually 100 percent improved. He has had three to four migraines during the
year after having 120 days of migraines in the past
school year, it’s an amazing improvement. He is now
off his anti-migraine medication. He is off the
Depakote, he is off the Amitriptyline. He is still on the

455a
Zoloft but I think in consultation with Dr. Williams he
will be able to be off that by the end of the year. He is
feeling great and his health is much improved.” Tr.
1814-1815. Academically, the student’s mother highlighted the fact that the student has missed only three
to four days of school, is passing every class and
believes that the student is doing “astoundingly well”
given the amount of school he missed last year. Tr.
1814-1815.
The student’s mother acknowledged
variability in the student’s grades, but emphasized
that this year the greater concern is that the student
attend class and learn. Tr. 18115-1816. The student’s
mother acknowledged that there is some concern about
the student’s organization and his ability to turn in
assignments, but that she has been in contact with the
teachers to address it. Tr. 1815. Socially, the student
is integrated in the class and has “a very supportive
peer group.” Tr. 1821-1822. The student’s attitude
toward school now is “much improved” as shown by the
student talking about his work, he does his work, he is
passing his classes. Tr. 1823-1824.
The parents asked Dr. Robins to administer the BASC2 to the student both as a measure of his status and in
preparation for this hearing. Dr. Robins administered
the BASC-2 to the student only on February 13, 2012.
Tr. 1444; Parent Ex. HH. Dr. Robins believed the test
results provide an accurate reflection of the student at
the time. Tr. 1445. The test showed no clinically
significant or at risk scores. Tr. 1448.
A test result that stood out to Dr. Robins was the
student’s T score of 42, “at the low end of average

456a
suggesting he has a very good attitude to school,
positive adjustment to school”, as compared to that
same score on the student’s BASC-2 taken in May
2010, when his T score was 63, in the at risk range.
This “two standard deviation drop in his score . . .
suggests a significant level of change in his attitude to
school and that level of change is for the better.” Tr.
1451. In speaking with the student Dr. Robins
understands that the change is attributable to the
student feeling much more comfortable at this school,
able to learn in an environment that is much more
tailored to his needs and that he is being challenged
but receives the support that he needs. Dr. Robins
believes that attending Northwood “has made a world
of difference for him.” Tr. 1462.
From the test results, Dr. Robins concluded that there
are no pressing emotional concerns since all of the
student’s scaled scores or T scores are within the
average range. Tr. 1465.
Based on the circumstances in this case, I find that the
parents have not met their burden of demonstrating
that Northwood provided educational instruction
specially designed to meet the student’s identified
special education needs during the 2011-2012 school
year. As a result, the program cannot be found to be
appropriate for the student under the IDEIA. Although
the parents advocate that the student’s counseling is
designed to meet his specific needs, the only element of
the counseling that appears to be so is the lessstructured format of checking in with the student in a
more natural way or on his turf. The weight of the

457a
testimony about the student’s needs speaks to the
physiological and emotional stressors, as well as
anxiety about social interactions that trigger the
student’s migraines. While the student is not reported
to be suffering from more than the very infrequent
migraine, there is no evidence that any of his underlying emotional issues have been addressed or that Mr.
Mellor even is familiar with them. Mr. Mellor did not
offer any testimony about the student’s emotional or
counseling related needs. Notably there is no psychologist or psychiatrist on staff.
Similarly, the student continues to exhibit issues pertaining to organization issues and study skills. There
is no evidence in the record to show that any of the
teachers or Mr. Mellor is addressing these needs. Mr.
Mellor was not even aware of the degree of impact
these issues were having on the student’s academic
performance.
Although the record shows that the student is attending class, achieving average to excellent grades, and
has positive peer relationships, Northwood School does
not provide the student with any instruction or
services specific to this student or his special education
needs. While the parents determined that Northwood
was the right school for the student to address his
needs, and made this decision as loving and responsible parents, the District is not responsible for
reimbursing the parents for this type of program.

458a
Equitable Considerations
With respect to the equities in this case, although I am
not required to weigh them in light of finding that the
Northwood School does not meet the criteria for
reimbursement under the IDEIA, it must be noted that
the parents fully cooperated with the District and the
CSE process. The parents were in frequent and regular communication with the student’s school and District personnel. The parents provided all necessary
documentation. As discussed above, the record supports the finding that the parents did not thwart the
District’s evaluation of the student because the
student made it nearly impossible to get him go to the
psychiatrist at school or the psychiatrist’s office. The
parents also were active participants in the Section
504 meetings and the CSE meetings.
The District argues that once the student decided that
he wanted to go to Northwood, the parents had no
intention of sending the student anywhere else. The
record supports the finding that the parents hoped
that the student could go to Northwood, but that they
lived with very real uncertainty about whether the
student would be able to go and wanted an appropriate
placement from the District. The parents were open to
a recommendation from the District and followed up
on two proposed placements. The district argued that
the parents refused to bring the student to the potential placements, yet there was no evidence in the record
that the parents were asked to bring him and that they
refused. The District has not yet recommended a
placement or completed the student’s IEP. Tr. 404

459a
Section 504 Claim
The parents claimed that the District violated Section
504 of the Rehabilitation Act during the 2010-2011
school year.
Section 504 provides that [n]o otherwise qualified
individual with a disability in the United States . . .
shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the
benefits of, or be subject to discrimination under any
program or activity receiving Federal financial
assistance.” 20 U.S.C. Sec. 794(a).
In order to prove a violation of the Rehabilitation Act,
a plaintiff must show that “(1) he is an individual with
a disability; (2) he is otherwise qualified to participate
in a particular program; (3) he was denied that
participation based upon his disability; and (4) the
program receives federal funds.” 20 U.S.C. Sec. 794(a).
A recent Southern District of New York case discussed
the standard for a Section 504 claim brought in
conjunction with an IDEA claim. In C.L. Ex rel C.L. v.
Scarsdale Union Free School District, the court found
that:
A plaintiff may assert a Section 504 claim in
conjunction with an IDEA claim on the theory
that she has been denied access to a free
appropriate education, as compared to the
free appropriate education non-disabled
students receive”; in so doing, however, the
plaintiff must show that “defendants acted

460a
with bad faith or gross misjudgment in the
administration of disability services.”
2012 WL 983371 at *8.
Given my finding that for a portion of the 2010-2011
school year the District failed to provide the student
with a FAPE, the parents have shown that the student
meets the criteria to establish a prima facie claim
under Section 504, however, the record does not support a finding that the District acted with the requisite
bad faith or gross misjudgment in the administration
of disability services.
Despite the failure of the District to timely identify the
student for IDEIA purposes during the 2010-2011
school year, the record reflects that the Blue Mountain
Middle School teams, Section 504 Committees and
CSE, intended to act in the interest in the student, held
meetings to address his needs, were in frequent contact with the parents about how to help the student
keep up with his work, developed a 504 plan, and
provided accommodations. The accommodations proved
to be ineffective to address the student’s needs, but
there is no evidence that the District personnel acted
with bad faith or gross misjudgment. The parents
allege bad faith on the part of the District because the
student did not receive counseling and in the administration of the student’s home tutoring. In the context
of the student’s frequent absences, the sometimes
understandably conflicting messages from the parents
and his debilitated condition when he was at home
with migraines, the District’s actions or inaction are

461a
not found to be taken with bad faith or gross misjudgment.
Accordingly, the parents’ Section 504 claim is dismissed.
ORDER
For all of the above reasons, it is hereby ordered that:
1. The Hendrick Hudson School District denied the
student a FAPE for a portion of the 2010-2011 school
year;
2. The parents are entitled to reimbursement for Dr.
Williams’s psychiatric sessions with the student from
May 18, 2011 up until the date of his report, August 11,
2011, upon presentation of proof of those services and
of payment;
3. The parents are entitled to reimbursement for the
five sessions documented in Dr. Robins letter dated
August 19, 2011, upon presentation of proof of those
services and of payment;
4. The student is entitled to fifteen hours of
counseling at District expense;
5. The Hendrick Hudson School District denied the
student a FAPE for the 2011-2012 school year;
6. The parents’ request for tuition reimbursement is
denied; and

462a
7. The parents’ Section 504 claim for the 2010-2011
school year is dismissed.
Dated: May 30, 2012
(Corrected June 21, 2012)
___________________________________
Lana S. Flame, Esq.
Impartial Hearing Officer

463a
Individuals with Disabilities Education Act
20 U.S.C. § 1412
§ 1412. State eligibility
*

*

*

20 U.S.C. § 1412(a)(10)(c)
(C) Payment for education of children enrolled
in private schools without consent of or referral
by the public agency
(i)

In general

Subject to subparagraph (A), this subchapter does
not require a local educational agency to pay for
the cost of education, including special education
and related services, of a child with a disability at
a private school or facility if that agency made a
free appropriate pub lic education available to the
child and the parents elected to place the child in
such private school or facility.
(ii) Reimbursement
placement

for

private

school

If the parents of a child with a disability, who previously received special education and related services under the authority of a public agency, enroll
the child in a private elementary school or secondary school without the consent of or referral by the
public agency, a court or a hearing officer may require the agency to reimburse the parents for the
cost of that enrollment if the court or hearing officer finds that the agency had not made a free

464a
appropriate public education available to the child
in a timely manner prior to that enrollment.
(iii)

Limitation on reimbursement

The cost of reimbursement described in clause (ii)
may be reduced or denied –
(I)

if –
(aa) at the most recent IEP meeting
that the parents attended prior to removal of the child from the public school,
the parents did not inform the IEP Team
that they were rejecting the placement
proposed by the public agency to provide
a free appropriate public education to
their child, including stating their concerns and their intent to enroll their child
in a private school at public expense; or
(bb) 10 business days (including any
holidays that occur on a business day)
prior to the removal of the child from the
public school, the parents did not give
written notice to the public agency of the
information described in item (aa);

(II) if, prior to the parents’ removal of the
child from the public school, the public agency
informed the parents, through the notice requirements described in section 1415(b)(3) of
this title, of its intent to evaluate the child (including a statement of the purpose of the evaluation that was appropriate and reasonable),
but the parents did not make the child available for such evaluation; or

465a
(III) upon a judicial finding of unreasonableness with respect to actions taken by the parents.
(iv)

Exception

Notwithstanding the notice requirement in clause
(iii)(I), the cost of reimbursement –
(I) shall not be reduced or denied for failure
to provide such notice if –
(aa) the school prevented the parent
from providing such notice;
(bb) the parents had not received notice,
pursuant to section 1415 of this title, of
the notice requirement in clause (iii)(I); or
(cc) compliance with clause (iii)(I) would
likely result in physical harm to the child;
and
(II) may, in the discretion of a court or a
hearing officer, not be reduced or denied for
failure to provide such notice if –
(aa) the parent is illiterate or cannot
write in English; or
(bb) compliance with clause (iii)(I)
would likely result in serious emotional
harm to the child.
*

*

*

